<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




                 DEPARTMENTS OF LABOR, HEALTH AND HUMAN

               SERVICES, EDUCATION, AND RELATED AGENCIES

                        APPROPRIATIONS FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES
                      RALPH REGULA, Ohio, Chairman
 C. W. BILL YOUNG, Florida           DAVID R. OBEY, Wisconsin
 ERNEST J. ISTOOK, Jr., Oklahoma     STENY H. HOYER, Maryland
 DAN MILLER, Florida                 NANCY PELOSI, California
 ROGER F. WICKER, Mississippi        NITA M. LOWEY, New York
 ANNE M. NORTHUP, Kentucky           ROSA L. DeLAURO, Connecticut
 RANDY ``DUKE'' CUNNINGHAM,          JESSE L. JACKSON, Jr., Illinois
California                           PATRICK J. KENNEDY, Rhode Island
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 DON SHERWOOD, Pennsylvania         
                                    
                   
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
      Craig Higgins, Susan Quantius, Susan Ross Firth, Meg Snyder,
             and Francine Mack-Salvador, Subcommittee Staff
                                ________
                                 PART 5

                         DEPARTMENT OF EDUCATION
                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 80-982                     WASHINGTON : 2002

                                  COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)
                                                                      

                                                                      
                                     
                                     
                                     

                        DEPARTMENT OF EDUCATION

Secretary of Education

Panel:  No Child Left Behind
            Elementary and Secretary Education

Panel:  Foundations for Learning
            Elementary and Secondary Education
            Educational Research and Improvement
            Special Education and Rehabilitative Services
            Administration for Children and Families

Panel:  Teacher Recruitment, Preparation and
          Development
            Elementary and Secondary Education
            Educational Research and Improvement
            Postsecondary Education
            English Language Acquisition

Panel:  Transition into the Workforce
            Vocational and Adult Education
            Special Education and Rehabilitative Services
            Postsecondary Education
            Educational Research and Improvement

                                 (iii)



 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2003

                              ----------                              

                                         Wednesday, April 10, 2002.

                        DEPARTMENT OF EDUCATION

                               WITNESSES

ROD PAIGE, SECRETARY OF EDUCATION
WILLIAM HANSEN, DEPUTY SECRETARY
THOMAS SKELLY, DIRECTOR, BUDGET SERVICE

                       Chairman's Opening Remarks

    Mr. Regula. Okay. We will get started here this morning, 
and, Mr. Secretary, we are happy to welcome you and Mr. Hansen 
and Mr. Skelly, and we look forward to enlightenment this 
morning on how we can meet perhaps what is the most important 
challenge to the American people. I read the other day in a 
poll that people said education is the number one concern that 
they have, and so we collectively--your leadership and our 
support--have quite a challenge out there.
    So, Mr. Secretary, we will look forward to your statement. 
We will put your full statement in the record, and you can 
summarize for us as you choose.

                    Secretary's Introductory Remarks

    Secretary Paige. Mr. Chairman and members of the committee, 
thank you for this opportunity to testify on behalf of 
President Bush's 2003 budget for the U.S. Department of 
Education.


                    NO CHILD LEFT BEHIND ACT OF 2001


    I want to begin by once again thanking the members of this 
committee, along with your colleagues in the House, for your 
hard work and many contributions to securing passage of the No 
Child Left Behind Act of 2001, which the President signed into 
law in early January.
    I take it as a vote of confidence, in the new law and in 
the Department's ability to carry out that law, that the 
Congress followed up its approval of the No Child Left Behind 
Act by providing a $6.7 billion increase for the Department in 
the fiscal year 2002. This was the largest of a series of 
increases that have more than doubled the Department's 
discretionary budget since fiscal year 1996. These new 
resources, which will be available for the school year 
beginning this fall, will help States, school districts, and 
schools implement the No Child Left Behind Act as expeditiously 
as possible.


                    FY 2003 EDUCATION BUDGET REQUEST


    For fiscal year 2003, the President's budget was driven by 
the overriding concern of defending our Nation and people from 
the threat of terrorism following the terrible events of 
September the 11th. Most of the new resources in the 
President's proposal for 2003 are dedicated to the Defense 
Department, which continues to wage war against terrorism 
outside our borders, and to Homeland Security for efforts to 
help our States and communities prevent and prepare for new 
attacks on our freedom.
    Nevertheless, our 2003 budget for education builds on the 
major increases provided in recent years and gives States and 
school districts the resources they need to implement the 
changes called for in the No Child Left Behind Act. The request 
would provide $50.3 billion in discretionary appropriations, an 
increase of $1.4 billion, or 2.8 percent, over 2002 level. With 
this increase, the Federal investment in education will have 
climbed nearly $15 billion, or 41 percent, over the past 3 
years.


                        NO CHILD LEFT BEHIND ACT


    I have emphasized the very significant increase provided by 
this committee for the Department in recent years to make the 
larger point about President Bush's strategy for investing in 
education. For this Administration the No Child Left Behind Act 
was not just about how much we spend at the Federal level on 
education, but rather about how to increase the return on that 
investment. We have little to show, for example, for the nearly 
$190 billion we have already invested in the Elementary and 
Secondary Education Act since 1965.
    Dramatic growth in State and local funding for elementary 
and secondary education the past decade also has failed to 
significantly close the achievement gap for poor and minority 
students, or even to raise overall student achievement in any 
meaningful way. Increased funding may be one answer, but it is 
clearly not the only answer for our education problems.
    In addition, while we all agree on the importance and 
promise of programs like Title I Grants to Local Educational 
Agencies, that is simply not the case for every program 
reauthorized in the No Child Left Behind Act. Many of the 
smaller ESEA programs are redundant, serving the same purposes 
and populations as larger, more flexible programs, while others 
do not appear to actually work and still others have already 
achieved their original purpose or are just too small to have a 
national impact on schools.

                      LEVERAGING FEDERAL RESOURCES

    These realities gave us some clear guidelines for 
responding to the dramatically different budget perspectives 
resulting from the combination of September 11th and decline in 
economic performance. First, we believe that the No Child Left 
Behind Act provided a real opportunity to leverage existing 
Federal education resources already in the pipeline following 
the large increases of recent years. Funding decisions should 
be based on the principles that drove the No Child Left Behind 
Act, including increased accountability, greater choice for 
parents and students, particularly those from low-income 
backgrounds who attend low performance schools, more 
flexibility for States and school districts and a stronger 
emphasis on teaching methods grounded in scientifically based 
research, especially in teaching our children to read.

                      TARGETING FEDERAL RESOURCES

    Second, we remain committed to targeting Federal education 
dollars to poor and minority students and others who are most 
likely to be left behind by our education system. One way to do 
this would be to redirect resources from narrow categorical 
programs to more flexible formula grant programs that better 
focus on the student and schools with the greatest need for 
assistance.
    The results of these guidelines is a fairly straightforward 
budget request that we believe provides effective support for 
turning the vision reflected in the No Child Left Behind Act 
into the reality of better schools and improved student 
achievement.

                  FY 2003 EDUCATION BUDGET PRIORITIES

    We are proposing significant increases for Title I Grants 
to Local Educational Agencies, Special Education Grants to 
States, and Pell Grants. Other priorities include major 
increases for the research-based Reading First Program and for 
further research to develop and disseminate proven education 
practices.
    We would maintain funding for large flexible State grant 
programs, such as Improving Teacher Quality State grants, which 
have received big increases in recent years. The request would 
consolidate and eliminate many smaller and less flexible 
categorical grants which in nearly every case could be 
continued at the discretion of the State and local authorities 
under other authorities.
    These are rough times for those charged with preparing a 
responsible Federal budget, and they demand tough choices. I 
believe the President's 2003 budget made those tough choices in 
a way that is fully consistent with the No Child Left Behind 
Act. I hope you will seriously consider our proposal, and I 
would be happy to answer any questions that you have. Mr. 
Chairman and members of the committee, I am joined by the 
Deputy Secretary of Education Bill Hansen and by Tom Skelly, 
Director of the Budget Service.
    [The statement of Secretary Paige follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                RETURN EXPECTED FROM FEDERAL INVESTMENT

    Mr. Regula. Well, thank you very much. I just have one or 
two questions, because we have busy subcommittee members, and I 
want to give them all a chance. I would also say to the members 
we will try to stay to the 5-minute rule this morning so that 
everybody gets an opportunity and then there will be a second 
round.
    I was struck by something you said, and that is that we 
have little to show for great expenditures over the last, what, 
20 years, both State and local. And I guess what we don't want 
to do is make a mistake of funding things that your successor 
20 years from now will say the same thing about, because we 
want to get results, and that is where your leadership will 
count.
    Secretary Paige. We are very concerned about results. We 
understand the Federal resources to be investments for which we 
expect returns. Our comment results from test scores like what 
is reflected by this chart. The red line is the age 9 NAEP 
reading scores. But this could be a chart for math or any other 
subject. We just chose this one to illustrate this. And we can 
see the flat line from 1984 through 1999. The blue represents 
the Federal funding. This is Federal funding only--specifically 
ESEA funding. If we would show this chart on reading scores 
using local and State funding as well, this would be an even 
more spectacular difference. Our goal is to link these two 
things to make sure that the Federal funding also pulls this 
flat line of test scores in the same upward direction.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                     PRIORITIZING EDUCATION FUNDING

    Mr. Regula. That is a terrific challenge, which leads me to 
my second question. That is we would like to work with your 
Department and maybe in the wisdom of the committee make some 
changes or adjustments in the allocation of funds; i.e., for 
example, from Title I to teacher quality improvement. Do you 
feel that that can be accomplished because, you know, different 
things work?
    Secretary Paige. We are eager to hear your ideas, Mr. 
Chairman, and to work with you on those.
    Mr. Regula. Well, we will have a few.
    Mr. Obey.

                        NO CHILD LEFT BEHIND ACT

    Mr. Obey. Mr. Chairman, I don't think I am going to ask any 
questions in 5 minutes. I think I am just going to make a few 
observations. I assume, Mr. Secretary, that the Administration 
feels that with the passage of the No Child Left Behind Act 
that we now have these programs aligned in such a manner that 
we have a better chance than we had before of actually 
producing results with the dollars that are spent. In fact, 
that is essentially what you said in your opening statement.
    My problem is when I look at this budget I see just the 
opposite. What I see here is a prescription for benign neglect, 
if I can borrow a phrase from Pat Moynihan from another 
generation on another issue. We have had annual increases 
averaging about 13 to 14 percent over the past 5 years in 
education funding. Now that we have these programs aligned the 
way the Administration says it largely wants them, we see that 
average 5-year annual increase cut back to less than 3 percent 
and, in real terms, there is no increase in this budget 
overall. This budget was prepared last year. Since then we have 
had an economic tsunami hit many States.

             DEFICIT BUDGETS IN STATES--IMPACT ON EDUCATION

    New Jersey, for instance, I am told is going to have a $6 
billion deficit over the next 3 years. Wisconsin has a $1.1 
billion deficit. There are at least 37 States that have 
deficits large enough to require repair by their State 
legislatures. Yet, the Federal Government, having now marched 
all over the country in signing ceremonies to brag about what 
we have done to get these programs shaped up, is now creating, 
in my view, the mother of all mandates with very little 
resources to help States attack the challenges presented to 
them by this new bill.

                        NEW FEDERAL REQUIREMENTS

    We require all kinds of new actions to be taken by States. 
We require new standards for teachers. We require all kinds of 
testing, and yet we provide very little by way of resources to 
back it up. Most States are facing a squeeze that is going to 
require them to actually cut back on funding, and that doesn't 
apply just to elementary and secondary education. I have just 
seen the Republican majority in my legislature, for instance, 
recommend substantial reductions in funding for the University 
of Wisconsin, and that is being replicated all over the 
country.

               COST OF IMPLEMENTING NO CHILD LEFT BEHIND

    Do you have any estimate of how much it is going to cost to 
implement all of the requirements and standards of the bill 
that passed with so much acclaim last year?
    Secretary Paige. Do I understand you to ask me if I have an 
idea of implementation cost resulting from----
    Mr. Obey. If we are going to turn the congressional and 
presidential rhetoric into reality, then we have to make 
certain that each of the standards, each of the requirements 
laid out in that bill, whether it is for the required level of 
teacher preparation or the required amount of testing, et 
cetera----
    Secretary Paige. I see.
    Mr. Obey. There is a laundry list. There are at least 17 
different mandates in that bill. What is your estimate of the 
total cost in order to meet those mandates by 2006 or 2007?
    Secretary Paige. I understand the question differently now, 
and I understand the question to mean what will it cost the 
various States and entities that will be implementing these 
regulations and laws.
    Mr. Obey. Whichever level of government foots the bill.
    Secretary Paige. Right.
    Mr. Obey. What is your estimate of the added cost that will 
be incurred?

              IMPLEMENTATION COST A FUNCTION OF MANAGEMENT

    Secretary Paige. The reason that will be difficult, sir, 
for me to answer is that it will be a function of the 
effectiveness of the leadership and the management in the 
implementation process. Many of the entities, well, all of them 
differ, in their efficiency in implementing these acts, and----
    Mr. Obey. But you must have some ballpark estimate.

                             TESTING COSTS

    Secretary Paige. I will give an example about test 
development. The budget has in it $387 million to implement--I 
mean, to construct the test. We think that is actually an 
overfunding of the cost for implementing the test, that is, for 
the development of the test. And if we talk about the actual 
administration of the test, many States and entities have shown 
a cost of as high as 10 or 12 dollars per child to implement 
the test.
    In the Houston Independent School District, where I worked, 
we implemented and administered the Stanford-9 for less than $3 
per student. That is why I say that it is a function of how 
efficient the operation works, and many of the operations need 
a lot of improvement in that category.
    Mr. Obey. Mr. Secretary, I guess I am not going to get an 
answer to my question. We had a lot of rhetoric under the 
Clinton Administration and under the Bush I Administration. 
Both previous administrations promised the Moon in terms of 
what we were going to get in student achievement results over 5 
years, and both of them missed the mark by a country mile. And 
you are going to miss the mark by a country mile with the No 
Child Left Behind Act, unless both the States and the Federal 
Government, along with locals, back up that rhetoric with 
dollars. I don't see those dollars in this budget. So to me, 
not even getting into the fact that your budget is $7 billion 
short of meeting the authorized levels in that bill, I see 
virtually no initiative being made when you aggregate the 
entire budget. I see virtually no overall added initiative on 
the part of the Federal Government to actually share these 
costs.

                ADEQUACY OF BUDGET REQUEST TO FUND NCLB

    So I think if we are serious in keeping this law on the 
books, then Congress is going to be embarrassed if it doesn't 
wind up eliminating the new requirements it has in the rules to 
have a roll call every time we have a new unfunded Federal 
mandate, because this bill is the mother of new mandates 
without much by way of Federal resources to back it up.
    Secretary Paige. Mr. Obey, I think my best answer would be 
that we think that the dollars contained in the President's 
proposed budget adequately fund the activities required for 
under the act.
    Mr. Obey. Well, Mr. Secretary, there couldn't be a more 
clear disagreement between you and me than the one you have 
just defined. I think this budget is woefully inadequate to 
meet the promises. This budget means that the bill that just 
passed the Congress is a business as usual bill, because the 
usual practice in Washington is to make large promises that are 
never backed up with the cash. That happened all the way going 
back to Lyndon Johnson, and I think we are continuing that 
sorry record. There is no need to do that if we actually back 
up those promises with resources. But apparently we are not 
going to do that.
    Secretary Paige. Well, certainly, I thank you and respect 
you for your interest and leadership in this issue. I would 
like to have a lot more discussion with you about these 
differences, but I would like to be judged based on the 
student's achievement growth, and when we come back 2 years 
from now and see this curve pointing in a different direction, 
the dollars that we spend would have produced the results we 
want. But the trend that we have now is the dollars that we are 
spending are not producing the results that we want. So what we 
want to measure is not how much we spend, but how much students 
grow.
    Mr. Obey. Well, it seems strange to me that after fighting 
as hard as you have fought in order to get these programs 
reshaped so that they would produce, you are not now putting 
any bullets in the gun to actually make them work.
    Secretary Paige. But I think I am, Mr. Obey, I really do, 
and would like to talk to you more about that.
    Mr. Obey. My time is up. We are just going to have to agree 
that we have a different perception of how this budget solves 
that problem.
    Thank you, Mr. Chairman.
    Mr. Regula. Well, I think, as you suggest, in a couple 
years you would like to see those lines converged.
    Secretary Paige. Well, I don't know if they will be quite 
converged, but they will be pointing in the same direction. 
They are going to be pointing in the same direction, I promise 
you that.
    Mr. Regula. Mr. Wicker.

                TITLE I--TARGETING AND STATE ALLOCATIONS

    Mr. Wicker. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here. My first question is going to be 
about Title I funding. I notice, Mr. Secretary, that you 
mentioned the importance of targeting the funds to the needy 
districts, and I couldn't help being intrigued with what my 
chairman mentioned about the fact that he might have an idea 
about moving some Title I funds to get teacher quality 
improvement. This is a debate that we expect to have, because 
it is so important. The fact of the matter is that the Title I 
program has grown by 40 percent over the last 5 years, and 
while we are interested in individual students, we do this 
State by State. And unfortunately, my State of Mississippi, 
which has some of the poorest school districts in the Nation, 
did not receive an increase in Title I allocation until last 
year. We estimate that Mississippi will receive a $6 million 
increase in Title I funding this year, in a year when the 
entire funding nationwide is $1.5--the entire increase is $1.5 
billion. Despite receiving our first increase in several years, 
the State with the poorest school districts has actually 
declined in the total amount of Title I dollars from 1.4 
percent of the national total to 1.2 percent of the national 
total.
    I just wondered if you would comment on that, Mr. 
Secretary, or any member of the panel, and also when will the 
Department be releasing the funding data for the upcoming year, 
and what factors will you plan to use to accurately measure the 
changing need of the depressed school districts that we really 
want to target with this program?

                   CENSUS DATA BASIS FOR ALLOCATIONS

    Mr. Skelly. Mr. Wicker, the Title I distributions are 
largely based on data we get from the Census Department. 
Throughout the----
    Mr. Wicker. Do you think you are getting good data when the 
poorest State in the Nation actually gets a smaller amount of 
the pie?
    Mr. Skelly. The data, you know, change every 10 years with 
the census, and they do updates periodically between those 
decades. Throughout the 1990s, the appropriations bill 
contained some language which we call ``hold-harmless,'' which 
basically held States at the same level that they had in 
previous years, even if their percentage share of the number of 
children qualified for Title I services went down in the State. 
So some of this is just catch-up with those years when there 
was that ``hold-harmless'' provision. There has been growth in 
other States in the number of Title I children, eligible 
children, beyond what you have had in Mississippi, I believe. 
The data for this year will come out probably the end of this 
month, April, and we should know more what the distribution 
will be then for Mississippi.
    Mr. Wicker. Okay. Well, I look forward to continuing to 
work with the Department on this, as well as my chairman, to 
make sure that we just target the neediest school districts.
    Mr. Hansen, if you would like to grab the microphone, you 
seem to be wanting to add something to this discussion.

                    TITLE I TARGETED GRANTS PROGRAM

    Mr. Hansen. I just want to highlight the fact that our 
budget increase in Title I is targeted through the Targeted 
Grant formula, and I think this will have a positive effect on 
districts such as yours. So when we get the data out, we would 
be happy to sit with you and discuss this more. But that is our 
priority as well, to make sure that the increase does go to the 
Targeted formula.
    Mr. Wicker. Very good.

            INTERNATIONAL COMPARISONS OF STUDENT PERFORMANCE

    Let me read to this subcommittee some information that we 
often get about the fact that the United States is said to lag 
behind other countries in educational performance. This happens 
to come from the Heritage Foundation, but they are using data 
that they received from international studies by Boston 
College. It says, ``American eighth graders ranked 19th out of 
38 countries on the most recent international mathematics 
comparison, behind countries such as Malaysia, the Russian 
Federation, and Bulgaria. American students scored 18th out of 
38 countries in science on the TIMSS 1995 survey which tested 
12th graders. American students were ranked 19th out of 21 
countries in both math and science general knowledge.''
    Mr. Secretary, if you say that at a teachers' meeting, they 
are likely to charge the podium.
    Secretary Paige. Yes, I had that happen.
    Mr. Wicker. Even if they are your cousins and some of your 
good friends, and they say this data is skewed, that it 
couldn't possibly be correct, because we make such a valiant 
effort in this country in universal education. I just wondered 
if we need to quit using this data; or if it is accurate, is it 
helpful to us, and would you comment on that?
    Secretary Paige. I think we absolutely must continue to use 
those kinds of comparisons so that we can understand what our 
challenge is and where we are. I think there has been 
magnificent effort in past years. I have used reading as an 
example. The Reading Excellence Act spent $300 million a year 
in trying to improve reading, with very little improvement in 
reading. I don't think this was a lack of effort on the part of 
teachers. I think teachers were trying really hard, but the 
pedagogy did not include the appropriate science. It was not 
backed up by the scientific underpinning that could show that 
the methods were the appropriate methods.
    Now we know a lot about teaching reading, and we know the 
science of teaching reading has been good, and so we began to 
see rapid increases in student reading performances because the 
pedagogy has been straightened out, but we need to know more 
about that in math and science.
    Mr. Wicker. But with regard to math and science, do we lag 
behind Bulgaria in teaching our students math and science?
    Secretary Paige. I think the evidence is pretty clear that 
we do lag behind them.
    Mr. Wicker. So it is not the fact that Bulgaria only tries 
to teach their top 50th percentile or something like that? This 
is accurate data?
    Secretary Paige. Well----
    Mr. Wicker. And as Secretary of Education, you support--I 
know you don't support the result, but you stand by this data, 
and you think it is something that we have to address?
    Secretary Paige. Well, all information like that has errors 
of vulnerability and errors of weaknesses, but I think in the 
main, the idea that Bulgaria leads us in math and science is 
correct. I do stand behind that, yes.
    Mr. Wicker. Thank you.
    Mr. Regula. Mrs. Northup.

                       ACCOUNTABILITY AND TESTING

    Mrs. Northup. Thank you. Welcome, Mr. Secretary. I am so 
excited about the No Child Left Behind Act, particularly 
because of the accountability portion of it. I think last year 
when you were here you complimented Kentucky for their 
outcomes-based program. Basically in Kentucky we give great 
flexibility to our schools, and then we judge what the results 
are at the end of the year, at the end of many years. And the 
previous Secretary of Education congratulated Kentucky every 
time he was here.
    But what I have found in Kentucky is that rewards are a lot 
easier than sanctions. In fact, after over a decade, we have 
had years of rewards and not one sanction, or maybe one or two 
sanctions--very few. The result is that we spend more money. We 
spend more money on those that are lagging behind. We send in 
specialty groups. We have excuses. We exempt more students from 
actually taking the test, but they continue to lag, and like I 
said, we found sanctions are a lot harder than rewards.
    The one thing we don't have is information in the hands of 
every parent of every student. What we do is test fourth and 
eighth graders, for example, in reading. We test third and 
seventh graders in math. So everybody gets a test every year, 
but you only get a test every 4 years in the same subject that 
would be comparable. And the scores are released by a school, 
so the school either succeeds or fails. So a particular parent 
might know their child is behind in fourth grade. They go to 
school. There is a plan for addressing that deficit, and then 
you don't know until eighth grade whether or not anything has 
improved.
    I believe putting information in the hands of every single 
parent and every single teacher, quite frankly, will give them 
the information they need to address the problems.

                       ANNUAL TESTING REQUIREMENT

    However, I know that there are States--and Kentucky is one 
of them--that are asking for an exemption from the yearly test. 
Do you intend to grant any of those?
    Secretary Paige. My intent is to carry out the 
congressional intent, and I intend to be very aggressive about 
making sure that that intent is carried out. I think the simple 
answer to that is I am going to be very, very reluctant to 
grant exemptions, because I think that is what the spirit of 
the legislation says, and so the probableanswer to that is no, 
we are not going to exempt people from that. Unless there is some 
clear, crisp Federal mandate contained in law that is unequivocal, we 
intend for them to do what the legislation says.

              IMPLEMENTATION DATE FOR TESTING REQUIREMENT

    Mrs. Northup. Am I correct in thinking that States do not 
have to design a test and implement it until the 2005-2006 
school year?
    Secretary Paige. That is the date in the legislation for 
the implementation, yes.
    Mrs. Northup. Four years?
    Secretary Paige. Yes. But we would encourage States not to 
wait till that date. We think that it will be a mistake to wait 
until that date. We would like to see that earlier, and people 
from our shop are going to be working with each individual 
State to try to make sure that the congressional intent is 
carried out.
    Mrs. Northup. Well, it is just hard to imagine that the 
improvements will come if accountability means that it isn't 
started for 4 years. There are off-the-shelf tests that States 
can select while they are developing their own. I just wondered 
if there would be any support or any pressure for moving that 
day forward or for requiring some off-the-shelf test in the 
meantime until they can develop their own.
    Secretary Paige. We would encourage them to move as rapidly 
as possible, but I think the law does permit them to begin at 
that date. Many States are beginning earlier than that date.
    Mrs. Northup. Are they?
    Secretary Paige. Yes.
    Mrs. Northup. Do you anticipate that rewards or positive 
recognition is also at the Federal level going to be a lot 
easier than sanctions?
    Secretary Paige. I am aware how that works in many places, 
but I am committed to carrying out the letter of the law. In 
fact, we met with the chief State school officers, at which 
time I advised them that I would take a pledge to obey the law 
and enforce the law, and I fully intend to do that, and I 
frankly asked them in the course of that meeting not to submit 
waiver requests to me.
    Mrs. Northup. Okay. Thank you.
    Mr. Regula. Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman. And, Mr. Secretary, I 
want to join my colleagues in welcoming you here today. I just 
want to pursue, Mr. Secretary, the questions that Mr. Obey 
asked.

                      TEACHER QUALITY IMPROVEMENT

    Many of us were very enthusiastic about the new Federal 
commitment to the education of our children. For those of us 
who have been working on these issues a very long time, we were 
pleased that the authorization bill passed, and that is why I 
was so surprised, frankly, when I saw the President's budget 
request for education. It seems that the administration forgot 
everything it said as we passed ESEA, because in my judgment 
after reviewing the budget request it does leave millions of 
children behind.
    My first question is this: Both you and the President have 
said that one way to ensure that every child receives a quality 
education is to have a quality teacher in every classroom. I 
couldn't agree more. However, the administration's budget 
recommends a $162.5 million cut in teacher quality programs, a 
decrease of 5 percent. Could you explain how you expect States 
to recruit and train the teachers we desperately need in our 
schools with 5 percent less than they received last year? I 
know you and I would agree that the most important factor in a 
child's education is the teacher in the classroom, and if you 
could respond to that, I would be most appreciative.

             BUDGET REQUEST FOR TEACHER QUALITY IMPROVEMENT

    Secretary Paige. Thank you. I think we agree that the 
teacher probably is the most important factor in the child's 
learning, the classroom learning. Parents are the most 
important factor, but the teachers in the classroom matter. And 
that is why the President's budget contains a request for $2.5 
billion for teacher quality, and so that is we think a 
substantial funding base, which continues from last year, the 
2002 level. What States and school----
    Mrs. Lowey. Excuse me. You would agree, though, that it is 
5 percent less?
    Secretary Paige. No, we would not.
    Mrs. Lowey. A decrease of 5 percent?
    Secretary Paige. No, we do not agree it is a decrease of 5 
percent. Let us comment on that.
    Mr. Hansen. Congresswoman, if you add all of our programs 
together, and I have seen a chart that tries to suggest that 
there is a cut of the amount you are talking about----
    Mrs. Lowey. Right.
    Mr. Hansen. But what that chart does not include was the 
fact that we were able to use more than 5 percent of our Title 
I funds for teachers, and we do have a billion dollar increase 
for the Title I program, which could mean an additional $50 
million could be used for teacher quality. We also have----
    Mrs. Lowey. Well, if I could interrupt at that point, and 
maybe I could skip to the next question. You could discuss them 
both. I have a real problem with the Title I funding as well. 
So I don't understand that. We have a problem with teacher 
quality, a problem with Title I. So you take from Title I to 
improve teacher quality?
    Mr. Hansen. It is not taking from Title I. This is 
whatTitle I is all about, to make sure we have quality teachers in 
every classroom. This is--but also if I could finish. In making sure 
the chart is comparing apples to apples, we also have an expanded loan 
forgiveness program for teachers to go teach in the areas of math and 
science in low-income areas, and this is expanding loan forgiveness 
from $5,000 to $17,500. Those dollars are not reflected on that chart.

                     ``CRAYOLA CREDIT'' TAX CREDIT

    We also had in the budget a tax proposal, a tax deduction 
for teachers, the so-called ``Crayola credit,'' to give 
teachers a $400 tax deduction for out-of-pocket expenses. As 
passed by the Economic Stimulus Act, that deduction is $250.
    So I think if you add all of those things to the chart, we 
do have an increase, and I think, as the Secretary said, too, 
this is building on a tremendous increase from last year. There 
was about $2 billion spent last year. This year it is over $3 
billion. You can go back to 1996 and the amount of money that 
was spent from the Federal level on teacher quality was $300 
million. So an awful lot has been done over the last couple of 
years to build up that base, and our budget this year does have 
an increase for teacher quality when you add up all of the 
programs.

                            TITLE I FUNDING

    Mrs. Lowey. Well, because my time is limited, and I would 
like to certainly continue that discussion, the new ESEA law 
also authorizes school districts to receive 40 percent of their 
State's average per pupil expenditure for each low-income child 
in the district. As I am sure you are aware, Title I funding 
does not meet the overwhelming need across the country, 
particularly in urban school districts. While the 
Administration's budget proposes a billion dollar increase in 
Title I funding, the funding level is $16.7 billion below full 
funding for Title I under the new ESEA law. In fact, it doesn't 
even keep up with inflation.
    Let me share with you the impact of that in my area in New 
York City. In New York City alone, only 30 percent, one-third, 
of eligible low-income students was served by Title I in the 
last school year. This means that 326,000 students are being 
left behind. Under the Administration's budget, even with the 
$1 billion increase, 256,000 eligible students will still miss 
out.

                         TITLE I BUDGET REQUEST

    Again, as Mr. Obey said before, if we are passing this 
bill, raising expectations that the Administration is truly 
focused on improving education, how do you explain why the 
Administration is not advocating for a real increase in this 
vital program?
    Mr. Hansen. Congresswoman, I would like to also point out 
that the Title I budget has gone from $6.7 billion to $11.4 
billion over the last 5 years, and the issue of full funding 
Title I is not identified in the No Child Left Behind bill. 
There is not a formula for ``fully funding,'' quote unquote, 
Title I. The Title I program today serves 15 million students 
out of the 50-plus million students in our Nation's schools, 
and, the way the program works, we do believe that it is 
reaching those students that have the most needs, the schools 
that are targeted.
    Mrs. Lowey. I did mention it was the ESEA bill that 
included the Title I funding, but again, and then I will move 
on quickly to another program which I don't understand--oh, it 
is red light. I guess I can't move on. Okay.
    Mrs. Northup [presiding]. We will do another round.
    Mrs. Lowey. Let me just conclude by saying I really share 
the verbal commitment to improving education. I think we all 
feel strongly about this, and I know you can't mandate 
excellence and we are all trying to make these programs as 
effective as we can, but I don't understand how there can be 
this disconnect between a focus on the authorization bill and 
yet when you look at the dollars that are going to implement 
the program the dollars aren't there. So I hope we will have a 
further opportunity to talk about this.
    Mrs. Northup. There will be another round.
    Secretary Paige. I just wanted to offer our staff to come 
by and get into some of these details and the concept shift. 
For example, Title I focuses on schools. But when you discuss 
individuals, that puts it in a different realm. So the Title I 
program is a school-based program. And we would like to have an 
opportunity to come by and discuss these issues with you and 
hear your ideas.
    Mrs. Northup. Thank you. Ms. Granger.

                   SAFE AND DRUG-FREE SCHOOLS PROGRAM

    Ms. Granger. Thank you. I want to commend the 
Administration on the 29 additional safe schools and healthy 
schools initiative for the partnerships. I am going to visit--I 
think there are three of those schools in Texas, and before the 
end of the year I will get to visit those schools, but I was 
concerned about the reduction of $103 million for the safe and 
drug-free schools initiative. I had a summit in my district in 
December, a safe schools summit. Five hundred students attended 
and I was pleased that the students felt safer than they had 10 
years ago, when I had that same sort of summit on safety as a 
mayor. But they still had great concerns.
    So I would like to know, looking at this $103 million 
reduction, how committed is the Administration to drug-free 
schools and safe schools, and how are those funds going to be 
used?
    Secretary Paige. I am going to ask Tom Skelly to comment on 
it after I make this comment. The $103 million decrease 
eliminates funding for three national activities, not school-
based activities, or activities where the students really are. 
So then, the national activity cost has been streamlined.
    Tom, do you want to comment on that?
    Mr. Skelly. I would just add that the budget level-fundsthe 
basic Safe and Drug-Free School program at $644 million. It is the same 
amount we had back in 2001. It is the same amount we have in 2002. The 
Secretary noted the $103 million was just for three brand new 
categorical programs which were first funded in 2002. Those three, like 
37 other categorical programs, have been terminated in the budget. The 
idea is to allow States to use more flexible State grant funds that 
they receive to fund those kinds of activities, if they choose to 
continue them, rather than to separately fund individual programs.
    Ms. Granger. All right. Thank you.
    Mrs. Northup. Thank you. Ms. Pelosi.

                            TITLE I FUNDING

    Ms. Pelosi. Thank you very much, Madam Chair. Mr. 
Secretary, welcome to you and to your colleagues. In only 5 
minutes I am going to have to touch lightly on some of my 
questions, but I want to associate myself with some of the 
comments made by Mr. Wicker earlier. I think that the fact that 
Title I is seriously underfunded by $4.6 billion below the 
authorized level for fiscal year 2003 contributes to the 
problem with the ``hold-harmless'' provision which Mississippi 
would benefit from. California also suffers in that 
formulation, given the increasing number of low-income students 
in both of our States.

                        TECHNOLOGY CHALLENGE ACT

    I also want to associate myself with his remarks about math 
and science. I hope that we could have a heavy focus--there is 
a tech--a training bill that is--it is an authorization bill 
that tries to address some of the concerns Mr. Wicker put 
forth, and it is an authorization for grants, Technology 
Challenge Act, recognizing that our economic growth is highly 
dependent on our technological innovation. Yet some of the 
statistics that Mr. Wicker mentioned are devastating. The 
number of undergraduate degrees awarded in science, engineering 
and technology have been flatly declining since 1987. I would 
hope that at some point we could have a line item in the 
Department of Education bill very specifically to address that. 
We are now working on the authorization side to try--and the 
appropriating side in the other committee, where grants can be 
made from the National Science Foundation for this purpose. But 
it is an education function, and I would hope it would have a 
higher priority.

                         FY 2003 BUDGET REQUEST

    But I want to get to the heart of the matter, and that was 
what Mr. Obey was talking about earlier. We all celebrated the 
Leave No Child Behind bill, and now we have a Leave Millions of 
Children Behind budget. There is just no question, Mr. 
Secretary, with all due respect, the figures don't add up. As 
they said to a young child, when they said, testing his math, 2 
and 2, he said 4, and they said that is good, he said it is not 
good, it is perfect. The figures have to add up. So if you have 
a bill that you celebrate that meets the needs--or begins to 
meet the needs of leaving no child behind and then you submit a 
budget that is $7.2 billion short of the funding level agreed 
to in H.R. 1, it isn't even good, it is certainly not perfect, 
and perfect we are way off from.
    So this is devastating. It is devastating. I don't know how 
the Administration could come in with a budget so soon after 
stating the need and raising the hopes.
    Now, when we talk about leaving, most of these children of 
course that will be left behind are low-income children. Even 
in the H.R. 1, forgetting any authorization of documented need, 
even in just the proposal in H.R. 1, that would be $16 billion. 
We are at $11.35 billion. We are short that much just in the 
Title I section of it. It doesn't add up.
    The other part of it is--and you said you thought that this 
budget adequately funded H.R. 1. I am just using your words. 
You said it is adequately funded. What was H.R. 1, then, pie in 
the sky, I mean, figures that were never even anticipated would 
be met, where the rubber meets the road in appropriation?

                   BUDGET AND TEST DEVELOPMENT COSTS

    Then you said--and forgive me, please, this is how I heard 
it--you said there is too much money for test development. I 
think that that--I mean, you could not possibly have been 
thinking of States with multilingual students which need to 
develop yearly assessments in each language. Yet there is no 
additional money for bilingual education, and I know you know 
better than anyone, coming from where you do, the great 
diversity that we have in our schools, the many children that 
we are blessed with whose first language is not English.
    So this, Mr. Secretary, just does not add up. It really 
falls very short. And, again, I think your budget proposal 
should be called the Leave Millions of Children Behind budget. 
If you would like to comment.
    Secretary Paige. Yes, I would like to comment, and my 
comments would first of all begin with the idea that in 1994, 
when you reauthorized the ESEA, there was a testing requirement 
included. The Congress did not see fit to spend a large----
    Ms. Pelosi. Excuse me, Mr. Secretary, because we all have 
such limited time can we just go from the last 3 months where 
the Administration in a very bipartisan way passed and signed a 
bill, much heralded, with a standard that gave people some hope 
about where we go from here, and 3 months later we have a 
budget that is $7.2 billion short of that, which you say 
adequately--I don't know how you adequately fund a $7.2 billion 
shortfall. I would really like to hear that, adequately meet 
the needs of a bill with the $7.2 billion. That would make the 
miracle of the loaves and the fishes look like minor leagues.
    Secretary Paige. In order to respond to that, I wouldhave 
to put this in context. The context is that this time we have $387 
million for test development, for the additional test, over and above 
that which was required in 1994 when there are no dollars. So then 
compared to that, this is spectacular, and I think the Congress is to 
be congratulated for authorizing those dollars and those expenditures. 
And that can be----
    Ms. Pelosi. We are talking about the appropriation, though, 
with all due respect, Mr. Secretary, not the authorization. We 
are talking about the appropriation.
    Secretary Paige. Well, I guess my comment is that I think 
that the test can be developed with the dollars that are 
provided that have been appropriated.
    Ms. Pelosi. And you include in that bilingual--testing of 
bilingual----
    Secretary Paige. All the tests that are required by H.R. 1.
    Ms. Pelosi. Well, that is one part of the question. I would 
like to work with you more closely on that, because there is no 
specific funding for the bilingual challenges that we have.
    Secretary Paige. Well, we will be certainly available for 
any additional discussion that you wish to have.
    Ms. Pelosi. Thanks, Mr. Secretary.
    Mrs. Northup. Thanks, Ms. Pelosi.
    Mr. Istook.

                          BILINGUAL EDUCATION

    Mr. Istook. Thank you. Secretary Paige, I appreciate the 
chance to talk with you, and I would note since the topic was 
bilingual education, limited English proficiency, I am 
certainly pleased to know that we are trying to expand the 
accountability for the progress that students are making year 
by year or the lack of it, of course. Measuring that 
advancement and requiring that they attain English proficiency 
is essential to guaranteeing opportunity for those students.

                   CHARTER SCHOOL FACILITY FINANCING

    I wanted to cover a couple of items with you. One, I 
appreciate the charter school credit enhancement initiative 
that the Administration has; it is certainly an issue that I 
have been active on, and I know you have requested a $100 
million allocation on that. I wanted to ask you about that. 
Knowing the serious capital needs of charter schools and the 
challenge of procuring the loans, the funds that are necessary 
for the start-up cost, how far under your proposal can this 
$100 million go? I am not sure what the requirements are going 
to be for leveraging it. For example, does it require a certain 
amount of private match so that $100 million can be leveraged 
into $500 million, or whatever that figure may be? Could you 
give us a little more detail on how far this $100 million can 
go?
    Secretary Paige. Yes. Thank you. I am going to ask Bill to 
comment on that.
    Mr. Hansen. Thank you, Congressman. A couple of notes. We 
are, as we speak, getting ready to announce our first $25 
million awards slate in the next couple of weeks, and looking 
at the proposals that we have received in this arena, it is 
apparent that we will probably be able to leverage somewhere 
between 5 to 10 percent depending on what type of instruments 
they are using, whether it is credit enhancement or loan 
guarantees, insurance pools or what other mechanisms----
    Mr. Istook. Five to 10 percent, meaning you would have a 
multiplier of 10 to 20 times that this would leverage?
    Mr. Hansen. Right. And it is our thought that the $100 
million proposal--which actually is built on the charter school 
homestead fund proposal, which would be $350 million over 2 
years, and that is what this money would hopefully be building 
towards--would have a leveraging effect somewhere in the 7 to 
10 percent range, with a multiplier of 7 to 10 times.
    Mr. Istook. Right. Which means that, for example, through 
this program it might help charter schools to attain capital of 
up to a billion dollars, for example, to meet their needs?
    Mr. Hansen. Exactly.
    Mr. Istook. That is good, because I think those details are 
very important to the program design. You certainly would not 
want 100 percent for a program like that.

                        DEPARTMENTAL MANAGEMENT

    Let me ask, Mr. Secretary, on a different matter, I 
recognize that so much of the work the Department does with 
accountability depends upon the evaluations that are made 
internally. The people you have in the Department are crucial 
to this. You have, I think, about 5,000 people. So much of the 
money that goes out with grants, the effectiveness of those 
grants depends upon the effectiveness of the bureaucrats that 
administer them, the readers of the grants, the reviewers of 
them, and your Department has been historically challenged, as 
you well know.
    We had an incident reported a couple of years ago that 
showed they could not account for hundreds of millions of 
dollars, which would certainly go a long way towards meeting 
some of the concerns I know of some of the other members that 
we have here. I would like to hear your comments upon how you 
are getting ahold of managing a department that has not been 
managed. Can the same people be turned around that have been 
more involved with bureaucratic inertia than in true education 
advancement as shown by the chart there? How can you accomplish 
anything that requires you to turn around the effectiveness and 
the attitudes of several thousand people in your own 
Department? How are you doing that?
    Secretary Paige. This was one of our very first challenges, 
and we had several Congress people very interested in this 
problem that we had. We put a lot of energy into it, and I 
think that we have had spectacular improvement. And because 
Bill Hansen, my Deputy Secretary, was directly responsible for 
the leadership and the successes that we have had, I am going 
to ask him to comment on that.
    Bill.

                     MANAGEMENT IMPROVEMENT EFFORT

    Mr. Hansen. Thank you, Mr. Secretary. Really, almost 
exactly a year ago Secretary Paige put into place a three-
pronged effort to go after the problems. We put together a 
management improvement team to help identify and diagnose all 
of our outstanding problems, and when we got into a war room 
and threw them all up on the wall and got the GAO and IG and 
outside audit recommendations, there were over 600 of them. And 
we have been busy this last year fixing each and every one of 
them, which we have now done.
    We also announced a major blueprint to fix the systemic 
issues so that we don't keep having the hot spots to fix at the 
court level, and we came up with the 160 institutional 
processes that are about internal controls, so we don't have 
duplicate payments, about making sure we have got programs in 
place to reward people when they do things right, but to also 
hold them accountable when things aren't done right. We have 
cut up dozens of our credit cards; and we had some problems in 
that area. We have also changed our whole purchase card system 
and are making it much more accountable.
    Mr. Istook. That is on the financial side alone, as opposed 
to the effectiveness side that you are discussing.
    Mr. Hansen. And just two fronts, and part of the 
Secretary's original effort here was to get new senior 
management in place. We had gone 5 years without an Assistant 
Secretary for Management and 3 years without a Chief Financial 
Officer. We now have both of those gentlemen in place and are 
hoping to get a clean financial statement and a clean audit for 
the first time in about a half a dozen years.
    We are also working with our senior career management. We 
have some of the best senior career managers in government, and 
we are trying to mobilize them and utilize them and put them to 
work and make sure that we have the right mechanisms in place 
to deliver our programs effectively. And frankly, that is where 
we are. We deliver $50 billion in discretionary aid and another 
$40 billion in student loans, and that is what our 5,000 people 
do. We deliver these Federal resources to school districts, 
States and individuals. And that is what we are working 
towards, to have the best systems in place to make sure that we 
don't have fraud, we don't have abuse, and that we have the 
efficient delivery of these funds to the recipients.
    Mr. Istook. I appreciate that, and certainly I want to 
help, and I hope you will come to me and the others on this 
committee as far as any legislative changes or tweaks that we 
may be able to assist you with to accomplish those internal 
goals.
    Secretary Paige. Thank you for that offer. We will take you 
up on it.
    Mr. Istook. Thank you, Mr. Secretary.
    Mrs. Northup. Mr. Miller.

                      GROWTH IN EDUCATION FUNDING

    Mr. Miller. Good morning, Mr. Secretary. I am hearing 
comments from my friends outside the aisle about this doom and 
gloom budget that we are presenting, and I want to go back to 
an early page of your report which talks about the total amount 
of spending for education. In 2001 we spent $42.1 billion for 
education, the Department of Education budget, and now we are 
proposing a $56.5 billion increase. An increase from last year 
to this one is not a large one, but this total amount of 
increase in 2 years is a 40 percent increase in education. Is 
that right? The Department of Education spending has gone up 4 
years from the last budget of the Clinton Administration?
    Secretary Paige. That is correct.
    Mr. Miller. That is a big increase to get 40 percent in a 
2-year period for education. I think that is something. You 
know, it is amazing, now we are in a war-type budget this year 
and things are a little more challenged. But I was reading page 
2 of your budget summary, but if you look at the total budget, 
going from $42.1 to $56.5 billion. That is a big increase. If 
you go back to 1996 in that area, we have got 150 percent 
increases. So that, you know, has to be one of the fastest 
growing parts of the budget. Am I wrong in those numbers?

              DISCRETIONARY AND MANDATORY BUDGET INCREASES

    Secretary Paige. You are close, but let's give you the 
specific numbers.
    Mr. Skelly. If you talk just about the discretionary 
appropriation which your committee deals with each year, we 
would exclude the mandatory numbers. Those tend to skew the 
comparisons. You are right, there has been a very large 
increase in recent years, going up 123 percent since 1996.
    Mr. Miller. What is the mandatory portion? Where does 
that----
    Mr. Skelly. It is two big pieces: Our student loan programs 
fluctuate with interest rates, and sometimes they actually go 
down. The chart you are looking at, it has a negative number in 
one year, and a couple of years later it is up $6 billion. It 
goes up and down with interest rate assumptions and the amount 
we collect on student loans.
    Mr. Miller. So it is mainly student loans.
    Mr. Skelly. And Rehabilitation Services.
    Mr. Miller. Still the increase is 25 percent in 2 years. So 
we have a big increase any way you want to measure it.

                INTERNATIONAL COMPARISONS OF ACHIEVEMENT

    Maybe some clarification on Mr. Wicker's question. When we 
start comparing ourselves with others, are we comparing apples 
to apples? What somebody has done to an analogous student 
population, we don't need to take time to talk about it now, 
but I am sure some analysis has been done, are we really 
getting comparable information?

                            CHARTER SCHOOLS

    Let me ask you about the charter schools. Would you discuss 
what you are doing with charter schools, what the evaluation 
is, how the funding is and the results of funding the charter 
school situation?
    Mr. Hansen. We have two primary components in our budget 
for charter schools this year. One is the grant program, which 
we are asking level funding for. This is an important priority 
for us. The evaluations that we are looking at are showing 
results, but I think that even when there is a news story about 
a charter school that has to be shut down or isn't achieving 
what it should, I think that is exactly what we need to be 
looking at from an education management standpoint. These 
schools need to produce or be held accountable.
    And also, in Mr. Istook's question on the credit 
enhancement piece, we have found that the biggest impediment to 
the impact of the charter school movement is the infrastructure 
and construction and other needs that they have in financing 
their capital needs. So that is really why our priority is in 
the $100 million, that we hope to leverage to as much as a 
billion dollars in the marketplace in expanding the 
opportunities for charter schools.
    Mr. Miller. I have seen some good charter schools in my 
area, so I am glad we are continuing along that line.

                 LOAN FORGIVENESS PROGRAM FOR TEACHERS

    The quality of teachers, I see a couple of programs. There 
is a loan forgiveness program and the Troops to Teachers 
program and such. The loan forgiveness program--tell me about 
that.
    Mr. Hansen. We feel this is a very important provision in 
our budget. Right now a graduate from college could have $5,000 
forgiven if they want to go into teaching in the areas of 
special education, math or science, in a low-income area. The 
average indebtedness for the average teacher is $17,500, and 
that is the basis for our proposal to allow for a $17,500 
forgiveness program for those teachers. This is, as the 
Secretary mentioned earlier, in the area of math and science 
and in special education, to try to recruit the highest quality 
teachers to low-income areas, and these three fields is really 
where our priority is.
    Mr. Miller. How long will they have to commit to teach?
    Mr. Hansen. Five years.
    Mr. Miller. One-fifth each year or total, have to stay 5-
years?
    Mr. Hansen. They would have it forgiven at the end of their 
5-year time period. There is no deferment for the 5-year 
period, but they can get forbearance.
    Mr. Miller. Thank you.
    Mrs. Northup. Thank you.
    Ms. DeLauro.
    Ms. DeLauro. Thank you, Mr. Chairman and Mr. Secretary. 
Thank you. I have a little laryngitis, so I apologize for my 
voice.
    Let me just say I think it is important to acknowledge 
somewhere that Department of Education, the program level 
increase, as I understand it, is $1.4 billion. That is 3 
percent excluding a $1.3 billion proposed supplemental for Pell 
Grants. After accounting for inflation, in my view, the budget 
proposal doesn't demonstrate any real growth for education 
programs, and it is the smallest increase since fiscal year 
1996. Let me just say that the average yearly growth in 
education during the previous 5 years has been about 13 
percent. We are looking at growth here for 2003 at 2.8 percent. 
That is, if you will, cutting truly our investment in education 
by about, you know, 75 percent. And that is--I think we need 
to--have to take a look at it in that context.

            HEAD START PROGRAM--DEPARTMENTAL ADMINISTRATION

    Several questions which I will submit for the record have 
to do with TRIO and IDEA and some other pieces. Let me try to 
get in, if I can, three questions. One has to do with Head 
Start. When Secretary Thompson was here, I talked to him about 
Head Start, the Administration's proposed move from the 
Department of Health and Human Services to the Department of 
Education. I have a series of questions with regard to that.
    Given the Administration's intent to move that program to 
the Department of Education, what do you say to those who 
believe that the program already places considerable attention 
on education needs of the children who participate? How can we 
ensure that the move will not undermine the goal of providing 
comprehensive services for low-income families with preschool-
age children? Would the Department of Education be able to 
guarantee the essential program components such as 
comprehensive services, career development of community 
residents, extended day services to meet the needs of working 
parents, and will that be sustained? Why would you transfer 
this program to the Department of Education if, unlike HHS, the 
Department of Education has neither the record nor the 
structure to administer a program as large and as 
geographically spread out as Head Start? How can we guarantee 
moving this program to the Department of Education is truly not 
going to endanger the successful parental involvement component 
of the Head Start program?
    Secretary Paige. Thank you. The President's interest in the 
Head Start program is to return it to its original focus, 
getting students ready to learn and to bridge the gap that 
occurs between the Head Start program and the traditional K-12 
program. The whole point is we want students to be ready to 
learn when they get to first grade. So now we want to view that 
pipeline not starting at first grade, but starting much, much 
earlier. And the Administration is providing a lot of services 
through the Head Start program that we would like to improve, 
to include more literary readiness.
    The decision has not been made to change the location of 
that program. Our major interest is in changing the focus, and 
we want to make sure that students are learning reading 
readiness.
    Ms. DeLauro. First of all, I am delighted to hear there is 
no decision. You can look at the transcript for yourself. I 
think I would not be amiss if I said that I think Secretary 
Thompson, you know, maybe it is for turf reasons, but doesn't 
want to see the program moved. I think I said that when he was 
here. Clearly the public is not interested in that. But as I 
recall, Head Start and its inception--and we have got people 
like Ed Ziegler in New Haven and Jim Comer and a whole bunch of 
others who really talk about the ability for children to learn, 
and especially at the preschool level, it is about truly the 
engagement of a child, the engagement of kinds of social 
services, the engagement of parents and community that just 
truly are focused on child development. That way, when you 
focus on child development, that, in fact, you increase the 
ability of these youngsters to get the kind of literacy 
training and to move forward when you are trying to deal 
comprehensively with the whole child and their family instead 
of just focused on one narrow piece.
    My time is going to--what I would do is love to have you, 
if you can, get for us some view about some of these things 
that literature shows from people like Comer and Ziegler and 
all of those folks who are engaged in trying to make sure our 
kids are learning and learning as fast as they can, and what 
your views of that are in terms of where you want to go.

            PHYSICAL EDUCATION AND OBESITY RATE FOR CHILDREN

    If I can just sneak in a question, if I will, on physical 
fitness and obesity among children. The Surgeon General reports 
on obesity that 13 percent of children in this country are 
overweight. The percentage has tripled since 1980. Secretary 
Thompson testified before our subcommittee in March, this is a 
quote: I didn't realize this until I came out here, less than 
25 percent of our schools have physical education programs 
anymore.
    I think it is important for us to get the Education 
Department and education establishment to start reinstituting 
physical education classes. I met in my district with folks in 
my community who are interested in the juvenile diabetes 
effort, and not only parents came, but children; the whole 
critical part of the issue of diet, nutrition and how one could 
avoid the onset of juvenile diabetes by trying to control 
weight, activity, et cetera.
    I will ask you if you agree with that assessment, that 
iswhat Secretary Thompson was talking about, and why should we support 
a proposal to terminate physical education for a program for which we 
provided $50 million last year when both the Surgeon General and the 
Secretary of HHS tell us that obesity among children is a big problem? 
We are going to have problems with the onset of juvenile diabetes and 
the complications that result from that and have to deal with Federal 
dollars for that.
    Thank you, Madam Chair. I apologize.
    Mrs. Northup. Thank you.
    Mr. Cunningham.
    Secretary Paige. We agree with that.
    Ms. DeLauro. Are you going to put back the program on 
physical education, which is now out of the budget? That is out 
of the budget, as I understand it. Maybe I am wrong.
    Secretary Paige. We think those activities can be covered 
in other programs. We have zeroed that out because of the 
redundancy. We have other areas of the budget that provide 
dollars which can be used for that. It reflects the flexibility 
of H.R. 1, which provides for people at the local scene to make 
decisions about where they want these expenditures to go. So 
where they need support in the physical education program, 
there are sources of dollars.
    Ms. DeLauro. I might add, Mr. Secretary, with all due 
respect, those programs are frozen. They are level-funded. And 
quite frankly, you are not going to convince me when you level-
fund a program that it is not a cut in the program. So those 
dollars are diminished in this program. You are dealing with a 
lot of resources for other kinds of things, but you are also 
adding new burdens to already diminished resources.
    Mrs. Northup. Mr. Cunningham.
    Mr. Cunningham. As a former coach I would work with the 
gentlelady on the program. I think it is important also.
    Mr. Secretary, I want to thank you. You--unfortunately you 
have got to testify in an election year, and it is--sometimes 
it is a little difficult. But I want to compliment you on a 
couple things I do know you are doing. Dr. Nancy Cunningham 
works for Bill Leidinger in the management system.
    Secretary Paige. Great. Great.

                         DEPARTMENT MANAGEMENT

    Mr. Cunningham. What they are doing there, that department 
is going through and looking at the fraud, waste and abuse in 
the management of the system. For example, my colleagues 
probably don't know that under the Clinton Administration there 
were credit cards given to the Department of Education members, 
up to $400,000 they could charge. A large number, and I mean a 
large number, exceeded the $400,000 buying furniture and cars 
and private items and those kind of things. The Clinton 
Administration didn't have a Secretary at that level. It was a 
nonentity for oversight. And what Assistant Secretary Leidinger 
and his staff are doing is going through and making sure that 
that kind of fraud, waste and abuse doesn't exist.
    The management team is also going through and looking, for 
example, at the Direct Loan program which had $50 million they 
couldn't even account for in student loans, and then another 
$12 million that went to the wrong students.
    So when we are talking about Federal education funding, it 
is important to consider the increase in Federal dollars 
actually getting down to the classroom as a result of the 
increase in oversight, as well as the increase in what you are 
doing with the flexibility, the increase of local control, and 
the increase of funds not being wasted because of the fraud, 
waste and abuse within the Department of Education itself. And 
I don't think that we can lightly look over that. And I want to 
acknowledge it.

                    TITLE I--HOLD-HARMLESS PROVISION

    Title I is very, very important in San Diego and in 
California. What was happening in the ``hold-harmless'' is many 
States were hanging on to those dollars, and we were actually 
receiving less dollars per child than other States because of 
the ``hold-harmless.'' I worked with Senator Dianne Feinstein 
on the committee and we were able to eliminate ``hold-
harmless'' in FY 2002. So I just wanted to give you an idea 
that it is very, very critical.

                SPECIAL EDUCATION FUNDS TO THE CLASSROOM

    I also want to thank you for the increase in IDEA. But I 
also sit on the D.C. Subcommittee, which is not a fun committee 
most of the time, but I think we are doing a good job in the 
field of education for Washington, D.C. But under IDEA I 
imposed a cap on trial lawyers fees on IDEA funds. In one year 
we saved $12 million which could be spent on student special 
instructors for the special needs children. Instead of $12 
million going to trial lawyers, it went to the IDEA program. 
When we increase those programs, we have these cottage 
organizations go up, and the systems are ripped off and I think 
hurting special education and public schools. I would like to 
work with you on some ability to limit those funds that go to 
lawyers, and we want the funds getting down to the classroom.

                           PELL GRANT PROGRAM

    The last thing I would like to talk about is the Pell 
Grant. There was language that we put in the FY 2002 Committee 
Report on setting up two pilot programs for year round Pell 
Grants. California is one of those areas that deal with rising 
student enrollments. You can provide for the record if you 
don't have it, but what are we doing with that language on 
those programs?
    Secretary Paige. First of all, I want to thank you for 
noticing the work that is being done by Bill Leidinger in 
saving taxpayers' dollars and making sure we get those dollars 
where we want them to go, and that is to student achievement. 
As many as 11 or 12 people might have been indicted for some of 
the activity there.
    Mr. Cunningham. I hope they are.
    Secretary Paige. He's doing a wonderful job.
    Mr. Hansen. We do appreciate the thoughts you have had. I 
think it is the year-round Pell and others that you have been 
talking about. We are right now just on the crest of starting 
our reauthorization process in higher education. We will be 
looking at all of these issues in terms of access and retention 
and how our Federal aid programs will reach people. So we will 
very much look at your ideas there, and we would love to work 
with you as we start our reauthorization development process on 
the Higher Education Act.
    Mr. Cunningham. Thank you, Mr. Secretary.
    Mrs. Northup. Thank you, Mr. Cunningham.
    Mr. Jackson.
    Mr. Jackson. Thank you, Madam Chairwoman, and thank you, 
Mr. Secretary, for your testimony.

                              TRIO PROGRAM

    Mr. Secretary, I have just a couple of questions, the first 
of which is concerns the TRIO program. As you well know, this 
is one of the more successful programs that this committee has 
funded in the past. Approximately 9.6 million low-income 
children are eligible for the program, but theprogram only 
actually reaches about 6 percent. I am wondering, do you believe that 
level funding is an adequate investment given that these programs have 
proven success records? And I share the same belief of Congresswoman 
DeLauro, that level funding in light of the need is the equivalent of a 
cut.

                HISTORICALLY BLACK GRADUATE INSTITUTIONS

    In the interest of time, Mr. Secretary, I am going to ask 
you the other two questions as well so that you will have 
adequate time to respond. Mr. Secretary, this subcommittee has 
a long history of supporting the Department's strengthening of 
our historically black graduate institution program. In the 
past two fiscal years, funding for this important program has 
increased from $31 million to $49 million. If we are going to 
continue to expand and enhance the quality of graduate programs 
at our Nation's historically black colleges and universities, I 
believe that we must provide a more substantial increase in 
this area than the President proposed in fiscal year 2003. I 
would welcome the opportunity to work with you and to provide 
additional resources for this critical program above the $1.8 
million that the President has recommended in this area, and 
look forward to your comments on this matter.

              HISTORICALLY BLACK COLLEGES AND UNIVERSITIES

    Lastly, Mr. Chairman, the Congress conducted a major debate 
on elementary and secondary education in this country. HBCU's 
have historically played large roles in the educating and 
production of most of the black teachers in this country. We 
are seeing more diversity in our Nation's classrooms as the 
minority population increases. Because of HBCU's historical 
role in producing teachers that serve minority students, to 
what extent does the Administration plan to include HBCU's 
education in this debate?
    Thank you, Mr. Secretary. Thank you, Madam Chair.
    Secretary Paige. Thank you, Mr. Jackson, and thank you for 
your leadership, especially for HBCUs and children most in 
need.

                              TRIO PROGRAM

    We agree completely that the TRIO program is a great 
program and that we wish we were in a position to increase the 
funding substantially. This budget was a tight budget year. 
What we were doing is making priority decisions. We felt that 
the priority would be Title I and the big dollar increase in 
Title I. Some of those dollars could have been put in other 
places, but we thought that beginning students, especially in 
reading and especially in the earlier grades, in preparing 
them, contributed as much toward their going to college as 
programs such as the TRIO program.
    So we hope that we can arrive at a point soon where we can 
increase that funding, but because of other priorities, the 
increase that we have recommended for HBCUs is a 3.6 percent 
increase. We all agree that we would like to see it be a larger 
increase, but at this time, because of challenges in our 
economy and with the military, this is the increase that we are 
recommending to the Congress.

                            HBGIS AND HBCUS

    Mr. Jackson. I had two other questions, Mr. Secretary, 
about working with you on the Department's strengthening of 
historically black graduate institution programs and on the 
black teachers initiative from the administration with respect 
to HBCUs.
    Mr. Hansen. We do feel that increases will allow us to 
expand our efforts here. And we also are very fortunate to have 
Ambassador Leonard Spearman heading up our White House 
initiative on historically black colleges and universities. 
They had rechartered and had their last meeting last month, and 
we very much look forward to working with them and getting 
their recommendations on how we can build upon the increase 
that we have this year and where our priorities should be in 
the years ahead. But it is a very great group of individuals of 
HBC presidents and individuals from the corporate world that 
will be bringing us their recommendations for the future as 
well as we go into next year.
    Mr. Jackson. Thank you, Madam Chair.
    Mrs. Northup. Thank you.
    Mr. Kennedy.
    Mr. Kennedy. Thank you, Madam Chair.
    Welcome, Mr. Secretary.

                     EARLY CHILDHOOD EDUCATION PLAN

    Last week the President announced his early childhood 
education plan called Good Start, Grow Smart. I applaud the 
President for his emphasis on education during the years from 
birth to 5. As the plan says, quote, there is a strong 
connection between the development a child undergoes early in 
life and the success that child will experience later in life. 
Of course, while strong cognitive development in the early 
years is an important predicate for later success in school, it 
is not the only predicate.
    I would imagine you would agree that even a child with 
well-developed reading skills, which you emphasize repeatedly 
in your testimony today, will struggle in school if they are 
unable to follow directions or control their behavior or work 
with their peers. And for that reason the National Academy of 
Sciences reports, Neurons to Neighborhoods, recommended that 
resources on par with those being used on literacy and 
numerical skills also be devoted to emotional and social 
development. Cognitive development on the one hand and the 
social and emotional development on the other form the two 
pillars of school success.
    So I would like to ask you, is it the position of your 
Department that the science on which Neurons to Neighborhoods 
is based is incorrect? Do you think the preliteracy skills are 
sufficient to ensure academic success regardless of an 
emotional or social development? And can we expect that 
theAdministration's commitment to early learning programs will take 
another look at opportunities like the Foundations for Learning program 
to bolster the emotional and social development of vulnerable children? 
And I just would be interested in your response to that.

              SOCIAL AND EMOTIONAL DEVELOPMENT OF CHILDREN

    As Mr. Jackson did, I would like to just ask my second 
question, which dovetails with this one. I am wondering, Mr. 
Secretary, given the fact that the Department is working to 
improve early intervention systems in States, do you think it 
would make sense to devise incentives to reward better 
performance by States in finding and serving disabled young 
children and their families?
    And the point here is the infant and toddler program in 
part C of IDEA. This early intervention system at the State 
level gives thousands of children and families the critical 
services they need in order to get that early start, and as you 
know, the allocation is based purely on population of children 
age 0 to 3 regardless of how narrow or broad the State's 
definition is.
    So given all the science that we have on the brain 
development and the fact that 96 percent of the brain 
development occurs within the first 3 years of life, given the 
fact that you have just spoken about the importance of Title I 
as opposed to TRIO because you understand that it is important 
to get an earlier grab on these kids to make sure they get a 
good start, and given all of that and the President's emphasis 
on early literacy skills, can you comment on the 
Administration's position on coupling that early literacy skill 
promotion with the need to address the emotional/social 
development of those children, and, I might add, even their 
parents?
    As Congresswoman Rosa DeLauro said, she talked about how 
Head Start addresses the parents' needs. And I would like you 
to incorporate that in your answer, because the fact of the 
matter is you can't address the kids' needs if the parents are 
totally dysfunctional, if they have mental health problems, if 
they are in the correctional system, or substance abuse 
problems. If these kids are coming from foster homes, you know, 
they are going to have problems. To ignore these problems in 
the context of the family and focus purely on the kids' 
cognitive development clearly ignores all the science that the 
Surgeon General has produced and that has come out in the last 
several years.
    So I would ask you to, if you would, comment on the 
importance of putting more funding into the social and 
emotional development of children that are high-risk in the 0 
to 6.

                IMPORTANCE OF EARLY CHILDHOOD INVESTMENT

    And let me conclude, because my light is about to go up, 
that, you know, we spend approximately $8,000 per child per 
year on a child from the first grade to 12. You appropriately 
said that learning begins a lot earlier than first grade. I 
applaud the Administration for that. I really do. I think they 
are absolutely on target, because the fact of the matter is a 
child is learning from birth. It is foolish for us to spend 8 
grand a year on a child in elementary school, all through high 
school, and yet spend less than $1,200 on a child from every 
year from 0 to 6. And these are the years where 96 percent to 
100 percent of the brain development occurs. So have at it, Mr. 
Secretary.

              SOCIAL AND EMOTIONAL DEVELOPMENT OF CHILDREN

    Secretary Paige. If I can remember, the first question you 
asked is if we would be willing to consider--are we concerned 
about the emotional and psychological development of children. 
The answer is very much so. That is why the President has 
recommended $437 million for Special Education Grants for 
Infants and Families. In addition to that, we plan to get at 
that through professional development of teachers to be able to 
work with those kinds of challenges. Our Even Start program 
takes families into consideration, because we agree with you 
that the child isolated from the family does not make sense in 
terms of development, so we have got to bring the family along. 
So I don't find much about your comments that I would disagree 
with at all.
    Your other question, about do I think that incentives would 
be an important way to go--I think incentives always work well. 
I am very much a proponent of incentives.

           SPECIAL EDUCATION--GRANTS FOR INFANTS AND FAMILIES

    Mr. Kennedy. When you reauthorize IDEA, are you proposing 
that we spend more money on part C, the toddler and infant 
program? Would you see that as a good way to go?
    Secretary Paige. I think that is something that we should 
consider. We can't commit now on exactly what we are going to 
do, because we are going to see what the President's Commission 
on Special Education has to say about those issues. But those 
are things that we are concerned about, yes.

                           EVEN START PROGRAM

    Mr. Kennedy. Let me comment on the Even Start. As you know, 
there has been a cut, $15 million, to the Even Start in the 
budget. But I would just add that in Rhode Island, Even Start 
is a very successful program. We are working to get money for 
them in our appropriations bill because they do such an 
effective job. I find that there is a waiting list for parents 
to try to get into English As a Second Language. And it is 
really a tragedy, in my mind, because these are all people who 
want to learn English, and we need to get them incorporated 
into our economy, and the first tool they need is to learn the 
literacy skills.
    Even Start is being cut. As you know, the cuts have also 
been made in the Department of Labor for these programs. So it 
is hard for me to imagine we are going to get a good start if 
we are ignoring the needs of these at-risk families.

              EMOTIONAL AND SOCIAL DEVELOPMENT OF CHILDREN

    If you could comment on the emotional and 
socialdevelopment, because I know you talked about professional 
development for teachers, and that is very important, and you talked 
about Even Start. But, you know, when it comes to these children, what 
are you doing on the emotional and social development for these 
children?

              PRESIDENT'S COMMISSION ON SPECIAL EDUCATION

    Secretary Paige. As I indicated, the emotional and social 
development of children is very much a concern of ours, and we 
will have a lot of interplay with that with the President's 
Commission on Special Education. We look forward to hearing 
some specific ideas that you have. We look forward to 
discussing that with you.

                   NCLB ACT--FOUNDATIONS FOR LEARNING

    Mr. Kennedy. Thank you. We in this bill authorized--in the 
Leave No Child Behind Act authorized the Foundations for 
Learning section that focuses purely on those children that are 
at high risk because they come from these situations. Hopefully 
we can work with you to incorporate some funding within that 
program in the ultimate budget because we know that this is 
something that works. Your Administration has been focused on 
this, and it will be consistent with what you are trying to do 
to put some more money in this Foundation for Learning.
    Thank you, Mr. Chairman.
    Mr. Regula [presiding]. Mr. Hoyer.
    Mr. Hoyer. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. I will try to ask a number of quick 
questions.

               PROGRESS SINCE ``A NATION AT RISK'' REPORT

    First of all, I presume you are familiar with The Nation at 
Risk, which was written in 1983.
    Secretary Paige. Yes.
    Mr. Hoyer. Can you give me briefly your assessment--and 
obviously I don't want it in depth or I won't have any time 
left--as to how far we have come in the 22 years since The 
Nation at Risk was issued?
    Secretary Paige. Yes. I think we have a Nation still at 
risk. We have made some progress, but not nearly enough. And I 
think we are specifically vulnerable in our math and science, 
in special education and early reading. We have islands of 
excellence across our Nation, but as a system we are still 
failing.
    Mr. Hoyer. Mr. Secretary, I agree with you. After A Nation 
at Risk was recommended, in 1984, for the fiscal year 1984 
budget, President Reagan recommended a 15 percent cut in the 
education budget, or thereabouts. I don't have the figure in 
front of me. That was not adopted, and we, as a matter of fact, 
increased the budget. Thereafter President Reagan was more 
supportive of education funding.
    However, I think the point I make is that I think this 
committee is very concerned about the level of investment. This 
committee has supported substantially higher incremental 
increases, as you know, in education, and until such time, Mr. 
Secretary, as you can say and I can say with conviction that 
our Nation, the richest Nation on the face of God's earth, is 
no longer at risk of having mediocre education for any of our 
children--I applaud the President's leaving no child behind. 
This budget leaves children behind. That is my concern. I don't 
ask you comment on that because I don't think you could, but I 
make that observation, and we need to be energized about that.

                   FULL SERVICE SCHOOLS--JUDY CENTERS

    Secondly, let me ask you something about--are you familiar 
with the concept of full service schools? Joy G. Dryfoos wrote 
a book about full-service schools, and we have Judy Centers in 
the State of Maryland. They are named after my wife.
    Secretary Paige. I congratulate you on them.
    Mr. Hoyer. Thank you.
    I would like to have you, Mr. Secretary--matter of fact, I 
will invite you--there is a Judy Center not too far, about 20 
minutes from here. I would like to invite you at some point in 
time to visit one of those because I want to pursue with you 
the way either the 21st Century Learning Centers which then 
Chairman, now Ranking Member, Obey was so involved in--to visit 
one of those because we need to fund a more comprehensive 
service at these incredible facilities we call schools, but 
which too frequently are used for too few activities.
    Mr. Wicker. Might I suggest the entire subcommittee would 
be well served by----
    Mr. Hoyer. I would love to have that. I will take you up on 
that suggestion. Mr. Secretary, if you would join us, we will 
set that up. It is an exciting concept.
    Thank you, Roger.

           NATIONAL BOARD FOR PROFESSIONAL TEACHING STANDARDS

    Mr. Secretary, let me ask you a third question. I am not 
sure the second was a question. The third question, though, is 
about teacher quality. If we are going to leave no child 
behind, you as a former superintendent know better than any 
other, the quality of a school system is judged by most parents 
by the quality of the educator in their child's classroom. 
Governor Hunt, as you perhaps know, was very involved in a 
program which I have been very supportive of, the National 
Board for Professional Teaching Standards, which obviously aims 
to upgrade the quality and to give certification to teachers. 
This is a voluntary program, as you know, but that has been 
zero-funded. That gives me great concern. I will be trying to 
fund that at minimum last year's level, but could you comment 
on that, because I think that was one of the efforts that we 
were pursuing to ensure teacher quality in America. It is a 
relatively small program, if you don't know about it.
    Secretary Paige. And I am very much aware of it. We zeroed 
it out because of that. It is a very small program,and we were 
concerned about the national impact. We just made priority decisions 
here. We had additional spending, we requested additional dollars, a 
2.8 percent increase, but we made decisions about where those dollars 
would be, where they would have the greatest impact, the greatest 
national impact. This was a priority decision that we made.

            BUDGET RESPONSE TO EVENTS OF SEPTEMBER 11, 2001

    Mr. Hoyer. Mr. Secretary, let me make the observation that 
we came up with $40 billion within a few days of September 
11th. I think that was appropriate. I supported that. We did it 
because we were a Nation at risk. We were a Nation at risk of 
terrorism at that point in time. But the report of a Nation at 
Risk really premised--I hope I haven't gotten you in trouble, 
and they are calling to say, stonewall Hoyer, he is at it 
again. We all have that problem.
    Secretary Paige. I apologize for that. I frequently forget 
to turn this doggone thing [cell phone] off.
    Mr. Hoyer. The good news is the President is not here. I 
understand he gets very upset about that.
    Mr. Secretary, the point I was making when the President 
called was that if we are a Nation at risk as we were when we 
came up with $40 billion, we are going to come up with other 
billions to respond to an external threat.
    Secretary Paige. Yes.
    Mr. Hoyer. A Nation at Risk's premise was that we were 
equally at risk of undermining the health of our Nation 
internally by producing mediocre or less than mediocre 
children. The President is absolutely correct, we ought to 
leave no child behind. This $10 million that you zero-funded 
tries to ensure that we have quality teachers around the 
country.
    I understand what you are saying, we make choices. What I 
am saying is we are going to come up with the President wants 
$10 billion at the Department of Defense with having no purpose 
for it at this point in time and no oversight by the Congress 
of it, $10 billion, not 10 million, and that is what gives me 
great concern, Mr. Secretary. And we need a Secretary of 
Education--I know you have been a great educator. I have great 
respect for your background. I don't know you personally, but 
you have done an extraordinary job--but we need a Secretary of 
Education energized about the children that are being left 
behind. It is not enough, Mr. Secretary, to rhetorically say we 
are going to leave no child behind. We must not leave any child 
behind. That is what that--I am a big proponent of this program 
because I think it focuses on the quality of the teacher. If 
you don't have a quality teacher, you don't have a good 
educational system. I don't care how good it looks at the top.

          FY 2003 BUDGET REQUEST--FUNDING FOR TEACHER QUALITY

    Secretary Paige. Let me comment on that because I can't 
find any point of disagreement about needing a quality teacher. 
We clearly need a quality teacher. But where I have the 
difficulty is the assumption that if we spend more, we achieve 
more. I have 7 years of experience that says that is not true. 
And I think the Nation has decades of experience to say that is 
not true. When we spend more, that doesn't automatically 
produce more.

                 IMPROVING TEACHER QUALITY STATE GRANTS

    So, you can take individual parts of this budget and pull 
them out and say that that is here or it is not here, but the 
overall budget is committed to the premise that no child is 
left behind. I am completely--I have complete faith in that. 
For example, your example about teachers, there is $2.85 
billion in here for Improving Teacher Quality. There are 
wonderful ideas about how we can improve teacher quality, and 
also the program contains the amount of flexibility allowing 
the people at the local scene to decide upon the kind of 
training and the kind of recruitment methods they want, and 
even to buy additional staff development from external sources. 
They have the flexibility to do that. So inside of this $2.85 
billion, individual States or individual school districts who 
want to participate in a national certification program can do 
that. So the premise that it is absent because it doesn't have 
a name written in the budget doesn't hold.
    It is a conceptual difference. If we take each individual 
program and say we didn't fund this individual program, you 
deny us the opportunity to change things. That is a 
prescription for continuing to do things as we have always done 
it, and we represent change.

               WEIGHING AMOUNT OF INVESTMENT WITH RESULTS

    Mr. Hoyer. Mr. Secretary, my time is obviously up. I 
understand your premise in that answer. I want to, with all due 
respect, say we have heard--it is a good answer, and it is an 
accurate answer in many respects, but it is also an answer 
which fails to come to grips specifically with a program in 
existence that I think is working very well. Yes, it is $2.85 
billion that you have recommended. That is $400 million less 
than the Congress decided was the authorized level that ought 
to be passed of $3.2 billion. Now that may be--your judgment 
may be better than the Congress's judgment. The $3.2 billion 
was the proper level; $2.8 billion may be the proper level. I 
agree with that, it is results we want to look at. I am for 
change. It is particularly change that will bring us better 
education.
    Mr. Secretary, I would be enthusiastic about looking at 
your testimony as superintendent of the Houston schools where 
you testified if you just give us a little less money, we could 
do a better job. Perhaps you would send me a copy of that 
testimony.
    Secretary Paige. I would like to comment on that. I open 
myself for you to check the records. First thing I did is 
pledge not to increase taxes and not to ask for additional 
resources, and I found there were ways inside the system to 
reallocate dollars and expend more. I would personally hope 
that you look into our record of efficient operations in 
Houston.
    Mr. Hoyer. We will try to pursue your hope.
    Mr. Regula. You want to go to Houston now.
    Mr. Hoyer. We will start a Judy Center in Houston, Mr. 
Chairman. Sounds good to me. We will reallocate some money in 
Houston to do that.
    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. Thank you, Mr. Chairman.

               SCHOOL EXCELLENCE A PRODUCT OF MANAGEMENT

    Welcome, Secretary Paige. There are so many things that 
have been said today that I would like to comment on. I would 
like to start with Mr. Hoyer's thought that every parent thinks 
their school is good or bad depending on a given classroom 
teacher. I agree with that. When I was the president of the 
school board in Wyoming County, Pennsylvania, the first day of 
the year I told the teachers they have the future in our hands. 
When they went there and closed the door, they were in control 
of their world. What they did was up to them. But what always 
disturbs me is the worst teacher in the school is paid exactly 
the same as the best teacher in the school. We have so many 
institutional prohibitions against excellence and towards 
mediocrity that it makes it hard to handle. I am very 
interested in your chart, and I agree with that.
    Mr. Hoyer. Will the gentleman yield? To that extent, Mr. 
Obey observed it is sort of like the congressional pay system.
    Mr. Sherwood. Well, I think Mr. Obey has a correct 
observation. But I would also submit that probably what the 
teachers do is often more important than what we do. But I 
think we have to look at the institutional barriers to 
excellence, and your chart on the wall shows me something, and 
my 20 years of experience as a school board member is not near 
as pertinent as yours, but each school district rises and falls 
on who the board hires for their superintendent. But it has 
been my experience that excellence doesn't come necessarily 
from spending more money, it comes from better management----
    Secretary Paige. That is right.

                   SPECIAL EDUCATION BUDGET INCREASE

    Mr. Sherwood. The Federal share of a school district's 
budget is very, very small. As I remember, ours was about 8 
percent, the Federal share. In that regard, though, one of the 
things that I thought caused us the most angst was deciding how 
we would allocate our resources to take care of special 
education mandates and how it was being fair to the kids with 
special needs as opposed to the great majority of the school 
population.
    So I commend you for your $1 billion increase for special 
education grants to the States, because that is the one place 
that I think the Federal Government has some responsibility. 
When they mandate something, then they have to help fund it.

                FEDERAL ROLE VERSUS LOCAL RESPONSIBILITY

    I really believe that the Federal Government's role, and I 
would like your comment on this, is to encourage excellence and 
to set standards and to set a national tone where communities 
expect more from their schools. I don't think those schools can 
be run by your office or by the Congress, but we can certainly 
do a lot of things to help.
    Secretary Paige. That is right. We completely agree with 
that. That is exactly our view. We are going about the Nation 
now making that point exactly because we want parents and the 
people at the local scene to be more involved in making the 
decisions that are made in order to improve schooling. It 
cannot be done in their absence.

                              TEACHER PAY

    Mr. Sherwood. Would you like to comment on my statement 
that the worst teacher in the school and the best teacher in 
the school with equal education and equal time in service are 
paid the same?
    Secretary Paige. I would be eager to comment on that. I 
don't think that there is any enterprise in the history of 
civilization that, if we expect to improve it, would operate 
with policies like that. That the worst teachers and best 
teachers are paid the same, no linkage at all between 
contribution and compensation, that is a prescription for 
difficulties, and yet we know that teachers are underpaid. It 
is a problem that teachers are underpaid. That problem is going 
to persist as long as we use those kinds of principles to 
underpin the compensation system.
    Also the supply and demand issue. We pretend that every one 
of these specialty areas has the exact same supply and demand 
situation, and that is not the case. We can't find math and 
science teachers and special education teachers and teachers 
with language skills, yet there are many other disciplines and 
courses that teachers teach and you can find them; you go to 
the personnel office for teachers, you find just boatloads of 
them. What is the logic of paying them the same; it's as if we 
are saying that the law of supply and demand doesn't work in 
our business?
    So those are the kinds of things that we think offer us 
opportunity to improve the system. Just putting additional 
dollars on top of it will not get us there. We have decades of 
proof of that fact.

                ADMINISTRATOR PAY AND TEACHER RETENTION

    Mr. Sherwood. We also make it difficult for people to be 
administrators because the pay differential between teachers 
with experience and administrators with experience in many 
areas is so minuscule that it is hard too find really good 
people that want to work 12 months a year instead of 9 months a 
year for the difference in the pay. But it is management, as 
you well know as a superintendent, every time you hire a 
mediocre teacher, they will be with you until they retire. And 
if you work hard to hire the best you can find, they might move 
on because they might be an administrator, go do something else 
someday, but at least you had the best for a while, and that is 
what the kids deserve.
    And I would also like to comment, if I might, that the more 
we separate politics from education, the further ahead we will 
get.
    Secretary Paige. Your comments are very reflective of your 
experience as a school board member. I can understand where you 
get those thoughts. I, too, was a school board member. I agree 
with you completely.

                   TEACHERS FOR NON-ENGLISH SPEAKERS

    Mr. Sherwood. One other thing my rural school districts 
wanted me to mention, they have been hit pretty hard by the new 
English secondary language requirement. In districts where it 
is a very homogeneous English-speaking population, I have a 
couple small districts that plan to restrict their future 
Rotary exchange students to English-speaking so they don't have 
to hire a new teacher that they can't afford. That might be 
something we could take a look at.
    Secretary Paige. Yes.
    Mr. Sherwood. Thank you very much.

             MERIT-BASED AND DIFFERENTIAL PAY FOR TEACHERS

    Mr. Hoyer. Could I add a point? I think Mr. Sherwood has 
made a very important point, and staff--I wouldn't have known 
this off the top of my head, but the staff points out to me 
that in the bill we just passed, that one of the items under 
subpart 1 states activities which the Federal Government can 
help fund are developing or assisting an LEA in developing 
merit-based performance systems and differential and bonus pay 
for teachers in high-need academic subjects. So that speaks to 
the differential for quality teachers. I tend to agree--don't 
tend, I agree with the gentleman.
    Secretary Paige. That is what ESEA Title II--Improving 
Teacher Quality State Grants--is all about. There's about $2.85 
billion there.
    Mr. Regula. I want to go back to Mr. Obey.
    Mr. Hoyer. But there is no more than that. That is what it 
is all about, but it costs money to do that.

            TEACHER CERTIFICATION AND COLLEGES OF EDUCATION

    Mr. Regula. Question: One of the gratifying things to me of 
this hearing has been almost every Member and, of course, you, 
Mr. Secretary, have emphasized teacher quality. That is the key 
to the school system performing well on behalf of the students. 
Just as a follow-up, are you looking at all at certification 
standards? We have 50 States. Every State does its own 
certification; therefore, there is probably a lot of lack of 
uniformity on certification standards.
    And secondly, are you looking at the colleges of education? 
I have a strong suspicion that quality of teachers coming out 
varies greatly depending on the emphasisthat the given college 
or university makes on their education wing.

                         COLLEGES OF EDUCATION

    Secretary Paige. The college of education offers us a vast 
opportunity, big opportunity to improve. We have had a lot of 
interaction with the colleges of education. We have spoken to 
ACTE, which is the organization that accredits the college of 
education. We have spoken to the presidents of universities. 
There are a lot of opportunities there; for example, the 
university using the college of education as a cash cow, taking 
the tuition generated from them to fund other parts of the 
university that don't produce quite as much revenue in terms of 
a credit-hour generation; the quality of the research that 
comes out of the colleges because they are not supported 
strongly with graduate assistance and innovative dollars, and 
things like that, like some of the other parts of the 
universities--according the university more prestige--are 
supported. So there are a lot of opportunities there for 
improvement.
    Mr. Regula. Well, Mr. Secretary, we welcome any suggestions 
from your Department as to how we might, using the resources of 
this bill, add incentives for better education programs in our 
colleges and universities, because I think it is a potentially 
weak link in all of this.
    Mr. Obey.
    Mr. Obey. Thank you, Mr. Chairman.
    Mr. Secretary, I will know that your agency is getting 
enough money when the charts that you present are as expensive 
and fancy as the Pentagon's. You have a long way to go.
    Secretary Paige. I don't know. You might not have seen some 
of our most recent stuff.

                   ADEQUACY OF FY 2003 BUDGET REQUEST

    Mr. Obey. I think that chart is essentially misleading 
because it does not take into account enrollment growth. It 
does not take into account the fact that today you have many 
more low-income and minority students participating in these 
tests. And it also, I think, doesn't reflect the fact that 
Title I has never been fully funded. In fact, it has never even 
come close to laying a glove on the real problem.
    As far as I am concerned, the great scandal in American 
public life is the fact that the political system hasn't had 
the guts and the wisdom to do a heck of a lot more to equalize 
the resources available from one district to another. Dollars 
may not alone determine the outcome, but I know that a kid in 
Maple Bluff with three times the tax base as a kid from Maple 
in my State is going to get a better education because they 
have a whole lot more money to spend. I usually quote Archie 
the Cockroach, who is my favorite philosopher, but instead 
today I want to quote Paddy Ashdown, who used to be the head of 
the Liberal Party in Britain. Ashdown said in his farewell 
speech before he left the Parliament, ``All too often the 
passion of our words stands in stark contrast to the puniness 
of our commitments,'' and I think really that is what we are 
talking about today when we look at this budget.

                            TEACHER QUALITY

    I just want to walk through why I say that. This bill is 
$7.2 billion short of the authorization which was trumpeted 
just 3 or 4 months ago. This budget freezes Teacher Quality 
State Grants, and it cuts funding for teacher quality programs 
in total by $163 million.
    I asked earlier how much it would cost us to provide every 
teacher with the qualifications that H.R. 1 demands of them by 
a scheduled date, and what it would cost to provide that 
additional education and training. We don't have an answer, but 
you can bet it is going to be a lot. This budget doesn't 
respond to that. In fact, coming from a rural area, as I do, I 
note that the rural education initiative is zeroed out. That is 
$163 million less available.

                            CIVICS EDUCATION

    Civics education--most high school kids are illiterate when 
it comes to understanding how their government works. In a 
recent study, only 4 percent of those students measured up to 
the excellence category, and only 25 percent of them achieved 
better than a functionally literate level in terms of 
understanding how our government works. Yet you zero out this 
small program to deal with this problem.

                       FOREIGN LANGUAGE TRAINING

    Every national security agency I have talked to has talked 
about the need to have a much greater emphasis upon foreign 
language training in this country. You eliminate the foreign 
language program for K through 12 students, despite the fact 
that last year before this committee you said, ``we need to 
give students an international education that meets the highest 
standards.'' The Federal Government is going to contribute 
precious little to doing that if we are eliminating this 
program.

                          SECONDARY EDUCATION

    On TV we have a program called The Weakest Link. In my 
view, the weakest link in the American education system is the 
American high school. If you take a look at the 12 programs in 
the budget that focus essentially on secondary education, you 
freeze 7 of them, you cut one by 50 percent, and you eliminate 
4 of them. There is no boost to TRIO or GEAR UP. You eliminate 
the smaller schools initiative despite the fact that there are 
600 applications at the Federal level.
    You are only funding one-third of those applications. Bill 
Gates, foundation alone will spend more this year to help local 
school districts downsize oversize bloated high schools than 
the Federal Government will, and I think that is incredible. 
H.R. 1 includes a whole series of mandates on standards, on 
assessment, on curriculum, and on teacher qualifications. And 
yet this bill is $7.2 billion short of the authorization that 
was trumpeted in order to help meet those problems. The rate of 
new investment in education is cut by over 75 percent from last 
year to this year.

                           EDUCATION MANDATES

    If you compare those program cuts with the mandates, the 
after-school program, you freeze. The literacy through library 
program, you freeze. Dropout prevention, you eliminate. The 
education for homeless program is frozen. The State grants for 
teacher quality, frozen. Comprehensive school reform cut by $75 
million. The smaller high school initiative, you eliminate. 
Rural education is eliminated. Then we get to the adequacy of 
Title 1. Title 1 is $4.6 billion below the authorization. It is 
$28 billion below what would be full funding, so that all 
eligible kids could actually get some benefit from it. One half 
of the schools with poverty enrollments between 50 and 75 
percent get no Title 1 money whatsoever--6,000 schools in this 
country. Only 15 percent of Title 1 money goes to middle or 
high schools, and yet they contain 33 percent of the low-income 
kids in the country.

                    STATE STANDARDS AND ASSESSMENTS

    If you take a look at mandated assessments, the GAO says 
that only 17 States have met current standards. You have got a 
lot of States right now applying for waivers so that they can 
get 10 years to comply with the existing standards.
    Secretary Paige. By standards, you mean the 1994 standards?
    Mr. Obey. Yes.
    Secretary Paige. That is not true.
    Mr. Obey. The General Accounting Office says that, and so 
if you have a disagreement, I would be happy to know what your 
response is. But the General Accounting Office, which is the 
agency that we rely on, says that only 17 States are in 
compliance.
    Secretary Paige. That may be dated information. That might 
have been true when they said it. My statement is, it is not 
true now.
    Mr. Obey. They just released it.
    Secretary Paige. Well, I don't know what date that is, but 
I can tell you that is not true.
    Mr. Obey. Well, I would be happy to hear any comments you 
have for the record, but until I see otherwise, I will stick 
with the GAO report. And yet, given the fact that only 17 
States comply with the 1994 standards, we are now laying out a 
whole new level of standards. In Wisconsin, for instance, right 
now we provide reading and math tests for grades 4, 8 and the 
tenth grade. You have got new assessment requirements for the 
3, 5, 6, and 7 grades. That adds $8 million to Wisconsin's cost 
alone. The annual cost of test administration in my own State 
is about $12 million according to State officials. They have 
been getting $7 million in fiscal year 2002. Under your budget 
request, they get $193,000 more. That is a small item, but 
given the fact that State governments' revenue bases are 
crashing all around the country, this budget is pitiful in 
terms of its response to the realities that have changed 
massively since last August when this budget was put together.
    So, Mr. Secretary, I have great respect for you. I do not 
expect you to perform miracles, but I think this budget is a 
tremendous nonresponse to the biggest domestic challenge of our 
time.
    Mr. Regula. Mr. Wicker to close.
    Mr. Wicker. Thank you very much and, Mr. Secretary, this 
has been a good hearing. I think it has been probably a pretty 
accurate preview of the debate that we will have, and I look 
forward to it.

                          SCHOOL CONSTRUCTION

    One thing that we have not talked about today that I want 
to bring up just as an inoculation is school construction. I am 
pleased that the No Child Left Behind Act and the fiscal year 
2002 appropriations bill did not contain any appropriation for 
funding for school construction, and I think this recognizes 
that this is an item best left to the local school districts. I 
just want to point out that this is something we have talked 
about in years past. We have had a heated debate about it, but 
in my opinion, school construction at the Federal level creates 
an expectation that we are going to do a whole lot more of that 
in the future. You have been very firm about this, pointing out 
that a Federal school construction program would remove 
incentives for local communities to make that commitment and 
offer bond issues and other revenue-generating devices, and 
then once a school construction program is begun, where does it 
end? Are we building schools in every school district, in every 
congressional district, not to mention the Davis-Bacon issues 
that it adds?
    I just hope that the Administration and the President are 
resolute on this issue. It is bound to come up again in the 
future, and I just would ask you, are you going to stay firm on 
this issue when it eventually does raise its head again?
    Secretary Paige. We are committed to that.
    Mr. Wicker. Very good. Let me ask two other things.

                       PARAPROFESSIONAL TEACHERS

    One, assistant teachers. I am asking this question on 
behalf of a number of assistant teachers in my congressional 
district who have approached me on this issue, and basically 
they have been told that for the modest sum of money they are 
receiving as compensation, they are going to have to go back to 
community college and get a 2-year degree, or they are not 
going to be able to continue on as assistant teachers, because 
of the No Child Left Behind Act. Now I am aware that there is 
flexibility in the act. There is a 4-year grandfather clause, 
and there is the opportunity rather than going back to the 
community college and getting the associate degree or passing a 
competency exam. I think some of the States do not want to 
develop their own competency exam, but at any rate, I can tell 
you that out there in at least a part of the hinterlands, Mr. 
Secretary, there are some assistant teachers who think they 
have got to go back to college so they can earn basically $9-
10,000 a year and they are not going to do it.
    The question I have, is there is flexibility there, and 
there is flexibility all throughout the act. Do you think we 
are doing a good job communicating that aspect of the bill to 
the local districts and also to the----
    Mr. Regula. Keep it short because we are running out of 
voting time.
    Mr. Wicker. And I will be glad to take the chair, Mr. 
Chairman, into the hearing, because I have one other thing 
that----
    Mr. Kennedy. And I would like to get a question in before 
Mr. Wicker gets through his----
    Mr. Regula. I might say we will have a number of your 
deputies here tomorrow so there will be an opportunity----
    Mr. Kennedy. I would like to make a comment, because I 
think it is----
    Mr. Regula. Well----
    Mr. Wicker. I will be glad to take the chair, Mr. Chairman, 
and I will ensure that I get there for the vote, and Mr. 
Kennedy also.
    Mr. Regula. All right. You have made a proposal. I will 
accept it.
    Mr. Wicker. Thank you. Thank you.
    Mr. Regula. Mr. Secretary.

           MANDATE FOR A QUALIFIED TEACHER IN EVERY CLASSROOM

    Mr. Wicker [presiding]. Would you care to comment with 
regard to the flexibility and also if you want to address the 
assistant teacher question.
    Secretary Paige. Legislation requires that there be after a 
specific date, a qualified teacher in every classroom, and we 
have not yet finished defining a qualified teacher in every 
classroom, and so there is a lot of reaction across the Nation 
to this, and some are making assumptions that are not going to 
materialize. So we are going to push as soon as we can to get 
that correct information out so people can make the right 
judgments.
    We are also going to be using the flexibility that we have.

             JACKSON STATE UNIVERSITY COOPERATIVE AGREEMENT

    Mr. Wicker. Okay. And then just one other thing, and 
perhaps you will have to answer this on the record. I visited 
your alma mater, Jackson State University, the other day. Dr. 
Ron Mason, the president there of less than 2 years, is doing a 
wonderful job. He has a program where through a cooperative 
agreement, the university has adopted several local elementary 
schools. They have not been forced to do this by the State. As 
far as I know, there is no Federal program to facilitate this 
or require it or encourage it, but I just wonder if you could 
provide the subcommittee any information the Department has 
about the education schools at our universities and what they 
could accomplish by adopting a marginal or less-than-ideal 
school within the shadow of their very infrastructure, because 
I think it is a wonderful thing, and we ought to call on all of 
our great universities to do that very thing.
    Secretary Paige. Yes. We have some comments, quick comments 
about that.
    Mr. Hansen. We will, and I think we have actually looked 
very closely at what they are doing and I think we will be able 
to either replicate it or work through some of our programs to 
try to expand what they are doing.
    Secretary Paige. In fact, we are assisting Jackson State 
with that concept now.
    Mr. Wicker. Very good. If you will provide the subcommittee 
on the record with information about the manner which you are 
facilitating them.
    [The information follows:]

                        Jackson State University

    The Department awarded a grant in fiscal year 2001 to Jackson State 
University to assist Jackson State in working in partnership with the 
Jackson Public School District to enhance student achievement in 
reading, mathematics, and other subject areas. The project, which is 
using a professional development school framework, will include key 
stakeholders in the community, including the university, schools, 
parents, teachers, administrators, and policy-makers. One goal of the 
project is to unify all partner efforts under one umbrella to ensure 
mutual goal attainment and improve relationships among partners. The 
plan is for the partnership to help to inform decisions about the 
teacher preparation curriculum, the school curriculum, and professional 
development.

                 EVEN START AND ADULT LITERACY PROGRAMS

    Mr. Wicker. Now, Mr. Kennedy, how many minutes do you need, 
one or two?
    Mr. Kennedy. Mr. Chairman, I just have two comments I want 
to make real quick. When, Mr. Secretary, you mentioned Even 
Start as an answer to my first question about early literacy, I 
said that the cut was $15 million. I found out from my staff I 
was being generous to you. The cut is actually $50 million in 
the Administration's budget, down to $200 million. And adult 
basic education is frozen at $575 million. I do appreciate the 
fact that you recognize that adult literacy is crucial to 
children's literacy, but as you know, in a recent educational 
testing service internationally, the United States ranks 10th 
out of 17 industrial nations for the amount of investment we 
are making in adult literacy. In my State of Rhode Island, we 
have over 370,000 people in a State of less than a million who 
are unable and have difficulty performing basic tasks such as 
reading a utility bill or writing a letter or understanding a 
map. So according to the National Council of State Directors of 
Adult Literacy, there are 12 million adults who are in need of 
essential services, and yet our current funding level only 
allows us to serve 3 million.

                            FAMILY LITERACY

    So I want to make those comments, and maybe you or your 
staff could get back to me at some point about what we are 
going to do to work on them, because I think they go hand in 
hand with the original questions that I was asking about family 
literacy, because how is a child going to learn if their 
parents are unable to even have the most basic literacy? And we 
know that Even Start does work, as you have said, yet I don't 
think we are doing enough to ensure that the first teacher the 
child has, which is the parent, gets the skills that they need 
as well. And that is why I was asking about ESL.
    Secretary Paige. We will respond for the record if that is 
your request.
    Mr. Kennedy. Thank you, Mr. Secretary.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                         COMMITTEE ADJOURNMENT

    Mr. Wicker. Thank you very much and thank you for your 
indulgence and a fine hearing, and we are adjourned.
    [The following questions were submitted to be answered for 
the record:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 11, 2002.

                      U.S. DEPARTMENT OF EDUCATION

                               WITNESSES

EUGENE W. HICKOK, UNDER SECRETARY
SUSAN B. NEUMAN, ASSISTANT SECRETARY FOR ELEMENTARY AND SECONDARY 
    EDUCATION

                       Introduction of Witnesses

    Mr. Regula. Well, we will get started. I think we have an 
extremely important message to cover.
    I might draw your attention to that painting over there. 
That is where it all started. I live on a farm. That 
schoolhouse is right at the end of my lane. It is not on my 
property; it is on my neighbor's property. Her great 
grandfather gave the land to the school district, but never 
gave the deed. So when the school was abandoned, it was still 
on his land, and it has come down to the heirs.
    The farm is still in the same family. But the woman who 
lived up the road, and who had ownership, went 8 years there to 
school, so she had a very sentimental attachment to it. She had 
it restored, all the brick work and so on. It is in beautiful 
condition. You could put a few desks in there and open up and 
have school.
    I have to tell you that if my three children could have 
gone there for 8 years with a good teacher, I would have been 
very happy. Because it had eight grades, students heard the 
material eight times; and those country schools weren't all 
bad.
    It is interesting that the Gates Foundation has embarked on 
a crusade, using their resources to get schools to reduce 
sizes, particularly in high schools, with 600 students being 
the optimum. I think there is a movement in this country, and 
certainly it is happening in my district, where they are trying 
to reduce the size of schools. And there is some merit for 
young people having a sense of belonging, which with 2,000 or 
3,000 in a high school, it is pretty hard to do. How things 
change.
    And of course we are dealing with elementary education this 
morning. I might tell you I was an elementary principal. I went 
to law school at night, but for 7 years I was in public 
education, taught seventh graders and eighth graders. For 3 
years I had a combined seventh and eighth, all subjects. I was 
the principal and also the coach and occasionally drove the 
bus. It was a small rural school.
    Then I graduated to a 20-room school. But what I did, when 
I had a teacher that was ill, I did substituting. So I had 
every grade, and I concluded that the lower the grade, the more 
I would pay the teacher, because the challenges are so great. 
You cannot give first graders busy work.
    So I think those elementary years are absolutely the most 
important years because you shape the attitude of young people.
    One of the things the Gates Foundation is doing--and they 
announced it in my district about a month ago--is, in Ohio, 
they have committed $25 million, the Ford Foundation, $5 
million, and the Knowledge Works Foundation, $1.5; and it is 
going to the State Department of Education, and schools will 
apply for grants to deal with the dropout rate. Our urban 
cities in Ohio have about a 50 percent dropout rate.
    A lot of those attitudes get shaped in those early years 
and they become important. Mr. Hoyer, what is your experience 
in Maryland on the dropout rates, the high school dropouts?
    Mr. Hoyer. Well, it is regional, some areas obviously where 
it is pretty high. Prince George's County has a higher 
percentage. I don't know the exact percentages, but Prince 
George's County obviously has a higher percentage than 
Montgomery County because of the economic makeup of the 
constituency, cohorts in the school system. It is too high.
    Mr. Regula. Well, the Gates Foundation is making a national 
commitment of money to try to deal with the problem of dropouts 
in high schools because there is an enormous loss of human 
capital. Our attorney general in Ohio is doing research and 
discovering that a lot of young people who are involved in 
crime are dropouts--sort of goes together.
    Mr. Hoyer. Sure.
    Mr. Regula. Well, so much for our----
    Mr. Hoyer. Musings.
    Mr. Regula [continuing]. Little sermon. Musings, yes.
    Mr. Hickok. Preaching to the choir.
    Mr. Regula. Yes.
    Well, we are happy to welcome you. Your testimony will be 
put in the record. You may summarize as you choose and we will 
go from there.

                           Opening Statement

    Mr. Hickok. Thank you very much, Mr. Chairman. Since you 
mentioned the painting of the school, I might mention as I 
start that if you drive by the Department of Education just 
down the street from here, you will see that because we have 
some work being done on the outside of the building, they built 
some protective enclosures so people who enter the building are 
protected; and we decided to make them look like a one-room 
schoolhouse, a little red schoolhouse, in honor of the 
importance that everyone places on education.
    So I encourage you to drive by and take a look. It might 
warm your heart a bit and remind you of your own schoolhouse on 
your own property.
    I do appreciate very much the opportunity to appear before 
the committee to talk about the implementation of No Child Left 
Behind. I will ask the committee to take my entire statement 
for the record. The most important thing I want to say, really, 
is that everyone here knows, with the bipartisan support of 
Congress, we consider this to be the most comprehensive change 
in Federal education policy since the Federal Government got 
engaged in education policy in the 1960s. It is based on four 
principles, or four pillars, familiar to everyone here I am 
sure: increased accountability for results, increased 
opportunities for flexibility at the State and local level, 
increased options for parents, and scientifically based 
research and evidence-based policy.
    Those four principles underwrite No Child Left Behind, 
underwrite Secretary Paige's approach to education generally, 
and the President's philosophy of education. And if you look at 
No Child Left Behind, I think it is the evidence of those four 
principles throughout.
    With me is Assistant Secretary of Elementary and Secondary 
Education, Susan Neuman. Susan is really the one primarily 
responsible for much of the implementation of the details of 
this new law. My job as Under Secretary is to work with her and 
Secretary Paige and the President on implementation as well.
    Having said that, we also have members of the budget staff 
here, obviously to talk about the budget, current and future, 
with regard to implementation. Other than that, I guess I will 
forgo any more commentary and welcome the conversation. Thank 
you very much.
    [The statement of Mr. Hickok follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you. Speaking of substitutes, maybe we 
ought to have a program that when they need a substitute 
teacher in D.C., we call on the Department of Education to 
provide one.
    Mr. Hickok.  I am not sure I would endorse that idea. Just 
don't call on me. I might say that anyway.

                        NO CHILD LEFT BEHIND ACT

    Mr. Regula. Well, that is the real world. You say it is a 
revolutionary change. What is going to change?
    Let's go to elementary school aid in the 16th district. 
What will be different as a result of this act? How will it 
improve the experience of a child in that school?
    Mr. Hickok.  Well, when it is fully implemented, I think 
the most important thing I would say would be this:
    The context in which parents and teachers and 
administrators and, ultimately, students approach education 
will be in a broader context in looking at the performance and 
results from the earliest years on, so that for the first time 
in this country, you will have more of an educational bottom 
line. Because of the accountability provisions, for example, we 
will have a better sense of how well students are doing in 
reading, math, and science in a way that is understandable to 
parents.
    Right now, a lot of testing goes on, but I have been 
surprised about the degree to which nothing is done with the 
tests in terms of helping to guide pedagogy, guide instruction, 
helping to make sure it is a tool to improve education as 
opposed to just a test. And that is what accountability is all 
about. It is not accountability just to take tests. It is about 
improving instruction and improving curriculum. So that is a 
big part of it.
    I think also as we develop more evidence of what works, 
which is a very important part of this policy, we will be 
seeing students benefit at earlier ages because we will see 
instruction that is based upon sound evidence of what works.
    We know that happens in reading now. We know what works in 
reading. And Susan is a national expert on reading, so maybe 
she will talk about this. But we also know that in far too many 
places we are not doing what we know works as we teach reading, 
in part because teachers don't know it, in part because there 
are lots of different approaches out there that sound good, but 
don't have sound policy behind them.
    When we start teaching based upon sound evidence in reading 
and in math and other disciplines, down the road I think we 
will see students benefit tremendously.
    Everyone agrees how important it is in the earliest years 
to have sound instruction in reading and math, but as our 
scores show us, in far too many places good intentions are not 
followed with good results. So I think down the road, with the 
law fully implemented, we as a Nation will have a better sense 
of results that we can measure. And when we see problems, it 
will be more difficult to close our eyes to them.

                          STATE ACCOUNTABILITY

    Mr. Regula. How do you address this problem? You are 
letting each State develop its own test. Now, one State may 
have a much lower criterion for their testing program than 
another State, and yet theoretically this is a national program 
and it is designed to get results across the board. How can you 
have 50 different sets of tests and accomplish that?
    Mr. Hickok.  Well, you are right, the law calls for each 
State to develop its own accountability system using State 
academic content and standards and then looking at assessments 
that would be keyed to those standards. And you are right, 
there is a possibility of 50 different accountability systems 
and some being relatively low in terms of measurement and some 
being much higher.
    Two things I would say will help define that field. One is, 
the law also calls for NAEP, the National Assessment of 
Education Progress, to be administered and for every State to 
participate. And so that provides somewhat of a benchmark. I 
will use my home State of Pennsylvania where I was State chief 
for 6 years. For example, if Pennsylvania ends up setting its 
levels too low, every time Pennsylvania runs up against NAEP, 
if NAEP is much higher or much lower, there is a disconnect.
    Mr. Regula. That is a universal test, NAEP?
    Mr. Hickok.  It is an assessment sample. Every State will 
do it, but it is a sample of student performance. It is not a 
universal test in every State, but it will be a benchmark for 
States to compare.
    In addition, because every State and district will do 
report cards, it will be much easier for a parent to pull down 
the report card off the web of, say, Pennsylvania and look at 
Pennsylvania's performance on its assessments, how it compares 
on NAEP and how it might compare to other States in terms of 
where they are both as a State and on NAEP. So that context of 
comparability will make it, we think, a little bit more 
difficult to game the system. We think some gaming will go on, 
but overall, I think, as parents and policymakers, as 
taxpayers, we will get a better sense of where a State is, and 
it will be difficult for a State to continue to be a low 
performer.
    Mr. Regula. You are assuming that the parents will bring in 
the accountability factor because they are the ones that would 
have to rely on the measuring standards as to whether or not 
their children are getting a good education. Who else is going 
to enforce accountability?
    Mr. Hickok.  Well, certainly we are. That is our primary 
responsibility.
    Mr. Regula. By withholding money?
    Mr. Hickok.  If we have to.
    Ms. Neuman. Not only that.
    Mr. Hickok.  A couple of things. One is to make sure that 
at a national level there are such things as what we have been 
doing the last couple of days with rallies to encourage parents 
to understand the law, to get them engaged, with more 
information so parents understand.
    We think parents are always going to--as Secretary Paige 
said yesterday--parents are always going to be the most 
important factor in a child's education. But accountability for 
results talks about making sure policymakers at the local 
level--school boards, State legislators, Members of Congress, 
the Department of Education--have a way of demonstrating where 
States are with regard to compliance with the law as well as 
accountability.
    Mr. Regula. I yield to the gentlewoman from Kentucky.

                       KENTUCKY'S TESTING SYSTEM

    Mrs. Northup. I think the example in Kentucky is probably 
one of the best and is something to point out.
    In 1990, we went to an outcome-based program, where schools 
got all their money and basically took a State test. In the 
beginning, the State-developed test might have been reliable, 
but it didn't take long for the people that developed it to 
figure out that the State was paying the bill, and if they 
didn't like the results, they might go somewhere else. So they 
started making this test easier and easier.
    What happened, though, is the NAEP--which is like an audit 
that a few children in every school take--the NAEP tests showed 
that we didn't improve. And the minute the newspapers got ahold 
of that, almost overnight the Kentucky test was scrapped. You 
can make up your own test, but if it is not valid, it will show 
up that your kids have a flat line on the NAEP. Never mind what 
they are doing on the State test.
    So overnight the legislators, the parents, and the 
newspapers reacted--I mean, it was a front page newspaper 
story--and the test got scrapped. It is that sort of 
transparency that holds them accountable.
    Mr. Regula. So you think there was a discipline in the 
system?
    Mrs. Northup.  Oh, I do. I think the NAEP test basically 
says you can establish the criteria.
    In Kentucky, we added a lot of decision-making--creating a 
more-difficult-to-measure assessment. This made it a more 
subjective test.
    But the NAEP asks, ``can you read?'' And the fact is, they 
couldn't read any better after 6 years than they could when 
they started; and that is what precipitated the throwing out of 
the test. They now have a much more reliable test that reflects 
the same results as the NAEP test.
    Mr. Regula. Mr. Hoyer.

                        INVESTMENT IN EDUCATION

    Mr. Hoyer. Thank you very much, Mr. Chairman. First, let me 
say I think everybody on this side of the aisle is clearly 
supportive of--and of course this bill, as you know, may have 
been the most bipartisan bill that has passed; and frankly, 
from our perspective, one of the few bills that was worked on 
in a bipartisan fashion. And I think the four criteria you set 
forth in your statement we all agree with.
    I want to ask you a question that is a follow-up to my 
question to Secretary Paige yesterday. A Nation At Risk was 
issued in 1983. Secretary Bell was the Secretary of Education, 
as you will recall, and of course it said we were at risk of 
becoming a nation of mediocrity. I asked Secretary Paige what 
progress he thought we had made; and essentially I think what 
he said is--and I am characterizing his remarks--we have made 
some progress, but we still are a nation at risk. I think that 
is a fair characterization.
    Now, if that is the case, the general question I want to 
ask you in the context of this bill, the No Child Left Behind 
bill--which all of us obviously agree with, rhetorically at 
least--are we in your judgment making the investment that is 
necessary to both implement the bill and to accomplish the 
objective of not being a nation at risk, of having children in 
mediocre educational settings?
    Mr. Hickok.  In my opinion, the answer to both those 
questions is yes. And let me provide some context for why I say 
that.
    Not only do I think that the Federal commitment in terms of 
resources, which has grown almost exponentially the last 
several years, is a commitment that will make good on the 
pledge of No Child Left Behind, but if you look also at what 
has been going on at the State and local level--and as I 
mentioned a few moments ago, I was the State chief in the State 
of Pennsylvania for 6 years--almost every State has been 
engaged in developing an accountability system. I know Maryland 
has as well, as you know.
    So it is not as though, with the investment of the 
taxpayers at the Federal, State and local level, it is not as 
though we are starting from scratch. If we were asking the 
States to begin afresh with an accountability approach based on 
those four principles, then the amount of investment we would 
have to make as a Nation would be far greater. But we have a 
strong down payment that has been made for several years in 
every State.
    The Federal commitment has grown, as I said. And I think 
that the President's recommendations in this budget are more 
than adequate for the coming year to ensure that the 
implementation of this new law is both moving forward at the 
pace it needs to and having the potential results it needs to 
have.

                   INVESTMENT IN NO CHILD LEFT BEHIND

    Mr. Hoyer. Mr. Secretary, I understand what you are saying. 
Of course, in one sense, the investment suggested here is 10 
percent below what was authorized in the No Child Left Behind 
Act, approximately $2.8 billion as opposed to the $3.2 billion 
which was authorized--in those ball-park figures. You may be 
correct, but in one sense, we are underfunding, at least to the 
extent we passed the bill last year, in our expectation of what 
was necessary.
    Mr. Hickok.  Well, I understand that. Certainly the 
difference in authorization and appropriation is something that 
we see in every budget cycle, obviously not just in education, 
but throughout the Federal budget process. And I think that is 
the nature of that process.
    But I have to say, and I might be somewhat of a lone eagle 
on this, but the amount of money that this Nation spends as a 
Nation on education is not providing, and has not provided, the 
kind of return on investment that we should demand in this 
country. And this budget that the President has submitted, 
along with last year's budget, which called for a pretty 
sizable increase in spending, I think says to the education 
establishment that we are committed at the Federal level, we 
are committed to seeing No Child Left Behind transform 
education, but we need to see that transformation begin as soon 
as possible. And as that transformation starts to take place, I 
think that will drive additional arguments for perhaps 
additional resources. But then we will know how best to target 
those resources to what works.
    Mr. Hoyer. Mr. Secretary, I agree with you that we are not 
getting the return we ought to get. I think we have been sloppy 
in our expectations of both the performance of children and the 
performance of teachers. And, very frankly, I think the 
greatest group of people who are failing in America today in 
the education of their children are parents. If there is a 
culpable group in America in terms of children's education, it 
is parents. Not all parents, obviously. Some parents have high 
expectations for their children and are engaged with their 
children. But there are far too many parents who are not, and 
the children get that message very quickly that maybe this is 
not very important because mom doesn't think it is important or 
dad doesn't think it is important; or alternatively, mom and 
dad just don't have the time, which is tragic.

                            TEACHER SALARIES

    But having said that, Secretary Paige, in response to a 
question by Mr. Sherwood--who just came in--talked about the 
differential. We have a pay-for-performance provision, as you 
know, in Title II of the education bill, which is underfunded 
in terms of quality of education and teacher quality, which, as 
you know, we have cut $163 million from overall, if you take 
all the teacher quality programming.
    So I hear what you are saying, but we have one of the most 
important things that any society does and we pay the people 
that we expect to perform that objective less than almost any 
other professional group in America.
    Ms. Neuman. As a former teacher, I agree.
    Mr. Hoyer. Secretary Neuman agrees. There is no dispute on 
that, Mr. Secretary. And with all this harping about how much 
money we are spending on education, I have three children who 
are the children of an extraordinary teacher who has 24 centers 
throughout the State named after her, early childhood 
multiservice centers, the Judy Centers, and none of them want 
to be teachers. Why? Because mom worked too hard and was paid 
too little.
    So you can say we are spending too much money, but when we 
are paying starting teachers in St. Mary's County a wage that 
they cannot afford to have housing, leased or buying, something 
is wrong. I have nobody in my office with any responsibility, 
except the very, very lowest starting salary in my office, that 
is making what a starting teacher is making in St. Mary's 
County. You cannot expect young people to come into this with 
high expectations.
    And you are absolutely right, we need to have high 
expectations. But if we are going to have high expectations and 
we are going to hire the kind of people who can meet those 
expectations, who can interface with children, parents, and 
administrators to accomplish the objectives that No Child Left 
Behind expects, we have to be competitive in the marketplace.
    My time is up, and I will end. Obviously, that was not a 
question, but I would like your comments on that.
    Mr. Hickok. And I would like Susan to comment on that as 
well. I don't think we are spending too much. One of my 
concerns is knowing what we are getting for the money we spend, 
making sure we are spending it the right way.

                     INVESTMENT IN TEACHER QUALITY

    Mr. Hoyer. You and I agree 100 percent. We cannot have 
children obviously not able to read in the ninth grade and 
think we are getting what we are investing. I agree with that. 
Everybody has to agree. And we need to be tenacious in our 
expectations.
    We have a lot of teachers, unfortunately, who slot children 
when they start: Oh, you are from a poor family; you are from a 
minority family; therefore, you cannot perform. That is hooey. 
There is not a child in America who cannot perform if they are 
expected to do so, and they will want to do so.
    I have other questions I will get at in the next round, but 
in terms of our investment--and I would like to hear Secretary 
Neuman's comment on that, because I think, at heart, we are not 
competing in the marketplace for the talent necessary to meet 
our expectations of what we want them to do; and that is 
particularly true when we were talking about the District of 
Columbia. And the chairman asked the question that is 
particularly true in our urban areas, where it is much tougher.
    You talked about pay differential. Any corporation that had 
a tough job in the United States, or we send people overseas to 
put them at risk, we pay them a differential. Why? Because they 
are at risk and it is tougher. And we have a lot of urban 
teachers who have a very tough job and we do not necessarily 
pay a differential. In fact, Montgomery and Fairfax could pay a 
lot more money because their base is a lot more. The chairman 
has spoken to this in terms of Cleveland, or any of our other 
large cities in our States where they have a tougher job.
    Thank you, Mr. Chairman, for allowing me to just talk.
    Mr. Regula. We can be a little more casual this morning. I 
think Ms. Neuman wants to comment, and then we will go to Mrs. 
Northup.
    Ms. Neuman. I just wanted to mention that, as an ex- 
teacher, we always think we are a teacher. I can tell you that 
when I got into the profession, I got into the profession 
because I had a sense of mission; it wasn't the salary. We 
could never pay teachers enough for what they do for our 
children, when they are really excellent. But I went into it 
because it was a mission.
    A lot of the teachers who are now in the position of 
teaching have not seen the progress that they need to see in 
terms of children's success. There are several things I think 
are critical in No Child Left Behind that will allow them to 
begin to see that.
    One, the accountability will really begin to tell teachers, 
``I am making a change in children's achievement.'' That is why 
they stay in teaching, not because they hope that they are 
going to get the greatest salary in the world. They stay in 
teaching because they want to help children. And when they 
begin to see that the accountability is affecting how children 
are achieving, there is more in that than anything.
    The second thing is Reading First; as you know, it triples 
the Reading Excellence Act funding and reflects scientifically 
based evidence. Again, now our teachers will be able to receive 
high-quality professional development that will ensure that 
they really do know how to teach, and the accountability system 
will be influenced by that.
    The third thing is, we have a number of initiatives, not 
just in Title II, that will focus on providing high-quality 
teachers to all of our children. There are a number of 
programs--Reading First, Early Reading First--that also provide 
professional development. But this is why people stay in 
teaching. They feel that they are doing their job well. And I 
think that the accountability system will begin to examine 
that.
    Mr. Regula. Interesting observation.
    Mrs. Northup, you can have extra time. We are pretty casual 
this morning.
    Mrs. Northup. I agree with that; however, I wanted to 
comment on that, too.
    I think Mr. Hoyer is right. We are not paying our teachers 
much, but I would like to make a couple of observations, as 
well.

                 STATE AND LOCAL INVESTMENT IN TEACHERS

    First of all, the majority of the money that comes to 
school systems is from States and local governments. Now, they 
may be on very tight budgets right now, but 2 years ago in my 
State, they had huge surpluses and only upped the amount of 
money they invested in education at minimal levels, because 
they wanted to go build buildings and do all sorts of other 
glitzy things.
    We spend anywhere from 7 to 9 percent, depending on the 
study, of Federal dollars in our schools. Our dollars are not 
primarily the foundation of teachers' pay. The biggest expense 
our local schools have is teachers' pay. And when States make 
the decisions and local communities make the decisions to go 
spend the money on a lot of glitzy things instead of schools, 
there is a problem. I am hoping the accountability factor here 
will help put pressure to put it into education.

                          TEACHER SATISFACTION

    I would also agree with you on teacher satisfaction. In 
Jefferson County we have about one-fifth to one-fourth of our 
students in the Catholic school system, which pays far less 
than the public school pays. But there is a great deal more 
satisfaction there because all the Federal bureaucracy and all 
the red tape and all the forms that have to be filled out don't 
apply to those teachers. So consequently, they can--if they 
have a child that has a problem-they can meet with the 
principal, they can meet with the parent, and they can try to 
work through the problems. Their hands aren't tied by a lot of 
red tape.
    I just ran into a teacher last year who taught with me when 
I first got out of college. She went into teaching and she was 
fabulous. She said to me, ``I retired 2 years ago because I 
couldn't stand the red tape that was involved any more.''
    Now, we have done nothing to help alleviate that. We may 
have added dollars, but for every dollar we added, we added a 
lot more forms and red tape and things that made teacher 
dissatisfaction higher and did nothing to relieve some of the 
problems that they have.
    Finally, I will say that the overwhelming complaint I hear 
from teachers concerns children that have behavioral problems 
and have learning disabilities and other problems. They feel 
their hands are tied in terms of recommending the best solution 
for those children. Consequently, they have to neglect the 
other children due to mainstreaming requirements.
    Now, we all agree that mainstreaming is hugely important to 
all children in terms of socialization, but as a mother that 
had some children with a learning disability that I could 
afford to put in a special school so that they learned to read 
by fourth grade and learned to read at the top of their class I 
resent, on behalf of parents who also have children with 
learning disabilities, that they told by their school, ``we 
can't provide a separate, intensive, explicit intervention for 
your child because your child has to be in a mainstreamed 
classroom.''
    Parents don't like it and the teachers don't like it, but 
there is this idea that Federal regulation mandates that.
    So in terms of the bureaucracy, there is the Federal red 
tape and not allowing flexibility. The more we talk about our 
responsibility, Mr. Hoyer, in my opinion, for teacher salaries, 
the more we convey to our States and local communities that 
they do not have to wring their own hands over this. And I 
think that is wrong.
    Mr. Regula. Would you like to comment?

                    FEDERAL INVESTMENT IN EDUCATION

    Mr. Hoyer. I just want to make sure that I am not 
misinterpreted as saying that States and localities don't have 
a responsibility. They do. My response was to the fact that we 
spend a lot of money on education. We do.
    Do we waste some money on education? Yes, just as we do in 
almost every other large enterprise that we spend a lot of 
money on. Defense, education, welfare, whatever it is, if you 
spend a lot of money, you are going to waste some money because 
that is just the way it is, including most successful large 
corporations in America. They do, as well.
    What my point is, and I want to make two points, first of 
all, we keep using this 6 or 7 percent figure. That is a 
misleading percentage. It is a misleading percentage because 
the Federal Government really doesn't engage in most of 
education. It engages, however, pretty significantly, at two 
levels: at-risk young children and higher education. That is 
where the Federal Government engages.
    The large number of average students from 1 to 12 really 
are not substantially impacted by the Feds. But at-risk 
children from economically deprived families, I will bet, Mr. 
Secretary--well, if I can ask, do you know what that percentage 
is for those children? Because it must be in the neighborhood 
of 30 to 35 percent.
    Mrs. Northup. Of what?
    Mr. Hoyer. Of at-risk, economically challenged children.
    Mr. Hickok. You are exactly right. The bulk of the Federal 
effort is targeted toward at-risk, low-income children.
    Mrs. Northup. Right.
    Mr. Hoyer. So my point is, when we use the 6 or 7 percent, 
it looks like we are not making much of an impact. And that is, 
of course, true for the overwhelming majority of students in 
our primary and secondary education system, because most of our 
dollars, as I say, go to at-risk young children and to higher 
education.
    We spend a lot of money in higher education and we spend a 
significant amount of money--do you see my point?
    Mrs. Northup. No, I don't. Because my question is, if we 
are going to raise teacher salaries, they will be raised in 
suburban schools--in schools that don't have Title I kids--and 
they are all on the same schedule, based on the negotiated 
salary with the union.
    So do you think we should be responsible for getting all 
their salaries up? I thought we were targeted on at-risk kids.
    Mr. Hoyer. Let me respond to that.
    We are in an extraordinarily mobile society. And the fact 
that the child in Mississippi or the child in California or the 
child in Maryland is treated disparately impacts the Nation, 
frankly. It is not like it was, in my opinion, 100 years ago, 
where the child in Mississippi or the child in California or 
the child in Maryland would probably 40 years later be in 
Maryland, be in Mississippi, or still be in California. That is 
not true today. They are all over the country, very rapidly.
    Therefore, what I think the President was talking about, 
President Bush, with which I agree, is that, hey, these are 
American children, and we have some responsibility to make 
sure----
    Mrs. Northup. Well, Mr. Chairman, I want to make sure I 
don't lose the rest of my time here.
    Mr. Hoyer. I think we have all used much more time than any 
of us have.
    Mr. Regula. We are much more casual here. Wait till we hear 
from the school board here in a minute.
    Mr. Hoyer. We need to make sure that what the national 
testing--which, by the way, I am for; I was for it when Clinton 
proposed it, and I was for it when Bush proposed it. There were 
an awful lot of people that weren't for it, and they will make 
some distinction about what Clinton was for, a voluntary test 
and not a mandatory one; but they were against that and now 
they are for this.
    I am sure there is a distinction which has eluded me, but 
other than its being Clinton's proposal and Bush's proposal, 
other than that, I think the concept is absolutely accurate.
    The parent in Mississippi, the parent in Maryland and the 
parent in California needs to know, because their children are 
going to move around America, and indeed globally, how is my 
child doing; not as it relates to just the children I am going 
to school with, because they are all awful and my child is 
doing a little better than awful. That is not so great if, in 
fact, the Maryland child is not doing as well as the child in 
Mississippi or California.
    Teacher salaries, my point was, Anne, that when we say we 
spend a lot of money on education, yes, the majority of that is 
on salaries; not on buildings, not on books, on salaries. Why? 
Because any large enterprise, Defense Department, is largely 
salaries, comes close there because we do so much on capital 
spending. Therefore, yes, we spend a lot, but are we spending 
enough? If you are Bill Gates at Microsoft and you spend X 
number of dollars on personnel and it doesn't make you 
competitive, it is too little.
    Mrs. Northup. If I could just go on because----
    Mr. Hoyer. That is my point.

                             READING FIRST

    Mrs. Northup. Okay. Let me go on and ask you about Reading 
First. That is really what my questions were about. I am 
concerned about what sort of quality control there is going to 
be in terms of Reading First. What programs are going to be 
approved?
    Specifically, I understand that we know the criteria of 
programs that help children, especially children at risk that 
are most likely to fail based on all our demographics. And 
those children often happen to have the fewest choices of where 
they might go if the system in place for them fails.
    My concern is, if States are going to be the ones to 
approve this and they have no expertise in what makes a good 
reading program, how is there going to be quality control as we 
appropriate this money?
    Ms. Neuman. That is a wonderful question and something, of 
course, I am very concerned about as well. I think we have a 
number of good ways of ensuring that that happens, or at least 
ensuring that that happens most often.
    As you know, the applications have just gone out for 
Reading First. States are beginning to develop their plans. We 
have had the Secretary's reading leadership academies here in 
Washington that were really designed to focus on what is 
scientifically based evidence. What do we know about screening, 
diagnostic, and classroom-based methods of testing, and how can 
we ensure that teachers are professionally capable of 
delivering this instruction? One of the things we also talked 
about was quality of instructional programs, which you talked 
about just now.
    After the application is completed, States will be sending 
it back, and then a team of experts will be lookingat that 
application. And if, in fact, the approach does not indicate 
scientifically based approaches and a clear definition of exactly what 
they will do and how they will compete it with the local school 
districts, they will not receive the funds until they receive some kind 
of technical assistance to ensure that it is high quality.
    Mrs. Northup.  I think what concerns me is, for example, in 
Louisville. We have what we call the Five-Block Program.
    Ms. Neuman. I know.
    Mrs. Northup. I mean, it is terrible. Fifty percent of our 
schools declined in reading last year. We have a superintendent 
who insists that this is a good program and says it contains 
phonics, even though phonics is the smallest part of this 
program.
    We have 28 inner-city ministers who have come together for 
at least 6 years, begging for a phonics-based system for their 
children. These students are the ones most likely to fail. They 
are all minority students, they are disadvantaged, their 
parents don't have any choice, and yet he believes in a much 
more Whole Language, learn-at-your-own-rate, limited systematic 
approach to reading.
    The one school in our district that did fabulous on the 
reading test over and above their recommendations changed to a 
phonics-based system with direct instruction. They went from a 
47 to a 73 score. And what happened? The next month they 
removed the principal because they didn't want him talking 
about how important phonics was. Now, what do they say? ``Oh, 
we qualify it, we have phonics as one of our blocks.''
    So how do you see through that and make sure that the 
parents that are asking for a true research-based program get 
it?

                             READING DEBATE

    Ms. Neuman. Again, your questions are just right on target 
and wonderful. I mean, it is something that we are grappling 
with all the time.
    As you well know, reading has been a source of ideological 
warfare rather than anything based on real, sound scientific 
evidence. For many teachers, the term scientifically based 
reading research is a scary term, and they are disinclined to 
go in that direction. They think it is an art and that it 
should not be necessarily a science.
    So I don't want to suggest that is an easy battle, because 
I think it is not. I think it is a battle for the hearts and 
the minds of American children.
    Mrs. Northup.  These aren't the teachers and these aren't 
the parents. This is the superintendent.
    My question is, how are you going to be able to look at a 
program and decide--and the State, I guess, is going to be the 
one that is going to decide--whether this program qualifies or 
not. If you have a State that generally takes the biggest 
school system in the State and says yes to it, whatever it 
wants, how does that work?

                             READING FIRST

    Ms. Neuman. You will see, in the application form, that it 
asks for very specific information. We do not specifically ask 
for programs, the name of a program; rather, we ask that they 
provide scientific evidence that that program works and that 
the scientific evidence is indicated through a peer-reviewed 
journal, and not some microfiche clearinghouse, but it really 
is in a peer-reviewed journal with experts who have looked at 
those data.
    So they will have to describe and justify their program. 
And then a team of experts will be looking at that to ensure 
that that happens.
    In addition, let me just say that we are in the process now 
of developing a very stringent peer technical assistance system 
where we believe that we will have to very aggressively monitor 
those programs to ensure that once the money goes through the 
State, to the school district, that they continue to use 
scientifically based evidence.
    Mr. Hickok. Plus, if I could just add on, we are going to 
say that after 2 years we want to see what the results are of 
this process. And if we see the kind of results you are talking 
about, where you see either a static or a decline, we are going 
to say something about whether or not those funds continue to 
flow to the local level.
    So part of this is to have in the application a much higher 
set of principles you are going to have to demonstrate and, 
then, technical assistance to help you get there; but in the 
end, also some consequences if you are not successful.
    Of all the areas of education, we know what works in 
reading. The tragedy is, we know it and far too many people 
don't do it and your Louisville example is a dramatic 
illustration of that. With any combination of luck and 
persistence, that will be the exception and not the norm in the 
next couple of years.
    Mr. Regula. Mr. Sherwood, you have been very patient. You 
have had 20 years of experience with these kind of problems, so 
here is your opportunity.
    Mr. Sherwood. Well, thank you.

                        CHALLENGES IN EDUCATION

    About 25 years ago, when I first came on the school board, 
we were just going into a new elementary school with pods and 
no walls. What a dumb thing to do. And yet the experts had 
convinced us that that was the right thing to do. Well, it took 
us about 3 years to put walls up and get our classrooms back 
under control.
    My experience is, it takes a lot of hard work and 
commitment to run a good public school; and I think you are on 
the right track with accountability. We have to be accountable. 
I said in here yesterday that I thought one of the greatest 
tragedies of the public school system was that we pay the worst 
teachers in the system and the best teachers in the system 
exactly the same amount of money if they had the same education 
and the same time in grade.
    I think you should set down common-sense rules and 
regulations that apply to the school district's use of Federal 
dollars and fund your mandates.
    Now, we know that the average school in Pennsylvania only 
gets about 8 percent of their money from the Federal 
Government, but it is targeted. It is primarily the school 
district's and the State's responsibility to fund education. I 
don't think it is the Federal Government's responsibility to 
fund all elementary and secondary education. But I do think the 
Federal Government has some responsibility to help fund the 
things they mandate. Special education is a great example of 
such a mandate.
    I don't consider myself an expert on education, but I do 
think I have some experience on how a school board acts and 
what a school board member's responsibilities are. And I would 
say that the most critical thing the school board does ever is 
hire the superintendent. The minute they think they have one on 
the wrong track; they had better find another one. Because it 
is the superintendent who runs the schools. The school board's 
responsibility is to raise the money and to hire a competent 
superintendent.
    But when Federal regulations come down, and a school board 
does not have the money to implement them, that leads to the 
greatest moral dilemma of a school board today. They must 
decide which students get the money. Because if they spend as 
much money as the law would suggest, on appropriate education, 
on the very small percentage of kids with special needs, it 
really detracts from what you are able to do with the other 85 
percent. And I am not sure but what the Federal Government has 
not given school districts a little bit of a hard goal there.

                            CHARTER SCHOOLS

    With that little bit of ``philosophy according to 
Sherwood,'' there is one thing I would like to ask you, Dr. 
Hickok. I am sure you are aware that with charter schools we 
have a lot of controversy going on right now in Pennsylvania 
with Einstein.
    Mr. Hickok.  Yes, I know about it.
    Mr. Sherwood. I am sure you do. And I would like to know a 
little bit more about what you know about it.
    When charter schools came out, I was a real advocate of 
them because I had been fighting for years what I thought was 
the inertia of the system. So I am very willing to try some new 
things as long as they make sense.
    We have a tenure law in Pennsylvania that is probably 
counterproductive to education, but there probably isn't a 
State legislature in the world that would have the political 
capital to change it, and those are some of the things we work 
under.
    Where are we with Einstein and what sort of Federal 
oversight of charter school programs are appropriate?
    Mr. Hickok.  My knowledge of Einstein is really primarily 
through the same newspapers you probably read. I think I am 
accurate with this. The State Department of Education, under my 
successor, reached an agreement with regard to payment to that 
charter school, but the issues surrounding Einstein are larger 
than Einstein, and that is, how do you hold schools 
accountable?
    Mr. Sherwood. And that is the thrust of my question.
    Mr. Hickok.  I think Einstein, at least in Pennsylvania, is 
the exception. This is a school that evidently has not been 
delivering the promised curriculum services that it says it is 
going to deliver, for a number of reasons.
    But the issue of accountability in a charter school really 
boils down to this: The beauty of the charter school movement 
is, if it doesn't work, you close it down. We have seen that in 
Pennsylvania and we have seen it in States across the country. 
The beauty of the charter school system is these are public 
schools that either deliver on their promise or they cease to 
exist. That is, again, the exception in public education and 
not the norm.
    Although I will say this: Just yesterday, in the city of 
Chicago, the superintendent announced they are going to close, 
I think, three elementary schools that don't work, as opposed 
to continuing to prop them up.
    So I think the charter school system is----
    Mr. Sherwood. Well, Chicago is an unusual situation.
    Mr. Hickok.  Yes, it is.
    Mr. Sherwood. The governor took over the schools; and they 
apparently have the authority to do as management sees fit, and 
that is unusual.

                             ACCOUNTABILITY

    Mr. Hickok.  And I guess my larger point is, and I used to 
be a school board member myself, that should not be the 
exception. We should be able, in this country as we manage 
school districts, to deal with performance in a way that holds 
the system accountable. We should be able to reward outstanding 
performance in teachers and schools, and we should be able to 
deal with poor performance in teachers and schools. Right now, 
we can do very little of either of those things. That is why 
this accountability is so important.
    I think, in the end, it will be more difficult to ignore 
failure. And that has been a huge problem in public education; 
we close our eyes to it, and that is a shame. We shouldn't do 
that. We should do something about it.
    Mr. Sherwood. And I think that is--part of the Federal 
Government's role----
    Mr. Hickok.  Yes.
    Mr. Sherwood [continuing]. Is to make the public aware of 
the state of and the progress or the lack of progress, the 
state of education in the country. And we can have the debates 
about teacher pay and so forth. There are many school districts 
in this country where teachers are paid solidly in the middle 
of the middle class and have wonderful security and think they 
have very good jobs. There are others that are different, I 
understand.

                           SCHOOL LEADERSHIP

    One thing that I would think you should keep in your 
deliberations, as a school board member, I think the pool of 
qualified administrators is becoming critical. There are many 
reasons for that. But when you go out to hire a new 
superintendent or a new high school principal, right now, you 
are lucky if you get the quality of applicants that you would 
like to look over, and there is just a little bit of a shortage 
there.
    You do not find too much of a shortage when you need to 
hire teachers, except in math and science. But your 
administrator pool is quite often lacking, and that is so 
crucial. I think we have a little institutional 
dysfunction.Normally, people aspire to the next level of 
responsibility. In public education, I am not sure that is true any 
more.
    Mr. Hickok.  Just to follow up very briefly. We also have 
to look at how people are prepared to become leaders in 
education. Education has changed a lot. The world in which 
public schools exist has changed a lot. But in most places the 
way we prepare teachers and the way we prepare administrators 
hasn't changed much, and that is a big concern of ours.
    That is one reason why No Child Left Behind is so 
important, because the tools needed to run a district are 
different tools than they were 30 years ago, and we need to 
make sure our leaders are prepared to use those tools.
    Mr. Sherwood. Thank you, Mr. Chairman.

                         COLLEGES OF EDUCATION

    Mr. Regula. Well, I think both your comments and Mr. 
Sherwood's are right on target. I am a little concerned that in 
this program there is not enough emphasis on the quality of 
teachers in the classroom and, particularly, on quality 
principals, because they become the leader of that school, and 
the quality of superintendents.
    I think Mr. Sherwood makes a good point. I am not sure that 
this program addresses that problem. Your Title I goes to those 
who require some special attention; but to have a quality 
school system, you are going to have to somehow get into the--
and I am not sure what our role is working with colleges of 
education--to get good teachers, A, to get good principals, B, 
and to get good superintendents, because the battlefield is no 
better than the general.
    What is your response?
    Mr. Hickok.  We have had a lot of conversations with 
schools of education, both formally and informally. And one of 
the things we have told not just the schools of education, to 
be honest with you, but higher education generally, is that 
preparing teachers and professional development should be a 
much higher priority in all of education. Certainly not only 
the schools of education need to do a better job, but all of 
higher education; we are pretty consistent in telling 
university and college presidents they need to step up on this 
issue.
    Also, if you look at the law, it references highly 
qualified, high quality teaching. That is an important term. 
You will notice in the law it doesn't say ``certified,'' it 
says ``qualified.'' We make the distinction in far too many 
places, and I will fall upon my experience in Pennsylvania, in 
far too many places they certify a teacher. This is really just 
certified in the sense that it is a sort of minimal standard to 
become a teacher.
    In a standards-based environment, teachers need a lot more 
time on content. They need a lot more background in 
disciplines. Certainly in reading, now that we know what works, 
teachers need to be taught how to teach reading. And not just 
elementary schoolteachers, sadly, but everyone needs to be 
exposed to it.
    And so, in No Child Left Behind we talk about the 
importance of alternative approaches to becoming teachers, and 
the Troops to Teachers and Transition to Teaching programs. We 
talk about better professional development that tries to relate 
professional development to student achievement and success. It 
is a very critical area, and I think that the policies under 
Title II and Transition to Teaching and other programs 
demonstrate this has to be a primary focus.
    But again, to follow up on Susan's comments earlier, this 
is kind of a culture shift. To ask the schools of education to 
think differently about how they prepare teachers and to ask 
university presidents to spend more time talking about how 
other faculty from the arts and sciences ought to be spending 
time on this will take some time to achieve. But I think it is 
a very important part of this conversation.

                      TEACHER PREPARATION PROGRAMS

    Ms. Neuman. I just wanted to add a point, as a previous 
professor of education and I feel a little guilty saying this. 
But our teacher preparation programs in the universities, some 
of our very finest universities, are a cash cow for the 
university. Unfortunately, they have often financed other 
programs.
    And this just really is unfortunate, because many of our 
teachers are coming out of our 4-year institutions, good 
schools, not well prepared. Many of them are going back getting 
their Master's degrees and still not knowing the research 
behind what is good instruction in our schools. It is a 
terrible problem.
    I think what we have tried to do so far is--in addition to 
Title II--I think we have really tried to use the bully pulpit 
in a number of ways, bringing in large university systems and 
saying that licensure does not mean total academic freedom to 
teach whatever you want. What we need to do is have teachers 
who are highly qualified in the areas in which they teach.
    One of our recent surveys shows that over 56 percent of our 
elementary schoolteachers only have a general education degree. 
Now, this is very serious, because what we are finding is our 
teachers are not capable in basic literature, reading, and 
math. How can they possibly teach our children when they do not 
know the materials themselves?
    So one of the things that we think is extremely important 
is subject matter competence, so that we get teachers who 
really do know their subjects and can convey that information 
to our children.
    Mr. Regula. I had the president of a State university in 
Ohio in yesterday and raised this issue with him. They have a 
5-year program, and they start teachers in the academic 
programs before they get to the how-to courses.

                            TITLE I FUNDING

    Would you have a problem if we shifted as a policy matter 
some of the Title I allocation into this teacher program? We 
have to make decisions here. Where do we get the most bang for 
the buck in terms of America's children? I think we have to 
have more emphasis on teacher and principal and superintendent 
programs.
    We have a finite amount of money here, so we might have to 
move some of the Title I money over to these other programs, or 
Title II. What is your feeling?
    Mr. Hickok.  My number one goal, and I know Secretary 
Paige's number one goal with Title I, is to see what kind of a 
difference it makes. That should be our goal with all of our 
investments. But certainly since the largest single investment 
is in Title I for our most needy students and our most 
difficult schools, the first goal should be to find out whether 
or not we are getting the kind of results we should get. Part 
of that should be, I think, devoted--Title I money in schools--
to improving teacher quality, because these kids need the best 
teachers.
    Whether we want to divert that in terms of teacher quality 
to teacher preparation programs is a separate debate. I think 
most of us would agree, whether it is Federaldollars or not, 
that this country needs to really focus on this whole notion of teacher 
preparation. And in far too many places it has not received the kind of 
attention, at least, it should.

                          TEACHER PREPARATION

    Mr. Regula. I think Ms. Neuman hit it on the head. A lot of 
colleges see it as a cash cow. And I think I am going to get 
the president of the university in question in here when we do 
the hearing on teacher quality to tell about the program they 
have. I was extremely impressed. They are treating it as a 
profession, not just as something to get a teacher out in a 
classroom.
    Mrs. Northup.  Mr. Chairman.
    Mr. Regula. Yes.
    Mrs. Northup.  Let me just say that, first of all, that we 
have a 5-year program now at the University of Louisville and 
the students don't like it. In 4 years we train engineers; we 
train all sorts of people in 4 years. I don't think that you 
need longer than that.
    I told you about my school system and the reading, so it 
probably wouldn't surprise you to find out that U of L teaches 
all Whole Language. So, overnight, they would change their 
program. If the only reading teachers Jefferson County hired 
were people that understood phonics, they would change their 
program. But right now every teacher gets to teach the way they 
want to teach.
    Five years at U of L doesn't help if they are not learning 
what the science-based reading is. There has to be a discipline 
here. It is not a question of how many years or of diverting 
money. We have to have an outcome-based system.
    Mr. Regula. Of course, this goes to the question of what do 
you pay? If you are going to treat it as a true profession, you 
have to pay on that basis.
    We can have a pretty rocky discussion here, and maybe we 
will when we bring some of the people in on the day that we 
talk about teacher preparation, et cetera.
    Mr. Regula. Ms. Pelosi.
    Ms. Pelosi. Thank you very much, Mr. Chairman; and our 
witnesses, thank you for being here. Thank you for your 
testimony.

                   INVESTMENT IN NO CHILD LEFT BEHIND

    I was interested to read, Secretary Hickok, that you said 
the enactment of No Child Left Behind was a watershed event in 
the history of Federal support in K through 12 education, and 
it gives you great pleasure to discuss its significance and the 
Department's efforts to ensure its successful implementation 
across this country. I think everyone was very pleased. There 
are many people across the country who were very pleased and 
helpful when the President signed that bipartisan piece of 
legislation. That is why it is hard for me to understand, as I 
expressed to the distinguished Secretary yesterday, how he 
could come in here with a budget request that is $7.2 billion 
short of the authorization of No Child Left Behind. You should 
call it, I said to the Secretary, the Millions of Children Left 
Behind Act.
    You just talked a great deal about the teacher training, 
and indeed the request you make cuts teacher training, when 
H.R. 1 increased requirements for teacher qualifications to a 
$163 million difference; concerns about freezing funds for 
after school programs, when only 8 percent of eligible children 
are served; freezing funds for bilingual education, when new 
requirements were just enacted and need increasing.
    Yesterday, I asked the Secretary, but his response was 
vague, but how are we going do deal with additional needs for 
testing for children who are bilingual?
    They talked about test development generally. They said, we 
put too much money in test development, actually, but ignored 
the specific challenges that schools with a multilingual 
student base.
    The other point is that this whole discussion is indicative 
of the fact that there is not enough money in this budget for 
either Title I or teacher training. So I get concerned when we 
talk about Title I funding over the loosest interpretation of 
what Title I funding is supposed to be for.
    But listing those is just some of my concerns. I get back 
to the basic question, how can you discuss the significance of 
the bill, your efforts to ensure its successful implementation 
when your request is $7.2 billion short of what the bill calls 
for?
    Mr. Hickok. We had a pretty interesting discussion on this 
issue a few minutes ago before you were here, in the sense that 
I think it is not unusual in the budget process in this town to 
see a pretty dramatic, sometimes, distinction, whether in 
education or any other Federal agency or Federal purpose, 
between authorization and appropriation levels.

                          2003 BUDGET REQUEST

    Ms. Pelosi. If I just may, I appreciate that, because we 
live in that world here. But this bill was heralded--it was a 
banner bipartisan bill that was going to meet the needs, and 
you specifically said how you were going to ensure that bill's 
successful implementation. That bill's successful 
implementation, not the generality of authorization, is about 
policy; and appropriations is about appropriating resources. 
But you said the successful implementation of that bill which 
has $7.2 billion more in it than what you were requesting.
    Mr. Hickok. I think the amount of money that we have 
received in the current budget and the budget that we are 
asking Congress to look at now is money that will enable us to 
successfully implement No Child Left Behind.
    You mentioned the teacher issue, for example. If you look 
at 1996, the Federal effort on teacher quality, if you will, 
broadly conceived, was about $300 million. Now it is closer to 
$3 billion. That is a substantial increase. And I think it is--
--
    Ms. Pelosi. But you are talking about the past. I am 
talking about the bill that the President waved as the banner, 
the sign of hope to children across America. I understand you 
want to put it in historical context, but the fact is that I am 
asking about that bill that passed this Congress. And, you 
know, I respect what you do and I want to extend every courtesy 
to you here, but I wish you wouldanswer the question. Not about 
1996 and increases that we all voted for in the Clinton administration 
for teacher training but how we are going to implement No Child Left 
Behind and the promise that extended to the American people and to 
their children.

                        INVESTMENT IN EDUCATION

    Mr. Chairman, I don't mean to be contentious, but children 
are very smart. This bill, as important as it is, doesn't even 
go to the issue of school modernization, which is a very 
important need that isn't being addressed in any of the 
initiatives that we have.
    We tell children that education is important to them, that 
it is about their own self-fulfillment, it is about economic 
survival, it is about the international competitiveness of our 
great country. We tell them that it is important. They must 
study and work hard in school. And yet we are willing to send 
them to schools that are not up to par. If we don't place a 
value on it, how do we expect children to? And they not are 
wired for the future, not equipped.
    So if children are smart, if we say this is important, if 
we say our life's work in Congress is to invest in education 
because it is key to the future and then we do something so far 
short when it comes to the money, it is disappointing.
    Because I thought we were all in this together in a very 
bipartisan way to help children and to keep--everything we see 
in science in the other part of our jurisdiction in this 
committee tells us children do better in smaller classes, 
indeed many in smaller schools. And yet we ignore that sign by 
not putting money into the modernization.
    This isn't about spending, it is about investing. Nothing 
is more dynamic to our economy or to our budget than investing 
in education. There is no tax cut, no anything that you can do 
that brings more money to the national Treasury than educating 
American people, whether it is early child, K through 12, 
higher education or lifetime learning.
    So that is why, when this bill which is so key and so 
central to all of that, even though it ignored, it doesn't go 
into the school modernization piece of it, comes in so far 
short it raises questions about how on earth we could have ever 
made those promises to the American people about what we were 
going to do on education when before the ink was really dry on 
it you come in with such a meager budget.
    I probably have no time left. I used my time. If the 
Chairman will allow a comment, I invite it.
    But I know you said you have been through this before. You 
are going to be through it again. No, it doesn't add up. It 
does not add up. It just--it can't work at $7 billion short.
    I don't know if I have any time.
    Mr. Regula. Well, we have been rather casual about time 
this morning, so I will give you a few minutes.
    Ms. Pelosi. In fairness to the witnesses.
    Mr. Regula. Would you like a few extra minutes?
    Ms. Pelosi. Just if they would like to comment. I won't say 
any more.

                          2003 BUDGET REQUEST

    Mr. Hickok. I guess the best way I can phrase it is, we 
disagree. I think the budget that we have asked Congress to 
look at with regard to education is a budget that will allow us 
to implement. And my job is to oversee that implementation, 
along with the Secretary, of No Child Left Behind. It takes 
many years for implementation, as you know, but this is the 
first year with this new law; and I think we can assure you 
that this budget will be enough to get that job started. 
Especially when you look at the fact that, as I said earlier, 
this is not starting from scratch.
    It would be a far different set of issues if we were going 
to the States and saying we have to create out of whole cloth 
accountability systems and testing systems and academic 
standards and professional development. The fact is that every 
State, in a variety of different ways, has been engaged in this 
work. This is really an attempt to make a more rational 
accountability system from what is already taking place.
    But I just think that we feel very strongly, and I can't 
say that strongly enough, that we feel this budget allows us to 
do that good work.
    Ms. Pelosi. This was your professional judgment request?
    Mr. Hickok. Yes.
    Ms. Pelosi. Your professional judgment request on the 
implementation of No Child Left Behind is what you are asking 
here today?
    Mr. Hickok. Not only that, but I will say my previous 
career was State Chief in Pennsylvania. As a State Chief--I 
consider those people now my former colleagues--I think that as 
I look at this budget from that perspective I will always want 
more. That is not a debate. But I think this is a responsible, 
prudent budget for the first year of implementation of the No 
Child Left Behind.
    Ms. Pelosi. You don't find a problem with the shortfall of 
$7 billion?
    Mr. Hickok. I don't consider it a shortfall.
    Mr. Regula. I think this has been a provocative discussion 
this morning. I think one of the things we heard from both 
sides yesterday is that we have to manage funds as effectively 
as possible, and that is going to be your challenge. We will 
look at the results in a year from now and say are you 
getting--is the education level improving? Because, while it 
may not be enough, we have committed a substantial sum in the 
last 2 years; and, perhaps even more importantly, we have made 
this one of our goals, is to--and we would all agree to say No 
Child Left Behind is an enormous challenge.
    And, of course, it represents a partnership, well, among I 
would say the parents, the teachers, the school 
superintendents, the States, the Federal--you as Federal 
administrators, if we are to succeed. And I think the challenge 
before you and us, to an extent, is how do we best get that 
goal accomplished.

                     STATE AND LOCAL ACCOUNTABILITY

    Maybe you would like to comment, and then we will go back 
around for some additional questions as to just how you think 
we are going to get this done. We test and we have 
accountability and there are some flaws in all of that, as you 
well know, but how do we get this done? How do we end up 2 
years from now with children having a better education 
opportunity than they have today?
    Mr. Hickok. I will ask Susan to comment as well.
    I am going to go out on a limb on this a bit. If we are 
successful as citizens with developing State accountability 
systems so that we are able to determine with clarity how well 
students are doing, how well schools are doing so we can find 
success and not failure, so we can replicate success, that can 
have enormous consequences and fantastic consequences for the 
discussions about resource allocation.
    In other words, if I am at the State level, or if 
asuperintendent at the local level I am much better off going to my 
school board to ask for more money or my community. I am much better 
off coming to Congress if I have evidence of where my needs are, 
evidence that is hard to close your eyes to. That is what an 
accountability system is all about. It is making it easier to make 
tough decisions, as a parent, as a teacher, as a principal, as a 
Congress.
    So one of our hopes is that, down the road, as this is 
fully implemented, when future Departments of Education, let's 
say, come and ask Congress for more money, we will be able to 
do it in a way that gives you the kind of confidence that is a 
smart investment, as opposed to every year coming in and asking 
for more money because that is what we do in this country. That 
is what our hope is in terms of full implementation.
    Accountability in its fullest sense is not about holding 
anybody individually responsible for bad performance or good 
performance. It is about making sure that a system is 
accountable and responsible for the needs of the citizens.
    Ms. Neuman. I was just going to say that the wonderful 
thing about No Child Left Behind, it is not just an 
accountability system. It is a theory of action. And that is 
why we respectfully disagree, I believe, on resources. What I 
mean by that is not only do we have an accountability system 
that really begins to tell us where children are and where the 
resources should be allocated, but on the other side, for the 
first time, we are focusing on the best quality of instruction 
and providing high-quality teachers in our schools.

              BUDGET REQUEST AND PROFESSIONAL DEVELOPMENT

    I wanted to go back to a comment you made before about 
teacher training and less monies in teacher training. But the 
fact of the matter is teacher training is throughout this bill. 
If we look at Reading First professional development, Early 
Reading First professional development, Title I professional 
development, and Title II professional development, what we are 
doing is we are more thoroughly providing instruction to our 
teachers on scientifically-based evidence which will ensure 
that we begin to see results.
    And that is what this Administration is all about. We do 
not want to just throw money at things, but we want to look at 
what makes a difference in children's lives. And in children's 
lives what we are focusing on particularly is reading and math 
achievement.
    Ms. Pelosi. We don't want to throw money at anything.
    Thank you, Mr. Chairman.
    Mr. Regula. Yes, I think we have a little time. I would 
like to have another round. Let's try to limit to 5 minutes 
each on this round of questions.
    Mr. Hoyer.
    Mr. Hoyer. Madam Secretary, let me join Ms. Pelosi. That 
shibboleth of throwing money at things is a fraud, and we ought 
to stop that rhetoric. It is political tripe. There is nobody 
in Congress that wants to throw money at things. There are some 
people who want to spend a lot more money on defense because 
they think we need it. Some people think we need more money in 
education because we want to accomplish results. Nobody wants 
to throw money at things, and that doesn't fly, frankly, with 
all due respect.
    Mr. Secretary, I want you to provide for the record that 
which you asked for from the Secretary for No Child Left Behind 
implementation.
    [The information follows:]

       Request to the Secretary for No Child Left Behind Programs

    The Department's internal budget planning begins in the summer 
before the Administration's budget is presented to the Congress, and 
the Department usually generates its internal funding proposal for 
elementary and secondary education programs during that time. Last 
year, while the Department worked on its Fiscal Year 2003 budget, 
congressional action to reauthorize the Elementary and Secondary 
Education Act (ESEA) was well underway, but it was too soon to prepare 
a funding plan with internal budget recommendations for ESEA 
implementation.
    The bipartisan No Child Left Behind Act (NCLBA) was signed into law 
on January 8, 2002, a month prior to the release of the President's 
Fiscal Year 2003 budget. Late last year, after the Administration had a 
fairly good, albeit incomplete, picture of the provisions included in 
the new law, Administration officials including the Secretary, Dr. 
Hickok, and other senior Department officials met to discuss the new 
budget and to make decisions with regard to a funding plan for 
implementing the proposed legislation. The final numbers, including a 
$1 billion increase in ESEA Title I and a $100 million increase in 
reading, are reflected in the Fiscal Year 2003 request. Because of the 
timing, the Secretary received no internal Fiscal Year 2003 funding 
plan for NCLBA implementation prior to making final decisions.

    Mr. Hoyer. That money obviously was not provided, in my 
opinion. You said you would always like more, but Ms. Pelosi's 
question was, what, in your professional judgment. I presume 
the budget you submitted to Secretary Paige was in your 
professional judgment what was needed to implement No Child 
Left Behind. My presumption is you didn't get it. I want to 
know what it was. Because that, in my opinion, was your 
professional judgment.

                          2003 BUDGET REQUEST

    Secondly, you talk about teacher quality. These are teacher 
quality programs. It is very nice to have it in every part of 
the bill, every part of the Act. But if you underfund every 
part of the Act, there is a net reduction of $163,000,000 in 
teacher quality programs.
    Let me tell you about a program that I am particularly 
concerned about. We talk about national standards so people 
across the country know whether their teachers or students are 
performing at level. The National Board for Professional 
Teaching Standards didn't come out of Washington. It came out 
of the governors. It was an initiation of the governors in a 
bipartisan way. You have zero funded it. Zero. That is no place 
else in the bill, with all due respect, Madam Secretary, no 
place. You can't find it anyplace else in the bill.
    Now, are there quality teacher provisions in the bills in 
other provisions? Sure, there are. And you have underfundeda 
lot of them. One hundred percent cut in the Eisenhower teaching; 50 
percent cut in traditional American history; 100 percent cut in 
preparing tomorrow's teachers to use technology. That is a critical 
program.
    You can say, well, the locals ought to do it. Of course the 
locals ought to do it, and the local taxpayer could do it. But 
obviously, as I pointed out, one of the reasons we are doing No 
Child Left Behind is because we think we have a national 
responsibility. President Bush thought we had a national 
responsibility.
    I don't disagree with any of the rhetoric that President 
Bush uses in terms of expectations and objectives. I don't 
think anybody does. I hope they don't. And if they do I 
disagree with them, because I think President Bush is right; 
and I am glad that he has elevated this.
    But I will tell you something I think I mentioned to 
Secretary Paige yesterday and I mentioned to you, that when A 
Child at Risk was issued, you know what the response of the 
Reagan budget was 1 year later? To cut the Department of 
Education budget by 15 percent. Now, that didn't fly. The 
Congress didn't do that. Neither side of the aisle in this 
committee, which acted in a very bipartisan way, adopted that 
proposition.
    But I will tell you something. While I don't think we need 
to throw money at things, you are not going to accomplish these 
objectives without spending resources any more than you are 
going to develop a good product without investing capital. That 
is just the nature of the business.
    So, my 5 minutes is up. But I will end with this question.

                      DIFFERENT ASSESSMENT SYSTEMS

    March 20th you received a letter from various Senators, 
including Bingaman and Kennedy and Dodd and Edwards, Lieberman 
and Clinton, with reference to the No Child Left Behind Act 
clearly states the assessments chosen by a State to meet the 
requirements of an act must be the same academic assessments 
used to measure the achievements of all children.
    The reason I bring that up and their concern was the 50 
States making determinations. Now the problem with that is you 
fall back into the same problem that you have referred to in 
your testimony as to whether or not there was a standard. There 
was no criteria that a parent could look to and say whether 
that State or the other State, we are meeting some national 
criteria, not an individually, discretely determined criteria, 
whether it be in Kentucky or Maryland, which you can't--you say 
you can't do it. NAEP obviously tries to do it and other 
assessment tools. But they are very concerned about it.
    I don't have the answer. What is your response to that?
    Ms. Neuman. I was head of the negotiated rulemaking. I 
believe that letter was about the concern about local and State 
assessment, the combination of local and State assessments.
    I think you raise a very important point. Because what we 
were concerned about is, while we think under some conditions 
it can work, we are always concerned that different local areas 
will have different standards, different quality assessments. 
So, in response to that, we held the bar very, very high.

                          ALIGNING ASSESSMENTS

    In other words, what we are saying and what was said in the 
negotiated rulemaking process was that if a State would want to 
use a combination of local and State assessments, the local 
assessments would have to be equivalent in depth, breadth and 
quality to the State assessments; and they would have to be 
calibrated statistically so that you could actually see 
equivalent forms on assessments. That is a very high bar.
    So our concern--yes, we had that same concern. What--we 
hoped what we did is address that issue.
    Mr. Hoyer. So your objective is to try to have some 
national level of which others can assess their performance.
    Ms. Neuman. Not national. It will be State by State. But 
what we are saying is that the local school districts, for 
example, Detroit and Ann Arbor, will be at the same level so 
that the State has a similar bar in terms of depth, breadth and 
quality.
    Mr. Hoyer. Will there be a way for the Michigan parents to 
determine whether they are performing as well as the California 
or New York?
    Ms. Neuman. Yes, it will be calibrated along the State 
system, which is actually not that easy to do.
    Mr. Hoyer. If you calibrate it, won't that sort of give you 
a norm? Is that what you are looking for?
    Ms. Neuman. We will get bars of proficiency, basic 
proficiency, advanced. So what they will have to do is 
statistically align that local assessment to the Statewide 
assessment.
    Mr. Regula. Mrs. Northup.
    Mr. Hoyer. I apologize. I have to go to another hearing. I 
am not walking out on you.
    Mrs. Northup. The point is CTBS, the Iowa standard--all of 
these--would have the incentive to lower their bar if you don't 
calibrate them. So what you do is allow States to choose 
whatever tests they want, but you will make sure they are all 
calibrated. So that a CTBS test that says you are excellent is 
just like an Iowa test that says you are excellent.
    Testers do this all the time. It is hard. It is one way we 
make sure that SAT tests are the same difficulty year in and 
year out. After the test is taken, they calibrate it in order 
to make sure that there is a comparison standard.

                     EDUCATION INPUTS VS. OUTCOMES

    You know, I want to address the input basis versus outcome 
basis of analyzing a school system, because I think we have 
gotten a lot of rhetoric here about more input basis.
    For years, our school systems, both locally and what we did 
nationally, measured whether we were doing a good job based on 
what we put into it both moneywise and also by regulations. We 
would say, ``you have to spend 2 hours and 3 minutes a week on 
reading.''
    This is why, Mr. Chairman, that, outside education at the 
State level, you had the arts education people wanting to 
increase from 15 minutes a week to 25 minutes a week the 
importance of art education because this would profoundly 
affect children. Then the next hour you had the economic people 
that came in and said every child should have economic 
education.
    So you would ratchet the week down to where it is in this 
many minutes and every teacher was given input. Not just money 
input but direction on how they were to spend every day in 
terms of hours and minutes and so forth.
    What we found is, at the end of many years of improving the 
system with inputs, that our children were coming out of school 
less prepared than they were before all these new inputs.
    So the more modern way is to say we are not going to tell 
you how many minutes a day you spend on reading. We are not 
going to tell you how many minutes a dayyou spend on arts. We 
are not going to tell you exactly what you do. Because every child is 
different, every community is different, every State is different. It 
is not surprising that what they need in my inner city school is 
different than what they need in the mountains of Wyoming in terms of 
the way they break down the day.
    What an outcome based system says is that we are also not 
going to tell you every single way you have to spend every 
dollar, that you have to spend this many dollars on crayons for 
kids, that you have to spend this many dollars on teacher 
preparation every single year, every single month. That we are 
not going to tell you how many dollars you have to spend on 
transportation and school safety programs.
    Instead, you are going to look at the unique challenges 
that your school faces, the unique talents and resources that 
your school has, and we are going to appropriate all the money 
to you. You are the professionals and all we are going to do is 
judge the outcomes. Do the kids improve in their reading 
scores? Do they improve in their math scores?
    Now, the tendency in States where they go to this reform 
continues to be on inputs. You want to say, oh, well, we should 
at least say every school ought to have a school breakfast 
program. We ought to at least say every school should have 
this. And it is very hard. It is going to be very hard for us 
to discipline ourselves to stop cutting up the education pie 
into teacher training and into gender equity programs and so on 
and instead say the outcome better produce results. Poor kids 
better do as well as rich kids. Women better do as well as men. 
The kids better read better than they do now. It is going to be 
very hard to discipline ourselves not to cut that up.
    At the same time, we are all going to be visited by a 
hundred different groups that currently have a particular 
program that has its name on it when it leaves Washington, 
D.C., that is going to be opposed. ``You can cut out all the 
other programs and you can provide flexibility with all the 
other dollars, but my program, the Eisenhower Teacher Training 
Program that happens to be located at my school of education, 
it is the one program you should keep in place and keep sending 
money to.''
    This is going to be hard for us. But if we are serious that 
we are going to change our approach to education, we are going 
to have to discipline ourselves not to be an input-based 
system--you can't have it both ways--but to go to an outcome-
based system. It is tough. But all the progress we have seen so 
far has come from giving that discipline at the State and now 
at the Federal level.

                          SPENDING VS. RESULTS

    Mr. Hickok. Those same people have been knocking on my door 
for the last several months asking me to make sure we fund this 
or that.
    Two observations, if I might. The measure of our commitment 
to education should not be measured or should not be taken only 
in dollars but in results. What a tragedy it would be if we as 
a Nation tripled our spending on education and nothing happened 
to that red line. The red line on that chart should be our 
goal. That should be our measure of success, not how many 
dollars are spent. As I said earlier, when we see results, it 
will make spending decisions easier to make.

                 PROFESSIONAL CERTIFICATION OF TEACHERS

    Mr. Hoyer mentioned the National Board for Professional 
Teaching Standards is being zeroed out. I am aware of no study, 
at least so far, that analyzes the relationship between 
national board certification and student achievement. For me, 
professional certification should result in student achievement 
and improvement. That is what teaching is all about. It 
shouldn't merely be a process that makes me feel better as a 
teacher.
    I want to feel good as a teacher, and if I feel better by 
going through a process, that is nice, but what should make me 
feel good is a teacher whose students are learning better than 
they did before. That is why it isn't supported in that budget.
    Mrs. Northup. Let me comment. In Kentucky, the proposal 
was, that we allow that to take the place of getting a graduate 
or postgraduate degree. So doesn't the National Board 
Certification have the incentive? I mean, they make money by 
every teacher that comes and gets certified. If you make it so 
hard that it is harder than going to school and getting a 
graduate degree, then nobody will come. So it is very hard to 
have quality control.
    I am not saying that that happened. It is difficult when 
you get States that allow teachers to forgo their graduate 
degree or their post graduate degree and instead allow them to 
get their national certification. You know, States can do that, 
but they ought to have high quality standards--basically, like 
you said, if they don't get better students from it, then why 
are we spending money on it?
    Somebody said, have we ever thrown money? We have thrown 
money. We threw money when we threw money at 100,000 new 
teachers. Ask anybody to show me the outcry from eliminating 
the 100,000 new teachers. We knew when it was funded it was 
throwing money. We just had a politician that wanted it. And 
since we have started to ratchet it down there is nobody--not 
teachers, not school districts, nobody--that is saying, ``That 
was the most fabulous program; it changed lives in my 
district.'' We threw money at it.
    That wasn't the only program we were asked to throw money 
at, and it did happen. And for anybody to act outraged is to 
ignore the truth.
    Mr. Regula. Well, I believe that your objective is outputs, 
and you are trying to establish a system whereby people can 
measure outputs. And inputs don't--they might, obviously, have 
an impact. But what the parent of that child wants is an 
output. He wants his or her child to be well educated.
    Mr. Sherwood, if you had known all these things, you might 
not have run for the school board.

                        CHALLENGES IN EDUCATION

    Mr. Sherwood. I could have got it done in 10 years instead 
of 19 and a half.
    Secretary Hickok, Secretary Neuman, I think it is quite 
obvious to you that there are some differences of opinion on 
this side of the table and that I wish my colleagues had stayed 
because I wanted to address the fact that I thought they very 
artfully worked into the testimony today that it was their 
opinion that you were responsible for hiring teachers and 
building school buildings. And we don't think that is the case.
    You know, I spent a good deal of my free time for 19 and a 
half years making sure my local school district got new 
buildings and hired good teachers, and it has to be run on a 
case-by-case basis. If you can run a 240-square-mile district 
in northeastern Pennsylvania that has high free and reduced 
school lunch numbers and a low tax base, you can doit in lots 
of places. We have a system now that doesn't have a building older than 
25 years and runs pretty well, but we are not nearly good enough.
    We need the right type of stimulus from the top, and I 
think that is what the President is doing. He has very much 
increased the national debate on education, and it is obvious 
that that is what the voters wanted to hear, and we were glad 
to see him in schools and glad to see him paying attention.
    Results are what we are looking for, and we are guilty of 
throwing money at problems, whether we want to admit it or not. 
It is the easy thing to do from here. It is a breath of fresh 
air that you are telling us that throwing more money at it 
doesn't necessarily lift the bar, and I think you are to be 
commended for that.
    One thing I would like to say is that school 
superintendents in my district, and we called around before the 
hearing, are a little concerned that they and their Federal 
coordinators don't yet have enough information about the No 
Child Left Behind reforms, and they'd like to get more 
information. How are you getting out the word to the LEAs? I 
think that is--whether we are talking about health care or 
education or whatever the discipline is that comes before this 
committee, we often think that there is a little disconnect 
between what we know in the center of the research and what we 
get out and get applied.

               NO CHILD LEFT BEHIND BEHIND IMPLEMENTATION

    Mr. Hickok. We have a multidimensional campaign under way, 
for lack of a better term, to get the word out. Two days after 
the President signed the bill into law, we had the State Chiefs 
over to Mount Vernon. I think 30 or so of them were able to 
attend. It is the first time in the history of the Department, 
as I understand, that after ESEA signing the Secretary of 
Education invited and sat down with the leaders of the State 
education systems.
    It was really quite an event. For 2 days we discussed the 
law, to give them information. We gave them a booklet bigger 
than this that gave them details of what the law is all about.
    We had similar meetings with the governors and the 
superintendents of the Nation's largest school districts.
    In addition, we have gone across the country, frankly, 
working with our regional offices. We have 10 regional offices 
making sure that they have materials that they are 
disseminating.
    Of course, this conversation continues, because the law was 
passed 3 months ago. It is a very complex piece of legislation, 
as you know. It is this thick. So the guidance and the 
regulations--we try to issue more guidance than regulations--
are being developed on a daily basis. Things are going out all 
the time.
    In addition, Susan has been working with her staff and with 
local and State education officials on various aspects of this.
    You mentioned the reading academies that have been 
successful. We are getting ready to publish sort of a users' 
guide for policymakers and decisionmakers on this law.
    So it has been a real challenge because we don't have much 
time. The school year starts before you know it. Most of our 
effort has been getting this information out there in a variety 
of different ways.
    Ms. Neuman. I will just add--Gene touched on most of the 
key things that we have been doing, but we are lucky enough to 
have the Web now. As soon as our guidance is developed, as soon 
as our draft regulations are developed, they go up on the Web. 
So we have been trying to really be responsive, because we know 
so many people have questions.
    The other thing is we are having three major Title I 
meetings regionally starting this summer which really focus on 
some of the key issues that we haven't had a chance to talk 
about today: the importance of supplemental services, of public 
school choice, of transportation issues. Many of those key 
issues will be discussed at those conferences.
    We are about to start our regional meetings which are 
regional outreach meetings, talking about the negotiated 
rulemaking process.
    So we have been very, very active in trying to get the word 
out in those ways.
    Mr. Sherwood. Thank you very much.
    Mr. Hickok. If you go to the Department's Web site, we now 
have--it started Monday--a Web site devoted entirely to No 
Child Left Behind. It is a Web site that we think is pretty 
dramatically different from traditional Government Web sites. 
Because our goal here is to engage all the people, not just 
educators--parents, school board members, taxpayers, 
employers--get them the information so they can understand the 
potential here, in a way that really is much more accessible.
    Ms. Neuman. I feel like I am in elementary school.
    Mr. Sherwood. So do we.
    Mr. Regula. Any further comments?
    Off the record.
    [Discussion held off the record.]
    Mr. Regula. All the money results in Johnny or Mary having 
more skills when they leave the school. The success of this is 
vital to the Nation's future, and I don't think that the effort 
to slow down the dropout rate will succeed until we give 
children a better sense of achievement. I think a lot of 
dropouts are because they are frustrated, and then there is 
peer pressure. John drops out, so Bill says, by golly, if John 
goes, I go. Because teenagers respond a lot to peer pressure. 
That is a tragic loss of human capital.
    So we have had an interesting debate here this morning. You 
have some really tough challenges, and we do, too, in trying to 
structure this. What we hope we can do as a committee is to 
make, prioritywise, the best use of the money available. 
Because it is considerably more on taking the 2-year budget, 
and we hope that it results in better education.
    Thank you for coming. God speed in what you are doing.
    The committee is adjourned.
    [The following questions were submitted to be answered for 
the record:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                         Wednesday, April 17, 2002.

                        DEPARTMENT OF EDUCATION

                               WITNESSES

SUSAN B. NEUMAN, ASSISTANT SECRETARY FOR ELEMENTARY AND SECONDARY 
    EDUCATION
ROBERT H. PASTERNACK, ASSISTANT SECRETARY FOR SPECIAL EDUCATION AND 
    REHABILITATIVE SERVICES
GROVER J. WHITEHURST, ASSISTANT SECRETARY FOR EDUCATIONAL RESEARCH AND 
    IMPROVEMENT
WADE F. HORN, ASSISTANT SECRETARY FOR CHILDREN AND FAMILIES, DEPARTMENT 
    OF HEALTH AND HUMAN SERVICES

                       Introduction of Witnesses

    Mr. Regula.  Okay. We will get started this morning. We 
look forward to the testimony on Foundations for Learning. That 
is a rather interesting topic, and so I think it would be 
helpful to the committee to get an insight into what we do. 
Foundations for Learning could cover a lot of territory.
    It is my understanding and I have the following order of 
witnesses that will make presentations: Susan Neuman, Bob 
Pasternack, Russ Whitehurst and Wade Horn. Is that the 
understanding? Okay.
    Well, Susan, you get to lead off. In the case of all of 
you, your full statements will be in the record, and we 
appreciate your summarizing.

                  Opening Statement of Susan B. Neuman

    Ms. Neuman. Mr. Chairman and Members of the committee, I 
appreciate the opportunity to appear before you to discuss the 
President's 2003 budget for programs administered by the Office 
of Elementary and Secondary Education that focus on providing 
our Nation's young children with the foundation they will need 
to achieve academically. Of the Department's many elementary 
and secondary programs, none are more critical than the 
programs that affect children's early learning.
    Three days after taking office, President Bush announced No 
Child Left Behind, his framework for the reauthorization of the 
Elementary and Secondary Education Act. One of the President's 
highest priorities is helping States and local communities to 
ensure that all children learn to read by the end of third 
grade. The Reading First State Grants program will help States 
and school districts apply rigorous, scientifically-based 
reading research to accomplish that goal. By effectively 
teaching all children to read well by the end of grade 3, we 
can ensure that all children advance to later grades well 
prepared to achieve their full academic potential. Reading 
First will help States and school districts establish research-
based reading programs for students in kindergarten through 
third grade. It will provide significantly increased 
professional development so that all teachers have the skills 
they need to teach effectively.
    The program will also prepare teachers to focus on 
screening, identifying, and overcoming reading barriers that 
face our children. Reading First focuses on what works, and it 
will put and support proven methods of early reading 
instruction in classrooms.
    The Administration is requesting $1,000,000,000 for Reading 
First for fiscal year 2003, $100,000,000 above the 2002 
appropriation. The Early Reading First program, for which the 
Administration is requesting $75,000,000 in fiscal 2003, 
complements Reading First. The program will help children in 
preschool programs enter kindergarten with early language and 
cognitive skills necessary for reading success, thereby 
preventing many later reading difficulties. Early Reading First 
aims to transform early learning programs supported by Title I, 
Head Start, and Even Start, so that young children enter school 
ready to learn to read. Early Reading First focuses on 
scientifically based evidence and shows that the most effective 
way to provide instruction and prereading skills for young 
children is to ensure professional development for all of our 
teachers.
    We propose that learning environments will be rich in age-
appropriate print from resources such as books, labeling, 
posting the alphabet, and children working in prewriting and 
developmental phonics. Teachers will deliver intentional and 
explicit instruction and conduct progress monitoring to 
determine which skills children are learning.
    In addition, about half of the participants in the Title I 
Grants to Local Educational Agencies program are in grades pre-
K through grade 3, and reading is a major focus of Title I-
funded activities at this level.
    In addition, the Even Start program, for which the 
Administration is requesting $200,000,000, supports projects 
that provide educational services to low-income families, 
including parents eligible for adult education services, and 
their children from birth through age 7. This program 
integrates early childhood education, adult education, and 
parenting education.
    And, finally, the Early Childhood Educator Professional 
Development Program provides professional development 
opportunities to early childhood educators to promote school 
readiness, to further children's skills and to help prevent 
them from encountering difficulties once they enter school. The 
Administration is requesting $15,000,000 for this program.
    Mr. Chairman, this concludes my prepared remarks. My 
colleagues and I would be happy to respond to any questions 
that you may have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula.  Thank you. Mr. Pasternack.

               Opening Statement of Robert H. Pasternack

    Dr. Pasternack. Good morning, Mr. Chairman. Thank you for 
the invitation to be here, and thank you for your support of 
our programs at the U.S. Department of Education for a very 
long time.
    I want to begin by applauding your conceptual approach to 
these hearings. Those of us who work with children with 
disabilities are aware of the real importance of including the 
needs of kids with disabilities in every policy that we make. 
So, the attempt that you have made this morning to include a 
variety of policymakers on the same panel to address issues 
affecting very young children, I think, is critically important 
and I want to applaud you for doing that. It is the same 
approach we are trying to take to policymaking that is 
happening at the Department. We do not believe we are ever 
going to improve special education by focusing only on special 
education. These are not issues about special education or 
general education. These are issues that affect kids, and we 
have got to approach it in that way. So, I want to thank you 
for structuring the hearing in this manner.

           EARLY INTERVENTION FOR CHILDREN WITH DISABILITIES

    My message is very simple, Mr. Chairman and Members of the 
Committee. Early intervention works. We have known that for a 
long period of time. The earlier we can identify kids with 
disabilities and identify kids at risk of developing 
disabilities, the earlier we can provide targeted interventions 
that are scientifically based and change their life 
trajectories from risk to resiliency.
    I am also proud to tell you that the First Lady is acutely 
aware of these issues, as you know, Mr. Chairman. She has been 
a passionate and articulate spokesperson for the need to do 
more to meet the cognitive, linguistic, social, and emotional 
developmental needs of very young children, and I am proud of 
her support of those programs.
    I want to finish by telling you that, from our perspective 
at the Office of Special Education and Rehabilitative Services, 
there are a few things that are very important in these early 
childhood programs. One is that they be family-focused and that 
we have an opportunity to meet the needs of family systems that 
are adversely impacted when families have a child with a 
developmental disability born into that family. It has a 
devastating impact, as you know, and the services that we can 
provide through Part C allow us to address the entire family 
system in a comprehensive and coordinated way.
    Mr. Regula.  Aren't they often first identified when the 
child gets into the education system, kindergarten, first 
grade? Isn't that where they tend to identify the disability if 
it is not a child that is physically handicapped, but a child 
that has a mental problem? 

           EARLY IDENTIFICATION OF CHILDREN WITH DISABILITIES

    Dr. Pasternack. Thank you, Mr. Chairman. Clearly, the 
overwhelming majority of students who exhibit academic and 
behavioral difficulties get identified in schools. As a matter 
of fact, about half of the 6\1/2\ million kids that we have in 
special education are in the category of specific learning 
disability. Up to 80 to 90 percent of those kids have a reading 
disability. Unfortunately, we are identifying those kids too 
late. We are identifying those kids between the age of 11 and 
17 when the research tells us that we need to identify these 
children at a much younger age. Through the work we are doing 
at the Office of Elementary and Secondary Education and Reading 
First and Early Reading First, we hope to change that and begin 
to identify kids much younger. However, through Part C of the 
IDEA, which is our program that supports services from birth 
through age 2, we are able to identify many children with 
significant disabilities at a very early age, some as early as 
infancy, and begin to target interventions at that age. For 
example, with kids who are blind, who are deaf, kids who have 
significant physical disabilities like spina bifida, there are 
newborn screening programs that can identify those disabilities 
and offer interventions to those kids at infancy.
    Secondly, sir, we use a multi-disciplinary approach in our 
early childhood programs because then we are able to have a 
variety of professionals involved and coordinate the services 
that are required. It also is an interagency approach that we 
are using through the Federal Interagency Coordinating Council 
which provides advice to a variety of Cabinet agencies on 
issues affecting the needs of young children with disabilities 
or at risk of developing disabilities.
    And, finally, the services are community-based. With that, 
given the brief nature of the opening remarks, I will be happy 
to answer any questions that you or Members of the Committee 
have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you. Dr. Whitehurst.

                           Opening Statement

    Dr. Whitehurst. Mr. Chairman, Members of the committee, 
before coming to the Department of Education last year, I spent 
31 years doing research and developing programs on the 
foundations of learning, so I am particularly pleased that you 
have chosen to structure budget hearings around this topic and 
we are starting with it.
    The shared understanding of the Congress and the 
Administration about the role of research and educational 
reform was evidenced vividly in the recent reauthorization of 
the Elementary and Secondary Education Act. The phrase 
``scientifically based research'' appears 110 times in that 
Act.
    If we are committed to the goal that scientifically based 
research underlies reform of our most important education 
programs, then we have to address not only gaps in student 
achievement but gaps in scientific knowledge. There is simply a 
lot that we do not know and what we do not know does hurt us.
    For fiscal year 2003, the President has requested 
$175,000,000 for research and dissemination and $95,000,000 for 
statistics in the Office of Educational Research and 
Improvement. The request includes a 44 percent increase for 
research over the funds available in fiscal year 2002 and 11 
percent increase for statistics. On a percentage basis, these 
requests are unprecedented. They reflect the President's 
understanding that education research of high quality and 
relevance is critical to education reform.
    Today I will describe briefly some new initiatives in the 
areas of early childhood education and learning that would be 
supported by this budget. There are many other activities 
within OERI and the Foundations of Learning that I will not 
have time to address orally. They are covered in my submitted 
testimony.

            PRESCHOOL CURRICULM EVALUATION RESEARCH INIATIVE

    Last summer, the First Lady convened a White House Summit 
on Early Childhood Cognitive Development. One of the 
significant gaps in knowledge that was highlighted at that 
conference is that we lack rigorous systematic evaluation data 
to make informed choices among preschool curricula currently in 
use.
    For example, the State of Georgia allows providers to 
choose among 7 different nationally available curricula. There 
is little evidence that would allow an informed choice among 
those curricula as well as choices among curricula that are not 
on that list.
    In a few weeks, we will award the first grants under the 
Preschool Curriculum Evaluation Research Initiative. These 
grants will support randomized trials of existing preschool 
curricula. We will fund scientifically rigorous evaluations to 
determine the effects of different preschool curricula on the 
skills and abilities that predict academic success in the early 
years of elementary school. We have been able to budget 
$5,000,000 this year to get the program rolling and we are 
requesting $15,000,000 for this coming year to move the program 
to scale so we can provide definitive answers to which 
preschool programs work best for which kids.

               READING COMPREHENSION RESEARCH INITIATIVE

    Moving to another area, we have launched a major new 
initiative in reading comprehension. We have learned a lot 
through research about how children learn to read in the first 
years of elementary school. This research provides the 
foundation for the Reading First and Early Reading First 
initiatives so no child is left behind.
    However, we know far less about the conditions that enable 
those who have broken the reading code to be able to comprehend 
what they are reading. Through our reading comprehensive 
research, we expect to learn how students develop high levels 
of reading comprehension, how reading comprehension can best be 
taught, and we expect to develop new and effective ways to 
assess reading comprehension. We have invested $4,500,000 to 
launch this initiative this year. We are requesting $20,000,000 
next year so this program can be funded at a level that is 
necessary to build a firm scientific base of understanding 
about reading comprehension.

                      ENGLISH LANGUAGE ACQUISITION

    Another very important issue in which we have a new 
initiative is in the development of English language reading 
and writing competencies among children whose first language is 
not English. Demographic shifts and changes in immigration are 
resulting in an increasing number of children in American 
schools whose first language is not English. Many of these 
children come from low-income homes and often their parents 
have little formal education. In 2001, the Department of 
Education and the National Institute of Child Health and Human 
Development jointly funded research designed to identify 
critical factors that can enhance the reading and writing 
skills of ESL children. The 2003 competition will broaden this 
initiative by soliciting proposals addressing the instruction 
needs of other populations of second language learners. We are 
investing $3,300,000 in this program this year and are 
requesting an increase of $6,300,000 for the program next year.

                        WHAT WORKS CLEARINGHOUSE

    Finally, let me mention our new initiative called What 
Works Clearinghouse. Since research cannot transform 
educational practice if it is known only to researchers, our 
budget request includes funding to translate research findings 
into user-friendly formats and to disseminate this information 
to parents, teachers and policymakers. We intend to create a 
trusted source for information on what works in education. 
Virtually all education products, curricula, and approaches are 
currently advertised as based on research, but few are. What 
Works Clearinghouse will specify clear and rigorous 
methodological standards for a demonstration or a program 
effectiveness and will describe the quality and quantity of 
evidence on the effectiveness of various programs and 
approaches within subject areas. Over time, the clearinghouse 
will become the principal source of valid information on 
effective educational practice.
    Let me thank you again for the opportunity to testify in 
support of research in the Foundations of Learning. My 
colleagues and I will be happy to respond to any questions that 
you may have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                      EARLY CHILDHOOD INITIATIVES

    Mr. Regula. Mr. Horn.
    Mr. Horn. Mr. Chairman, I want to add my thanks to your 
vision in holding this hearing on this particular topic. As a 
clinical child psychologist, I, too, spend my career working in 
the area of childhood and trying to improve things for kids. 
And my dissertation a number of years development ago, when I 
had hair and could read without glasses, was on predicting 
school failure, and my minor concentration was in special 
education. So I applaud you and the rest of the Members of this 
committee in holding this hearing.
    As demonstrated by the President's recently announced early 
childhood initiatives, the administration is moving quickly in 
a collaborative fashion to apply the latest research to improve 
early childhood and childcare programs and to generate new 
knowledge about what works best in the early learning years. 
And in this vein I wanted to convey my strong commitment to 
working with you and my colleagues from the Department of 
Education to improve the healthy development and school-
readiness of our Nation's young children. My testimony today 
will focus on our most recent research findings and how we are 
using this knowledge to improve the quality and effectiveness 
of Head Start and childcare programs.
    A note from the Department of Education's 1998 Early 
Childhood Longitudinal Study on which the Administration for 
Children and Families collaborated stated that children from 
low income families perform at significantly lower levels in 
reading and mathematics in kindergarten and first grade than 
children from nonpoor families. This clear evidence of an 
overall achievement gap led to the President's new efforts to 
improve early childhood programs, including Head Start. Head 
Start is implementing a research agenda designed to identify 
and implement state-of-the-art approaches to advancing 
children's progress in all dimensions of school readiness.
    For example, the Head Start Family and Child Experience 
Survey, known as FACES, is an ongoing longitudinal study of 
Head Start programs providing national data on Head Start child 
outcomes, family involvement, key aspects of program quality 
and teaching practices. Newly available findings from FACES 
demonstrates that while Head Start children do show progress, 
we must do more to ensure that these children enter 
kindergarten with strong early literacy skills. But Head Start 
makes positive contributions to the lives of thousands of 
children and families.
    We must integrate new research findings about early 
childhood learning into the program if it is to achieve its 
full potential. This shift in focus can and should be 
accomplished without sacrificing the comprehensive nature of 
the program.
    Recently the President announced a major new step in this 
direction. The Good Start Grow Smart early childhood Initiative 
will have a very positive impact on strengthening the early 
literacy component in Head Start and childcare. As part of this 
initiative to improve teaching and learning outcomes, Project 
STEP (Summer Teacher Education Program), an intensive national 
teacher training effort in early literacy, is planned to begin 
this summer. Through this systematic nationwide training 
effort, we will increase the knowledge of all Head Start 
teachers in using the latest research on how children develop 
early literacy and language skills.
    Along with our increased investment in teacher training, 
the President is calling for improved efforts to keep track of 
what Head Start children are learning and to use information on 
child outcomes to guide program improvement and accountability 
efforts. For the first time every Head Start center will be 
held accountable for special standards of learning or specific 
standards of learning in early literacy, language and numeracy 
skills.
    Further, we will be designing a national reporting system 
to collect child outcome data from every local program. At the 
same time we must continue our efforts to learn more about what 
is needed to comprehensively prepare children for early school 
success. The Administration for Children and Families is 
collaborating with the National Institute of Child Health and 
Human Development and the Office of Special Education and 
Rehabilitative Services and the Department of Education and 
other DHS agencies on a $45,000,000, 5-year initiative to fill 
this gap in knowledge.
    We are also taking steps to work with States in their 
planning and management of Federal childcare funds to improve 
program quality and children's early learning.
    The President's plan asks States to develop quality 
criteria for early childhood education. We will work actively 
with the States to focus on incorporating these early literacy 
guidelines in their childcare programs.
    In addition, childcare professionals from every State and 
territory will be invited to participate in the Head Start 
teacher training activity this summer to further solidify the 
focus on early literacy skills.
    I appreciate the opportunity to speak with you and look 
forward to working closely with the Congress and my colleagues 
at the Department of Education to make the President's vision a 
reality in the years to come, to enable every early childhood 
program to offer the learning opportunities that all of our 
Nation's children deserve. Thank you very much, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you. The Head Start is part of the 
Department of Health and Human Services. Yesterday the 
President announced that many children who enter kindergarten 
are not prepared, and the President has a proposal for literacy 
and language training for 50,000 Head Start teachers. Well, 
that word ``teachers'' is a new focus in Head Start, I believe. 
I understand he also proposed evaluating students and so on, 
and that his proposals have angered some Head Start advocates. 
What is Head Start? Is it welfare? Is it education? And how are 
you sorting it out as far as overlapping jurisdictions?
    Mr. Horn. It is our view that Head Start is a comprehensive 
early childhood development program that ought to focus on the 
comprehensive nature and development of children. A piece of 
that needs to be a focus on the development of early cognitive 
and early literacy skills. We feel that is one area where the 
program could stand improvement. And so what we are interested 
in doing is, as I have mentioned in my testimony, implementing 
an intensive teacher training initiative this summer to make 
sure that they have available to them the latest research 
evidence about how it is that children learn and ways to 
incorporate that into the classroom, while at the same time 
moving towards implementing a system that will allow us to 
assess the progress of children in a variety of different ways 
with a particular focus on early cognitive development and the 
development of early literacy skills. So we think that Head 
Start has always been and ought to remain a comprehensive early 
childhood development program, but we need to focus 
specifically on enhancing the ability of the Head Start program 
to enhance the early literacy and cognitive skills of children.
    Mr. Regula.  You are moving from a custodial role into an 
educational role?
    Mr. Horn. We feel that we need to strengthen it. The Early 
Literacy and Cognitive Development Act makes it a program, yes.
    Mr. Regula. Do you coordinate with the Department of 
Education?
    Mr. Horn. Yes, we do. And I sit on an interagency task 
force with two of my colleagues here at the table as well as 
others, both in the Department of Education and U.S. Department 
of Health and Human Services, in which we are looking at how to 
strengthen the early cognitive development aspects of not just 
Head Start but all preschool programs and childcare programs 
around the country.
    Mr. Regula. Well, I have always felt that it belonged in 
education to start with, but that decision was made early on 
that it was a welfare type program, and I think we are in the 
transition, at least in the way it is managed, to recognize 
that education starts earlier than the kindergarten or first 
grade.
    Are you developing, or the Education Department developing, 
any certification requirements for those who participate as 
leaders in the Head Start program across the country?
    Mr. Horn. First, there is a requirement under current law 
that at least 50 percent of all the Head Start teachers must 
have at least an associate's degree in--early childhood 
education or a related field.
    Mr. Regula. 50 percent.
    Mr. Horn. By 2003.
    Mr. Regula. How about the other 50 percent?
    Mr. Horn. Well, we are working on them as well. But 100 
percent of the teachers this summer will participate either 
being trained as trainers in the latest knowledge about early 
literacy development and how to incorporate that knowledge into 
the classroom or as trainees. The way we are structuring the 
training is that 2500 Head Start teachers will be trained as 
trainers. They will then go back to their local programs and 
train the rest of the teachers in each and every Head Start 
program in this knowledge, and then we will continue to monitor 
and provide coaching throughout the year to ensure that every 
Head Start teacher gets trained in this new knowledge, and is 
actually applying and implementing that knowledge in the 
classroom. Unfortunately, in far too many training programs, 
what you do on Wednesday is predicted better by what you do on 
Monday before the training on Tuesday than what you learned on 
Tuesday. So what we have built into this system is a monitoring 
and long-term coaching strategy so that what they do after they 
are trained actually is different than what they did before 
they were trained.
    Mr. Regula. Isn't this going to add considerably to the 
cost to attract the people that you are looking for Head Start 
leadership?
    Mr. Horn. We think that with this plan we will be able to 
integrate into every Head Start program the new knowledge about 
how children develop early literacy skills. We think we do have 
a skilled workforce in Head Start. We have been moving rapidly 
to increase their credentials. Currently 47 percent of 
classroom teachers have at least an associate's degree in early 
childhood education. We continue to devote funds to enhance 
both the credentials and education of the teachers in Head 
Start. And we have done a great deal to improve Head Start 
teacher salaries so they are more competitive with other 
programs run by the States or public school systems.
    Mr. Regula. The States participate in the Head Start costs, 
do they not?
    Mr. Horn. Some States do, some do not.

                READING PROGRAMS AND TEXTBOOK PUBLISHERS

    Mr. Regula. Ms. Neuman, in the Foundations for Learning, do 
you work with the textbook industry--does the Department have 
any liaison with the textbook industry because they would have 
to provide some kind of materials?
    Ms. Neuman. We do not. We have had a number of 
conversations on what is scientifically based evidence and good 
reading instruction. We have talked specifically to early 
childhood publishers on what is scientifically based evidence 
in early reading instruction, and we have also talked to 
testing publishers as well. But we have no specific connection.
    Mr. Regula. There has to be materials available for these 
programs that you described. Are they developed by the people 
that sell this stuff rather than working with your agencies?
    Ms. Neuman. Right. We believe that the emphasis on early 
literacy and the importance of cognitive development is really 
spurring a great deal of interest among the textbook 
publishers, and they have asked us on many occasions for the 
definition and about exactly what we mean when we talk about 
Reading First and what are the scientific components of Reading 
First. We are seeing evidence that textbook publishers are 
taking this seriously and they are looking to work with 
colleagues who really do know the evidence, who do know what is 
good early reading instruction,and new programs will be coming 
out. There are some programs already available.

             TEACHER EDUCATION AND EARLY CHILDHOOD PROGRAMS

    Mr. Regula. Do the teacher education institutions--I am 
talking about colleges of education, universities--do they ever 
come to you to say what should we be putting into our 
curriculum that will make the kind of people you need for these 
programs?
    Ms. Neuman. Unfortunately, not enough. As I have said 
before, there is often a disconnect between what is being 
taught in colleges of education, including at the community 
college level, where they are still focusing in early childhood 
very much on the developmental aspects of childhood and not on 
the early cognitive aspects. We think social and emotional 
development is imperative, but we also know that cognitive 
development has often been left out because early childhood 
teachers are not prepared to know what content is appropriate 
and how to really convey it to our children in a 
developmentally appropriate way.
    Mr. Regula. What can we do to get the colleges of education 
energized? Because that is where you are going to get your 
future instructors.
    Ms. Neuman. We are trying very hard to talk to the colleges 
of education and to the National Association for the Education 
of Young Children about their standards and to the 
International Reading Association, whose standards become the 
critical standards for licensure in our programs. So if they 
become more rigorous and focus more on particular skills that 
are necessary, we hope that courses will be developed that 
convey that material.

                  WHAT WORKS GUIDES AND CLEARINGHOUSE

    Mr. Regula. Well, lot of questions, but, Dr. Whitehurst, 
what works--you have a pamphlet or something that describes 
your initiatives and what works. How do you get it out?
    Dr. Whitehurst. Well, this will primarily be a web-based 
interface with the world so people will be able to come there 
if they are interested in reading instruction or interested in 
social-emotional development or interested in safe and drug-
free schools, they will be able to click on headings and find 
out what the latest research tells us about specific 
interventions and whether or not there is evidence that these 
interventions have worked.
    Mr. Regula. Well, a lot of people that need it do not have 
the capability in their home to click on the Internet.
    Dr. Whitehurst. We intend to prepare ``What Works'' guides 
when the research on important topics has risen to the point 
that there is enough information to synthesize it and 
distribute it through Department programs. The ``What Works'' 
guides will be in paper form.
    Mr. Regula. Well, if we are going to leave no child behind, 
we have to start with the parents.
    Dr. Whitehurst. I think that is true. The ``What Works'' 
Clearinghouse is initially aimed towards decision-makers, 
principals, school superintendents, and others who are choosing 
instructional materials and curricula rather than students or 
parents. However, we will put a lot of effort into making the 
Clearinghouse user-friendly so that parents and students can 
use it.
    Mr. Regula. Mr. Cunningham?

              CALIFORNIA'S PROBLEMS WITH TITLE I AND IDEA

    Mr. Cunningham. Thank you, Mr. Chairman. I have got quite a 
few questions. California is--and I am glad to see, Secretary 
Neuman, you are California-trained. And I think you met my 
wife, Dr. Nancy Cunningham, and she is now working for Bill 
Leidinger, Assistant Secretary for Management at Education, 
which will affect your committee. But California has got some 
monumental problems, in transportation, energy, water, and one 
of those is education. With population shifts coming from other 
States to California, with immigration, you can imagine the 
problems we have in IDEA and Title I and all the different 
areas combined. I think about one in nine Americans lives in 
the State of California. So ``hold harmless'' in Title I was 
very, very harmful to us. We were having children that were not 
being served as well as some of the other States because of the 
``hold harmless'', and we think we have changed that.
    My sister-in-law, Secretary Pasternack, is the Director for 
Special Education under Alan Bersin in San Diego City Schools. 
And if you need a resource there, one of the biggest issues 
that Alan Bersin, the Superintendent of schools, has--and he 
was a Clinton appointee, a Democrat but also a good friend, and 
I think he is doing a dynamic job with San Diego city schools--
is with IDEA. Originally it was funded at 6 percent when--back 
in the early 1990s, and we have more than doubled that. But a 
lot of that--I also sit on the D.C. Committee here, and for two 
terms, I was able to cap lawyer fees under IDEA, which you can 
imagine was difficult. But each time we saved over $12,000,000 
that, instead of going to lawyers, went to special education. 
And we hired special educators in hearing and speech areas. We 
got new equipment for the D.C. schools. Unfortunately, the 
Chairman this year did away with that, but I am going to put it 
back in because I want the money going to special education 
instead of trial lawyers. But it is one area in which I think 
each time we increase money--and Alan Bersin's largest problem 
is he is losing good special education teachers and spending a 
lot of their time in courts. The zero tolerance that California 
has set up is very, very difficult.
    Gray Davis, the Governor, has taken a lot of the money that 
we have sent him in education and is moving it now into the 
general fund to pay off his debts. I mean California has got 
$11,000,000,000 debt this year. So a lot of those education 
dollars--and what I am asking is for you to focus a little bit 
on California because a lot of the special needs we have.
    I also--I have got one daughter at UCLA who is bilingual--
all three of my daughters and my wife are all bilingual in 
Spanish, but the other one at UCLA is studying to be a 
librarian and is a writing major both in English and Spanish, 
and I was a teacher and a coach both on high school and college 
level and dean of a college before I actually flew in the Navy.
    But this committee has got a monumental task at 
reorganizing and we have been trying to most efficiently 
reorganize the different branches of the Department of 
Education. 760 Federal education programs under HHS, under 
Labor, under DOE, and many of them are duplicative. Can you 
tell me what you are doing working with Bill Leidinger on the 
management of your specific departments to make sure that we 
get the most amount of dollars to the classrooms and that the 
fraud, waste, and abuse that has existed under not just Clinton 
administration but other Republican administrations as well? I 
think it is time to treat it more like a business. But is that 
going to affect directly the elementary, secondary and the IDEA 
programs?

                           MANAGEMENT REFORMS

    Dr. Pasternack. I will be happy to respond first, Mr. 
Chairman, Mr. Cunningham. Mr. Leidinger, as you know, brings a 
significant background, not only as a pro football player, but 
as a city manager. We have been working very closely with him 
on a Department-wide strategic plan to not only dealwith some 
of the issues that preceded our arrival in Washington, but also to 
implement some of the goals in the President's strategic management 
initiative. So, the short answer to your question is absolutely yes. 
There have been some significant changes made internally at the 
Department, including the way we process vouchers, provide travel 
reimbursements, and authorization of people with credit cards. We have 
heightened security, which sometimes makes it difficult to get in and 
out of the building for those of us who go in and out of the building 
frequently. However, we understand the need for security. For example, 
some laptops mysteriously disappeared in the past. So I believe that 
the kinds of improvements that have already been implemented are more 
evidence of our commitment at the Department to absolutely manage 
effectively.
    We also understand the difference between leadership and 
management. However, we cannot lead unless we also have 
effective management structures in place. So, we are working 
very hard. Mr. Leidinger brings a significant amount of skill 
and experience to his position. Certainly, the Secretary, in 
his prior role as superintendent of a very large school 
district, is acutely aware of the need to have very strong 
management. And we have been working very hard, particularly 
with the Deputy Secretary, Bill Hansen, to implement a 
strategic plan and significant changes to manage more 
effectively and differently than the way we have in the past, 
sir.
    Mr. Cunningham. And the gentlelady from Connecticut went 
and spoke to my daughter's class at Yale, which is her 
district, and she called her grandmother and was all excited 
after your talk. But she wants to go into medical research, but 
she is focusing on women's studies and women's issues 
specifically in education and how women get to different 
levels. So we have got a strong background in education. And we 
would like to be of any service we can to you. And I am having 
lunch with Secretary Leidinger and Secretary Hansen at noon, 
and if there is anything you want me to pass on to them, I will 
be happy to.
    Ms. Neuman. I just wanted to add one comment, and that is 
that reorganization is often difficult. So in addition to some 
of the issues that Bob just spoke to, one of the things that we 
have done as a way of enhancing management is through 
interaction amongst us. There is a task force on early 
childhood, where all of us are working on research and 
filtering those programs with some of the same messages. Even 
though there are different programs, including Even Start, 
Title I, Head Start, a lot of these programs are going to begin 
to filter through the same messages as a way of really 
interacting and showing a stronger management base.
    Mr. Cunningham. I think one of our biggest challenges in 
education is the IDEA program. It is between the parent groups 
and the school groups. Both sides have issues and we have to 
get our arms around this thing or else it is going to cut much 
funding out of our public education programs.
    Mr. Regula. Mr. Kennedy.

                    SOCIAL AND EMOTIONAL DEVELOPMENT

    Mr. Kennedy. Thank you, Mr. Chairman. I want to thank you 
for having this hearing, and it is an important hearing, and 
welcome to all the panelists. I know we have talked a lot about 
the need for literacy and early literacy. And I know that you 
said, Ms. Neuman, that there is too much focus on social and 
emotional development and not enough on literacy. However, I 
would contend that just because there is not enough focus on 
literacy does not mean that there is too much on emotional-
social. Would you agree with that?
    Ms. Neuman. I could agree with that.
    Mr. Kennedy. If I could, because I do not have much time, 
the National Academy of Sciences with the Neurons to Neighbors 
revealed that you cannot have one without the other. You cannot 
have the literacy without the social and emotional. And what I 
hear you constantly throughout this testimony talking about is 
the importance of teaching teachers how to have cognitive--
teach these kids cognitive development learning and everything 
else. But what I do not hear you talking about are toddlers 
like I have in my district, like Amanda, who are biting their 
Head Start classmates and are getting kicked out of Head Start 
at a record rate. More kids are getting kicked out than ever 
before. And what I do not hear you talking about is what we are 
going to do to prepare and address those children's emotional 
and social development. What are you doing?
    Ms. Neuman. When I talk about early childhood professional 
development and the $15,000,000 program that we are working 
with in early childhood education, one of the critical things 
that we know is that we cannot have one without the other, in 
other words, the social, emotional and cognitive. When we parse 
it, we lose it.
    Mr. Kennedy. Well, the reason I ask you that, because we 
have in the Elementary and Secondary Education Act a section 
called the Foundations for Learning Act which focuses primarily 
on social and emotional development, helping the parents in 
therapy and family therapy, if the parents need therapy in 
order to be better parents--I mean first teachers because 
parents are first teachers. But that is not funded in the 
budget and I am wondering what you are doing to fund that 
aspect that you say is so imperative. Where is that in the 
budget? Would you show me where it is in the budget?
    Ms. Neuman. In Even Start----
    Mr. Kennedy. Even Start has been cut.
    Ms. Neuman. Even Start has been cut.
    Mr. Kennedy. And it has been cut and does not address the 
social and emotional development of these children.
    Ms. Neuman. I beg to differ. Even Start is really designed 
as a high-quality early childhood program.
    Mr. Kennedy. I am all for it. I want it increased. You have 
cut it. Where have you put the money for social and emotional 
development? You cannot tell me you have in an existing program 
that is not even meeting the needs currently of our kids that 
are getting kicked out of Head Start. Where are you addressing 
this problem?
    Ms. Neuman. We are addressing social and emotional 
development in all of our programs. The key that we want to 
focus on is family literacy, which is a critical focus of Even 
Start.
    Mr. Kennedy. Emotional literacy. I am talking about helping 
a child that cannot sit still in a class, and if they cannot 
sit still in the class, as all of you said in one way or 
another--not explicitly as I am saying it, they cannot learn. 
So what are you guys going to do to help those kids, identify 
them and help them with emotional and social development? And 
you cannot say it is spread out because we know that is not the 
case, because currently the funding is not there to address 
these programs.
    Ms. Neuman. It is, in fact----
    Mr. Kennedy. I will give you experts in the field who will 
tell you that it is not there. And I made this my focus for the 
last several years so I can speak from experience here.

      INTEGRATION OF SOCIAL, EMOTIONAL, AND COGNITIVE DEVELOPMENT

    Ms. Neuman. I have spent over 25 years in early childhood 
and reading research. And one of the things that we know about 
is the critical integration of these things. One of the reasons 
that children across America have discipline problems in some 
of the early grades is that they are not being challenged. They 
are not being challenged intellectually. Our young children 
have minds that need stimulation. And one of the ways in which 
we integrate and help them is by making sure that social and 
emotional development occurs alongside cognitive development. 
It is within all of our programs.
    Mr. Kennedy. You can say that stimulating a child 
cognitively will address their social and emotional problems. 
Is that what you are saying?
    Ms. Neuman. I am saying they are integrated. I am saying 
that when a child is not learning----
    Mr. Kennedy. When a child is kicked out of Head Start, what 
do you do with them? How do you propose in the existing program 
to address that child's needs?
    Ms. Neuman. I am going to let Wade Horn talk about Head 
Start.
    Mr. Kennedy. You just said you have got 25 years of 
experience. I am interested, because this is a serious issue, 
and you just told me that you can help these children by 
addressing them, by helping their early literacy skills that 
will somehow address their social and emotional trouble.
    Ms. Neuman. I have not said that. I have said that early 
childhood development includes cognitive development. And that 
environments that are rich in print and rich in interaction 
with teachers, that provide children with opportunities to talk 
and engage actively with other children, are all healthy 
environments that support social, emotional, and cognitive 
development.
    Mr. Kennedy. And I have not heard you when you talked about 
teaching these teachers to be better teachers--you talked about 
it in purely literacy terms. I never heard you say they are 
going to get a bachelor's degree and learn how to address the 
toddler like Amanda in my district that is biting other 
children. And I have not heard you address that, and that is 
what I am very concerned about.

                 EMOTIONAL, SOCIAL, AND BEHAVIOR ISSUES

    Dr. Pasternack. Good morning, Mr. Kennedy. I am going to 
try to jump in here for a second because the kinds of kids you 
are describing are the kind of kids that might get referred to 
the programs that I have responsibility for. We do have a 
national project that is looking at behavior problems, which 
seem to be escalating in very young children.
    Mr. Kennedy. That is the part I am trying to get at.
    Dr. Pasternack. We are alarmed at the fact that the largest 
request for technical assistance by Head Start programs across 
the country is in the area of emotional, social, and behavioral 
problems exhibited by very young kids.
    Mr. Kennedy. And that is why I am really troubled that I do 
not see any increase in any accounts to address that. I hear a 
lot about literacy and yet you have just identified the biggest 
challenge right now is social, emotional.
    Dr. Pasternack. In our Part D programs, which include our 
national research agenda for IDEA, we are making some targeted 
investments to help build capacity across the country to deal 
with those issues. When I was a State director of special 
education in New Mexico, we enacted some State legislation that 
provided training to all teachers on the signs and symptoms of 
mental illnesses. As you know, the senior Senator from my 
State, Senator Domenici, has really championed issues around 
that.
    Mr. Kennedy. I hope we pass that, Mr. Chairman. I think it 
will end up back in our committee.
    Dr. Pasternack. I think it is one of the ways in which the 
special education system is trying to link with Head Start 
system and the early childhood system, because you are correct 
that there is an alarming increase in the amount of behavior 
problems that young children are exhibiting. Although on the 
Federal scale it is a small amount of money, it is a strategic 
investment of the Part D allocation that this Committee has 
helped award to the Department. We have become good stewards of 
how we invest that money to help build capacity of Head Start 
and other childcare programs. We have an infant mental health 
initiative that we are looking at for this year, as well, 
because, as you well know, Mr. Kennedy, these issues often 
emerge very young. The earlier we can identify these kids, the 
earlier we can target our interventions to these kids, and the 
better the probability of us being successful. That is one of 
the ways that the Office of Elementary and Secondary Education, 
HHS, OERI, and the Office of Special Education and 
Rehabilitative Services are working collaboratively in a way 
that is unprecedented, from what I hear, to address the kinds 
of concerns you expressed.
    Mr. Kennedy. I am really excited about what you are talking 
about and I am looking forward to learning about what we are 
doing and how we can do more on the Federal level and work with 
the Chairman and the Committee to give more funding to those 
areas because, as you said, it is an alarming growth. I think 
it is something that we need to address much earlier on than we 
are currently doing.
    Dr. Pasternack. We will be happy to talk with you.
    Mr. Regula. Would not Head Start tend to get more ofthese 
type problems, because Head Start is getting young people from homes 
that are not providing a high degree of stability, am I not right? It 
is not like everybody has to go to first grade or kindergarten, as the 
case may be, but only those that go to Head Start are identified as 
part of the poverty program.
    Mr. Horn. Certainly Head Start is targeted towards 
disadvantaged populations, particularly economically 
disadvantaged populations. And Head Start also has a 
requirement to enroll not less than 10 percent children with 
disabilities, which also can include emotional and behavioral 
problems. I think one of the great strengths of Head Start, it 
looks at the child as the whole child. So the idea that we are 
focusing our training this summer on early literacy skills and 
integrating the new knowledge we have about that into the Head 
Start program should not be interpreted as taking anything away 
from the social and emotional aspects of Head Start, which has 
been a strength of Head Start for 35, 36 years.
    In addition to that, under the President's proposal, we 
will be requiring that States as part of their State plans 
under the childcare program must indicate how it is that they 
plan to coordinate a variety of different systems that relate 
to early childhood development that can be childcare, Head 
Start preschool programs, but also I think special education 
programs and programs like Child Find.

                              IDEA FUNDING

    Mr. Kennedy. I understand the budget freezes funding for 
IDEA school grant program, which you just said or the previous 
speaker said, that was the strength of your early social and 
emotional development, and I see that has been frozen.
    Dr. Pasternack. We are asking for a $20,000,000 increase 
for the Part C program which, serves children birth through two 
years of age. You are correct in that the Section 619 funding, 
which is our program for children 3, 4, and 5 years old, has 
been at that same level of $390,000,000 since fiscal year 2000. 
However, the increases that we are asking for in IDEA Grants to 
States funding, which is the largest presidentially requested 
increase in IDEA funding in the history of IDEA, can be used to 
serve children 3 through 5 years old if they are appropriated 
by Congress. These funds flow through to the States and then to 
the locals to enable them to provide the kinds of services that 
you and I know are required in order to ensure that students 
with disabilities receive the free and appropriate public 
education to which they are entitled under the legislation 
which Congress originally passed in 1975.
    Mr. Regula. Ms. DeLauro.
    Ms. DeLauro. Thank you very much, Mr. Chairman, and thank 
you all for being here this morning.
    If I might--maybe the Chair and I disagree on this issue. I 
am of the view, and I will say it out frankly, that if our 
priorities were in the right place in this country with regard 
to education that we would have preschool education for every 
child in this country. Head Start certainly is not a poverty 
program and never meant to be a poverty program. Head Start 
or--welfare program. Head Start is about early childhood 
learning, and we need not turn it into something else, but only 
work to improve and expand on its success. It really has 
succeeded.
    If I might just lay out a bit of setting, and I may be 
wrong, but this is the way I understand what is going on in 
childhood education areas. And I know that there is a Good 
Start Grow Smart Program, but what I want to do is try to take 
a look at the resources behind the early childhood programs. 
And as I say, as I understand it, this is the following 
scenario, that there are, in fact, truly no real resources to 
attract and keep qualified early childhood teachers or help low 
income families access high quality preschool services. Most of 
the early childhood education programs are frozen, Early 
Reading First, early childhood educators, the IDEA preschool 
grants, which is going to drop at the Federal level, as I 
understand it, per child on these children will drop to $626, 
the lowest level in about 17 years. Programs have been cut like 
Even Start, which is cut by $15,000,000 or by about 20 percent 
and that, quite frankly--I think it was said both by the 
Chairman and you, Mr. Horn, or at least acknowledged this, that 
this is the program that works with children and parents, and 
all research indicates that the parent is probably the child's 
most important teacher, so that we have cut the level of the 
ability of the Even Start program to deal in a way in which we 
believe is one of the primary conduits of learning for 
children, and that is through their parents. So the programs 
have been frozen, several I mentioned, cut, like Even Start or 
zeroed out, Foundations for Learning, the Early Learning Fund. 
Head Start funding is frozen in real terms and thereby it is 
the primary vehicle for early childhood education to poor 
children. And funding is sufficient to serve only about 60 
percent of eligible low income children. Head Start teachers 
earn about $21,000 per year, as I understand it.
    And with regard to the budget, in terms of trying to 
credential teachers, provide incentives and investments, that 
there are not any real additional resources to expand 
enrollment, enhance preliteracy curricula, purchase books, 
invest in teacher training or raise teacher pay, all kinds of 
pieces of trying to deal with that qualified workforce. There 
is--that is a basic picture of the funding level for early 
childhood education.
    Now rhetoric is one thing, but in our business and in your 
business, programs succeed or fail based on the kinds of 
resources that they have. I want to call to the attention of 
the Chairman the FACES findings. This is the evaluation program 
on Head Start. There was a--this was launched in 1997, and it 
is an evaluation. Just so, Mr. Chairman, that you know this and 
you didn't get a copy of this, over the program year, Head 
Start children showed significant expansion of their 
vocabularies and early writing skills. Children leaving Head 
Start are indeed ready to learn because they learn a great deal 
by the end of kindergarten and, in fact, our graduates' 
improvement exceeded the growth expected of a typical 
kindergartner. Head Start graduates showed significant gains in 
vocabulary, letter recognition, writing and other pre-reading 
skills. Head Start children were performing above the levels of 
other low income children on the measure of vocabulary. So the 
evaluation literature is indicating that we are on a pretty 
good track.
    Is there more to be done? Certainly. I would like to place 
into the record the testimony of Dr. Edward Ziegler, Ph.D. This 
is his Senate testimony in February of 2002. I say that because 
Ed Ziegler is probably regarded among a few others as one of 
the fathers of the Head Start program and as he says in his own 
testimony, ``Over the program's 36 years, I have become''--and 
this is Ed talking about himself--``become known as both its 
best friend and its most vocal critic.'' no one has been more 
critical when it is needed to be in terms of Head Start 
programs and those that were succeeding and those that were 
failing. In any case, Ed Ziegler has been involved in child 
development for 45 years. I am going to pull this out, but I 
would like to have this entered into the record.
    Mr. Regula. Without objection.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Ms. DeLauro. ``As someone who has studied the growth in 
development of children for some 45 years, it is my 
responsibility to point out that reading is just one aspect of 
cognitive development, and that cognitive development is one 
aspect of human development. Cognitive skills are very 
important, but they are intertwined with physical, social, 
emotional systems that is myopic if not futile to dwell on the 
intellect and exclude its partners.'' And he goes through a 
whole variety of instances that if you do not have children who 
are not prepared to learn, they are not going to learn under 
any set of circumstances, no matter what your program is or 
what it is about.
    So in setting the stage, if you will, for Head Start, I do 
have questions here, that it is a $130,000,000 increase. That 
will turn back about 2800 kids. The program serves only a 
fraction of the kids who are eligible in this country that we 
have deemed as eligible to take advantage of this program and 
that we are not willing to put the resources in this program 
that are required. There is no additional resources as I have 
laid out, according to what I understand of this budget, that 
would allow us to build on a successful model of early 
childhood education. Good Start, Grow Smart is out there. It 
does call for the training of all Head Start teachers in early 
literacy instructional techniques, accountability, measures 
that tie results to Federal funding. I believe in 
accountability. But there are all kinds of new requirements and 
there is no funding for this. How do we make up the shortfall 
for doing what we want to try to do? How do we plan on 
designing a standardized test to evaluate the needs of a 
program that is tailored to meet the needs of each individual 
community? Is there an assessment tool that is going to test 
all aspects of Head Start? Do we believe, given the 
comprehensive nature of Head Start, do you believe it is a 
mistake to tie agency contracts to performance standards? Who 
will be doing the assessing or training the assessors? We do 
not cover the cost of inflation in this program. How are we 
going to deal with all of the new requirements that have now 
been made a part of this program?
    I guess, Dr. Horn, why don't I start with you.
    Mr. Horn. First of all, the 2003 budget request does in 
fact fully fund a 2 percent increase, which is actually above 
the 1.8 percent CPIU index for 2002, which statute--which the 
statute requires that you link the cost-of-living increase to. 
And so we feel that there is ample money in the 2003 budget 
request to in fact provide for cost-of-living increase that is 
consistent with statute, even more generous than the statute, 
without sacrificing enrollment.
    It is important to understand the budget, 2003 budget, in 
context of what is happening in Head Start since 1999. In 1999 
the Head Start budget was approximately $4.6 billion. And 2002, 
it grew to $6.5 billion, a 40 percent increase in just 3 years. 
That is an extraordinary increase for a single system to 
absorb. And so we think it is time for us to pause and to make 
sure that those increases are being utilized most effectively.
    Of that nearly $2,000,000,000 increase in the Head Start 
budget over the last 3 years, $1.1 billion, over 50 percent, 
was dedicated to cost-of-living increases, teacher salary 
increases and quality improvement. So--and all of that money, 
that $1.1 billion, continues to be built into the base line of 
Head Start programs at the local level.
    Ms. DeLauro. Suppose you have miscalculated the inflation--
you talked about 1.8. Isn't Bureau of Labor Statistics talking 
about 3 percent?
    Mr. Horn. Again this is for CPIU. And there is a 
distinction between the overall cost of the Consumer Price 
Index.
    Ms. DeLauro. There are a whole variety of programs where we 
have had this discussion we talked about potentially, because 
Bureau of Labor Statistics has announced a 3 percent inflation 
rate compared to 1.8 percent from last year, so that if we are 
calculating on 1.8 percent, and we sure as heck haven't made a 
miscalculation--but please go on.
    Mr. Horn. Again, it is important to also think of this in 
terms of the overall 2--nearly $2,000,000,000 increase for this 
program. There is also $166,000,000 each year--actually in 
2002, $166,000,000 available for training and technical 
assistance. That is an increase from $155,000,000 the year 
before. So we have additional funds available in 2002 that were 
undedicated the year before that we are going to be dedicating 
towards the President's Early Literacy Training Initiative and 
we think there is ample money there.
    Even beyond that, we have an extraordinary flexibility in 
using all of the training and technical assistance funds. But 
we think this is not a matter of robbing Peter to pay Paul. 
There is in fact a real $9,000,000 increase in the 2002 budget 
over 2001 in training and technical assistance funds which will 
in fact fund our summer--well, in fact, our summer training 
program is estimated to cost about $4,000,000. So we think we 
have got that covered.
    In terms of your questions about assessment. I share a lot 
of your concerns, to be very honest with you. I think we have 
to be very careful about how we go about implementing 
assessment systems for preschoolers. But when we talk about 
assessment, it translates into people's minds of kids sitting 
at rows of desks filling in little bubble sheets and using a 
standardized testing instrument. That is not what we have in 
mind. What we have in mind is a process which we will work 
collaboratively with scholars, teachers and the Head Start 
community to develop an assessment mechanism so we can in fact 
understand whether children are making progress in the Head 
Start program.
    The first piece of that will be a workshop we will bring 
together in June of this year which will start that process. 
Again, it is a collaborative process between researchers, 
scholars and the Head Start community. In fact, that is 
practitioners.
    We then will use 2002-2003 academic year to field-test a 
number of different approaches to ensure that when we do 
assessments of preschool kids that we are doing it in a 
developmentally appropriate way. But in the end we do think it 
is appropriate to ask that Head Start programs be able to 
demonstrate that the kids and their programs are learning 
something.
    Ms. DeLauro. There is no question about that. The issue is 
whether or not we are providing the kinds of resources that are 
necessary, one, in order to increase the number of youngsters, 
because I think we all start from a premise that Head Start is 
a successful program. I am presuming that you believe Head 
Start is a successful program.
    Mr. Horn. I sure do.
    Ms. DeLauro. And that we have succeeded. We are giving 
youngsters both cognitive skills and social development skills. 
There is not any reason to think that you, one, cannot improve 
on what we are doing. So that is not theissue. The issue is 
whether or not we are, in fact, moving backward instead of forward in 
terms of trying to provide the kinds of resources so that you can 
expand the numbers of youngsters that we are able to take into the 
process to be able to give them these kinds of both cognitive skills 
and social skills, that we maintain our true--the true strength of the 
Head Start program, which is a development of the whole child, which 
has to do with parents and child development. And this is not a 
custodial program, this is a child development program, first and 
foremost, as it was conceived by the early founders of this program. 
And that what we also need to try to do is that we find--and I do not 
know what is being done with the material on all of the research that 
we have from some of the finest scholars in the country and the world 
on the zero to 3 information, that I hope we are not shelving that 
somewhere and trying to reinvent the wheel. We know today when kids and 
how kids are learning. If you talk to Sally Shay and the folks at Yale 
about reading and understanding that process, that data is there. We 
can research and research and research, but if we take it and we put it 
on the shelf and we say none of it is going to be turned into the 
opportunity for youngsters to take advantage of it and to make our 
teachers smart in understanding that data and learning it to be able to 
pass it on instead of trying to reinvent the wheel someplace else, then 
we are derelict in what our duties are.
    Mr. Horn. I agree with you.
    Ms. DeLauro. There is a heck of a lot of data there. What I 
do not understand is, what are the measures being taken to 
expand early Head Start and to look at ways in which--this is 
an area in which I am particularly concerned about and have 
introduced legislation, where are we finding the resources to 
get our kids from zero to 3 into this? Is there any money in 
these various pots that say we are going to have additional 
teachers trained for early Head Start and we are going to have 
so many more thousands of kids and slots available get into 
early Head Start?
    Mr. Horn. I agree with you, first of all. We ought not to 
say let us not do anything because we do not have perfect 
knowledge. We need to use the knowledge we have and integrate 
that knowledge into the classroom. That is the point of the 
summer training program that we have set up. But at the same 
time we ought to recognize that we do not have perfect 
knowledge and ought to continue to expand our knowledge as best 
we can. That is the purpose of the $45,000,000 5-year 
initiative to expand our knowledge through the National 
Institute of Child Health and Development about how children 
learn and what are the best kinds of curriculums that we can 
use in not just Head Start but childcare standards and other 
preschool programs. So we do not have any disagreement.
    In terms of the budget for early Head Start, I do know that 
the statute requires that 10 percent of the funds for the Head 
Start budget be used for early Head Start.
    Ms. DeLauro. So after you reach a certain threshold in the 
level of funding----
    Mr. Horn. Right. And we are going to be at 10 percent.
    Ms. DeLauro. Hopefully, if the inflation numbers are okay. 
Otherwise--well, otherwise, I mean if we go without early Head 
Start----
    Mr. Horn. We do not anticipate we are going to have to cut 
kids from either early Head Start or Head Start program at all. 
I appreciate your passion on this issue. I share it. And what 
we are all trying to do is make sure that children develop 
well.
    Ms. DeLauro. We are all trying to do that. And I think 
there is--fundamentally there is a difference. When I take a 
look at the cutback in resources and the shifting of resources, 
there is a difference, quite frankly. And I am for--we have got 
a process in which we are evaluating and testing. We can 
continue to do that. But it is also not unlike the Leave No 
Child Behind program where we have passed it. It is a 
bipartisan bill. We did all we had to do. We took all the 
pictures in the world. It is $90,000,000 short of the funding 
that it needs to be implemented. You, therefore--you, 
therefore, create failure before you get off the ground. And I 
am only suggesting that given that we are on the same track, 
that we have the resources that are needed, not in excess of, 
but resources that are needed to get us moving in that right 
direction and that we do not shortchange these vital programs. 
There are a lot of programs that we fund that are not vital. 
Preschool education, in my view, is vital for our youngsters to 
succeed. Should we do it the right way? Yes. But do not 
shortchange these programs. Find the wherewithal to provide the 
resources to be able to do what apparently we would both like 
to accomplish.
    You have been most indulgent, Mr. Chairman, and I am 
appreciative.
    Mr. Regula. And I appreciate your concern because there is 
definitely a need out there, but I will say that we have made a 
lot of progress over the last several years. We did not even 
have a Head Start----
    Ms. DeLauro. Head Start was founded 36 years ago by several 
forward-thinking people.
    Mr. Regula. I did not have any Head Start.
    Ms. DeLauro. Many of them came out of New Haven, 
Connecticut and Yale University.
    Mr. Regula. Mrs. Northup.
    Mrs. Northup. I am sorry, Mr. Chairman, that I was late.I 
had another committee meeting. First of all, let me say--I know I 
missed some of the earlier discussion, but I am disappointed that Head 
Start is not being transferred into Education. I would like to ask in 
my district, I believe that the Department of Education, Jefferson 
County Public Schools actually is a contractor for Head Start. In how 
many other districts is that true? Is that the majority of them or a 
few of them?
    Mr. Horn. Nationally 15 percent of Head Start agencies and 
delegated agencies are public school systems. But that is an 
underestimate of the kinds of coordination that Head Start 
programs have with school systems. A lot of school systems, for 
example, provide space for Head Start programs although they 
are not the actual grantee of a Head Start program. It is 
actually based in the public school system itself. And every 
Head Start agency is required to have a transition plan 
between--so when their kids graduate out of Head Start, there 
is a transition for helping them transition into public 
schools, including transfer of records at a minimum, as well as 
discussion----
    Mrs. Northup. There is a lot of coordination. I do not have 
a whole lot of time. I guess my concern is that I think when it 
started years ago, the idea was that socialization skills would 
help children get into school and be successful in schools, and 
I know there have been some studies which have shown that that 
simply is not enough, and that socialization skills are not 
enough to help children to be successful academically. There 
have to be some skills that they learn that are directly 
related to how children learn to read. And my concern is what 
sort of quality control is in the Head Start program when 
schools are just refusing to address the skills that children 
have to learn when they are 2 and 3 years old, such as phonetic 
awareness and phonics, in order to be successful when they 
start at 5 years old in kindergarten?
    Mr. Horn. First of all, we should not be satisfied with 
happy nonlearners, nor should we be satisfied with unhappy kids 
who know their alphabet. We need to focus on the whole child. 
But we do believe that it is important to integrate into the 
Head Start program the current state of knowledge when it comes 
to early literacy and early cognitive development. What we are 
doing is we are launching a summer teacher appropriation 
program in which we will, by the end of this summer, have 
trained all 50,000 Head Start classroom teachers in the newest 
knowledge about how it is that children develop early cognitive 
and early literacy skills. We will throughout the course of the 
next academic year monitor the implementation of that knowledge 
in the classroom, and for the first time we will be field-
testing and then ultimately implementing a national system of 
accountability when it comes to whether or not these kids are 
actually learning something that kids ought to be assessed when 
they come into Head Start, in the middle of the Head Start 
year, and at the end, because you want to know where they are 
when they start, you want to know where they are halfway 
through, so you can make adjustments in the programming for 
that child. If that child is not making progress, we ought to 
challenge ourselves to do something different with that child 
so the child is making progress. And, in the end, determining 
where they are after their Head Start experience. And while we 
do not anticipate using an accountability system alone to judge 
whether a grantee ought to continue, it ought to be a piece of 
what we use in evaluating whether that grantee is in fact doing 
the job that the taxpayer and the parents of those kids want 
that program to do.
    Mrs. Northup. So you are going to make the training 
available to all 50,000 teachers? Will you have any way of 
knowing how many will take advantage of that training? Is it 
coming across computer, is it interactive?
    Mr. Horn. The way we have set it up is it is a trainer of 
trainers model. 2,500 Head Start teachers will over the course 
of the summer be trained, not just in this knowledge, but also 
as trainers. They will then go back to their local Head Start 
programs where they will train the other teachers in the 
program, and in that way, we will get all 50,000 teachers 
trained. We do not stop there, as I said earlier.
    Mrs. Northup. What happens if the program does not exactly 
endorse that kids should learn sounds and letters and the 
actual Head Start program?
    Mr. Horn. First of all, I am convinced that every Head 
Start center does believe it is important for kids to develop 
cognitively and they want to do it well. The problem is that 
they do not--they have not been exposed to the new knowledge 
about how it is that kids learn in the preschool years and the 
appropriateness of having directed, systematic instruction with 
kids that is done in an appropriate--developmentally 
appropriate in a fun way. Instead, what a lot of Head Start 
teachers still have in their heads is this old outdated model 
that the best way for kids to learn is to be self-directed, and 
there are passive participants in this process as opposed to 
intentional participants.
    Mrs. Northup. And as the previous questioner said, we 
actually know how kids learn. But would you agree that while we 
have spent more and more money on the Head Start program, just 
writing the bigger check has not been effective in getting that 
information to the Head Start programs?
    Mr. Horn. I think resources is one way programs fail, and 
other ways, that they have the wrong knowledge or the wrong 
approach. We can spend a lot of money doing the wrong thing and 
we get bad outcomes. Good intentions are not good enough. They 
are better than bad intentions, but they are not good enough. 
What we ought to be focused on is whether or not we are 
actually achieving results with our good intentions, and that 
is what the President and Secretary Thompson have said again 
and again and again, we need to manage by results. What is it 
that we are actually producing with the investments that we are 
making, not just are we making investments, you know, because 
it all sounds good, but are we actually getting the results. 
And if we are not getting the results that we all want for kids 
to develop well, we ought to try something different. And I 
think what we need to do, and we have been working 
collaboratively with the Department of Education, is integrate 
this new knowledge about how kids learn into the Head Start 
program, not because we think the Head Start program is a 
failure, but because we think we can make it better.
    Mrs. Northup. And I appreciate that. It is not with any 
hostility that I see it in Health and Human Services, but I 
will say that I am a strong supporter of holding our schools 
accountable. Strong accountability efforts. And one of the 
things we have got is kids who are not ready when they come to 
school and that basically, theyare starting from a deficit, and 
therefore cannot be held accountable. I have to say you make a very 
enthusiastic and committed statement in behalf of getting results with 
the dollars and, in that case, that is fine. I am worried about the 
continued sort of excuse-making that goes on and the constant pressure 
we are under to spend more money on inputs because we cannot hold 
anybody accountable, because, by gosh, what they start with is a 
product that needs far more resources.
    Mr. Horn. I agree with you completely. This administration 
wants to focus as much as is humanly possible on outcomes, not 
just on inputs.

                           EVEN START PROGRAM

    Mrs. Northup. Let me ask a few questions about Even Start. 
I know that the dollars are cut for that. I wondered if you 
were thinking in terms of across-the-board cuts. I think 
somebody asked the other day, and the answer was that there 
were not the sort of results that showed that the dollars had 
made a difference. Was that in every way? Are there some 
programs that work and some that do not? Do we know what makes 
a program better and would those dollars continue to go?
    Ms. Neuman. I think our emphasis on Even Start is really to 
focus on what works. There have been a number of implementation 
studies that have shown how Even Start has been implemented, 
almost to mirror your comments before on inputs, focusing in on 
the inputs but not focusing enough on the outputs. Some initial 
research on Even Start suggests that we are not improving adult 
literacy skills the way we should and that we are not improving 
early childhood in the way in which we know will actually 
benefit children in elementary schools.
    So one of the things we think is imperative is really to 
begin to look at this program more critically and try to create 
the opportunities to ensure that we focus on what works, to 
improve the indicators, to provide the social, emotional, and 
cognitive development in early childhood and to ensure that the 
adult literacy skills are stressed and that the way in which 
adult literacy is taught is better, so we really get the 
results we need.
    Mrs. Northup. So what is your goal? To have fewer programs 
where the programs work? I am just wondering that if you are 
going to spend less, is it going to be that all programs get 
cut a certain amount or are there certain things you are going 
to continue to fund and certain things you are not?
    Ms. Neuman. Early Reading First will create ``centers of 
excellence.'' It really focuses on where can we spend the money 
and see the results, because the results, enable us to 
replicate those centers of excellence all across the United 
States.
    Mrs. Northup. Thank you, Mr. Chairman.
    Mr. Regula. Does Head Start still emphasize trying to help 
the parents, recognizing that that is a vital component?
    Mr. Horn. Certainly, it has been a historical strength of 
Head Start and it continues to be a strength of Head Start and 
focuses on the parents. In fact, we have recently expanded that 
notion to include not just moms as parents but dads as parents 
as well. What we are interested in doing is finding creative 
models of getting the dads more involved in the Head Start 
program and more involved in the health and development of 
their children.
    Mr. Regula. How do you avoid duplication with Even Start, 
Head Start? Because the resources, as we have heard from every 
member here this morning, are limited. It seems to me that 
there is a danger in focusing too many different places.
    Mr. Horn. There is always a danger of that. And one of the 
things that we are doing, as we have mentioned earlier, is 
working collaboratively across departments in a way that I do 
not think has happened in the past. It certainly did not happen 
when I was in the administration before. And the attempt is to 
first try to make sure that there is not duplication of 
services and better coordinate services across a variety of 
programs.

           EARLY IDENTIFICATION OF CHILDREN WITH DISABILITIES

    Mr. Regula. I see there are 5 different programs that are 
focusing on this preschool period in a child's life. Dr. 
Pasternack, do the hospitals--do you work with hospitals where 
there would be an early identification in the case of a baby 
that there might be a potential learning disability? It seems 
to me that the hospitals do some evaluation of a baby; am I 
correct? 
    Dr. Pasternack. Yes, you are correct, Mr. Chairman. We are 
working with the American Academy of Pediatrics to build the 
capacity of the pediatric community to do a better job of not 
only identifying kids with developmental disabilities and those 
at risk of developing those disabilities, but making sure that 
they understand the system that is in place across the United 
States to serve children birth through 2 years of age and their 
families, as you so importantly pointed out a minute ago.

                COORDINATION OF EARLY CHILDHOOD SERVICES

    Mr. Regula.  Is there variance in opportunity for early 
childhood programs from State to State, depending on what kind 
of leadership exists in the respective States? Ms. DeLauro 
mentioned how Connecticut is out front on some of these things. 
Is there a variance.
    Ms. Neuman. Across States, very much so. There are some 
places that have coordinated services, for example, very, very 
well. In early childhood, in Georgia, they have created a 
center--you know how in some States there is a Department of 
Health and Human Services that deals with early childhood or 
childcare and the Department of Education often deals with 
Title I and the early elementary school years--and rarely do 
those two offices talk. In Georgia--I know this is also true in 
Massachusetts--what they have done is created an Office of 
School Readiness that enables them to combine services, and 
what that does is take into account social, emotional and 
cognitive development as well as creating a seamlessness 
between the early childhood years and elementary school.
    Further, the Office of School Readiness has worked with the 
higher education institutions in really providing not only 
course work that enables----
    Mr. Regula. Are you speaking in Georgia?
    Ms. Neuman. In Georgia, but also to go in those classrooms 
and mentor early childhood providers and help them work on the 
ground with mentor-teacher relationships. They have had 
enormous success.
    So I think the collaboration is really critical here.
    Mr. Kennedy. Mr. Chairman, if I could.
    Mr. Regula. I yield.
    Mr. Kennedy. It seems as though our flagship earlylearning 
literacy right now is Even Start, currently before these proposed 
changes, is that not the case?
    Ms. Neuman. Not completely, Mr. Kennedy, there also is 
Title I preschool activities. There are about 350,000 children 
that avail themselves of preschool through Title I services. A 
wonderful example is Bright Beginnings in North Carolina, that 
has taken its Title I funds and placed that in a wonderful 
childcare service that really provides, again, social, 
emotional, and cognitive development in the early years. They 
have had tremendous effects in terms of their accountability.
    Mr. Kennedy. The Chairman's question is to avoid 
duplication. It seems like we have a plethora of programs now 
also seeming to do the same thing. We could have a program--one 
program that does literacy, like Even Start, and we fund that 
properly and expand it and fix it to find those centers for 
excellence that you point out, and then we could have the other 
programs like Head Start do the social and emotional part in 
addition to literacy so we do not have both trying to meld into 
each other.
    Mr. Regula. But they all go hand in hand.
    Mr. Kennedy. Right now you are borrowing from Peter to pay 
Paul. It seems to me that we are melding them all so that their 
focus has become blurred. That was my observation from hearing 
the Chairman.
    Mr. Regula. Well, if you leave no child behind, that is a 
very significant challenge, because you are saying Georgia has 
an outstanding program--North Carolina. So that child that is 
living there has a better shot of getting his or her early 
years improved than in some other State where they do not have 
the leadership; am I correct?
    Ms. Neuman. Well, we are hoping to take those places where 
we have seen real effects and again focus on results and begin 
to work with other States to make this happen. We are planning 
early childhood academies based on the Secretary's reading 
leadership academies that bring to bear all available 
information and to provide it to other States.
    Mr. Regula. So you are a clearinghouse, in a sense, to say 
what works and share it across the country and hope that you 
inspire the governors and the legislatures and those 
responsible for doing a better job based on what they observed.
    Ms. Neuman. Exactly.

                  EDUCATIONAL NEEDS OF YOUNG CHILDREN

    Mr. Kennedy. Mr. Chairman, the former director, Linda 
Likens from Kentucky, is now--she was head of the Head Start 
collaboration director and head of what was known as this 
National Center for Family Literacy. All of her testimony and 
data shows that the Devereaux Foundation, which--is the largest 
nonprofit early childhood, mental health provider--says that 
they are increasingly getting the data that shows that all the 
early childhood educators are saying the biggest, problem is 
the child's ability to communicate their needs, their wants, 
their feelings; and they do not rank the alphabet as high. I 
mean it is important, but in terms of children acting out. And 
I wanted to go back to Dr. Pasternack saying we have a growing 
problem in our schools with these kids acting out in the 
schools, but not all of them are going to be referred to Part 
C. So that is what I am saying. It is good--and I support the 
Administration and applaud it for increasing Part C, but what 
happens to all the kids? I mean you cannot put them all in Part 
C. So how do you teach the teachers to help address the kids--
keep them in the early literacy? Because we know from the 
studies, and the initiative that they did, showed that kids 
that can obviously learn, sit down and learn, are obviously 
learning more than kids that are up and about and running all 
around because they have not gotten this support. So I am 
wondering--what happens in the vacuum between literacy and Part 
C, what happens in the middle? Because they obviously are not 
all going to be in that literacy part and--you cannot put them 
all in Part C. So what happens to the kids in the middle that 
are having those problems? How do you address that?
    Ms. Neuman. I think that we would not compartmentalize. 
When I think of your comment about children needing to be more 
able to communicate: in order to communicate, you need words. 
In order to develop word knowledge and vocabulary, you need 
good teachers to communicate with children who actively engage 
them. And in order to actively engage children, you need to 
have something to talk about. And to do that requires a great 
deal of knowledge. Our children are not coming to school 
effectively ready for school not only because they lack ABC 
knowledge, but because they lack knowledge. And one of the ways 
in which they will learn and enjoy learning is by having a rich 
curriculum. We have not talked about the curriculum that is in 
preschools, but that is centrally important to how children 
learn. I would say that children who do not learn do not feel 
good about themselves. And one of the things we have not fully 
recognized is that these preschool environments are 
environments where social, emotional, and cognitive development 
come together so that children feel good about themselves and 
are prepared for school. To be prepared, they need knowledge 
and they need literacy and they need numeracy. They need social 
and emotional development.

                APPROACH TO ADDRESSING PROBLEM BEHAVIORS

    Mr. Kennedy. The challenge behaviors is what I am getting 
at, Dr. Pasternack. If you know it is an alarming problem in 
the schools these days, how are you addressing that?
    Dr. Pasternack. If I may address that, Mr. Chairman. 
Briefly, one of the ways that we are addressing this issue is 
by supporting schoolwide implementation of something called 
positive behavior supports through a research project that we 
awarded to the University of Oregon using Part D funds. The 
researchers there, Hill Walker, Jeff Sprague, George Sagaii, 
and their colleagues have looked at the characteristics of 
schools where you have decreases in disciplinary referrals and 
increases in positive behavior on the part of all kids. It is a 
schoolwide implementation model. That, to me, is one of the 
exemplars of the nexus between what we do that impacts kids 
with disabilities and how we can extrapolate from those studies 
to have an impact on all students. That is an example of where 
we originally looked at the behavioral problems exhibited with 
kids with disabilities. As you well know, many kids exhibit 
behavior problems, but that does not mean they are emotionally 
disturbed and does not mean that they have a disability. Even 
if the children have disabilities, there is a two-tiered 
eligibility model, as you know, that requires a determination, 
(A) does the child have a disability and, (B) due to the fact 
that the child has a disability, does that child need special 
education and related services? Many children who have 
disabilities may not need special education if, in fact, we can 
accommodate their learning differences in a good instructional 
program.
    Mr. Kennedy. And that instructional program is what I am 
talking about. If you can tell me whatever you are going to do 
to help these teachers become better literacy teachers--I do 
not know what it is called.
    Ms. Neuman. Academy.
    Mr. Regula. Get the information for Mr. Kennedy. I want to 
get on to Mrs. Northup.
    Mr. Kennedy. Will that include teaching these teachers how 
to address these challenging behaviors in addition to literacy? 
That is what I am looking for.
    Ms. Neuman. Yes.

           EARLY INTERVENTION FOR CHILDREN WITH DISABILITIES

    Mrs. Northup. I will follow up a little bit along the same 
lines. I wanted to talk about special education. I will say, 
that it seems to me like you have to have certain categories. I 
will say, as a parent of six children, when Woody and I were 
married 33 years ago, we thought we were going to have the all-
American kids that are going to jump on the bus and go off to 
school and come home with straight A's. And I actually know a 
few parents that have those kind of children. I think my 
husband had a right to think that. That is what he did in 
school. But I struggled a little more when I was in early 
school. There are those children that have learning 
disabilities that we know early intervention is important. I 
struggle a little bit because my children deserve their 
privacy. But let me just say that there is a strain of dyslexia 
here. Early intervention for those children in my family who 
went to a special school for three or four years, never had an 
untimed test, and had special arrangements made to them, 
graduated from college. One is in MBA school, and yet we have 
this idea about mainstreaming. And I am not against 
mainstreaming unless it involves every single class, you have 
every single minute of the day except for 20 minutes here or 
there. Intensive systemic intervention often means early 
identification and it involves critical help so that that child 
overcomes those disabilities. There is an ongoing belief 
nationally, based on what previous interpretations have been, 
that you simply cannot pull children out for intensive 
intervention early. Do you see that as being part of this 
solution, and are the parents in my district going to have to 
continue to pay outrageous amounts of dollars? We have three 
overcrowded elementary schools that are private and are 
extremely expensive, with a waiting list from parents who have 
kids that have been diagnosed as learning disabled and are 
reading way below their ability level and their grade level. 
They are waiting and trying to get into these schools, because 
our public school system believes they cannot have that early 
intensive intervention.
    Dr. Pasternack. Congresswoman Northup, I know that you are 
acutely aware of the fact that we need to have highly qualified 
teachers with research-based interventions capable of changing 
the life trajectories of kids from risk to resiliency. The 
earlier we can identify kids, and the earlier we can provide 
scientifically based interventions, the better our probability 
of successfully intervening in the lives of those students. It 
shows up most acutely in the area of reading. With H.R. 1, 
Reading First, and Early Reading First, our hope is that we are 
going to see a difference in the students that eventually wind 
up in special education. In fact, we expect to be able to 
differentiate between the instructional casualties, those 
students that could have learned if they had been taught by 
highly qualified personnel using research-based curricula and 
instructional strategies, and those kids with intractable 
reading problems, such as that small percentage of kids with 
dyslexia, as you point out, who need different types of 
instructional strategies.
    Mrs. Northup. There is probably a degree here. I mean there 
is probably very dyslexic or a little dyslexic or whatever. But 
let me just say at least two of those schools do not have 
teachers that have gone back and gotten master's degrees. They 
trained them over the course of a summer for 6 weeks--a teacher 
that has been in a regular classroom--and they do great work. 
They changed the course of my children's lives. Children who 
could not go to a regular grade school after four years, three 
years, five years. One of the children was diagnosed at 3 as 
being borderline-retarded. He graduated from Miami of Ohio on 
time with honors. Now this is ridiculous and it does not take a 
masters' degrees or post graduate courses. It takes less than 
that.
    And let me say too, in response to something Mr. Kennedy 
said, getting a little personal, one of our children was 
adopted at age 1. It would be far too painful to go into what 
happened between birth and 1 year old, but when I read in the 
paper that our superintendent 5 years ago was expelling 3-year-
olds and people were outraged, I said I know what was going on 
there with that 3-year-old. This was a child that opened a 
speeding car door at 60 miles an hour and said, ``Either stop 
at the ice cream store or I am jumping.'' And from the day she 
walked in the door if you said, ``I am sorry, no,'' she went 
for the butcher knife. We thought it was autism. She is so 
fabulous today. She is 22 years old and a nursery school 
beloved teacher who does a fabulous job--especially with 
troubled kids. And she will say, ``He is a little annoying--you 
know, not as annoying as I was.'' And I think this is what you 
are talking about. The child at 3 years old. Maybe they are 
also born drug-addicted. A superintendent does not know what to 
do with a child that literally is destroying the classroom for 
every other child, and I do not think we have the research yet. 
The counseling, the support system, the advice. I mean there is 
nobody that can give parents, much less teachers, good answers. 
And yet the difference between what would have been and what 
is, is enormous, just enormous with the right intervention. I 
do not think Head Start has the answers for those kids. And I 
think we need profound research that gives us better answers on 
what to do with the child that a superintendent might be 
tempted to suspend at three years old.
    Mr. Kennedy. I think you are right on. That has been the 
point I have been trying to make over and over.
    Mrs. Northup [presiding]. And that is not dyslexia, that is 
not an active child, that is not a kid that feels a little 
beside himself. This is a child that has needs that are at a 
much different level of intervention and support. I would have 
written any check, any check. There was not a place to write a 
check that could have helped me through the stages that were 
involved here. So I just want to say there is a big difference 
between a hyperactive kid and a child that has deep emotional 
problems.

                          MENTAL HEALTH ISSUES

    Mr. Kennedy. And if the child's needs are not met at Head 
Start and if they are not met at school, and these are places--
or Part C, where do the Head Start teachers and parents and the 
school teacher get the experience to know how to deal with that 
child's needs? And that is what I have been trying to get. 
Where do those kids--where do those families get the needs that 
they have met in this proposal?
    Dr. Pasternack. One of the concerns that the President 
articulated in the New Freedom Initiative that was released his 
first month in office was the fragmentation in the mental 
health delivery system that currently exists in this country. 
The Surgeon General, who unfortunately has left public service, 
eloquently pointed out before he left that only one in 5 kids 
in public schools who needs mental health services is getting 
those mental health services. The state of mental health in 
this country is in crisis, and I think we have to do a better 
job of building capacity in our public schools to meet the 
mental health needs of kids because many of the kids that you 
both are speaking about are the kinds of kids that wind up in 
special education either with a diagnosis of emotionally 
disturbed or under the other health-impaired categories, ADHD. 
Kids are being placed in the juvenile justice system and adult 
criminal justice system in alarming numbers. It is becoming the 
surrogate mental health system in the view of many. So, I think 
the President is aware of this issue, and the Administration is 
working, as Wade said a moment ago, in an unprecedented way.
    I just want to close by saying that one of my 
responsibilities is to chair the Federal Interagency 
Coordinating Council, which is under Part C and is a required 
intergovernmental council that advises nine Cabinet Secretaries 
on issues affecting young kids with disabilities or at risk of 
developing those disabilities. This year, we have identified 
two issues to focus on. One is the fact that families--I think 
you will appreciate this, Mrs. Northup--families with kids of 
disabilities do not have access to childcare. The second one is 
the fact that we have to do a much better job at meeting the 
health care needs of these kids and the mental health needs of 
those kids. Those are the two issues that the Federal 
Interagency Coordinating Council is going to attempt to work 
on. So, I think we are acutely aware of the issues that you 
have raised and are going to try to do a better job at the 
Federal level of developing strategies and programs in a 
collaborative and coordinated way to meet the multiple needs of 
kids so they can be ready to learn and can be successful in 
school.
    Mr. Horn. In terms of Head Start, I want to emphasize again 
that although we have a focus in this particular summer teacher 
training program on early literacy skills, it is not at the 
expense of a continuing focus on the social and emotional 
development of the children at Head Start. We continue to fund 
a National Technical System Center focused specifically on 
social and emotional needs of children of Head Start. We 
continue to do other kinds of training activities for teachers 
and other classroom personnel who will identify and be able to 
deal with kids who have social and emotional difficulties. I 
agree with Assistant Secretary Neuman that there is an 
interplay between a challenging curriculum and a child's 
comportment in the classroom. That does not mean that every 
child with a behavior disorder will--suddenly the disorder will 
disappear if we have the right instructional curricula in the 
classroom. But for a lot of kids, it will. But this is not at 
the expense of that, it is in addition to it, because we think 
Head Start needs to focus on this to integrate the most recent 
knowledge that a lot of my colleagues at this table have 
actually produced over the last decade or so, and we need to 
get that knowledge in the hands of Head Start teachers.
    Mr. Kennedy. Thank you all for the fantastic work you did. 
I am as passionate, as you can see, as you are in this area. We 
have in my school system in Providence--our special education 
population for elementary and secondary education has increased 
38 percent in the last 10 years. 38 percent. We cannot afford 
in this country to be paying these special ed costs. And I 
think all of these teachers tell me that a lot of it can be 
avoided, as Dr. Pasternack said, by getting these kids 
addressed earlier in terms of their families' situations and as 
the--my colleague said, a lot of these kids in foster care, how 
can you imagine these kids getting bounced around from one to 
the other. Overnight placements are unbelievable in my state. 
We are being sued for a number of overnight placements. How do 
you expect these kids to have any emotional abilities to settle 
down and get the support they need. And I am just looking 
forward to working with you to get that aspect done, and 
certainly literacy is a big part of it. But I just do not want 
us to go so far off on the literacy that we take for granted 
that real competency in addressing emotional and mental health 
needs is so important also. It is not like you have to have all 
Ph.Ds. Just have the Ph.D. Teach the teachers or teach the 
parents how to address it, and that is a resource I think we 
need more of.
    Mrs. Northup. I think we have run over a little bit. And we 
appreciate your indulgence and thank you very much for the work 
you do.
    [The following questions were submitted to be answered for 
the record:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                         Wednesday, April 24, 2002.

           TEACHER RECRUITMENT, PREPARATION, AND DEVELOPMENT

                               WITNESSES

SALLY STROUP, ASSISTANT SECRETARY FOR POSTSECONDARY EDUCATION
GROVER J. WHITEHURST, ASSISTANT SECRETARY FOR EDUCATIONAL RESEARCH AND 
    IMPROVEMENT
SUSAN B. NEUMAN, ASSISTANT SECRETARY FOR ELEMENTARY AND SECONDARY 
    EDUCATION
ROBERT H. PASTERNACK, ASSISTANT SECRETARY FOR SPECIAL EDUCATION AND 
    REHABILITATIVE SERVICES
MARIA HERNANDEZ FERRIER, DIRECTOR, OFFICE OF ENGLISH LANGUAGE 
    ACQUISITION, LANGUAGE ENHANCEMENT, AND ACADEMIC ACHIEVEMENT FOR 
    LIMITED ENGLISH PROFICIENT STUDENTS
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE

                       Introduction of Witnesses

    Mr. Regula. We'll get started. We have an interesting panel 
this morning. I think it's an extremely important subject. 
Every time I give a speech to a group, I say, how many remember 
a teacher that made a difference in your lives? And of course, 
every hand goes up. But it's A teacher, and it ought to be 
every teacher. I guess that's our challenge, to make sure that 
we get good teachers.
    My third grade grandson, had three possible third grade 
teachers. And even he knew which one he wanted. He figured out 
which was the best of the three. And it shouldn't be that way, 
there ought to be three best.
    So teacher recruitment is extremely important. This is a 
subject of great interest to me, because I think that's key to 
a good education system, is a good teacher. And it goes back to 
the colleges of education and the way in which they prepare 
teachers. It goes to the question of how administration people 
provide mentoring and support for new teachers. And so I think 
it's an extremely important topic. If we're to have 
prospectively a good education system, we've got to have good 
people in the classroom.
    And therefore, I'll be interested in what you have to say. 
I have, as most of you probably know, spent some time in a 
classroom myself and realize the importance of it. I wrote to 
two of my college professors and pointed out to them things 
that they had done 30, 40 years ago that I still remembered. 
And so teachers are a part of the education system, and we're 
interested in doing anything we can in our legislative 
proposals to enhance the quality, getting a quality teacher in 
the classroom. We do have the programs like Troops to Teachers 
and Teach for America, which have, I think, been quite 
valuable.
    So with that, we'll look forward to your testimony. The 
order that I have here is Sally Stroup, who will be first, then 
Susan Neuman, Russ Whitehurst, Bob Pasternack and Maria 
Ferrier.
    Okay, Sally.

                   Opening Statement of Sally Stroup

    Ms. Stroup. Thank you. Good morning, Chairman Regula. It's 
an honor to be here today to discuss the budget for the Office 
of Postsecondary Education in regard to issues of teacher 
recruitment, preparation and development. We face a serious 
challenge in improving teacher quality and enhancing the 
teaching profession to meet the needs of all students.

                             THE CHALLENGE

    Teachers have never had to be as well prepared as they do 
today. At the same time, teacher shortages are particularly 
acute in high poverty areas, and in particular subjects, such 
as mathematics, science, special education and bilingual 
education. As a result, attention is increasingly focused on 
roles that institutions of higher education and States play in 
ensuring that teachers have the content knowledge and teaching 
skills they need to help all students reach high academic 
standards.
    In the past, a lack of collaboration between teacher 
preparation programs and colleges of arts and sciences and 
between institutions of higher education and the school 
districts they serve has resulted in too many unprepared 
teachers going into classrooms. Too often, new teachers enter 
the classroom with inadequate knowledge and inadequate skills 
to deal with all students in the classroom.

                THE TEACHER QUALITY ENHANCEMENT PROGRAM

    To help address this particular need, we're requesting $90 
million for fiscal year 2003 for the Teacher Quality 
Enhancement Grants program, which is authorized under Title II 
of the Higher Education Act. This program is designed to 
increase student achievement by improving the way our Nation 
recruits, prepares, licenses and supports teachers. It achieves 
these goals by providing incentives, encouraging reforms and 
leveraging local and State resources to ensure that current and 
future teachers have the academic content knowledge and 
teaching skills they need to instruct all students effectively.
    Of the total request, $33.9 million actually goes to 
States, for them to continue to develop innovative ways to 
improve the quality of the teaching force. This includes such 
things as reforms to teacher licensing and certification 
requirements, providing alternative routes to State 
certification, and developing mechanisms to ensure theeffective 
recruitment and payment of highly qualified teachers.
    $46.7 million of the budget request would fund partnerships 
to implement a wide range of reforms and improvements in 
teacher preparation programs. These partnerships, which at a 
minimum must include one institution of higher education 
teacher preparation program, one college of arts and sciences, 
and one high need local school district, are designed to 
strengthen the links between the key players in the teacher 
preparation process.
    Finally, the $8.9 million remaining in the budget request 
would go to recruitment efforts. These funds would support 
innovative efforts by States and collaborative partnerships to 
respond to teacher shortages. Local educational agencies can 
use these funds to recruit highly qualified teachers, award 
scholarships for candidates to complete teacher preparation 
programs, support scholarship recipients, and provide follow-up 
services to former scholarship recipients.

                OTHER EFFORTS TO ENHANCE TEACHER QUALITY

    In addition to this one specific teacher quality program 
that's part of the Higher Education Act, the Department 
administers other programs that help strengthen the 
institutions that prepare teachers. The Fund for the 
Improvement of Postsecondary Education supports projects that 
are designed to develop model innovative reforms and 
improvements in a broad range of postsecondary education areas, 
including improving the preparation of K-12 teachers.
    The programs that address strengthening institutions and 
higher education, under Titles III and V of the Higher 
Education Act, make funds available to institutions to support 
a wide variety of activities that include establishing or 
enhancing teacher preparation programs. These include the Title 
III Historically Black Colleges and Universities, the Title V 
Hispanic-Serving Institutions and the other Strengthening 
Institutions programs. The budget request for this pot of money 
is $462.9 million, which is an increase of $15.8 million over 
2002.
    The President's budget also proposes a total of $102.5 
million for the International Education and Foreign Language 
Studies programs. The Overseas programs support study, 
curriculum development, and other academic activities in 
foreign countries by teachers and prospective teachers. These 
programs focus specifically on teacher preparation and 
development, creating a significant educational ripple effect 
as each teacher or faculty member trained under the program 
takes the experience back to the classroom.

          THE ROLE OF FEDERAL STUDENT AID AND LOAN FORGIVENESS

    Finally, the Federal Student Financial Aid programs play a 
very important role in the recruitment and preparation of 
teachers. In 1999-2000, nearly half of the individuals enrolled 
in postsecondary education majoring in education or related 
fields, received Federal Student Aid. A quarter of those 
majoring in education or related fields received a Pell Grant, 
and a third received a Stafford student loan.
    Offering student loan forgiveness in exchange for service 
is one way to recruit and retain qualified undergraduates 
majoring in education. In 1999-2000, two-thirds of all 
graduating seniors who majored in education had received 
Stafford loans at some point in their undergraduate career. 
Currently, those teachers who were new borrowers as of October 
of 1998 are eligible for loan forgiveness in the amount of 
$5,000 if they teach for five consecutive years in a high need 
school district.
    The President has proposed substantially increasing the 
maximum loan forgiveness to $17,500 for mathematics, science 
and special education teachers at qualified low-income schools, 
because of the current shortage of those teachers in such low-
income school districts. In addition, teachers who receive the 
campus-based Perkins loans are eligible for loan forgiveness 
under that particular program if they teach in high need school 
districts.

                             ACCOUNTABILITY

    In 1998, when Title II of the Higher Education Act was 
adopted, Congress wanted to look at issues of accountability 
with respect to teacher preparation programs. Title II requires 
all institutions of higher education with teacher preparation 
programs to report annually to the State and to the public on 
the percentage of program completers who pass State 
certification and licensure tests. The States must then report 
that data to the Department of Education, and we are currently 
in the process of compiling the first of those reports that we 
hope to get up to Congress in the not too distant future. This 
report will show the pass rates of the respective States for 
their teacher preparation programs.
    Ultimately, public disclosure is intended to create a 
positive incentive for institutions of higher education to 
focus on important performance-based outcomes and for the 
entire institution to take responsibility for the graduation of 
well-prepared teachers for the classroom. While there are many 
initiatives at the Department that are designed to improve 
teacher quality, many of them in No Child Left Behind, these 
are the main programs in the Office of Postsecondary Education 
that actually deal with the issues of teacher recruitment, 
training and preparation.
    I thank you for the opportunity to appear today, and my 
colleagues and I would be happy to answer any questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                  Opening Statement of Susan B. Neuman

    Mr. Regula. Are each of you making a presentation?
    Ms. Stroup. Yes.
    Mr. Regula. Ms. Neuman.
    Ms. Neuman. Thank you, Mr. Chairman. It's a pleasure to 
talk about teacher quality initiatives today as part of the 
Elementary and Secondary Education Act.
    We now have compelling evidence that confirms what parents 
have always known that the quality of a teacher is a critical 
component in how well students achieve. Studies in Tennessee 
and Texas recently have focused on the importance of effective 
teachers in greater achievement gains. But we also have data 
from the 1960s that provide compelling evidence that children 
benefit from reading, math, and many of our subjects when they 
have high quality teachers.
    All of our children deserve the very highest quality 
teachers. The No Child Left Behind Act calls for States to 
ensure that every public school teacher in the core academic 
subjects is highly qualified by the end of the 2005-2006 school 
year. All of our new teachers will have to be licensed by the 
State, hold at least a bachelor's degree, and pass a rigorous 
State test on subject knowledge and teaching skills.
    Reaching this goal will require reform of traditional 
teaching training, and it will require many of the alternate 
routes to teaching that we've discussed before.
    Mr. Regula. This is a goal?
    Ms. Neuman. Right.
    Many of our States have alternative certification programs. 
As a Nation, we face many challenges in improving teacher 
quality and enhancing the teaching profession. The largest of 
our programs is Improving Teacher Quality State Grants, which 
provide support for States and school districts to develop and 
support a high-quality teaching force through activities that 
are grounded in scientifically based evidence.
    The program gives States and school districts a flexible 
source of funding with which to meet their particular needs in 
strengthening the skills and knowledge of our teachers and 
administrators. In return for this flexibility, school 
districts are required to demonstrate annual progress in 
ensuring that all teachers teaching in core academic subjects 
are highly qualified. The Administration is requesting $2.85 
billion for this program in fiscal year 2003.
    The Transition to Teaching program, for which the 
Administration is requesting $39.4 million, is intended to help 
mitigate the shortage of qualified licensed or certified 
teachers in many of our Nation's schools. The program provides 
grants to help support efforts to recruit, train, and place 
talented teachers in teaching positions and to support them 
during the first years in the classroom. The program focuses on 
encouraging two groups of non-traditional teaching candidates 
to become classroom teachers mid-career professionals and 
recent college graduates.
    Troops-to-Teachers supports the highly successful work of 
the Department of Defense Troops-to-Teachers program. Under 
this program, the Department of Education transfers program 
funds to the Department of Defense to provide assistance to 
eligible members of the armed forces so that they can obtain 
certification or licensing as elementary school teachers, 
secondary school teachers, or vocational technical teachers and 
become highly qualified teachers by demonstrating competency in 
each of the subjects they teach.
    The Mathematics and Science Partnership program supports 
State and local efforts to improve student academic achievement 
in mathematics and science by promoting strong teaching skills 
for elementary and secondary teachers, including the 
integration of scientifically based evidence and technology in 
the curriculum.
    In addition, we have other programs that support 
improvements in teacher quality, including Early Childhood 
Professional Development, $15 million; Teaching of Traditional 
American History, $50 million; Early Reading First, $75 
million; and Reading First State Grants, $1 billion. States may 
also use their Title I Grants to Local Educational Agencies 
funds to improve teacher quality and enhance the teaching 
profession. In fact, for fiscal year, 2002 and 2003, the No 
Child Left Behind Act requires school districts to use between 
5 to 10 percent of their Title I Grants to LEAs allocations to 
help meet this goal.
    Mr. Chairperson, this concludes my prepared remarks. I 
would be happy to answer any questions that you may have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you.
    Mr. Whitehurst.

               OPENING STATEMENT OF GROVER J. WHITEHURST

    Mr. Whitehurst. I'm very pleased to be here to be here with 
you again. I want to talk to you about the programs that are 
administered through the Office of Educational Research and 
Improvement that relate to teacher preparation, teacher quality 
and teacher retention.
    About a month ago I was asked to give the lead-off address 
at the White House Conference on Preparing Tomorrow's Teachers. 
To do that, I had to spend about a month in the late evenings 
and early mornings reading the research literature on that 
topic.
    Mr. Regula. There is a lot of it.
    Mr. Whitehurst. There is a fair amount of it. It does not 
address many issues that are relevant to preparing and 
retaining teachers. But the research that is available provides 
us some guidelines. So I'm torn between talking about the 
research and talking about my budget request. I'll try to do 
both and fit them together.

                 CHARACTERISTICS OF EFFECTIVE TEACHERS

    One of the things that we've learned, related to what Susan 
Neuman just indicated, is that teachers do matter. Kids who 
have three bad teachers in a row have trouble recovering 
academically. Alternatively, kids who have three good teachers 
in a row demonstrate a permanent boost in achievement that 
lasts for years. Fortunately it's unlikely that a child will 
get three terrible teachers in a row. Teacher quality makes a 
tremendous difference in a child's educational trajectory.
    The current approach to improving teacher quality is to 
focus on issues like teacher certification, licensure of 
subject matter knowledge, and related subjects. OERI's current 
research portfolio investigates a number of these issues. Our 
Consortia for Policy Research and Education (CPRE) has recently 
completed a very interesting study of mathematics reform in 
California.
    One of the things CPRE examined was the effect of focused 
professional development activities on the ability of the State 
to carry forward its mathematics reform. They compared teachers 
who received focused in-service training--30 hours focused on 
the new curriculum--compared with teachers who received a 
comparable amount of training that was spotty and not focused 
on the particular curriculum to be delivered.
    Those teachers who received the focused training changed 
their practice in the classroom, and the kids learned more. The 
teachers who received the scattered training that wasn't 
related to the curriculum didn't change their practice in the 
classroom, and the children's learning didn't advance. So, 
focused training does seem to make a difference.
    Our National Center for Education Statistics is the 
majorsource of information on how teachers are being trained, what 
their characteristics are, how they are distributed across poverty 
districts and economically advantaged districts. Relating to 
professional development, teachers report that when they have extended 
opportunities for professional development, more than eight hours in a 
year, they feel they profit from that and that it changes their 
classroom practice. Whereas teachers who report less than eight hours a 
year of professional development indicate that they don't profit from 
it.
    We also find out from the schools and staffing survey that 
the vast majority of teachers receive less than eight hours a 
year of in-service professional development. I think this 
finding has clear implications for implementation of Title II 
of ESEA.

       ADDRESSING THE NEED FOR MORE AND BETTER QUALIFIED TEACHERS

    Another very robust finding from research, is the effect of 
the verbal and cognitive ability of teachers. Teachers who 
score higher on the SAT and ACT exams have children who learn 
better than teachers who demonstrate lower levels of cognitive 
ability. Given this finding, it is disturbing that the SAT 
scores and ACT scores of teachers who majored in education are 
significantly lower than SAT scores of students who majored in 
other fields. So, this represents a challenge to us, 
particularly when combined with the challenge we face of having 
to replace huge numbers of teachers over the next decade.
    So how do we balance the need to be more selective in 
recruiting teachers in terms of their abilities and cognitive 
characteristics with the demand to replace substantial numbers 
of teachers? It certainly is going to be a challenge.
    One strategy for dealing with these problems may have to do 
with compensation patterns. Again, we have an ongoing research 
project, the Changing Teacher Compensation Project, that 
focuses on the Cincinnati school system. This project examines 
the effect of a two-tiered compensation system in which major 
salary increases are dependent on teachers or schools actually 
changing their practices within the classroom. The evidence 
indicates that student achievement can actually be affected by 
a compensation package that rewards effective teaching at the 
classroom and school level.

                  TEACHING AS A SPECIALIZED ENTERPRISE

    As I mentioned previously, one of the conclusions of recent 
research is that focused professional development makes a 
difference. Coaching a sport is a specialized enterprise in 
which you would not necessarily expect that the great football 
coach would be a great swimming coach. Similarly, I think we've 
got to conceptualize teaching as a specialized enterprise in 
which the skills and abilities needed to be a great reading 
teacher are not necessarily the same skills and abilities and 
training needed to be a good math teacher.

                    OERI'S NEW RESEARCH INITIATIVES

    One implication for OERI's newer research initiatives is to 
focus on teacher training and professional development in the 
context of studies of disciplines of activity. For example, in 
our new research initiative in preschool curriculum evaluation, 
we are focusing on curriculum. We are also focusing on what 
sort of training preschool teachers need to deliver effective 
curriculum.
    Likewise in our new research initiative in the area of 
reading comprehension, the key question is how to teach 
children to comprehend what they read. In the context of this 
program, we're asking what sorts of professional development 
teachers need in order to be effective teachers of reading 
comprehension.
    In keeping with these examples, we expect our research 
investment in the area of teaching to move increasingly towards 
questions of how to train and support teachers within 
particular content areas, such as reading and math, and with 
particular ages of children and types of learners, such as 
preschoolers versus English language learners or adult 
learners. We need the funding and the flexibility in our 2003 
budget that will allow us to pursue these questions.

                               CONCLUSION

    We are at the beginning of an exciting new period in 
teaching. It's one in which previous assumptions and ways of 
doing business are going to be questioned. As we build a solid 
research base on this topic, one that I think will be more 
specific than we have currently, we should be in a much better 
position to provide a good teacher for all learners.
    Related to the anecdote that you started us with today, I 
have two children, one's in 12th grade, one's in 8th grade. As 
you know, in elementary school a child has only one teacher, 
typically. So for the last 12 years, my wife and I have sat 
down in the summer to try to write the magic letter that would 
get our child assigned to what we thought would be the best 
teacher for the next year, understanding that a bad teacher is 
not a good thing and a good teacher is a great thing.
    What we need, I think, based on research, is to develop a 
new system for supporting the development and training and 
education of teachers so that every teacher is good enough to 
make sure that no child is left behind.
    Thank you very much for the opportunity to testify.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. So you don't have to write letters. [Laughter.]
    Mr. Whitehurst. Exactly. So that my sons will not have to 
write letters for their sons and daughters to make sure they 
get a good teacher. Thank you.

                   STATEMENT OF ROBERT H. PASTERNACK

    Mr. Regula. Mr. Pasternack.
    Mr. Pasternack. Good morning, Mr. Chairman. Thank you again 
for the opportunity to be here. And again, I applaud you for 
the concept of bringing us all together to talk about these 
issues, since teacher quality impacts all of our programs and 
all the kids in America's schools.
    As you know, and as you said at the opening, every day 
across the country teachers get up and try very hard to do 
their best to educate our children. In the programs that I am 
responsible for, the teachers need absolutely the best possible 
training and the best possible skills because they're trying to 
educate the most difficult kids in our system.

           CRITICAL SHORTAGES OF SPECIAL EDUCATION PERSONNEL

    As you know, Mr. Chairman, we have a critical shortage of 
qualified personnel in the area of special education. This past 
school year, the 1999-2000 school year, there were 
approximately 12,000 positions that went unfilled. School 
districts can't recruit or retain, highly qualified personnel.
    Mr. Regula. What do they do about those, put temporaries 
in?
    Mr. Pasternack. They put in uncertified people. And while I 
would submit to you, Mr. Chairman, and as I know you're aware, 
certified doesn't mean qualified--
    Mr. Regula. Not by a long shot.
    Mr. Pasternack. There certainly is a need for us to have 
the most highly qualified people working with the most 
difficult kids to educate. We're very concerned about what we 
hear from school districts.

                       IMPROVING TEACHERS SKILLS

    On top of that, Mr. Chairman, another thing that we hear 
that's very alarming from school districts is the amount of 
money that they're having to spend on professional development. 
The teachers that are coming to them out of the universities 
don't have the skills that they need to do the very difficult 
job that we're asking them to do in terms of meeting the needs 
of diverse learners that they find in front of them on a daily 
basis.
    The kinds of kids in our system, as I said, require the 
best prepared people that we can find. I want to point out just 
a couple of things that you may not be aware of, that point to 
the need for us to work together on these issues. For example, 
at this point in time, Sir, about half of the students with 
disabilities, out of the 6.5 million kids that we identify as 
having disabilities and receive special education, about half 
of those kids spend 80 percent or more of their time in a 
general education classroom. What that points to is the need 
for general education teachers to know more about meeting the 
needs of students with disabilities.
    What we hear from parents across the country is that they 
feel that the teachers are not prepared to do that job, and 
that kids don't make the progress that parents have a right to 
expect. Congress has a right to demand, and the President 
insists that we leave no child behind.

                   HIGH TURNOVER IN SPECIAL EDUCATION

    So, that's one of the issues. The critical shortage is 
something that we've got to do something about. And that's 
compounded by the fact that we have a high turnover rate. We're 
losing some of our best teachers. One of the national studies 
that we've been responsible for indicates that we lose some of 
the best teachers for three reasons. One is there's too much 
paperwork in special education. Another one is that teachers 
are telling us they're spending too much time going to 
meetings. And the third one is a lack of administrative 
support.
    Now, those are things that we need to be seriously 
addressing during the upcoming reauthorization of the 
Individuals with Disabilities Education Act (IDEA) and we look 
forward to talking with you more about that as we move ahead.
    As my colleague Russ was saying a minute ago, we know that 
in order for professional development to be effective, it's got 
to be sustained, it's got to be comprehensive, it's got to be 
job-embedded. So we're really looking forward to working with 
our colleagues in the Offices of Educational Research and 
Improvement, Elementary and Secondary, Postsecondary, and 
English Language Acquisition within our Department, to make 
sure that we have a coherent approach to improving the quality 
of professional development.
    One of our issues, as I said, is recruitment, another one 
is retention. Once we find people, we've got to make sure that 
we provide them with a work environment that allows them to 
stay on the job. And the third issue is making sure that we are 
working with school districts to help them deliver the best 
possible professional development, not only with school 
districts, but with our colleagues at the universities.
    I'll just close by telling you that an interesting problem 
that we've just discovered is a shortage in special education 
faculty at the universities across the country. So not only do 
we have a problem in terms of providing high quality 
instruction at the pre-service level, but it's compounded by 
the fact that universities are having difficulty recruiting and 
retaining faculty in the area of special education.
    Again, I thank you for the opportunity to be with you this 
morning, and look forward to your questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
              OPENING STATEMENT OF MARIA HERNANDEZ FERRIER

    Mr. Regula. Okay, Maria Ferrier?
    Ms. Ferrier. Mr. Chairman, I'm truly honored to be here 
with you this morning to testify. I have been in D.C. exactly 
two weeks and I'm on my ninth day on the job. But I'm truly 
honored to talk about the development of teachers related to 
limited English proficient students.
    The number of limited English proficient students has grown 
dramatically over the last decade, from 2.5 million to 3.7 
million. And much of this growth has occurred in communities 
and States with little experience in serving these children. 
Nineteen States actually have doubled their LEP population from 
1992-1993 to 2000, in just six years.
    A recent survey found that 42 percent of all public school 
teachers have at least one LEP student in their classroom, yet 
only 30 percent of these teachers have any training to prepare 
them for serving these children, and only 3 percent of those 
have a degree in ESL or bilingual education.

            TEACHERS FOR LIMITED ENGLISH PROFICIENT STUDENTS

    Our 2003 $665 million request for Title III funds addresses 
the need for more teachers in the area of limited English 
proficient students by including $37.9 million for the National 
Professional Development Project to train new teachers and to 
give new skills to teachers that are already serving the 
students. Our request also includes $64 million to continue 
professional development projects originally fundedunder 
antecedent legislation.
    In addition, States can use up to 5 percent of their 
formula State grants under Title III for professional 
development. And school districts that receive sub-grants must 
use some of that money to provide high quality professional 
development to classroom teachers.
    As you know, the Administration has also requested $2.9 
billion under Improving Teacher Quality State Grants to address 
the need to improve teacher quality for all children, including 
limited English proficient students.
    My colleagues and I would be happy to respond to any 
questions that you may have, and thank you again.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                   ADMINISTRATIVE BURDENS ON TEACHERS

    Mr. Regula. I hear a certain dichotomy here, and that is 
that we need more professional development and yet teachers say 
that one of the things that frustrates them is they have to 
spend too many days away from their classroom. We can't have it 
both ways.
    My daughter was a Chapter 1 teacher in Colorado. She said 
she got so tired of going to meetings and listening to the same 
old information over and over again. She wanted to teach. And I 
think that can be a problem. The second was paperwork. She 
ended up getting a masters in library science, and is a 
librarian in a private school, probably the best one in Ohio. 
But too much paperwork, too many days away.
    I'm going to ask you a tough question. How many people at 
the Department of Education taught in a public school? Do you 
have any idea?
    I'm going to ask the Secretary. I remember some years ago I 
made that inquiry. I wasn't on this Committee. At that time 
they said none. They couldn't identify anybody that had been in 
a public school. I'm going to suggest something that could be 
heresy, and that is that I think maybe you ought to be the pool 
of substitute teachers for D.C. [Laughter.]
    I was an elementary principal, I had 20 rooms for 3 years. 
Oftentimes, if I had a teacher that was ill, I substituted. So 
I was in every grade. And I bonded with those kids in the 
process. You need to be in the classroom. There's no 
substitute.
    We have the president of Cincinnati University, where part 
of their teacher education program is a very intense get in the 
classroom program. But all these things make great statements, 
but it's really what produces--I want to ask you, on your 
compilation of statistics, have you examined the State tenure 
laws? Are they all the same? Do they vary from State to State?

       STATE POLICIES ON TENURE, COMPENSATION, AND CERTIFICATION

    Mr. Whitehurst. I can't speak to that specifically. I'll 
check and see if we have data on that. I know, however, that 
the tenure laws certainly do differ from State to State, and 
from jurisdiction to jurisdiction. That certainly has an effect 
on management of school systems, as you would know from being 
in a position as manager and leader of a school system.
    Mr. Regula. I had a teacher who had tenure, and it was the 
worst teacher I ever had. I couldn't do anything about it. It 
wasn't fair to the kids. Absolutely wasn't fair to those kids.
    Mr. Whitehurst. I think one of the issues that the 
compensation system that I was describing speaks to is how to 
deal with differential performance.
    Mr. Regula. You mentioned a school that had----
    Mr. Whitehurst. It's a Cincinnati school system, and 
they've been experimenting with compensation.
    Mr. Regula. How do they overcome the tenure laws and the 
union rules?
    Mr. Whitehurst. I'm sure there was a lot of negotiation in 
the context of whatever the union labor situation is, to have 
achieved that sort of change.
    Mr. Regula. Are certification requirements, do they vary 
greatly from State to State?
    Mr. Whitehurst. Certification requirements do vary, but not 
as dramatically as you might expect. They vary by disciplines. 
And that's of great interest to us in the Department. We're 
particularly interested in reading. The question is, how does 
the training of teachers, pre-service training of teachers, and 
the certification that they have to receive, actually relate to 
what they need to know to deliver effective reading instruction 
in the classroom? We think that often there's a disconnect 
between the training and the exams that are needed for 
certification and the actual knowledge that's useful in the 
classroom.

               TEACHER CERTIFICATION MODELS AND STANDARDS

    Mr. Regula. Does the Department in its effort to improve 
the quality of teachers work with certification agencies within 
the States to see if they can develop better standards?
    Mr. Whitehurst. We have an ongoing effort with--we're 
experimenting with other certification processes, particularly 
alternative certification. Susan, do you have any information 
on efforts with respect to certification in particular States?
    Ms. Neuman. As you know, we have a number of alternative 
certification models. We've talked about the Troops-to-Teachers 
and Transition to Teaching programs. We also know that Teach 
for America has very strong data indicating that those teachers 
who get involved in Teach for America, who are generally best 
and brightest, are those who then go into the schools and 
actually make a difference for children in terms of achievement 
scores, which we have to remember is our bottom line.
    I think one of the things we have to hold teachers 
accountable for is not just being a high-quality teacher, but 
being a high-quality teacher who can convey that knowledge to 
children so that children's scores are increased.
    So we have some models. One of the things the Department is 
trying to do very strongly is to support alternative routes. 
Because we know that the traditional way of certifying teachers 
is too slow and often not very effective.
    Mr. Pasternack. If I may, Mr. Chairman, one of the projects 
that we're involved with is promulgating model certification 
standards in conjunction with the Council of Chief State School 
Officers. This set of standards, forthe first time, will serve 
as a national model. Now that those standards have been developed, 
we're going to release them for public comment and see what kind of 
response we get.
    It's an attempt to address the question that you raised, 
which is to provide some guidance in terms of what are the 
skills that teachers of kids with disabilities should have. 
Those really should not vary from State to State. Good teaching 
should be good teaching across the country. It's an attempt for 
us to do that through one of our projects of national 
significance. That is, I think, an example of the kind of 
response to your question that we're trying to make from the 
Department.

            ADMINISTRATOR CERTIFICATION MODELS AND STANDARDS

    Mr. Regula. Does your effort, we're talking about teacher 
recruitment, preparation and development, does it go to the 
level of principals and superintendents?
    Mr. Pasternack. That's a critically important question that 
you ask. As I said, one of the reasons we hear that good 
teachers are leaving is because of a lack of administrative 
support. Clearly, the kinds of training that we need to provide 
has to address all members of the learning community. We've got 
to look at para-educators, which are an incredibly rich source 
to address our shortage of personnel that we have. In many 
instances, they're people that know their communities, they're 
culturally competent, and they're committed to staying in those 
places. We need to help support them.
    On the other end, we need to work with principals. We keep 
hearing that a lot of principals don't have specific knowledge 
and information about managing kids with disabilities and 
understanding issues in the IDEA. That applies to 
Superintendents, local school board members, and State board of 
education members as well. So we're really looking at the 
entire learning community when we're trying to address 
professional development activities.
    Ms. Neuman. I think you raise a very important point. 
Principals need to be our instructional leaders. They're the 
ones that monitor teachers, that make sure the teachers are 
pacing and teaching correctly. We have a $10 million program 
focusing on improving instructional leadership with principals 
this year. We are in the process of developing an application 
to ensure that we get high-quality principals.
    Mr. Regula. Well, it seems to me that that's an important 
element. Because they're the leaders. I talked with a young 
lady who was in Teach for America, who is in fact going to 
testify here. She said she is going to, in military parlance, 
re-up for another two year hitch. She's in a tough school in 
East Los Angeles. But she said the support she gets from the 
principal and teachers has been a key element in both helping 
her be a better teacher as well as giving her the kind of 
support she needs to do it well.
    Well, you have a big challenge. Because the quality of the 
teachers is where it is. Ann?

                   TARGETED PROFESSIONAL DEVELOPMENT

    Mrs. Northup. Thank you.
    I'm interested in the question, who do you listen to? I 
have seen a lot of the schools of education that are eager to 
have students longer, for more hours, teaching more years and 
so forth. And yet, I'm aware of a number of schools where 
intervention of one kind or another takes a certain form. For 
example, here in Washington, when they had the reading project 
in seven of the lowest scoring schools; in Louisville, when 
they took the school with the lowest scoring and put direct 
instruction in, teachers each got about six weeks training, as 
I understand it. It may have been less. And those scores 
dramatically changed.
    That tells me it may not be how many years you're in school 
but what you're learning while you're there. And so, first of 
all, let me ask, Susan, if you want to comment on that.
    Ms. Neuman. Well, I couldn't agree with you more. I think 
one of the things that you bring up is what Russ Whitehurst 
talked about before, which is targeted professional 
development, not professional development in creative movement, 
but professional development targeted to the kinds of skills 
we're interested in seeing.
    The D.C. model is a wonderful example of what you just 
mentioned, Mr. Regula, and that is mentoring. Many of those 
teachers in D.C. improved because there was someone in the 
classroom, not only instructing them but showing them how to do 
it. They were very focused on improving reading. The 
instruction was about reading. And in a relatively short period 
of time, scores dramatically changed in terms of children's 
reading improvement.
    We do not believe that this requires years and years of 
targeted instruction in educational pedagogy, which very often 
is synonymous with low-level, low-quality kinds of instruction.
    Mrs. Northup. Well, exactly. I don't know whether my 
colleagues are having the same experience, but it seems to me 
that, primarily, we are being bombarded by schools of education 
that say, ``Give us more money, give us students longer,'' and 
they haven't done the job in the years that they have. It's 
like I said last week, we train engineers and rocket scientists 
in four years, and we can't train teacher in four years to 
teach? And yet in six weeks in a summer school, when it changes 
to a curriculum or an approach that's much more effective, the 
scores go up and the teachers learn it. I think the teachers 
don't get the benefit of the best education when they're there.

               EDUCATION SCHOOL CURRICULUM AND REPUTATION

    I got out of school 33 years ago. That was a long time ago. 
But at the very end of my education, I decided that I might 
want to be a teacher. And I took a lot of teaching courses the 
last semester. A lot of people did that, and I have to say, 
they were the easiest courses I ever took. I've noticed that 
some of the students that struggle in college are sort of 
directed into the departments of education. Because it's a 
place where they can get their degree more easily.
    Do you think that, there is any study that shows where 
that's part of the problem? That universities trying to help 
students struggling in other subjects get out of school with a 
degree that maybe education is still the easiest courses that 
we have?
    Mr. Whitehurst. I mentioned something related to that 
before you came in. We know, unfortunately, that students who 
major in education at the undergraduate level have 
significantly lower SAT scores than students who major in other 
fields. Related to your previous comment, we know that masters 
degrees have no predictive effect at all on student learning in 
the classroom. So the incentive system that many States and 
localities have in place that gives teachers raises for going 
back and earning masters degrees in education has no effect on 
student performance.
    So we need to think about what we're doing in terms 
ofattracting people into the teaching profession. We need some 
mechanisms that will attract brighter, more qualified people into the 
profession and retain them. We also clearly need to think about the 
nature of the training we're currently providing. It has generally not 
been as effective as it could be, and the research clearly supports 
this conclusion.

                 CHARACTERISTICS OF EFFECTIVE TEACHERS

    Mrs. Northup. I guess that's another day's discussion. The 
qualities other than what you know academically are 
tremendously important. I have to say, I'm not sure for 
kindergarten, first grade, second grade, that you necessarily 
do need the highest SAT scores. A love of children, a knack for 
dealing with their unique needs and challenges, and being able 
to control a classroom atmosphere seem unmeasurable but 
important. I don't know how we go about that.
    Mr. Whitehurst. I don't think that they are unmeasurable. I 
think they've not been measured. Most of our research has 
focused on high school teachers.
    But I think that your insights and hypotheses, if you will, 
are very important things for us to investigate. Because we 
need to know what the characteristics of effective teachers 
are.

                 PRAXIS AS A MEASURE OF TEACHER ABILITY

    Mrs. Northup. And not just a story of a teacher here, a 
story of a teacher there.
    Let me ask you about the PRAXIS test. We give teachers that 
test. There was an article in our local paper that teachers 
coming out of the University of Louisville scored lower than 
the rest of the State. Not surprisingly, there is an answer 
from Louisville that says, this isn't a good measure, and 
actually referred to an organization that has said this isn't a 
good measure.
    Can you explain your views on this?
    Mr. Whitehurst. I'm just trying to see who should best 
field this question. I'm not sure who among us knows about 
this.
    Ms. Neuman. It's a very easy test. It's a very easy test of 
content knowledge. And it really doesn't discriminate between 
those people who know stuff and those people who don't know a 
lot of stuff.
    One of the things I think we have not talked about before 
is that very often, people going into teacher training 
institutions have matriculated from community college 
institutions where they have received only remedial instruction 
thus far. They matriculate, having had a set of remedial 
courses at two- or four-year institutions, and then go only to 
a series of pedagogy courses. Therefore, they never develop a 
strong content knowledge base.
    This is extraordinarily important. Because what that is 
suggesting is that the kinds of skills we are assuming our 
teachers need to know in order to teach well--the knowledge of 
literature, basic math, basic English--they are not receiving 
the high-quality instruction in four-year colleges that we 
assume they need to have.
    So that's an area that we need to further examine.

                 PRAXIS AS A MEASURE OF TEACHER ABILITY

    Mrs. Northup. The professor and chair at the department of 
teaching at my university says that by using standardized 
exams, students and schools are subjected to teacher exams that 
are racially and culturally biased and anti-working class. He 
talks about the PRAXIS, and says, ``Furthermore, the National 
Research Council recommended that States and Federal Government 
not use passing rates on these tests as the sole basis for 
judging the quality of teacher education programs.''
    Can you again comment on that? Is the PRAXIS test the only 
measure that we should be using? Of course what he goes on to 
say is that it shouldn't be the only basis. But have you heard 
charges of it being culturally biased and racially biased? And 
can we fix that?
    Mr. Whitehurst. Well, the PRAXIS test, like all 
standardized tests, places a premium on verbal abilities and 
the ability to learn the subject matter that is taught in 
school. I think the PRAXIS has two parts. There is a 
specialized part and a general part. There is some weak 
evidence that the part of the PRAXIS that really gets at 
general verbal ability taps something in teachers that makes a 
difference in student performance. And that makes a certain 
amount of sense to me, that teachers who better understand and 
are better able to understand the English language and all of 
the things connected with vocabulary are probably better able 
to convey to students in a variety of classrooms information 
that they need.
    But clearly, the PRAXIS test is not a very powerful 
instrument for selection, nor is it a powerful instrument for 
predicting which teachers would be the most effective teachers 
in the classroom. One of the things we've been encouraging 
colleges of education to do is to think about actually tracking 
their graduates into classrooms in the context of emerging 
State accountability systems, so that they could answer the 
question of whether the teachers they are training are in fact 
effectively teaching children in the classroom. We're to a 
point where we can do that, and we could start to measure the 
differential effectiveness of teachers colleges. We would not 
measure this using scores on the PRAXIS, but with the actual 
ability of graduates to do an effective job at teaching in the 
classroom.
    I think once we have that sort of powerful feedback 
mechanism, we'll start to get some changes in the nature of the 
education of teachers.
    Mrs. Northup. Thank you.

                         PROFESSION OF TEACHING

    Mr. Regula. Mr. Wicker.
    Mr. Wicker. Thank you, Mr. Chairman.
    I'm glad the Chairman asked earlier how many of you have 
actually been classroom teachers. And I understand that he's 
got a question pending that you're going to get back to him 
about how many people actually in the Department were classroom 
teachers.
    Mr. Regula. If you'll yield.
    Mr. Wicker. I'd be happy to yield.
    Mr. Regula. I'm going to give Mr. Whitehurst, since he's 
the numbers man, the task of reporting back to us how many 
people in the Department of Education have been in a classroom.
    Mr. Wicker. This is a subject that I think we're all 
interested in. I'm particularly interested in it at this time 
in the life of my family, because my oldest daughter Margaret 
is graduating next month from the University of Virginia with a 
degree in English and Spanish. She wants to be a teacher. So 
I'm vitally interested in the profession of teaching, even more 
so than I was earlier.

                    MEASURING TEACHER EFFECTIVENESS

    Let me start off by asking about measuring teacher 
effectiveness. I believe Mr. Whitehurst, in his written 
testimony, mentioned merit pay for teachers in a Cincinnati 
public school system. How do you measure the quality of a 
teacher? How did Cincinnati do it?
    And also, how does that compare to the national board 
certification that I see a lot of my public school teachers 
involved in in the State of Mississippi? If you'll start by 
answering those questions, then I'll probably follow up.
    Mr. Whitehurst. There are a number of ways to assess 
teacher quality. One way characterized by the national board is 
to have other professionals, other people who have been judged 
to be excellent teachers, take a look at what the teacher is 
doing, to look at a portfolio of activities, and make a 
judgment as to whether the teacher is performing at a high 
level.
    Mr. Wicker. Are these teachers from the school or from 
outside?
    Mr. Whitehurst. Generally from outside the school. I think 
in the context of a national board, depending on the area, the 
candidates actually can present a videotape of their teaching 
activities to be examined. So it's sort of an expert model, if 
you will, a judgment by other experts as to what represents 
high levels of teaching effectiveness.
    Another way to do it is to look at the performance of 
students in classrooms, and to classify teachers as most 
effective who add the most value to children's education. And 
there is a very important question as yet unanswered as to 
whether those two ways of doing it line up. Whether teachers 
who are judged to be functioning at a high level by their peers 
are the same teachers who are generating the highest degree of 
learning in the classroom for students.
    The Cincinnati system actually did it in another way. They 
looked at practices in the classroom. They would look at 
reading instruction, for example, and have observers in the 
classroom determining if the teachers were engaging in reading 
instruction in the way that the district wanted. So it was the 
change in practice in the classroom that drove their 
compensation system.
    Mr. Wicker. How long has the Cincinnati system been in 
place?
    Mr. Whitehurst. I cannot answer that. I'll certainly get 
back to you on it.
    [The information follows:]

                Cincinnati Teacher Compensation Proposal

    The Cincinnati Public Schools implemented a substantially revised 
teacher evaluation system (TES) in December 2001. One component of this 
revised evaluation system proposes to link increases in teacher 
salaries to positive results on evaluations. This new component of the 
system was designed by the Consortium for Policy Research in Education 
team at the University of Wisconsin together with Cincinnati Public 
School (CPS) staff. CPS teachers and Board members are scheduled to 
vote in May 2002 on whether or not this proposal to link teacher 
compensation to evaluation results will be implemented.

    Mr. Wicker. Are you able to say how it has been received by 
the faculty?
    Mr. Whitehurst. I can't speak to that factually. I'm sure, 
just by reading newspaper accounts of it, there's a lot of 
controversy about any sort of differential compensation system. 
And there is some research that indicates, I think, if not in 
the strongest fashion at least in the suggestive fashion, that 
compensation systems that focus on improvements at the school 
level rather than compensation systems that focus on the 
individual classroom teacher generate more buy-in from 
teachers. Such systems also seem to generate effective changes 
in instructional practice in the school. In other words, every 
teacher in the school gets a bonus if the school meets some 
target for improvement, rather than going down to the 
individual classroom teacher and saying, ``Mrs. Jones gets the 
bonus this year but Mrs. Smith does not! Such distinctions 
generate a lot of rancor at the individual school level that 
you don't get if you're rewarding the whole school.
    Mr. Wicker. So it's a team effort in a sense.
    Mr. Whitehurst. It's a team effort.
    Mr. Wicker. I think you told Ms. Northup that there was 
very little correlation between the teacher going back and 
getting a masters or a doctors degree and student performance.
    Mr. Whitehurst. Yes.

      NATIONAL BOARD CERTIFICATION AS A MEASURE OF TEACHER ABILITY

    Mr. Wicker. I wonder if you're able to give me any 
information about a correlation between student performance and 
the teacher going through this national board certification 
process that I mentioned earlier.
    Mr. Whitehurst. The national board has developed some data. 
In my judgment, it is not strong enough to draw conclusions 
with respect to the question that you are asking.
    Mr. Wicker. And that's all the data you have?
    Mr. Whitehurst. That's all the data we have at this point. 
My understanding is that they are in the process of doing more 
ambitious studies, but we don't have those results in yet.

              SCHOOLS OF EDUCATION ADOPTING PUBLIC SCHOOLS

    Mr. Wicker. I asked the Secretary about this the other day 
when he was here, so I'll just ask any of you, I've noticed 
that in my home State, some of the poorest public school 
districts are literally within the shadows of some of our 
universities that have education schools. I asked the Secretary 
if he was aware of a program that Jackson State University has 
to actually adopt three public schools that are very close by 
and that are marginal, at best, in their performance level.
    I just wonder how many schools of education at our great 
universities see that as an outreach mission of a school of 
education. And if you can give me any information about any 
history that we have, or the advisability of such a program, 
where an education school says, we're going to show that at 
least in this neighborhood district, we can teach teachers to 
make a difference. Anyone like to try that? Yes, ma'am.
    Ms. Neuman. I only have anecdotal information. I was a 
professor at Temple University for 10 years, in the heart of 
North Philadelphia. We adopted professional development schools 
which were very well known at the time as a model of improving 
both the teaching and the teacher.
    Unfortunately, the professional development schools that 
were selected in that area were not of the quality we would 
want. So many of our mentoringteachers, our pre-service 
teachers, would often see what is not rather than what is. Some of our 
schools----
    Mr. Wicker. What is a professional development school?
    Ms. Neuman. A professional development school was a model 
that was adopted a while ago based on a Holmes Group report 
that argued that universities should adopt a school, almost as 
a lab school of the type we had many years ago, where our 
teachers, all of our prospective teachers, go and see high-
quality teaching. And the K-12 teachers actually would come and 
provide teaching in our schools of education.
    So it was a reciprocal model where the teachers of the 
school came to the university and the university came to the 
school. Unfortunately, the quality of those schools was not 
what we would wish. So there were some times, and I can only 
tell you from my 10 years there, there were some times where 
our teachers would say, well, I guess we can learn by seeing 
the bad. But that was never a researchable question. 
[Laughter.]
    Mr. Wicker. Well, we talk about, and I had a question, I'm 
out of time, but we talk about getting teachers into under-
served areas. It just seems to me that if we could demonstrate 
to education majors that you can go into a school, that the 
entire power and influence of an entire university school of 
education can go into a school district and actually make a 
difference, if we could demonstrate that to the student while 
they're still in college, then it might make it a bit easier 
for our top graduate in the education majors to go into schools 
that maybe didn't quite pay as much and weren't quite the tops 
in the scoring.
    I wish that our entire education establishment would look 
at that.
    Ms. Stroup. If I could just add to that. To get a 
partnership grant under Title II of the Higher Education Act, a 
school of education has to partner with a high-need local 
school district. The goal is to get the two of them to work 
together to come up with innovative reforms that benefit the 
local school district. This program is doing exactly what 
you're suggesting through that project. It's new. We don't have 
good evaluation data yet, because it was only authorized in the 
1998 amendments. But it is operating along the lines you're 
talking about, of getting collaboration between the local 
schools and the schools of education, so that everybody is 
working together.
    Mr. Wicker. Thank you, Mr. Chairman.
    Mr. Regula. Members of the panel, this afternoon, we'll 
have the dean of the University of Cincinnati where they do 
some of this, a young lady who's in the Teach for America 
program. Mr. Obey, you have invited a superintendent, am I 
correct?
    Mr. Obey. Yes.
    Mr. Regula. And also the Director of the National 
Commission on Teaching in America's Future.
    Mr. Obey.
    Mr. Obey. Thank you, Mr. Chairman.

                    INSUFFICIENT FUNDS FOR EDUCATION

    Talk, talk, talk, talk. And talk, talk, talk, talk. I get 
frustrated when I sit in on meetings like this because, with 
all due respect to the people on both sides of the table, we've 
heard all kinds of wonderful things said about education this 
morning. All kinds of great ideas. And all kinds of concerns 
expressed about the need to do A, B, C, D and E.
    But there ain't no money. The budget is essentially being 
frozen, after having gone up substantially over the last few 
years. And can you imagine, after the Congress has been so 
incredibly wasteful that we have blown so much money on 
education at the Federal level, that we're almost spending 3 
cents out of every dollar that the Federal Government spends on 
education? Isn't that a terrible waste of money?
    It always amazes me that the Federal Government takes the 
heat for the fact that schools don't perform when, in fact, we 
provide around 7 percent of the cost of education in Federal 
funds.
    I'm sorry I wasn't here earlier, Mr. Chairman. I had to go 
to another hearing. But I understand while I was gone that our 
witnesses indicated their concern about the shortage of special 
education teachers, and yet the budget freezes special 
education training programs. We heard talk about the importance 
of principals and other school administrators. The budget 
eliminates the school leadership program.
    We've heard talk, I'm told, about the problems of children 
with limited English proficiency. Some members of Congress are 
in that same position. [Laughter.]
    Mr. Obey. But as I understand it, the budget is reducing 
funding for the program that helps to train ESL and bilingual 
teachers. The budget freezes the program that helps States 
upgrade their teacher certification programs. I've heard that 
there have been some good words about Teach for America from 
the Administration lately. But my understanding is that the 
application to the Department was cut. There will be more 
applicants for Teach for America. But not enough money to fund 
the applicants.
    We have passed the mother of all mandates with the new 
Elementary and Secondary Education Bill, telling States, you've 
got to measure not at this point, but at this point, not in 
this grade, but that grade. And you've got to do it our way, 
baby. Several years ago I was told at a hearing we had in 
Wisconsin that in contrast to what's happening nationally, 
there are a higher percentage of students from the top half of 
graduating classes going into the school of education at four 
campuses in Wisconsin than you have going into other fields. I 
know that's an aberration.
    It indicates, however, that I ought to be careful about 
supporting all kinds of narrow, rigid Federal mandates when in 
some areas my State seems to be doing a hell of a lot better 
than our neighbors whose conduct we're supposed to try now to 
emulate.
    I don't mind the Congress trying to provide some standards 
and provide some guidance. But if we are really going to get 
into that big time, then it seems to me we ought to get into 
big time increases in funding for education. I don't see that 
happening.
    If you take a look at all of the programs that are funded, 
I mean, are frozen, and then you take a look at what's 
happening to State budgets, these conversations are very 
interesting but rather futile. Because we're not putting our 
money where our mouth is. And while dollars certainly don't 
determine all outcomes, you certainly can't achieve decent 
outcomes without dollars.
    Patty Ashdown was the old leaderof the liberal party in 
Britain who just got smart, retired and is now making some real money. 
He said in one of his departure speeches that the problem in too many 
democracies is that the passion of our words is not matched by the 
passion of our action. I certainly think that's the case where 
education is concerned. And it certainly is the case with the 
President's budget.
    So Mr. Chairman, I don't really have any questions. I just 
sit here with some bemusement thinking how good we sound. I 
wish we sounded a little worse and looked a little better in 
terms of what we are asked to do this year. Because the budget 
that the Administration has presented doesn't measure up to the 
rhetoric. We can express all of the concerns that have been 
exposed today. We can express those concerns until the cows 
come home. But that's not going to produce any real change, 
unless we decide to really put some real resources into some of 
these programs. And it's obvious that if we're to do that, 
we're going to have to overcome the stiff opposition of the 
White House.
    Nonetheless, thank you for your time.

                     MODELS OF SUCCESSFUL PROGRAMS

    Mr. Regula. Mr. Obey, if you would, to what did you 
attribute the success in Wisconsin in getting these higher 
quality people into the program?
    Mr. Obey. More cheese--they eat more cheese. I don't know 
what it is. [Laughter.]
    Mr. Obey. I suspect that what it is is that you've got a 
good work ethic and you have a tradition of public service. 
Maybe it's just luck and maybe it's teachers. I don't know what 
does it. And it doesn't happen every year, and it doesn't 
happen at all campuses.
    But I know that it's happened on a number of campuses. That 
must mean that somewhere, somebody is doing something right, 
unless as if often the case, what happens in the human 
condition is happening by accident. I don't know.
    Mr. Regula. Along those lines, do any of you have any 
experience with a similar phenomenon?
    Mr. Obey. If I could just say, Mr. Chairman, my only point 
is that I think the Feds should be a little careful about 
requiring States that do better than the national average to 
meet somebody's idea of what is a perfect way to handle a 
problem.
    Mr. Regula. In other words, it would put a strait jacket on 
what might be a very successful program.
    Mr. Obey. Well, I think so. But, evidently, we're into 
mandates without money when it comes to education. I want to 
see what happens in Congress if we do that with respect to the 
environment. I can imagine all kinds of hell breaking loose 
then.
    Mr. Regula. Is anyone looking around the Nation to see 
these success stories and share the elements that go into 
those? Anyone in the Department? Is this a function of the 
Department? Anyone have an answer to that?
    Ms. Neuman. We're beginning to. One of the things that 
we're trying very hard to do is spotlight schools, places where 
scientifically based reading instruction is happening and the 
children's achievement is improving. We're focusing on places 
where States are aligning their assessments with their content 
standards and the alignment is of high-quality and therefore, 
they are really assessing what they're instructing.
    So our process of spotlighting places that are really doing 
well is just beginning.
    Mr. Pasternack. If I may, Mr. Chairman, the President's 
Commission on Excellence in Special Education has been holding 
hearings around the country. At each of those hearings, we're 
trying to ask people to come forward and give us exemplars of 
model programs where they are achieving successful results for 
students with disabilities.
    I would quickly point out to you an example from Elk Grove 
in California, the second fastest growing school district in 
the country, where Dave Gordon is the superintendent. Through a 
program of sustained, embedded, comprehensive professional 
development in the area of reading, they've gone from 16 
percent of their kids in special education to 9 percent of 
their kids in special education. They attribute that to the 
fact that they're spending two-and-one-half hours a day 
teaching kids to read using a scientifically based model 
delivered by highly qualified instructors.
    I think that we are clearly searching for models where 
things are working, so that we can then point them out to other 
school districts across this great country.
    Mr. Whitehurst. And I would just add to that that our 
Consortium for Policy Research in Education specifically 
searches for examples where a State or local policy seems to be 
generating----
    Mr. Regula. Do you have a mechanism for distributing these 
results to the schools of this Nation?
    Mr. Whitehurst. Yes.
    Mr. Regula. Ms. DeLauro.
    Ms. DeLauro. Thanks very much, Mr. Chairman, and good 
morning.

                     NEED FOR HIGH-QUALITY TEACHERS

    I know the Chairman was a school principal. I had the 
honor, truly, of being a substitute teacher for a number of 
years in the New Haven public school system. When I first went 
to take the job, they said to me, what can you teach. I said, 
well, look, I had my graduate degree, I said, I can teach any 
of the social studies, history, whatever.
    Long and short of it, I went into every classroom except 
for the shop in the course of my time being a substitute 
teacher, and I worked every single day. Because there was 
always a teacher that was out. And I have a very, very high 
regard for the teaching profession. Several members of my 
extended family are teachers, principals, etc.
    I want to kind of pick up a little bit, it was not my 
intention to do this, but I want to pick up where my colleague 
Mr. Obey left off. Teacher quality, there isn't anybody here 
who hasn't talked about the need for excellence in teaching, 
and the quality of the teachers that are going to be able to 
educate our youngsters. For religious purposes, my folks sent 
me to Catholic school. My kids went to public school, New Haven 
public school system, through high school.
    But one would say about the private school system and in 
the religious experience that the nuns and the brothers or the 
priests would make sure that you were learning, that you would 
come out as a well educated youngster. But that's a small 
portion of our population that enjoys those benefits. And that 
most of our youngsters, 90 percent of our youngsters are in 
public schools. And as public servants, we have an obligation 
to make sure that the standards are raised.

                    INSUFFICIENT FUNDS FOR EDUCATION

    Again, I say to you, as I said to some of you before, tell 
me where I'm wrong. The Bush budget cuts funding forteacher 
quality by $163 million. The budget freezes funding for the new quality 
State grant at $2.8 billion, $400 million below the authorization. The 
budget freezes funding to train early childhood educators at $15 
million. And we had the conversation the last time about the necessity 
of having excellence in early childhood teachers. Because as we know 
from the literature and the research, we know when children are 
learning.
    The budget eliminates $10 million in National Board for 
Professional Teaching Standards to train master teachers. The 
budget eliminates $10 million for school leadership grants to 
train the next generation of principals with skills necessary 
to lead schools to success, only 27 percent of school districts 
report having a program to recruit or prepare aspiring 
principals. The budget eliminates the Preparing Tomorrow's 
Teachers to Use Technology Program. Maybe on another part of 
the budget we're dealing with a lot of computers for schools, 
etc., but I'll tell you, we can box them all up, put them in a 
closet, close the door if you don't have the teachers who are 
going to be able to teach our kids to utilize those computers.
    We've all been to schools, we go to schools, we see the 
labs. But if the teachers are not standing there that can train 
these kids, it's gone, it's useless, a waste of money. We can 
go back to giving them a pencil and a pad. That's all that they 
will need. And we do know today that my generation needed a 
textbook, these kids need computers in order to succeed. I'm 
never going to learn it, they're so far ahead of me. I lose 
this job, who knows what happens to me, you know. Nevertheless, 
we are going to eliminate the Preparing Tomorrow's Teachers to 
Use Technology Program.
    We cut, budget cuts funding my 50 percent to help improve 
teachers improve the teaching of American history. Budget 
freezes, funding to train special ed, bilingual, math and 
science, even though we know about the shortage. The budget 
limits funding to improve teaching in the areas of foreign 
languages and writing. The budget freezes funding for the 
Teacher Quality Enhancement Grants Program, $90 million.
    We do say we're going to propose a tax deduction for out of 
pocket teacher's expenses for classroom supplies, etc. But you 
can't realize that for two years, until I guess April of 2005. 
Most teachers, the tax benefit is going to be about $100.
    The budget does propose an increase in the amount of loan 
forgiveness from $5,000 to $17,000 for special ed, math, 
science. A good piece. And I might just say, it's here, that we 
do have modest increase for Troops to Teachers, Transition to 
Teaching, good. We also have $50 million in this budget that 
doesn't specify whatever it is that's going to be done with the 
money. I have a lot of questions, all of which I can't ask. I 
will submit them.

                    INSUFFICIENT FUNDS FOR EDUCATION

    Ms. DeLauro. But I think the point is clear. My colleague 
Mr. Obey made it. I didn't hear all that my colleagues on the 
other side of the aisle have said. It is impossible to move at 
teacher quality if you starve the programs of the resources to 
be able to do it. Let me quote you people in my State of 
Connecticut here.
    The issue is not going to be the States' educational 
leadership capacity to deal with the new policy and program 
requirements, but rather--this is No Child Left Behind--but 
rather the fiscal implications of the new law in terms of being 
the newest and the largest unfunded mandate imposed on States 
and their local districts since IDEA.
    If it's Wisconsin, if it's Connecticut, help us. Where are 
we going with this? What's the plan? Who are we going to teach? 
How are we going to get the excellence that we are looking for? 
Or are we setting up a set of criteria by which we continue to 
fail? And that maybe says that public education is doomed to 
failure. So let's try to go with those things that some people 
believe are the direction to do, but you build in the bias 
against public education. Ninety percent of our kids are in 
public education.
    But 3 cents on the dollar, 7 percent of the Federal budget, 
it's wrong. It's wrong, because we all believe in our hearts 
that education is the way to succeed. And if we believe that, 
we certainly cannot have a budget on teacher quality which 
takes the heart and soul and the resources to make it a 
reality.
    Maybe what we should just do is you should just come up and 
say, we can't achieve it, we can't get there. But the 
conversation is nice. But the reality is a disaster in the 
making. And you know, it's hard to continue to have the 
conversations without feeling a sense of, why do we bother. I 
know why I bother, because come hell or high water, we're going 
to move in a direction where we can do something for public 
education in the United States. When you go to those classrooms 
and you see those kids in elementary school or in preschool or 
you go into the middle school and their eyes are as big as half 
dollars, these kids want to learn. And those teachers want to 
teach.
    And we have an obligation to give them the resources and 
not take this budget and talk about it in glowing terms when at 
every turn, we cut off the resources to make sure that those 
kids have the knowledge and the understanding and the tools 
that they need to succeed. And whether you sit on that side of 
the table or we sit up here, if we can't do that, we ought to 
let a whole new crew of folks do it.
    Thank you, Mr. Chairman.
    Mr. Regula. I'm maybe not quite as pessimistic as you might 
be, Ms. DeLauro, but I will say, I was down to the Air and 
Space the other night to see that film, IMAX, on the space 
shuttle. I went home and said to my wife, you can hardly 
imagine that human beings had the skill to put together what is 
the space shuttle and all the scientific elements and 
mechanical elements that go into that.
    I guess in some ways, the fact that we could do that has to 
be a tribute to some phase of our education system that 
produced the people that could develop a space shuttle and all 
the ingenious, even in the area of communications, computers. I 
marvel, in a matter of six weeks, your computer is out of date 
because of the ingenuity of people like Bill Gates.
    Those are bright spots.
    Ms. DeLauro. I think it's, you know, remarkable what people 
can accomplish and what they can do. Imagine if we had a few 
more resources to allow the majority of our population to be 
able to succeed in what they do. We've got a whole lot of 
teachers who do a whole lot of spending of their own personal 
funds to make sure, and you know that, you were in a school, I 
was in a school.
    Mr. Regula. I spent some.
    Ms. DeLauro. Whatever it takes, if you have to bring it to 
school, to make sure they have what they need. Because you 
know, education is the great equalizer in this country. If 
we're going to do it in a public way with 90 percent of our 
kids, then we ought to put our resources where our mouthsare, 
and we want to not shortchange kids.
    Mr. Regula. What you say is true. That was quite ingenious 
of the founding fathers and those who said that we're going to 
have free public education for every person. That really was a 
great step in our Nation's history. And that's exactly what you 
have said.
    Ms. DeLauro. Thanks, Mr. Chairman.

                      FUNDING FOR TEACHER QUALITY

    Mr. Regula. I want to go back to you, Mr. Obey, if you 
like. But I have one question. What do we spend totally in this 
bill in teacher quality or improvement? Do you have any number 
at all?
    Ms. Stroup. The fiscal year 2003 request, includes $3.2 
billion for teacher quality line-items.
    Mr. Regula. That is an increase, or decrease? Or is it flat 
funding.
    Mr. Skelly. Mr. Chairman, that is a slight decrease in the 
amount for the same line items in 2002.
    Mr. Regula. So if you track the line items that focus only 
on teacher quality improvement, it would be a little less in 
2003 than 2002?
    Mr. Skelly. When we look at just those line items for 
teacher quality, it's slightly less in 2003 than 2002. There 
are a few other items that we sometimes don't count in the 
category of teacher quality that make it about even. For 
example, there's a new requirement in the Title I program that 
at least 5 percent, and up to 10 percent of the Title I money 
gets used for teacher quality improvement. That adds funds to 
teacher quality, since the budget was increased in this area.
    Mr. Regula. Is that at the discretion of the Department or 
the discretion of each school that gets the Title I money?
    Mr. Skelly. School districts and LEA's have to spend at 
least 5 percent. That's a new requirement. But they could spend 
up to 10 percent.
    Mr. Regula. For teacher improvement within their system?
    Mr. Skelly. Right. Ms. DeLauro also referred to the loan 
forgiveness proposal, which would add about $45 million in 
cost. The teacher supply tax deduction, which actually was 
passed by the Congress already and signed by the President into 
law, would add about $16 million. Teachers could get a 
deduction of up to $250 for supplies that they donated.
    Mr. Regula. So that's on top of the other.
    Mr. Skelly. And another item that's not in this bill but is 
in the budget is the National Science Foundation, which 
received an increase of $40 million for a math and science 
partnership effort. When you add all of these items together, 
teacher quality receives about the same level of funding from 
2002 to 2003.
    [Clerk's note. The total amount available for teacher 
quality improvements under the 2003 request is $4.3 billion 
when teacher-related line items, set-asides under Title I and 
Reading First and transfer provisions are included.]
    Ms. DeLauro. Mr. Chairman, would you yield for a second?
    Mr. Regula. Sure.
    Ms. DeLauro. But if you've got tax deductions, that's not a 
resource to the school. I get a tax deduction. That's not money 
that's going into the training. You take money away from Title 
I, that's reading and math instruction, what that's all about. 
You can't rob Peter to pay Paul here, or just move things 
around that way. Tax deductions are neat, they're wonderful, 
I'm for them. But that's not money that's going back into the 
school system. I'm going to go put it in a 401(k).
    Mr. Pasternack. Mr. Chairman, it's hard to answer your 
question simply. For example, in the area of special education, 
the Administration is requesting another $1 billion to help 
address the issues that we face in trying to improve results 
for students with disabilities across the country. Through our 
capacity building grants, one of the ways that we allow States 
to spend their part B dollars, some of those funds clearly go 
into professional development and enhancing teacher quality.
    We're also asking for $51.7 million, as you know, for next 
year for State Improvement grants. Seventy-five percent of the 
money through the State Improvements grants goes into 
professional development.
    So there are sources of revenue within the budget that go 
to address the issue of enhancing teacher quality. Because we 
know that no matter what we do in law, no matter what we do in 
regulation, no matter what we provide in funding, if we don't 
have highly qualified teachers working with all kids, including 
kids with disabilities, we're not going to achieve the 
excellence that parents demand.
    Mr. Regula. Mr. Obey.

           MEETING THE NEW TEACHER QUALIFICATION REQUIREMENTS

    Mr. Obey. One quick question. How many teachers do not meet 
the qualifications established in H.R. 1? What is our best 
estimate of what it will cost to provide the professional 
development that's needed to assure that they all do meet those 
standards by the designated date?
    Ms. Neuman. I'm sorry, Mr. Obey, I don't have information 
about how many teachers are unqualified.
    Mr. Whitehurst. I would simply add that this coming year 
States have to report, for the first time, the percentages of 
their teachers that meet the qualification standards in H.R. 1. 
So at that point, we will be able to report specific results to 
you. But we don't yet have a data collection effort in place 
that would address your question.
    We have statistics on the percentages of teachers that are 
certified at each grade level, in each State, in each district. 
That we can provide to you. But that's not the same thing as 
the precise requirements in the new law.
    Mr. Obey. I assume that if the Administration supported the 
requirements of H.R. 1--they did so quite enthusiastically--
that they did that because they felt there was a problem which 
was definable in nature. How did you arrive at a specific set 
of qualifications if you didn't have any idea what percentage 
of teachers today did not meet those requirements?
    Mr. Whitehurst. I can certainly get back to you with data 
on the percentages of teachers who do not meet certain of the 
requirements. I can tell you, for example, the percentage of 
teachers who are not certified in the subject matter that they 
teach in high school, and that's one of the requirements of 
being qualified. But I can't give you the whole answer.
    Mr. Obey. What I'm trying to get at is, what is our 
expectation about the costs that will be incurred in order to 
correct the problem?
    Mr. Whitehurst. I don't know.
    Mr. Obey. I'm sure that the costs will be considerable if 
the problem is sufficient to warrant the Administration's 
pushing for the establishment of these standards in the first 
place. So assuming that it's significant, I'm looking for 
evidence that we are trying to help State and local officials 
meet those costs. And I don't see any evidence in this budget 
that we're following the logic of H.R. 1.
    Ms. DeLauro. Will the gentleman yield for a second?
    Mr. Obey. Sure.
    Ms. DeLauro. I would add to that, teachers, what are the 
numbers of para-professionals that don't meet the 
qualifications? Do vocational education teachers have to meet 
the standards as well? And the cost question is clear, but for 
all of those, how much will it cost in additional education and 
training to look at elementary, secondary and the para-
professionals, to deal with that in the requirement? Is there a 
specific amount that you can point to within the budget that is 
there in order to help the States and localities to meet these 
new standards?
    Ms. Neuman. As you know, many of these issues are State 
decisions. As we've talked about before, different States have 
different criteria for licensure. So therefore, some estimates 
that I've seen, but it's very variable according to the report 
you read, focus on the fact that many of our teachers are not 
teaching in subject areas that they've been trained in. We know 
this is a problem. We also know that many of our para-
professionals are actually teaching instead of helping our 
students practice some of those skills.
    One of the things that we haven't talked about yet is, not 
only are there funds in other programs, such as Reading First 
State Grants, which is designed for professional development 
specifically in reading, and Math and Science Partnerships, 
designed to focus on professional development in math and 
science, but there are opportunities here for the 
transferability of funds throughout. Therefore, if a State is 
in the situation where there are a number of teachers who are 
unqualified or para-professionals who need further 
qualifications, this budget allows us flexibility and 
transferability so that those States can use those funds for 
that purpose.
    Ms. DeLauro. I thank the gentleman for yielding.
    Mr. Obey. Thank you, Mr. Chairman.

           MEETING THE NEW TEACHER QUALIFICATION REQUIREMENTS

    Mr. Regula. We're going to run out of time, but pursuant to 
Mr. Obey and Ms. DeLauro, I was just looking in the language 
for H.R. 1, every child deserves a high quality teacher, that's 
what we're talking about. But all new teachers will have to be 
licensed or certified, that's in three years from now, I 
believe, by the State, hold at least a bachelor's degree, pass 
rigorous State tests on subject knowledge and teaching skills, 
which is kind of a new thing.
    Existing teachers will also have to meet similar criteria. 
Reaching this goal will require reform of traditional teacher 
training, that's a true statement, which is usually conducted 
in colleges of education, as well as through the innovative 
expansion of alternative routes to teacher licensure. That's a 
big order. Are you all working on getting ready to tell us how 
to do these things?
    This came out of the First Lady's A Quality Teacher In 
Every Classroom. That is a big order.

                    ALTERNATIVE CERTIFICATION ROUTES

    Ms. Neuman. And one of the things that we know is we cannot 
continue to do things the way we always have done them. It's 
not business as usual. We need to focus on alternative 
certification routes. And we have evidence that some of them 
are working. We need even more evidence and more examples. 
We've talked about Elk Grove, where we have teachers who are 
being trained by the school district that demands certain 
skills for their teachers. They have found evidence that, when 
those teachers are highly trained and they're given credits by 
the local higher ed institution, those teachers are more 
skilled.
    So I think we need to see more examples like those around 
the country.
    Mr. Regula. It seems to me that part of all this success 
would be, if people say, I am a teacher, with pride. Say it 
with pride.
    Ms. Neuman. Yes.
    Mr. Regula. Does the Department interact with colleges of 
education?
    Mr. Whitehurst. Yes.
    Ms. Neuman. Yes, we do.
    Mr. Regula. Because it seems this is all a partnership, a 
team effort. It's going to be State departments of education, 
it's going to be colleges of education, it's going to be the 
United States State Department. They have to interact if we're 
going to accomplish these goals. I have to say again, it's a 
big order.
    Mrs. Northup. It is a big order.
    Mr. Obey. Mr. Chairman, would you yield?
    Mr. Regula. Certainly.
    Mr. Obey. They can interact but they ain't going to do it 
without any money because this budget freezes programs to 
improve teacher colleges.
    Ms. DeLauro. Would you yield for one second? I'm looking at 
a sheet of paper here that says, for the year 2001-2002, all 
new para-professionals, this is, all new para-professionals 
hired with Title I funds must meet new standards of quality, 
2002-2003, all new public school teachers hired must be highly 
qualified. We talk about bachelors, State certified, 2005-2006, 
all, 100 percent of core academic subjects must be highly 
qualified.
    I go back to--we always learned that if you can design what 
you want to try to do and try to do it in a way to achieve 
success. I always think the goal is to achieve success. I just 
think that this is the recipe for failure. Because as far as I 
know, we are in the middle of 2002. We don't even know how many 
para-professionals need to be trained, or what it's going to 
cost to do that. So already we're behind the curve on that.
    Again, it's belaboring the same thing. But if this is 
designed to portray that public education is not a direction 
that we want to continue in, now, that's a perspective or point 
of view. I can hardly believe it. But you can't continue to lay 
out a whole set of goals and achievements and successes and 
then not to provide the wherewithal to the States and to the 
localities to be able to do it.
    Again, it's a recipe for maybe proving that somebody 
believes that public education, that we're back to maybe the 
Department of Education ought to be eliminated. That was a goal 
a few years ago, which the American public didn't think was a 
good goal. Anyway.

                           Concluding Remarks

    Mr. Regula. Well, as you gathered from this morning's 
hearing, there are some challenges out there, I think for all 
of us. If we're going to achieve the goal of no child, that in 
itself is an enormous goal, no child left behind, it's going to 
take a partnership of the Congress, those of you that, you're 
all professionals at the Department, it's going to take the 
States' involvement, and it's going to take frankly parents' 
involvement, too.
    What a wonderful thing we can do for the future of America 
if we work at achieving this goal. Thank you all for being 
here.
    [The following questions were submitted to be answered for 
the record:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                         Wednesday, April 24, 2002.

                   TEACHER RECRUITMENT AND RETENTION

                               WITNESSES

LAWRENCE J. JOHNSON, DEAN OF THE COLLEGE OF EDUCATION, UNIVERSITY OF 
    CINCINNATI, OHIO
AUBRILYN REEDER, TEACHER, EAST LOS ANGELES SCHOOL DISTRICT, CALIFORNIA
THOMAS G. CARROLL, EXECUTIVE DIRECTOR, NATIONAL COMMISSION ON TEACHING 
    AND AMERICA'S FUTURE
LEW FINCH, SUPERINTENDENT, CEDAR RAPIDS COMMUNITY SCHOOL DISTRICT, 
    CEDAR RAPIDS, IOWA
    Mr. Regula. Let us get started. We have a very interesting 
panel, particularly following up on this morning's testimony.
    Our first witness today is Dr. Lawrence Johnson, Dean of 
the College of Education, University of Cincinnati. We have 
heard interesting things about what you are doing down there, 
so I am looking forward to hearing from you.
    Mr. Johnson. Thank you very much for the opportunity to 
present to your committee, and thank you for undertaking this 
task of trying to understand teacher education better and the 
challenges that are facing teacher education.
    Let me tall you just a brief bit about myself. I taught 
special education on the south side of Chicago. It was with 
children that had acting out behaviors. I have spent 20 years 
in various roles in Head Start. Currently, I am still the co-
director of our on-campus Head Start program.
    Our university is a public university of about 33,000 
students. One of those programs that we provide in that 
university is the College of Education. There are 2,500 
students in my college of education, and we graduate about 250 
to 300 students every year.
    Teacher education is our biggest program in the college, 
but my college provides training for individuals to be 
counsellors, administrators, health professionals, school 
psychologists and a variety of other kinds of related services.
    At the University of Cincinnati, in the late 1980s, we 
undertook to reform our teach education program. It was in 
response to the whole plethora of articles and things that were 
coming out, talking about the mediocrity of schools, and how we 
had to do something, and that we were at Nation at risk if we 
did not change our schools.
    What we set out to do at the University of Cincinnati was 
to try to reform our teacher education under three principles. 
One was extensive content area preparation. One was intensive 
preparation, and how to make that content accessible to the 
children that our teacher candidates would teach, and to 
provide our teacher candidates with heavily mentored 
experiences, as they practice what they were learning in the 
schools. We entitled this reform the Cincinnati Initiative for 
Teacher Education.
    To ensure deep content for all of our students, our 
students received a Baccalaureate Degree in education and a 
Baccalaureate Degree in one of the colleges in arts and 
sciences, specific to whatever it was they were going to teach. 
Our students participated in year-long internships, and used 
research-based practices to teach their content.
    As I said, we are proud of our teacher education program, 
and have received recognition from the National Commission on 
Teaching in America's Future, American Association of Colleges 
of Teacher Education, American Federal of Teachers, Ohio 
Business Round Table.
    We were featured in Time Magazine, and featured on the NBC 
Nightly News. The U.S. News and World Report did a report on 
us, and we were in a PBS documentary entitled, ``Only a 
Teacher.''
    It is important, particularly from some of the questions 
that I heard this morning for me to tell you that our program 
has continued to grow and we have continued to look at 
ourselves.
    Like our students, we have tried to embrace a continuous 
improvement process, in which we have looked at the needs of 
our school, the needs of our student candidates, and worked 
with our school partners to try and develop the program.
    Along the way, we decided that the burdens of two 
Baccalaureate Degrees for students to take was too much time 
for the students to do, and it took the students too long to 
get out of our teacher ed. program. As was suggested here this 
morning, our program continued to grow in years and years.
    So now we still have the extensive content, but we have 
taken away some of the other general education and other 
requirements that it would require for someone to have two 
degrees.
    We have also embraced a whole series of alternative 
pathways, working with our school system, with our 
superintendent of schools, and some of the local schools, to 
take mid-career changers in the field, and to provide them with 
the expertise to be able to be teachers.
    However, in all of these pathways, we have made sure that 
the students must follow the same accountability measures. In 
our case, we use Practices 1, we use Practices 2, we use 
Practices 3, as all measures to demonstrate teacher 
accountability.
    One of the biggest things that we have learned is that it 
is not our job to provide the perfect teacher. I think we were 
trying to bring in everything we possibly could into a four or 
five year program.
    Now what we recognize is that teachers grow over time. 
Teacher education is developmental, and that what we must have 
is an ongoing partnership with the schools. We must be able to 
provide them a competent, qualified teacher, who has the 
ability to grow.
    In fact, the research would suggest that it is after your 
fifth year of teaching that you really begin to mature, and it 
is around year seven and eight that you become the most 
outstanding teacher.
    So given all of those things, our teacher education program 
has grown. Now we believe that these components are what make 
up a solid teacher education program.
    I have provided you citations in the testimony, but let me 
give you those points. First, there must be rigorous content. 
Students must have the right kind of mathematics and science 
training. Early childhood teachers need a rich and solid 
experience, just as well as all teachers. But they must have 
good content to build on.
    Second, they must be able to use that content and teach 
people how to access that. It is not enough to understand 
differential equations. You need to be able to assess, if a 
child has gotten your example, whether you need a new example.
    You need to be able to know how to, on the spur of the 
moment, make decisions about where to go and what to do. So 
there must be a combination of how you teach and the content 
that you have.
    You must have rigorous and extensive clinical experiences 
with children. These things are best learned by doing. So there 
must be frequent and often kinds of mentored experiences in the 
skills, where students have a chance to take what they are 
learning in the content courses, what they are learning in 
pedagogy and seeing how that does in practice.
    In fact, students need a chance to try things out, not do 
very well on them, try them again, and succeed. That had a far 
better impact on students.
    Students need to have experiences in diverse populations. 
This country, the diversity, is growing at incredible rates. 
This is an incredible strength that we can build on, but the 
same thing does not work with all children.
    We must be able to differentiate in instruction. We must be 
able to address the needs of our special needs students, and 
those students that challenge the system. There is no group of 
students that we can afford to leave behind. We must build into 
the teacher training program these diverse kinds of 
experiences.
    They must have technological expertise. Technology is 
changing the way that students learn in an incredible rate. 
Everything we do is focused on technology.
    If I could just give you a brief story of my children. My 
son and a couple of his buddies, not too long ago, were in the 
other room talking. Like a good father, they did not know I 
could hear them. So I thought I would be nice and quiet and 
listen to them, and see if I could get any dirt. [Laughter.]
    Mr. Johnson. In the process, what they said is that they 
now can do their homework at our local library. I thought, why 
can they now do their homework? So the curiosity, even though I 
might have gotten some dirt, got the better of me. So I came 
around the corner and I said, why can you all now do your 
homework at the library?
    What they told me is that library now had let students have 
access to the Internet. I said, what has that got to do with 
anything? They said, that is how we get our information. That 
is how I look things up.
    I said to them, what are books for? They laughed. They 
said, your dad is so strange. They said, what books are for is, 
you read for pleasure, for books. That is what they explained 
to me; that if you want some information, they do not have time 
to go to the books.
    That is an example of how this new group of children are 
viewing things, what they are seeing, and teachers need to be 
able to manage that. We are now even talking about providing 
virtual high schools, providing education courses, degrees on 
line. So we need to make that a critical piece.
    We must have ongoing support for professional development. 
We must recognize that teaching is a developmental practice. 
Like other professions, you practice. You get better and you 
get better, and there must be structure. It is not one-shot 
deals, but we must have partnerships with the schools to 
continue.
    Finally, and perhaps this may be one thing that we have not 
done as well on education, that I think we are doing, and it 
must be much better now, we must have a multi-tiered 
accountability system, so that we can demonstrate that our 
teachers are learning the content that we are giving them, are 
able to demonstrate that into the field, and that we can ensure 
for the public to do.
    I have lots of things in my testimony here about the 
challenges of school. I will not go into that. You can read 
that.
    Let me just say that teachers have a much harder job than 
they did. They are facing more diversity in the schools. They 
are facing violence. They are facing all of the kinds of things 
that we are seeing.
    I would like to leave you with a couple of thoughts in 
doing this. Part of this is from my blue collar background. I 
am first generation college; but darn it, to a teacher, 
education is just hard work. It is just like everything else we 
do; just like being a Representative, being a Dean, being 
anything else. If you are going to do it right, it is really 
hard.
    There are not sexy or quick or other kinds of fixes that 
are going to turn teacher education around. We are either going 
to figure out, what is it that students needs to know, how is 
it that we are going to hold people accountable as to what they 
need to know, and get down to the business of doing teacher 
education right. Any quick fix is destined to become another 
experiment that our children bear the brunt of.
    Teacher education is expensive. I am not asking you tothrow 
money at teacher education, in trying to do that. But I am saying, do 
not try to make us do this on the cheap. There are many colleges and 
many universities, and mine is not one of them, in which they see their 
college of education as a cash cow, in which that college of education 
brings in an exorbitant amount of revenue, compared to how much it 
costs, and it funds all of the other things that are valued in the 
institution: physics, engineering, whatever it might be. We must 
provide the right set of resources to be able to do teacher education 
right.
    Teacher education is the responsibility of the whole 
institution. It is not my fault when students do not do well on 
the practice scores. It is equally the fault of the Dean of 
Arts and Sciences, and all of the faculty that tried to do this 
in the Provost and everybody else. It is all of our 
responsibility.
    We must create a seamless educational system, P-K through 
16. I am almost to the end here, so if I could just give you 
one other little story that I think has had a dramatic impact 
on me.
    About a year ago, I was asked to be principal for a day of 
a school in the west end. It is a school right off of the Ohio 
River. It is in the flats. It is a low income area. It serves 
primarily African Americans and white children of Appalachian 
descent.
    The principal knows that I am first generation college. My 
grandfather was a janitor, the whole deal. He wanted me to talk 
about, you know, how I made it and the struggles. Boy, I was 
just of myself; presenting, going to the things, and doing 
whatever.
    I was presenting to a fourth grade class, and a little girl 
raised her hand. She said to me, is there anybody that looks 
like me in your college? The whole class, it was like, eyes 
darted on me. The whole class knew exactly what she was talking 
about.
    No one really believed that college was an option for this 
group of children. To be honest with you, nobody had ever 
graduated from high school even out of this little strip of 
land down there, let alone go on to college. She was not an 
African America child. She was white child, but it would have 
been as prophetic or even more prophetic.
    If children feel that already at the fourth grade that the 
options and hopes of this country are already limited to them, 
think about when it is when they are enticed with drugs or 
early sexual behavior, or any of the other seductive traps that 
lay for all of us out there, and they do not believe they have 
that.
    My wife recently, talking to my daughter, who is now a 
freshman in high school, said to my daughter, you know, all the 
things that mothers and daughters talk about, about boys and 
things like that.
    My daughter said to my wife, I am going to be a lawyer. I 
am not going to get engaged and those kinds of things, so that 
I cannot be a lawyer. The difference between the two young 
girls was one seeing hope and the other seeing that, is there 
really somebody in your college like me.
    The last thing I wanted to talk about is the notion of 
alternative pathways. I heard this morning from the group 
pushing alternative pathways as the panacea and what can fix 
higher education and teacher education.
    I am here to tell you that now all deans in this country, 
not all college of education, are against these alternative 
pathways. In fact, I have several of them in my college that we 
are running.
    I am here to tell you though that we are absolutely 
committed to the notion that every child has the right for a 
caring, competent, and qualified teacher. Then if we are going 
to embrace these alternative pathways, let us make sure that 
the accountability systems that ensure good teaching are 
applied to these systems, as well, and not make them be a back 
door.
    Because what is going to happen, it is our most distressed 
school districts, our most urban school districts, our most 
rural districts that will utilize these teachers. Those 
children cannot afford more to set them back and more 
challenges that they need to have happen.
    I thank you very much for this opportunity. I greatly 
appreciate and am so pleased that you all are trying to 
understand teacher education. Thank you.
    Mr. Regula. Thank you. I think Mr. Obey and I will reserve 
questions until we have had the whole panel speak. This is all 
very interesting to us. After you were here this morning, you 
realize what is involved.
    Our next witness is Aubrilyn Reeder, who is a teacher in 
East Los Angeles School District, and was a person who went 
through Teach for America.
    I think you should tell us a little bit about your 
experience, as you have told me on the phone, about how you got 
into this, and what your experiences were, and what you would 
suggest that we can do on this subcommittee to improve that 
program. Then we will have the same question for all of you.
    We are here to see how we can make education better in 
America, and we are sitting on $50 billion, Mr. Obey and I, to 
figure out how to do it. Mr. Obey thinks it ought to be more 
than that. [Laughter.]
    So Aubrilyn, we look forward to your testimony.
    Ms. Reeder. First, I wanted to thank both Mr. Obey and Mr. 
Chairman for being interested in new teacher experiences. It 
was just very nice to hear that you were interested in those 
types of experiences.
    For the past three years, I have been a sixth grade math, 
science, and reading teacher in Los Angeles Unified 
SchoolDistrict. I have been a Teach for America core member. I have 
been a Teach for American learning team leader. I have been more 
recently the math department representative for the Literacy Committee 
at my school.
    Every once in awhile, I get a change to be Aubrilyn Reeder, 
a native of Northern Virginia, and a product of its public 
school system.
    As I was growing up, I always wanted to be a teacher. But I 
was a very successful and ambitious child. For whatever reason, 
a lot of teachers and family members discouraged me from that 
profession because, as I was told, those were not necessarily 
qualities that were necessary for being a teacher. That feeling 
lingered with me, because I did have that ambitious, 
competitive edge to me.
    When I start to hear about the program, Teach for America, 
it exposed teaching for what it is. It is an ambitious program 
of people that go into schools and try and make those students 
just as successful as they were, when they were students.
    So that ``I want to be a teacher'' part of me was finally 
able to convince the ``I got all my math right in the fourth 
grade part of me'' that successful and ambitious were qualities 
that were important for all teachers to have.
    There were three main programs that, I think, smoothly 
might be a little bit too positive, but it helped make my first 
three years run relatively smoothly, although there have been 
bumps along the way. That was the Teach for American Program.
    Mr. Regula. If you will excuse me, we have a vote on. 
Rather than interrupt you much further down in your testimony, 
I think Mr.Obey and I will go and vote, and then we will come 
back and let you finish.
    Ms. Reeder. Okay.
    Mr. Regula. But I might tell all of you, I learned about 
Aubrilyn's experience through her parents and I called her. We 
had quite a conversation. I was so intrigued with what you are 
doing.
    I am very interested in getting young people like yourself 
in the teaching profession. That is the future. I have respect 
for what the President has done. But more important even than 
the counting and testing and so on is having a good teacher in 
every classroom.
    That is why I thought your testimony would be very 
important. We do fund the program Teach for America. In part, 
because of our conversation last year, they got more money in 
the present bill, and they are going to get more in the next 
one.
    Ms. Reeder. Good.
    Mr. Regula. We will be right back.
    [Recess.]
    Mr. Regula. Okay, we have got some more votes coming, but 
we decided we would come back and keep working until the next 
one. So Aubrilyn, we will go on with your testimony.
    Ms. Reeder. All right, I think that what I was about to say 
was that there were three main programs that helped make things 
run more smoothly for me. The programs were the Teach for 
America program, the Mentor program that was actually offered 
through Los Angeles Unified School District, and the UCLA 
Department of Education's Cinderax programs for teachers.
    With the first program, Teach for America, prior to 
teaching in the fall in my school placement in Los Angeles, I 
had an opportunity to work for five weeks in a training 
institute for Teach for America.
    What this consisted of was, we worked in a group of 
teachers, and we actually taught summer school classes to 
students in the Houston Unified School District.
    Mr. Regula. Now you had your teaching degree?
    Ms. Reeder. No, I had actually just graduated from college 
with my Bachelor of Arts.
    Mr. Regula. Okay.
    Ms. Reeder. I majored in cognitive science.
    So no, I did not have a teaching degree. I kind of was 
jumping into something brand new. So when we went down there, 
it was a crash course, and it was a good crash course. We spent 
our mornings working with each other in a summer school 
classroom. So there were four of us that were responsible for a 
group of children.
    In the afternoons, we received professional development 
from the Teach for America staff, which laid the foundation for 
us of what it meant to be a teacher in a classroom.
    The best part about that institute for me was that, you 
know, having grown up always wanting to be a teacher, I had 
lots of wild ideas about what it meant to be a teacher. I mean, 
I wanted every corner of my room to be covered in something 
bright. I wanted all kinds of colors, crayons, glue, everything 
wildly creative, totally different, something new every day. 
The reality is, that can be counter-productive to actually the 
kids learning.
    So it helped me kind of quickly weed out, not only is this 
not realistic, this is not actually teaching all the time. It 
helped me realize that the bottom line is, what did my students 
learn that day. It set me up for, this is a long process for 
me. I am not going to learn it in five weeks. I am going to 
learn it throughout my career.
    I was very lucky, when I left the program, I came to Los 
Angeles, and I was placed in Nimitz Middle School, which is in 
Huntington Park in the East L.A. area. It is the second largest 
middle school in the country. It has 3,600 students, and that 
is for sixth, seventh, and eighth grade.
    Just to give you an idea of how many kids are in this 
community, down the street is the largest middle school in the 
country. So this is an area with many, many, many families.
    At my school, it is 99 percent Latino. I have worked with 
ESL students, but I have also worked with English only 
students, who grew up speaking English in the home. This year, 
I actually have a mixture. So every year has been a little bit 
different for me.
    The beauty of my school is that its philosophy is that we 
want to keep new teachers. So from the very beginning, I had 
support.
    My first week of school, I actually had somebody that was 
like a shadow teacher. This teacher actually just did 
everything that I needed to be done. She got my supplies. She 
anticipated my questions. She got my copies. She put up my 
bulletin board. She helped me with role book, which is an 
incredibly complicated system in the district.
    So all of those little things that kind of trip new 
teachers up that first week were done by somebody else for me, 
and I was able to focus on my lessons. The consequence of that 
was that my students saw somebody that was very competent 
running their classroom, rather than somebody bumbling around, 
trying to figure out a system. So that was one of the great 
things about being placed at Nimitz MiddleSchool.
    The other great thing was the mentor program, which is 
offered through the district. Once again, I think that the 
beauty of the program at my school was the teachers who ran it. 
I think they took a program, and I think they ran with it.
    My personal mentor, who was, is and will always be my 
mentor, Terri Pearson. She is the most amazing math teacher you 
could imagine. She never sees an obstacle. Her goal is, my 
students will be the best.
    I have never gone to her where she did not have an answer. 
There were so many times that first year when I said, you know 
what, they cannot do proportions. I am moving on. That is it. I 
cannot do it anymore. She said, well, try this or try this, and 
she always had an idea for me.
    I knew it was because she read every magazine. She went to 
every conference. She was constantly learning, herself. The 
same energy she put into teaching her students and teaching 
herself, she put into helping me become a better teacher.
    She actually sat down with me for several days, and we just 
went through whole units; not like, you know, just real dry 
units, but really good, rich units, that were especially 
helpful to me with a group of students that were really 
struggling with the English language. So the benefit of that 
was, that first year, I just had a lot of support.
    Just talking about the other people in my school, any time 
there was a problem or an issue, immediately somebody was down 
there to help me out. I mean, if I went and I said, I do not 
know what to do. This student does not seem to respond to what 
I am asking them to do, you know, they always had suggestions 
for me, and always helped me worked out the problems.
    This is not necessarily typical of experiences. It does 
happen. But I just felt that at my school, that was one of the 
great parts of it, that it was always there for me and very 
supportive.
    The last program that I feel like has kind of guided my 
wanting to be a teacher past the second year commitment in 
Teach for America was through the programs through UCLA. UCLA's 
Department of Education's Center-Ags offers programs for 
teachers of various experience.
    So this is actually the first program I was in that was 
offered to more than just first year teachers. In my classes, 
there were first year teachers, ten year teachers, teachers of 
fifteen years. The one common bond between all of us is that we 
wanted to get better.
    So that idea that you work with teachers to build, to make 
gains in student achievement was something that inspired me to 
stay longer; that made me realize, you know what, it is not 
just about what is happening in my classroom. It is about what 
is happening in all of our classrooms.
    What can we all be doing to help our students get to the 
levels where they need to be? How can we help them live up to 
our expectations, and then exceed them, so we have to raise 
them even more?
    So those three programs were the things that kind of have 
been almost my backbone since I have been out in Los Angeles. 
It has been a positive experience for me.
    There have been time, though, where I am like, you know 
what, this is too much. I cannot look in another parent's eyes 
whose child is not achieving what they need to be achieving and 
say, you know, or help give them answers.
    Two weeks ago, I spoke with a parent, and I remember the 
saying to me, we have really been working hard with him. You 
know, we are really hoping he makes some gains on the Stanford 
9 test. I remember thinking, you know, please, please say we 
have worked hard enough this year for that. It was like I just 
felt this surge of the greater responsibility that I have in 
that classroom.
    So there are a lot of responsibilities and there are 
discouragements that come along the way. But for each 
discouragement, for each time where I thought, how is it that 
we are not getting this yet; there has been, you know, 
Lissette, who is doing who science fair project on how we learn 
best, reading or when we listen to things.
    Then there has been Javier, who after working after school 
for two weeks, knows long division, when he had never divided 
before in his life.
    So for each discouragement, there has been something that 
has kind of said, all right, you know, I can do this two more 
years. I can do this three more years. I can do this for the 
rest of my career.
    Mr. Regula. So you are going to stay with it for at least 
the time being.
    Ms. Reeder. For the time being, I am in. I am committed.
    Mr. Regula. That is terrific.
    I think Mr. Obey, what we might do is, do the questions for 
the first two, because we are going to get called back here. 
Yes, let us do that.
    Dr. Johnson, are you now on a four year or a five year 
program?
    Mr. Johnson. It depends on which of our licensure programs 
you would be talking about. Our Early Childhood Program has 
just shifted to a four year program, and we are able to get the 
work done in a four year period.
    Our secondary program, just by the requirements of the 
State, it is almost impossible to complete it in four years, 
because you need almost a second degree.
    Mr. Regula. But you end up with two degrees?
    Mr. Johnson. In our secondary program, students can choose 
to get two degrees, and that is an option for them to do.
    Mr. Regula. Yes.
    Mr. Johnson. But it will still be more than four years, if 
they do not choose to get the second degree. It will probably 
be close to five years.
    For our middle school program, that is the way Ohio is 
structured, early childhood to grade three, middle school, 
four, five, six, seven, and eight. I am not sure where that one 
ends, and then secondary.
    In the middle school, they have to demonstrate competence 
in two areas, like mathematics and science. So in secondary, it 
is pretty easy for them to get a second degree if they want to. 
In middle school, it is also pretty easy for them to get a 
second degree, if they want to. In early childhood, they 
probably will not, and it would be harder for them to get a 
second degree.
    Mr. Regula. Do you run into resistance from students having 
to go the extra year? Because that obviously adds to the cost?
    Mr. Johnson. It is pretty common in Ohio. We just went to 
licensure. So it is pretty rigorous, and we are not out of line 
with the other programs in trying to do that. So I do not think 
that it takes you significantly longer at the University of 
Cincinnati than it goes at other universities in Ohio to be 
able to do that.
    Mr. Regula. You heard Aubrilyn talk about how important it 
was to have this early support system. Do you, as a university, 
try to provide some of that to your new graduates?
    Mr. Johnson. Yes, we work with the various school 
districts. The program that we have, probably the most well 
developed program, is with Cincinnati Public Schools. They have 
an internship or an induction year program, in which they work 
with the students. Then we also work with the students.
    We also give our students some credit towards their Masters 
Degree, which has been a very good thing to do. Then what we do 
is, we encourage students to continue going. In Ohio, you must 
get your Masters Degree within five years after you get your 
degree. So we give them some credit, and then we work with them 
in a structured development.
    We are also working with what we call cohort programs with 
the various superintendents, in which what we will do is tailor 
the Masters program specific to what they would like to see 
happen in their school district. Then they will help us get a 
cohort of teachers, that they will get Masters Degree in our 
university, but it will be working on, it could be literacy, or 
it could be the National Board certification.
    In fact, I just met last week with a superintendent, and we 
are going to develop a program for school leaders; not 
administrators, but teacher leaders. She would like, since she 
is paying for her teachers to go back and get a Masters Degree, 
she would like us to tailor a program that they can become 
leaders in the classroom and do that.
    So we are designing a specific program with that 
superintendent to do those kinds of things. In fact, I believe, 
as we have learned, that is the next forefront. We only can do 
so much with somebody; whether it be four years, five years, in 
trying to do that.
    They really need to practice and learn. They have to have a 
school system that is willing to invest in term, in targeted 
development. It would be nice if you can get some credit and 
things like that for that. But there really needs to be life 
long learning of the teachers to moving forward.
    Mr. Regula. Aubrilyn, first of all, do you think this is a 
good program? It is pretty obvious that you probably do. Would 
you change, if anything, on Teach for America, in the way it is 
structured?
    Ms. Reeder. I think the one difficulty for me has been that 
because I have such a strong community within my school, which 
I feel like it is important for me to be a part of, it was more 
difficult for me in my first two years to be a part of that 
same community with Teach for America. Again, like I said, the 
experience was very overwhelming.
    I think what I would like to see happen eventually, and I 
think that there are some attempts to do this, is to kind of 
marry these two ideas. When we are meeting with Teach for 
America teachers, we have veteran teachers there also. They are 
a part of this program that we are using. So they are a part of 
our program, as much as we are a part of their program.
    Mr. Regula. Mr. Obey, we have got a few minutes, yet.
    Mr. Obey. Dr. Johnson, how many new teachers are simply put 
on the job the first day with a sink or swim system, as opposed 
to getting the kind of guidance from senior teachers that you 
think is necessary or adequate?
    Mr. Johnson. All programs, at least in Ohio, are to have 
mentoring programs in which teachers are not stuck in sink or 
swim kinds of situations. So theoretically, I would tell you 
that all teachers get some kind of support.
    In reality, what we say we do and what we actually do is a 
different story in trying to do this. I think that you will 
find that your most distressed school districts, in the school 
districts that have the most challenges, probably in those 
schools they have not as strong a support system for the 
teachers going forward. The most affluent school districts have 
the most solid programs.
    So percentage wise, it is probably a bigger percentage than 
we should admit to.
    Mr. Obey. What is the biggest weakness of schools of 
education?
    Mr. Johnson. I think the biggest weakness is that we jump 
from one sexy idea to another sexy idea, and that we are 
looking for quick fixes; and that what it really is about. 
Again, you are talking to a blue collar guy.
    It is really about getting people the right content 
knowledge, and making sure they are in those classes and doing 
what they need to do in those classes to learn 
aboutmathematics, to learn about science, to really working across, so 
that people are working together, so that the pedagogue that we are 
trying to teach, I am not teaching the same thing that he is teaching, 
or that he is teaching, because all three of our favorite topics to do, 
and to be partnering with the schools.
    By the very nature of what I have described, I have got to 
work with arts and sciences faculty. I have got to work with my 
own faculty. I have got to work with school people. So I have 
got to manage collaborations across three different cultures, 
people with different reporting structures, to be able to do a 
good job in teaching. It is very, very hard work.
    It is easier to jump on some band wagon and say whatever 
the ``thing du jour of the day'' is, that that is what we are 
going to do.
    As I heard earlier this morning, I see where everything had 
to be graduate and our programs are going to be five and six 
year programs. Now I hear we are going to take people in six 
and eight weeks and just get smart people out in the schools.
    Those are the kinds of shifts in extremes that I think are 
our biggest weakness, as opposed to getting down and really 
what the research tell us make a good teacher education 
program. Those things are not sexy in doing. They just require 
hard work and commitment.
    Mr. Obey. Ms. Reeder, what is the most important thing that 
we could do to encourage, if not the brightest, at least the 
most interesting people to go into teaching?
    Ms. Reeder. I think that this is one thing that Teach for 
America did very well. I think they came and they showed us a 
group of people that came to our campuses that really cared 
deeply about those students being successful, and about how it 
is not always easy to make that happen.
    When you show that to somebody, when you say, you know 
what, this is a difficult situation, here is a challenge, and 
you show that to somebody interesting, they will take that 
challenge.
    So I think the recruitment efforts are really important on 
those college campuses, in letting them know, you know what, we 
have some programs that are going to challenge you, and we are 
going to be asking a lot of you, when you are in this program.
    Mr. Obey. I guess we have got to go vote.
    Mr. Regula. Yes, we have to go. Do not go away, we will be 
back.
    [Recess.]
    Mr. Regula. Okay, I think we will go on with the rest of 
the panel, and then we will come back with questions for all of 
you.
    So next is Dr. Thomas G. Carroll, Executive Director of the 
National Commission on Teaching and America's Future. That is a 
pretty big challenge.
    Mr. Carroll. Thank you, Mr. Chairman, and thank you for 
convening a panel on this issue, which we, of course, think is 
of utmost importance for improving schools.
    The National Commission on Teaching in America's Future was 
built on decades of research that demonstrates what we all know 
from our own experience; which is, at the heart of every high 
performing school, we find high performing teachers. That is 
the center of success in schools, and that is where the 
Commission has put its energy and resources.
    Six years ago, the Commission issued a challenge to the 
Nation, calling for every child to have a competent, caring, 
and qualified teacher; 2006 was our goal, a 10 year goal.
    Now we have the No Child Left Behind Act, which issues a 
similar challenge to the Nation, and the same goals and the 
same kind of time frame.
    The First Lady has called the No Child Left Behind Act a 
promise to America. We think that to redeem that promise, we 
have to find ways to work together, to join forces, really, to 
reach that goal.
    The hallmark of our efforts ought to be collaboration and 
innovation. Those of us working in the area of teacher quality 
have a responsibility to listen to each other, to look to 
promising practices, whether in traditional approaches or 
alternative approaches, and to move beyond the differences that 
can set up back in our efforts to move on this issue.
    We are trying to raise the bar and close the gap on student 
achievement. We have set high standards now for our students. 
To do that, we need to raise the bar and close the gap in 
teacher standards. We have not been as rigorous in insisting on 
high teacher standards as we have been in insisting on high 
student standards.
    We need equally high standards for our teachers. We cannot 
tolerate a system in which the least qualified teachers, for 
example, are consistently placed in the schools that have the 
greatest challenge and the schools with the greatest learning 
needs.
    There are five strategies that states and districts and 
colleges are pursing around the country. I am just going to 
briefly summarize them. One is, setting high standards for 
licensing, and insisting on them; no more emergency 
certification, waivers of licensing.
    We need to reform licensing in the states in this country. 
We talk about licensing first, and then we try to decide 
whether that really standards for qualified teaching. We ought 
to set some standards for qualified teaching, and then make 
sure that licensing means that we have got a qualified teacher 
in the classroom. The law calls for this, and we ought to do 
it.
    High quality teacher preparation programs are the second 
strategy. We heard about one here in Cincinnati. There are 
other programs around the country. The University of Wisconsin 
at Milwaukee, Southern Maine, the Georgia State system.
    There are a number of programs in which there has been a 
clear institution-wide commitment, beyond the school of 
education, involving the chancellors, the leadership of the 
institutions, who make a commitment for arts and sciences 
faculty to work with schools of education, and for their 
college faculty to work with the K-12 schools.
    So we do have in roads on teacher preparation improvement, 
but we need a much more vigorous effort to turn around the 
schools of educations, a true institutional commitment at those 
places.
    The third strategy is recruitment and retention. In the 
case of recruitment and retention, I believe that we could go a 
long way towards solving our teacher shortage problem, if we 
did more about the retention and attrition of teachers.
    Our schools leak teaching talent like rusty pipes. We lose 
30 to 50 percent of our teachers in the first three to five 
years. That is a horrendous number of people. It is ahuge loss 
in public investment that we have made in the education of those 
teachers. It is tremendously disruptive of the learning in the children 
in those schools.
    We are scrambling, trying fill the shortage, when we should 
be trying to fix the real problem, which is the attrition 
problem. So that is the third strategy.
    The fourth strategy is to reward accomplished teaching. If 
we want teaching to be a profession that is attractive to 
people like our colleagues here in your experience, the 
profession has to be a rewarding profession. There has to be an 
opportunity to advance, as a profession.
    The National Board for Professional Teaching Standards has 
put a set of standards in place that States our adopting across 
the country. We have 39 states now, and almost 200 school 
districts that have adopted that strategy for rewarding good 
teaching.
    The final strategy is redesigning schools, so that teachers 
and students can succeed. Redesigning schools really means 
basically two things. First, it means smaller schools. We have 
extensive research. There is a great move now to build our 
education initiatives on a strong research base.
    The research on small schools is overwhelming and 
convincing. In small schools, we have higher student 
achievement with lower gaps across ethnic groups. We have lower 
attrition rates. We have higher attendance rates. We have fewer 
discipline problems. We have higher teacher retention rates.
    We just had a study released about a week ago or two weeks 
ago that was done at the University of Minnesota, following on 
the Columbine situation, funded by, I believe, the National 
Institutes of Health, maybe at CDC.
    Again, what they found that made a difference in student 
engagement was small schools, the ability of students to feel 
like they were in a school where the teachers knew they were, 
and where the students felt engaged with their fellow students 
and with the teachers. So small schools make a difference, and 
we ought to move on that front.
    The other thing that can make a difference in redesign is 
technology. Modern learning technologies, technology proficient 
teachers can make a tremendous difference in the education of 
our children. They bring resources to children who have been 
separated by a lot of barriers before, that have not had access 
to those resources.
    So we need to build on our investment that we have made in 
the hardware in the schools, by investing in teacher 
professional development, so that the teachers know how to use 
that technology effectively.
    Those are five strategies. This is a tall order. When we 
look at this, for all of our interest in Education in America, 
we have never built a system that has left no child behind. We 
have always had a system that has left children behind. It is 
not our intent, but that is what we have. If we are going to 
change that, we are talking about a big job.
    The Federal Government which passed this act, with Congress 
and the Administration joining forces in a bipartisan 
initiative here, I think this is an unprecedented moment in 
education.
    We need to follow through on the promise. For those 
reasons, I was disappointed to learn that the Administration's 
request is substantially less than the authorized figure, and 
that there are lists of programs. I heard a list this morning 
when I was here that are either slated to be frozen or simply 
cut.
    I believe that educators around the country, who are 
working hard on all those initiatives that I just quickly 
reviewed, would be receiving the wrong message. I think that it 
would dilute the power, the momentum that was behind that 
bipartisan passage of the act.
    So my hope is that committee, that the Congress, will find 
a way to keep the promise of the act, and to provide the 
funding that is needed to move on all of these fronts.
    Thank you for the opportunity to testify.
    Mr. Regula. Thank you.
    Is your organization a 501(C)(3)?
    Mr. Carroll. We are an organization that is based at 
Teacher's College at Columbia University. We are in the process 
of becoming a 501(C)(3), but we are equivalent to a research 
center at Teacher's College at Columbia University.
    Mr. Regula. The Bill Gates Foundation would like your 
message on small schools. I put that on the wall back there as 
sort of a target.
    Mr. Carroll. Yes, a small school.
    Mr. Regula. That is actually a school house at the end of 
my lane. We live on a farm, and it has been abandoned, but it 
is in nice condition. I tried to get my children to go there, 
but it did not work. [Laughter.]
    Mr. Regula. But there is a lot to be said for a good 
teacher.
    Mr. Carroll. That is right.
    Mr. Regula. And they had one like that.
    Mr. Obey, I think you know the next witness.
    Our next witness is Dr. Lew Finch, who is the 
Superintendent of Cedar Rapids Community School District. So we 
have been dealing in theory, and you are dealing in reality. So 
we would be interested in your message.
    Mr. Finch. Mr. Chairman, Mr. Obey, let me start my comments 
by saying I agree with Mr. Obey, when you talked about him 
requiring or advocating for better funding of this particular 
bill. So make sure you have got that in your record. 
[Laughter.]
    Mr. Finch. I am Lew Finch. I am superintendent of the Cedar 
Rapids Community School District in Iowa. We have about 18,000 
students in our school district. I am in my 42nd year of 
service as a public school employee. While I have held the 
title of superintendent for 32 of those years, I considered 
myself, first and foremost, a teacher.
    There have been times when the Teacher's Association did 
not agree with that. But the truth of the matter is, I still 
believe that I am a teacher, and I am proud of that. I have a 
daughter that is a teacher, and it has been our whole life.
    I, too, applause the President and Congress for their 
efforts on behalf of public schools in this country in passing 
the No Child Left Behind Act. I would just remind you that that 
has always been the mission of public schools. To the extent 
that we have not always been able to fulfill that mission, it 
is more a matter of us not having the resources and the support 
at times. It is not that we have not intended to want to do 
that.
    I can assure you that in the classrooms of this country, 
teachers like Aubrilyn here are performing absolutelymiracles 
with kids. It is going on every day.
    Just a little side light on that, when is the last time you 
saw a ticker tape parade down Pennsylvania Avenue or Fifth 
Avenue on behalf of the public school teachers, who have made 
such a contribution to this country?
    There are a couple of issues that I would like to address 
here today. You have my written testimony, so I am just going 
to highlight a couple of those.
    One has to do with the issue of assessment and 
accountability. I just want to remind you and members of 
Congress that there is a difference between testing and 
assessment. There seems to be a great deal of emphasis on 
testing in this.
    We give tests. Iowa ranks very high in performance on 
standardized tests. If you are going to judge the effectiveness 
of school districts simply on the basis of performance on 
standardized tests, we are sitting pretty well.
    But we recognize in Iowa that there is more to an education 
and there is more to measuring the quality of an education than 
shows up on a norm reference to our criteria and referenced 
standardized tests.
    So we would encourage you to really emphasize the fact that 
assessment really involves multiple indicators, and that we 
would like to have you, rather than making judgments about 
whether a school or a teacher or a group of students are 
successful or not, make sure you do that on the basis of 
multiple indicators. Be careful of focusing only a test score.
    We seem to be a Nation wrapped up in this scoreboard 
mentality. We want to look up at the wall and see how the 
schools are rating, like we look at the NFL standards every 
week. That simply is not sufficient to job.
    Secondly, the cost of testing is a concern. I will have to 
share with you that I and several of my colleagues are 
concerned that this may just be another under-funded mandate 
from the Federal Government.
    If we are really going to fulfill the mandates here, it is 
going to require more tests, more testing, more scoring of 
tests, considerable more time spent on testing and assessment. 
We do not object to the idea of assessment. But for heaven 
sakes, do not require local school districts and States to 
divert precious resources from already short supplies of money 
for instruction. Devote it just to testing.
    So I would encourage you to make sure that it is adequately 
funded. If you are going to require it, make sure to fund it. 
That is a message that comes from every school teacher and 
every board member and every superintendent in this country.
    Other than that, with regard to the testing, I do not think 
that those of us in Iowa are overly concerned with it. It is 
interesting, because Iowa has a distinction, you know. It is 
the only State of the 50 States that does not have State-
adopted standards.
    We have come under tremendous criticism, out of Washington, 
D.C., and many other parts of the country by the fact that we 
have locally developed standards, not State standards.
    Incidentally, you mentioned Columbine High School, prior to 
my coming to Cedar Rapids, I was the Superintendent of Schools 
in Jefferson County, Colorado, where Columbine High School is 
at. Fortunately, I had left a couple of years prior to the 
tragedy out there, but I know those people quite well. In fact, 
the little lapel symbol I have here is a Columbine High School 
memorial.
    For those States that have adopted State standards, that is 
all well and good. But I can assure you that most of these 
standards, developed by local school districts in Iowa are more 
stringent and are higher standards than most of the State 
standards that have been adopted.
    So we do have standards. It is just that we do not believe 
that the State ought to be setting those, but that the local 
people are in a better position to set those standards than the 
State or Federal Government.
    So we are not concerned about the testing aspect of it so 
much, other than the fact that we do not want to focus just on 
standardized tests, and we would certainly like to see it 
adequately funded.
    I think more importantly, and I do applause Congress and 
the President for their emphasis on quality educators. I would 
broaden that to include quality employees in our school 
district.
    Most of the kids in our community get the start of their 
day seeing a bus driver. I am going to tell you, that bus 
driver can make or break that student's day. We want the 
absolute best possible people that we can have, working with 
those kids. Many of the kids relate better with the cook and 
the custodian than they do many of the professional staff.
    So you have got to have people there that are competent and 
caring in every single position that we have.
    Mr. Regula. Right.
    Mr. Finch. But the focus really is on teachers and building 
level administrators. We know that that is the secret to good 
schools. We applaud your efforts on that behalf.
    I would just hasten to add that the President's budget 
simply does not adequately fund what we want to do, in terms of 
developing high quality educators. The $2.85 billion sounds 
like a lot of money. It is a lot of money, but it is not nearly 
enough if we are really going to achieve what this bill hopes 
to achieve.
    I would also hasten to add, there is a difference between 
licensure and quality. Going back to the testimony you have 
heard, we need to base licensure on those qualities that we 
know make up a good teacher, and not the other way around. 
There are many people that are licensed. They are not all high 
quality people.
    So simply having a license now, I have to tell that every 
teacher we have employed in our school system is licensed. Not 
every school system can boast of that. But they are all 
licensed. Now I am not saying that they are all of equal 
quality, because there is a difference in the two.
    I want to echo something else that has been brought up here 
today. If we are going to attract and retain the high quality 
teachers, especially teachers and administrators, in our lowest 
performing schools, this is not going to happen by punitive 
action.
    I read the legislation, and all I see in there is what is 
going to happen to you, if you do not see the gains that we 
want. Where are the incentives? Who in the world is going to 
want to teach in the under-performing schools, with the few 
incentives that we have there? It is no wonder that we have our 
least experienced teachers too often teaching and working with 
our most needy students.
    I would encourage you to build into your program incentives 
to help these people and given the recognition they need and, 
quite frankly, enable us or empower us to be able to create 
incentives for these people who want to teach, because there 
are many of these teachers who are dedicated and they want to 
be there.
    But what I see in the provisions on this act are all kinds 
of punitive things. If you do not make the right gains on these 
tasks and the assessment, we are going to close your school, or 
we are going to let the parents send their kids off to some 
other school somewhere, where supposedly, they are going to get 
a better education.
    It is full of punitive action and not enough incentive. I 
would encourage you to make sure to take a look at that.
    I was interested in listening to the comments of those who 
are interested here and committed to teacher preparation. In 
Iowa, I would have to say that the teachers that we are able to 
attract and retain in our school system in Cedar Rapids are 
well prepared.
    We have school districts from all over America come to Iowa 
to hire our teachers. They offer them big signing bonuses. They 
offer them all kinds of things to get them out to California, 
to Clark County, Nevada, Houston, Texas.
    We have been very fortunate. While the pool of candidates 
has declined in our school district in the past couple of 
years, we still have been able to fill all of our positions 
with licensed teachers and, for the most part, what we believe 
to be highly qualified people.
    I would raise a concern, however, with regard to the 
implementation of the act as it relates to para-professionals 
in Title I.
    Most of our para-professionals are one step above 
volunteers. We simply do not pay para-professionals or teacher 
aids or whatever you happen to call them, and the bill refers 
to them as para-professionals. We are attracting a pool of 
qualified candidates there that are going to meet the more 
stringent demands for para-professionals. That may be the most 
difficult part of this whole act for us to fulfill.
    I do not know around the country whether or not other 
school districts are going to face the same problems that we 
do. But we certainly are going to find it very difficult.
    I have not done an analysis of our para-professionals, to 
see how many of them might qualify, or whether or not we are 
going to be able to attract and retain those kinds of people.
    But I guess the final thing that I would say to you is 
something that I have in my written testimony, and I want to 
repeat it here. We would not think of sending the members of 
our armed forces into harm's way without the absolute best 
training that we can give them, the best equipment that money 
can buy, the best technology, and the ongoing support. I think 
that is justified. That is correct.
    Every day, we send into many public schools employees into 
facilities that are inadequate. They are crowded in some cases. 
They certainly do not have the latest technology in all of 
these classrooms. Even more importantly, they do no have the 
ongoing training and support that is absolutely essential, if 
we are really going to improve the performance of students in 
our schools.
    So I would expect nothing less than the same commitment 
that we make to our military for our public schools. I realize, 
you know, it is a sizable bill. But if we are really serious 
about this, then we are going to make that commitment; because 
quality schools cost money, and people need to recognize that.
    In summary, provide sufficient funding to cover the 
increased cost of testing. Do not pass that on to local 
districts. Commitment substantial and adequate resources to 
this whole endeavor of developing and retaining quality 
teachers and administrators. It is going to take a considerable 
investment, and that is the secret. That is the answer to 
improving education.
    Require multiple indicators of success to evaluate the 
effectiveness of our schools. I listened to what Aubrilyn said 
that she does. I can assure you that, yes, those kids are 
probably going to perform better on a norm. referenced 
standardized test. But they gain a lot more than that, and it 
does not show up in a test score. I can tell you that from my 
own experience in being in those classrooms, day in and day 
out.
    Then, finally, and perhaps as important as anything, 
provide incentives for our brightest and our best to want to 
work with our most needy children. I think that, in and of 
itself, will have a profound impact on our under-performing 
schools.
    I thank you very much for the opportunity to be here.
    Mr. Regula. I am going to let Aubrilyn answer your 
question, because you are in an inner city, are you not?
    Ms. Reeder. Yes.
    Mr. Regula. And she is staying there. What incentives could 
we do to keep people like you, who are invaluable in inspiring 
those kids, to stay?
    Ms. Reeder. Thank you; I think one way would be 
opportunities for me personally during vacation times to 
further my professional development. There is a lot of 
professional development offered during the school day. It is 
very difficult to do that and manage a classroom, too.
    The programs that I have gotten the most help out of and 
that have encouraged me to stay are the programs that offer 
money. I have gotten stipends for the programs from UCLA which 
have taught me, you know. I get college credit for them, also. 
So that is an incentive for constant learning, and I actually 
get paid for that time.
    I think also it would be giving teachers some say in what 
they do. Because I am in an under-resourced school, the 
opportunities that have been given to me, because I am willing 
to spend the time to do it, you know, I am constantly being 
offered new challenges. I have to say, you know what, I am 
actually not going to take that one, because I am a little bit 
in over my head right now.
    But having those opportunities, I mean, I am never goingto 
hit the point where I am like, yes, I got it, you know, I have got 
everything down. No, I am constantly being challenged.
    So I think the new opportunities, the opportunities for 
leadership, and the opportunities to become a really good 
teacher are all encouragers for me, at least. They are things 
that are going to encourage me to stay and keep on.
    Mr. Finch. I would just add, she is also somewhat modest, 
too. I would say that recognition goes a long way. We were 
talking during the break here about the fact that I have seen 
teachers get a $250 grant and do wonderful things. I had to do 
more with the recognition that they got the grant and were able 
to do some special things. They made $250 stretch further than 
any finance officer I have ever had in a school district. It 
was absolutely wonderful.
    I would add to what Aubrilyn has to say about giving 
teachers adequate time; pay them to go back and give them 
opportunities to go back for that re-training, because no 
matter how good the teacher is, ongoing training and staff 
development is absolutely essential.
    I have people call me and say, well, they can do that in 
the summer on their own time or on the weekend or at night, at 
their own expense, and that is just nonsense. That is absolute 
nonsense. No major corporation in America requires all of its 
people to do it on their own time at their own expense. So that 
takes resources and we need it.
    Mr. Regula. You might recruit Aubrilyn for your school 
while you are here.
    Mr. Finch. Right, I am trying to do that. [Laughter.]
    Mr. Regula. I have one further question. This year's new 
budget zeros out, Ready to Teach; zeros out, National Writing 
Project; American History; Preparing Tomorrow's Teachers to Use 
Technology; School Leadership; National Board for Professional 
Teaching Standards.
    Now my question to you is, obviously, it is in the 2002 
bill. Does your district get any of this money; and if so, how 
much; and do you think these programs are worthwhile? Because 
obviously, somebody at OMB decided they were not?
    Mr. Finch. Well, the programs are worthwhile. In Cedar 
Rapids, we do not get a lot of funding, at any Federal level. 
Less than five percent of our budget comes from Federal 
funding, and most of that is Title I.
    In Title II, we do the class size reduction. We employee 
around 16 teachers, using that money, and the State of Iowa 
matched that. So we were able to employ about 30 teachers on 
class size reduction.
    We do not get a lot of the funding of the programs you have 
just cited. But I can tell you from my own experience in 
talking with my colleagues in districts where they do get 
access to that, particularly the technology, it has had a 
profound impact on that.
    I would have to say, other than the concentrating on the 
quality of the teachers and the administrators we have 
employed, I really believe technology holds the promise for 
some tremendous things in our schools.
    If you go back to the personal testimony that you heard 
about what the kids would say to us is, get a life. Read a 
book? I go over and I access the world.
    I will just use one little thing about this. I walked into 
a science classroom and watched a very good science teacher 
teaching about the functioning of the kidneys. He went over to 
the wall chart and pulled down the old chart, you know, with 
the diagram here. He took out his pointer and pointed to the 
kidneys, and the kids were like this.
    Why; because most of them had been in a virtual reality 
game at the mall the night before, and they were coming and 
looking at a wall chart about the functioning of the kidneys; 
when today, you can take a virtual tour of the kidneys, if you 
have technology in the classroom. Was it the teacher's fault; 
of course not.
    Mr. Carroll. Mr. Chairman, just one thing I would add is 
that our concern on the technology is that the country really, 
in every State and every district now and at the Federal level, 
has made a huge investment in hardware in the infrastructure. 
But our investment in professional development for teachers to 
use that technology effectively has not been there.
    The Center for Education Statistics says that 20 to 30 
percent of the teachers feel comfortable and know how to use 
that technology for instruction. So we have got our investment, 
and we are not able to use it effectively. That is why programs 
to do the professional development with the technology are so 
important.
    Mr. Johnson. We have one of those PT-3 grants. It is my 
understanding that we are likely to get a little bit more 
funding; maybe not. It has been an incredible impact.
    It is just unfortunate, if we are talking about faculty who 
now have to teach this, and they are my age or older, it is the 
same issue. They need to understand the technology.
    So if we do not focus on that, then it becomes just 
punitive of what is wrong with colleges of education; what is 
wrong with what we need to do. It has had a very big impact at 
our university in trying to help our faculty get up to snuff.
    Mr. Regula. I just remember, as an elementary principal, 
each time I went to a new school, I would look in the closet, 
and it would be full of all kinds of the technology of that 
age, but nobody knew how to use it adequately.
    Mr. Johnson. Yes.
    Mr. Finch. It was those Wallensach reel-to-reel tape 
recorders, is what you were talking about. [Laughter.]
    Mr. Regula. Mr. Obey?
    Mr. Obey. Dr. Finch, I am worried about you catching your 
plane. I think any time you feel you have to leave, you ought 
to just get up and leave.
    Mr. Finch. Thank you.
    Mr. Obey. I have just one overarching question. Everybody 
says, run Government like a business. So let us look at 
education as a business, in which teachers are the assets that 
we are trying to develop and use.
    In terms of looking at the raw material, what is the one 
thing you would do to attract the most imaginative and the 
brightest teachers to teaching?
    If you are looking at the manufacturing process--how we 
train them, what is the one thing you would do to improve the 
way we train teachers?
    If you look at them as developed assets, how would you 
change schools to make the most use of the talents of good 
teachers?
    Lastly, how would you keep your best assets, so that you do 
not have so many good teachers leaving before they have even 
been in the system three years?
    Mr. Finch. I will take a shot at that, and then I willhave 
to excuse myself. I have to catch a plane to Chicago, that I hear there 
are supposed to be delays this afternoon, so that will be interesting.
    In a nutshell, compensation is a part of it. I know that 
the teachers sometimes are a little hesitate to point that out.
    We start our teachers under $30,000. The average teachers 
in our district, with many, many years of experience and 
advanced degrees, many of them with Masters and Doctors 
Degrees, after 25 or 30 years, maybe make $40,000. I mean, it 
is criminal, and that is a part of it. It just has to be there.
    Then I want to repeat what Aubrilyn has said about what 
would keep her in the profession and what makes it worthwhile. 
Teachers, like anyone else, want to have something to say about 
what it is that they do. Teaching in a classroom, a fourth 
grade classroom can be a pretty lonely place, if you really do 
not have the opportunity to team and to work with your 
colleagues, and have a say about what it is that you are going 
to be doing.
    I think those are the working conditions that I think will 
attract and retain our competent and most highly qualified 
teachers.
    Just let me give you one little story. When I was a 
superintendent in a large suburban Minneapolis school district, 
I had the CEO from 3-M say to me just what you said. Why do we 
not run these schools like a business? You know, at 3-M, we do 
these wonderful things.
    I said, okay, here is the deal. You are absolutely right. 
Let us say that you are the plant manager here, and your job is 
to make the world's finest adhesive tape.
    Then in the plant comes 400,000 gallons of glue that has 
been out in Minnesota winter and it is all crystallized, and 
then through the next door is 400 tons of plastic that that is 
supposed to be applied to. Your job is to make the world's 
finest adhesive tape. What would you do?
    He said, I would throw out that material and start over. I 
said, every day in America's public schools, we have kids who 
are crystallized and hurting. These teachers are working 
miracles with them.
    Then he looked at me and he said, how do you people do 
that? I said, well, it is because we have people like this who 
have committed their lives to working with those kids.
    We do not throw out, thank God, the raw material, and say, 
okay, send us better material. They are already sending us 
their best. We need to pick them up where they are at.
    For those of you who had the opportunity to hear the 
Teacher of the Year, I saw him interviewed on CNN, and he was 
just recognized at the White House this morning. He said, you 
know, every child has assets. There are positive things about 
every child. The way I approach this is that I can build on the 
positive aspects of every child, and I forget about the things 
that they cannot do. I think that that is the theory and the 
kind of system that we are trying to get.
    Again, I apologize for having to leave, but I really do 
appreciate it, and I really enjoyed your one room country 
school there.
    Mr. Regula. You probably started close to that.
    Mr. Finch. It was pretty close.
    Mr. Carroll. Well, Mr. Obey, your question is an 
appropriate question. Because I think, you know, the comparison 
is with the business community. I think that is every other 
profession, when we have a shortage or we need more 
professionals, what we do is, we increase compensation and we 
do everything we can to make the employment, the working 
conditions attractive.
    But what we are prone to do in too many cases in teaching 
is to just lower the standards, just lower the bar, so that we 
can get more people in by lowering the thresholds. That cannot 
be the solution; lowering the threshold cannot be the solution.
    I would add that compensation is important. I would also 
add that the working conditions are important. The conditions 
that Aubrilyn was talking about are the conditions of a 
professional; the opportunity to have a voice in the work 
place, to work in a professional community in the school, in 
which the teacher's collaborate, work together to define the 
learning environment.
    I think that there are other incentives that we have at our 
means of some simply, well targeted strategies, such as the 
loan forgiveness programs and tuition assistance programs, 
especially at the Federal level, where you cannot be involved 
in the compensation, but you can be involved in loans and 
grants for service.
    We ought to be thinking about service scholarships for 
entering into teaching. This idea, I think, that the President 
has proposed of increasing the level of loan forgiveness to 
$17,000, I believe, it is, if a person agrees to teach in a 
high need area, a shortage area; either a discipline or a 
community where there is a shortage of teachers. Those 
strategies would make teaching attractive.
    I think another way to say this is, we have talked about 
some of these schools as hard to staff schools. Then we try to 
think about, what can we do to get teachers to work in hard to 
staff schools.
    What you are really saying is, we ought to change the 
schools so that they are not hard to staff. We should change 
the conditions in those schools that make them so difficult to 
work in. The leadership in those schools is essential.
    A strong principal who is a real teaching, educational 
leader is just essential. Every time you see a high performing 
school and you see a cadre of teachers who have really jelled 
and who are sticking with it, you see a principal who is 
backing them.
    So investing in leadership, I think, is also crucial here. 
We think of always investing in the teachers, but we have got 
to invest in the school leaders as well, if we want this to 
work.
    Mr. Obey. Mr. Chairman, I know I have to be somewhere in 
about 10 minutes, so I have time for about one more question. I 
am trying to figure out which one I want to ask. I have seven 
or eight of them here.
    Often, when we ask about shortfalls in the Administration's 
budget, we are told, well, you can take care of that, because 
you have got some flexibility in Title I, et cetera.
    My concern is, how do schools that do not have a lot of 
poor children and do not qualify for Title I funds and are not 
very well off suburban schools going to bear the burden of 
these new mandates in H.R. 1. What kind of pressures will 
develop in schools like that, which cannot access programs like 
Title I very heavily?
    Mr. Carroll. Those schools are kind of caught in between. 
You know, they would not necessarily be targeted as lowincome 
schools, but they do not have the resources of the other schools.
    I think, in general, the burden is significant. You asked 
the question several times, once this morning and once this 
afternoon, how many teachers could meet the requirements of the 
act today.
    My estimates, using the Department of Education's numbers 
is that there probably are about two-thirds of the teachers at 
the high school level, who have the qualifications to teach, 
meaning that they have the requirements of the law.
    They have a major in their discipline or a minor that 
discipline to teach. That means there might be a third of those 
high school teachers who are not qualified, by the terms of the 
law now. That is based on the schools and staffing the survey, 
the most recent data from the department.
    Generally, maybe seven percent of the teaching population, 
in its entirety is unlicensed, uncertified. If we go to the 
entry level point, the teachers who are just entering the 
building on their first three years, again, it could be one-
third of those teachers who are not going to meet the 
requirements of the law. That is based on the National Center 
for Education Statistics condition of education report from 
2000.
    So there is a significant burden that I think our schools 
face, if they are going to bring teachers up to standards that 
are called for in the law. I think there are some efficiencies 
that come again with the notion of school redesign, moving to 
smaller schools; schools in which the professional development 
that people talked about this morning, where the professional 
development is imbedded in the school.
    It is imbedded in the day-to-day work of the teachers, so 
that there are mentor teachers, who are master teachers, who 
are accomplished teachers in the school, who are mentoring the 
younger teachers, so that it is part of their day-to-day work.
    We are going to have to find, in the face of resource 
constraints at all levels, at the States and in the Districts 
with economy, economies that involve in those schools building 
this professional development into the day to day work, 
creating a professional community, if you will, in which 
teachers collaborate collegiately to support each other.
    But my concern, I think, as I said in my remarks is that 
the challenge of the law is right. This is the right law. It 
says that every teacher in every classroom should be qualified. 
Right now, every teacher is not. It is a significant burden to 
get there.
    Mr. Johnson. I think you will find that schools will pick 
three strategies, or at least three strategies, as they go 
through them. One, they will pass on some costs to parents. For 
example, you will now pay for band, if your son is going to be 
in band, or your daughter is going to be in band; or there will 
be a fee for football.
    There will be this and that. They will justify it in the 
sense that, well, that is an extracurricular activity, although 
that would have been something that would have been covered.
    So they will find things that they can pass on. You may 
even find that you are buying materials like workbooks and 
things like that. So they will pass that on. They will find 
ways around it.
    When you asked this morning, and I am not sure who asked 
this, this morning, to get data on how many teachers are 
teaching out of field, I guarantee you that what you get back, 
the problem is a lot worse than that.
    Because what superintendents do, and this is not a slam on 
superintendents, it is how they survive, they do things like, 
there is a certain set of requirements to be a sub. So they 
hire people as substitute teachers. You are just in the 
classroom all year. So technically, you are not out of field in 
trying to do that.
    So you are going to find that whatever you find, that it is 
much harder. So we find ways to get around the laws. Third, 
there will be local taxes, however they might do it, 
referendums and things raised to try and meet these mandates.
    Mr. Carroll. And I think the fourth would be that there 
will just be cuts in those schools.
    Mr. Johnson. That is right.
    Mr. Carroll. They will just cut services and activities and 
programs.
    Mr. Obey. That is what is happening in my State.
    Mr. Chairman, thank you for the time. I have to leave, but 
thank you all. We appreciate your coming.
    Mr. Regula. I think this has been a great hearing. I have 
got the testimony of the four of you, which I will read in full 
on the airplane, because you caught my interest, to a high 
degree.
    We have another appointment, but I have one question. Did 
your principal help you in meeting the challenges as a new 
teacher in a rather difficult environment?
    Ms. Reeder. Not so much directly; although I do remember my 
first year, a very specific instance. I was having difficulty. 
I had an eighth grade home room, who knew a lot more than I did 
about the school.
    When I said, listen, I need some help with parent phone 
calls, he immediately came in there and said, you tell me who 
you need so that you be successful here.
    So I gave him two names. He found two veteran teachers that 
were willing to take on these more challenging students. You 
know, home room is not something that I should be worrying 
about that much anyway. So that was one thing that he did very 
directly.
    My school had actually just gone through a cycle of three 
different principles. He was the last one, and he is the one 
that stayed. So I think his support of all of the teachers and 
the other teacher leaders, I mean, there was just a re-
awakening at the school that year.
    I think that while I may not have felt all that support, 
whatever they said, if they said, we need this for teachers, he 
said, okay. He listened to the people that had been at that 
school, and had put all their heart into that school. So I 
think indirectly, he supported it in that way, too.
    Mr. Regula. Dr. Carroll, you have touched on the fact that 
leadership is such an important thing. So I would ask you, Dr. 
Johnson, do you have programs to educate principals, and 
perhaps mentors, in the larger system?
    Mr. Johnson. Yes, we do, and the challenges of providing 
effective administrators are equal or more difficult than 
finding effective teachers and training them.
    I could talk to you about our programs in which we have a 
grow your own strategy with Warren County, which are some of 
the more suburban counties and rural counties on the outside. 
We are working with the Superintendents there, and they 
areidentifying teacher leaders, and trying to get those individuals to 
do this.
    But we need a whole different way of administrators to be 
thinking about it. It is not just the fiscal management of the 
building. It is the educational leadership to be able to 
support a new teacher; to be able to do all of those kinds of 
things. That is not how all of our administrators have been 
trained in the past.
    Mr. Regula. Well, we have heard this fact that this may be 
one of the places that we need to direct our attention, on the 
school leadership; i.e., superintendents and principals.
    Our programs in the bill, thus far, are all aimed at the 
teacher. Should we be thinking about some kind of program with 
some financial incentives in our bill to encourage the 
development of good leadership?
    Mr. Johnson. I would say absolutely, yes. I would agree 
with my colleagues, if you find an effective school, it is 
going to be a rare instance that you find an effective school 
that has a poor leader, in trying to do that. You may find 
wonderful teachers, that are being undermined by somebody who 
does not know what they are doing, rightly or wrongly, in 
trying to do that.
    But it will be rare instance where you find an effective 
school that does not have a good leader; and we need to be 
having more leaders in the program. You were a principal. There 
is no more thankless job.
    When you look at the kind of administrative skills that you 
need to do to be a principal, you can make a heck of a lot more 
money managing some other program out there and doing some 
other kind of thing. It is very, very, very tough work for 
somebody to come into, and we ought to be finding ways to 
encourage leaders.
    I think we ought to also be finding ways to develop, and 
this is where some of our innovative superintendents are 
focusing on, on teacher leaders, teachers in the schools. I 
think as we go back, giving teachers control, having teachers 
feel like they are part of the decision making, that they feel 
in control goes a long way to attracting people into your 
profession.
    If what you hear is that education is awful, and if what 
you feel is that when you are in there, all these decisions are 
made and you accept what happens in the classroom, it becomes a 
lonely profession and not very attractive.
    But if you feel that, in fact, you are making a difference, 
if you feel you have a level of control, you are more likely to 
be involved and want to stay involved in that.
    The compensation, I would agree, is important. But I think 
building teacher leadership and having people feel in control 
of what they are doing, that is what all of us want to feel.
    Mr. Regula. That is very hearing. This has been a great 
hearing. You have all been terrific. I wish we could have had 
all of our colleagues here today, because this is the real 
world.
    When someone this morning said that our schools have 
failed, I said I was down at the IMAX movie, and I recommend it 
to you, down at the Air and Space, in which they show the 
development, and it is actually the footage, a lot of it is in 
the space capsule.
    The genius involved in putting that thing up there is 
enormous, enormous. It is the same thing with computers. Our 
schools have produced a lot of very able people in this 
country. As we mentioned about the ticket tape parade, but that 
person would not be there without a good teacher or teachers 
along the way, that made it possible for that individual.
    So you were all great today. I just appreciate your being 
here. It was an excellent hearing. The committee is adjourned.
                                          Thursday, April 25, 2002.

             HIGH SCHOOL AND TRANSITION INTO THE WORKFORCE

                               WITNESSES

SALLY STROUP, ASSISTANT SECRETARY FOR POSTSECONDARY EDUCATION
GROVER J. WHITEHURST, ASSISTANT SECRETARY FOR EDUCATIONAL RESEARCH AND 
    IMPROVEMENT
SUSAN B. NEUMAN, ASSISTANT SECRETARY FOR ELEMENTARY AND SECONDARY 
    EDUCATION
ROBERT H. PASTERNACK, ASSISTANT SECRETARY FOR SPECIAL EDUCATION AND 
    REHABILITATIVE SERVICES
CAROL D'AMICO, ASSISTANT SECRETARY FOR VOCATIONAL AND ADULT EDUCATION
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE

                       Chairman's Opening Remarks

    Mr. Regula. We'll get started. We will probably have a few 
interruptions this morning with votes. We appreciate your all 
being here again. We've had interesting discussions, Carol, I 
think you're new to the panel. So you'll have maybe a different 
point of view. We'll be very interested in what all of you have 
to say about this subject, which happens to be one of interest 
to me. I was, as a State senator, very responsible for getting 
a technical school started in our district which now has an 
enrollment of 5,000 students and about a 97 percent placement 
rate.
    So it is the kind of thing that serves the community needs 
very well. Ours is not a community college, it's strictly an 
associate degree. The interesting thing is, we're getting a 
number of students enrolling who have a bachelor's and come 
back to get job producing education. So we look forward to your 
testimony and that of your colleagues. You can summarize your 
statement as you choose.

             Opening Remarks of Assistant Secretary D'Amico

    Ms. D'Amico. Thank you, and good morning. I'm pleased to 
appear before you and the Committee to discuss the programs 
administered by the Office of Vocational and Adult Education 
that focus on high schools and transition into the work force. 
I do have a full testimony that I would ask be incorporated 
into the record.
    Mr. Regula. Without objection.
    Ms. D'Amico. The first important step of the President's 
program in education was embodied in the No Child Left Behind 
Act of 2001. It's built on four key principles that we will 
adhere to as we discuss high school and transition into the 
work force. First, closing the achievement gaps, especially 
among those of different ethnic groups and socioeconomic 
status. Second, focusing on effective practices and what works. 
Third, increasing flexibility and reducing bureaucracy. And 
fourth, providing more options for parents and students.
    These are the principles that will guide our thoughts about 
the programs in our Office of Vocational and Adult Education. 
Our goal is to ensure that these important principles, embraced 
by the Congress and the President, are also reflected in 
efforts to improve dramatically the preparation of adults and 
students in high schools and community colleges and their 
transition into the work force.

                         HIGH SCHOOL EXCELLENCE

    Our first challenge is high school excellence. As you know, 
despite nearly 20 years of education reform and innovation, 
millions of America's young adults leave high school without 
the knowledge and skills needed for success in the work place 
or postsecondary education. We know too well the challenges of 
declining achievement throughout the high school years, the 
lack of competitiveness of U.S. students relative to their 
peers across the globe, and unacceptably high school dropout 
rates.
    Given our current economic projections and trends, young 
adults will face advances in technology and globalization of 
the economy unimaginable to earlier generations. And the demand 
for low-skill, less educated labor will increasingly give way 
to demand for highly skilled, highly educated workers. More 
companies will cross national boundaries to get the work that 
they need done. Good jobs, those with meaningful career paths 
and family supporting incomes, will go to those with strong 
academic and technical skills, especially in math, science and 
technology.
    Since employers who do not find skilled workers here at 
home will look for them abroad, our challenge is to make sure 
that we have a competitive work force here in the U.S. There is 
a projected serious shortfall of qualified workers over the 
next 10 to 20 years. One projection was 12 million workers 
without the qualifications they need for the new economy. So 
the challenge to us is clear. Too many high schools are failing 
to prepare their students for the future. Good schools do 
exist, but they continue to be the exception.

                       ROLE OF COMMUNITY COLLEGES

    Our postsecondary institutions will also play an 
increasingly critical role in addressing the challenges of 
fulfilling our work force needs, specifically, our Nation's 
more than 1,100 community colleges. Because of population 
increases----
    Mr. Regula. When you use that number in community colleges, 
does that include those that are standalone technical 
institutes?
    Ms. D'Amico. That would include both.
    Mr. Regula. Both. Okay.
    Ms. D'Amico. That's correct. Because of the population 
increases and increased college attendance rates, more American 
youth are enrolling in postsecondary education than ever 
before. The Bureau of Labor Statistics indicates that 70 
percent of the fastest growing jobs in the new economy over the 
next 10 years, such as in the information technology and health 
professions, will require some kind of postsecondary education 
and training beyond high school, not necessarily a bachelor's 
degree, but some postsecondary education and training beyond 
high school.
    Increasingly, we are looking to community colleges to train 
the work force. Yet many of the community colleges do not have 
the capacity to fulfill their potential in the areas of 
education, career preparation and work force development. 
Community colleges have multiple missions, from being the first 
entry point for postsecondary education for many young adults, 
to retraining the work force. Many State policies and Federal 
policies were created in a different era, not necessarily for 
the needs that we have today. We need to examine what those 
are, so that we can enhance the community colleges' mission of 
preparing the work force.

                TRANSITIONING ADULTS INTO THE WORKFORCE

    It is also difficult to measure the quality of community 
colleges, in large part because of the multiple missions they 
have and the diversity of student goals and needs. Since our 
office also administers adult education programs, I can't 
resist mentioning the challenges we have with transitioning 
millions of adults into the labor force. The 1992 national 
assessment of adult literacy indicated that approximately 90 
million adults were reading at levels that were insufficient to 
participate fully in the economy and for the skills they need. 
The 2002 updated version of that survey will be conducted. And 
it is likely to indicate that we'll still have millions of 
adults who continue to have low literacy rates.
    Currently, our programs serve about 2.7 million of those 
adults, if you count State and local resources. So we are 
serving a fraction of the need, and that really demands two 
levels of response. First, we need to make sure that the 
current services are of the highest possible quality, 
reflecting the best known research about adult learning and 
having a clear focus with specific objectives for each adult 
education class that is offered. This requires clear 
expectations, good curriculum and assessments, well-trained 
teachers and an accountability system to measure and report on 
student progress.
    Second, we need to make sure that we have a broad array of 
services available to adult learners who are currently not 
accessing learning. That's why we are developing national 
activities around the role of work place education, community 
and faith-based organizations as providers of rigorous 
training, on research practices, and on the use of technology 
in providing adult education literacy.
    We also have the challenge of preparing limited English 
proficient adults in the work place and to prepare them for 
their lives in American society. That is part of what we do in 
the adult education program. In recent years, the States have 
experienced a growth of more and more adults who need English 
literacy coming to the programs.
    Finally, I want to talk about accountability for these 
programs. A guiding principle of this Administration is to 
focus on the results of our efforts. The 1998 reauthorization 
of the Vocational and Adult Education statutes included 
accountability requirements focusing on student achievement and 
other measures. One of Secretary Paige's key strategies for the 
Department of Education is that we move beyond a culture of 
compliance to a culture of results.
    An accountability system is only worthwhile if it is 
measuring the right things, and if the data it produces are 
actually being used by teachers and administrators to improve 
quality. So we will be working to ensure that we have an 
accountability system that meets those criteria.
    The Office of Vocational and Adult Education is now working 
to build on the No Child Left Behind Act by developing policy 
recommendations for high schools, community colleges and adult 
learning centers to transition into the work force. Our goal is 
to create incentives and opportunities for States and local 
reform efforts focused on preparing every American to complete 
high school and be well prepared for postsecondary education 
and employment; to support community and technical colleges to 
fulfill their potential in the areas of education, career 
preparation and work force development; and to expand adult 
learning to bring high levels of literacy and English fluency 
to millions of under-served Americans.
    This effort comes at a critical time, as Congress prepares 
to reauthorize the Carl D. Perkins Vocational and Applied 
Technology Education Act, the Adult Education and Family 
Literacy Act, and the Higher Education Act. We are enthusiastic 
about these opportunities facing us. Mr. Chairman, this 
concludes my remarks. I would be happy to respond to any 
questions that you might have.
    [The prepared statement of Assistant Secretary D'Amico:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Are the other members of the panel going to 
testify? If so, we'll go ahead and then save the questions.

             Opening Remarks by Assistant Secretary Stroup

    Ms. Stroup. Good morning. It's a pleasure to see you again 
today, Chairman Regula, to talk about the budget for the Office 
of Postsecondary Education and the programs that we believe do 
the right things that need to be done in preparing high school 
and college students to transition into the work force.

                 COLLEGE ENROLLMENT AND COMPLETION GAPS

    College preparation is the focus of several of the programs 
that we administer in the Office of Postsecondary Education. 
College enrollment and completion gaps are still a significant 
problem, particularly between low income students and their 
more advantaged peers, and minority and non-minority students. 
Oftentimes they are directly related to the level of academic 
preparation these students receive in high school. Many of them 
have lower educational expectations and they are less likely to 
take courses needed for college.

                            TRIO AND GEAR UP

    Three of our programs, including Upward Bound and Talent 
Search--which are two TRIO programs--and the Gaining Early 
Awareness and Readiness for Undergraduate Programs (GEAR UP), 
specifically address those problems by providing a wide range 
of intervention services to disadvantaged middle and high 
school students. Using different approaches, these programs 
provide tutoring, counseling, mentoring,academic advice, 
financial aid, counseling and other information that will help these 
students pursue a postsecondary degree.
    The President's budget for 2003 proposes to continue 
funding TRIO at $802.5 million, and GEAR UP at $285 million. 
The $400 million in TRIO that's allocated to Upward Bound and 
Talent Search serves 432,000 high school students across the 
country. GEAR UP, with its $285 million and the matching 
contributions that are part of that program, serves 1.4 million 
middle school and high school students. That is an increase of 
135,000 over the last year.
    We're currently looking at both of these programs to try to 
figure out where we're failing and where we're succeeding, so 
that we have good performance data for the reauthorization of 
the Higher Education Act, and we can figure out where we need 
to target the money so it actually helps the students we're 
trying to reach and get into college.

                             COLLEGE ACCESS

    On the access side for us, as Carol said, postsecondary 
education is probably more important than ever for 
transitioning to the workforce. We know that people who have 
bachelor's degrees earn significantly more than people with 
high school diplomas. We know that people with bachelor's 
degrees have a significantly less unemployment problem than 
people with just high school diplomas.

                   PELL GRANTS AND OTHER STUDENT AID

    The budget this year provides almost $55 billion in student 
aid for postsecondary education and includes $10.9 billion for 
Pell Grants, the main Federal grant program, to help low income 
students enroll in college. The current number puts us at about 
4.5 million students eligible for Pell Grants.
    Mr. Regula. If I'm not mistaken, that includes technical 
schools.
    Ms. Stroup. Yes, it does. Students enrolled in a program 
that leads to an associate or bachelors degree, or a 
certificate are eligible for Pell Grants.
    To supplement the Pell Grant funds, we are also continuing 
support for the Federal Supplemental Educational Opportunity 
Grant at $725 million and Federal Work-Study at slightly over a 
billion dollars. Again, all colleges are eligible to 
participate in the campus-based programs, including technical 
and public colleges, and 2-year community colleges.
    The budget also has $100 million for----
    Mr. Regula. Excuse me, is that money disbursed by the 
college?
    Ms. Stroup. Yes. That's part of the campus-based system, 
where the institutions determine which students get the aid, 
based on rules to target aid to low-income students.
    Mr. Regula. So they could give that aid to a student who's 
also getting a Pell Grant?
    Ms. Stroup. Yes. This supplements Pell. You can get a Pell 
Grant, you can get a Perkins loan, and you can get an SEOG 
Grant. As a matter of fact, we tie SEOG and Pell together to 
make sure the SEOG is targeted to the neediest students.
    Mr. Regula. Why shouldn't we have it all in one place? Why 
all this proliferation of programs?
    Ms. Stroup. In the past, people have suggested taking 
campus-based programs and merging them into one program instead 
of having three: SEOG, Perkins and Work-Study. I think most of 
the colleges have opposed that idea in the past. They didn't 
want them all merged together. They generally like the separate 
line item programs. To some extent, they do different things. 
They're not used for the same thing. Work-Study is a clear 
example. It's not really a grant program, you get the money but 
you also do a job, either on campus or off campus or at a 
community-based organization.
    Mr. Regula. So the student goes to the financial aid 
office, and they've got an array of----
    Ms. Stroup. Yes, pots of money to pick from to make awards 
to students.
    Mr. Regula. I suppose the colleges like the idea of being 
able to----
    Ms. Stroup. They do.
    Mr. Regula [continuing]. Play with all these various 
things.
    Ms. Stroup. Yes. It gives colleges flexibility to spread it 
out. There are some colleges that tell us that when you give 
all of the money to the lowest income kids, there are students 
on the border. It's the kids from the lower middle income who 
may get squeezed out of Pell who then get the benefits of some 
of the campus-based programs. Colleges do spread the aid 
around. A Perkins loan is a perfect example. You can give a 
student a $4,000 Perkins loan, the average is about $1,000. So 
clearly the colleges are spreading the funds around among 
students.
    Mr. Regula. Is that loan repayable?
    Ms. Stroup. Yes. Students must repay a Perkins loan to the 
institution.
    Mr. Regula. Okay. Would that be what you call a student 
loan program?
    Ms. Stroup. No. It is a student loan program, but it's a 
campus-based program. It's not one of the big student loan 
programs--the Federal Family Education Loans and the Federal 
Direct Student Loans. It's a separate campus-based program 
where the schools actually administer the loan program 
themselves. They receive a pot of money, and they have to add 
money to it. It requires a match from the campus. They have to 
put their money into it and use it as a revolving fund to make 
student loans.
    Mr. Regula. Do they set the interest rate and the repayment 
terms?
    Ms. Stroup. Most of that is set in law and regulations.
    Mr. Regula. On Perkins?
    Ms. Stroup. Yes, on Perkins. We set most of the rules. 
Again, this is one I talked about yesterday that has 
cancellation rights for teachers and other professionals, such 
as nurses. The campuses actually get to administer it and 
determine who gets the loans.
    Mr. Regula. So that's the one that the program for loan 
forgiveness would be addressed to?
    Ms. Stroup. That's part of the loan forgiveness program. 
But there are loan forgiveness programs available in the big 
loan program I talked about yesterday that are for all student 
loans.
    Mr. Regula. It's a little confusing.
    Ms. Stroup. It is. Sometime maybe we should talk about 
merging those programs again when higher education comes up for 
reauthorization.
    Mr. Regula. I'll suggest to my colleagues we take a look at 
it.
    Ms. Stroup. That's probably a good idea.
    I'll quickly go through the rest of my statement. In the 
big student loan program, as I was saying, we expect nearly 11 
millionstudent loans to be made, $40.7 billion in the student 
loan programs--the Federal Family Education Loan and Federal Direct 
Student Loan programs which the Administration is supporting.

                 STRENGTHENING INTERNATIONAL EDUCATION

    Another educational need that I just want to mention is one 
that you actually addressed last year in the appropriations 
bill. And it has to do with the aftermath of September 11th and 
the importance of strengthening American international 
expertise in world areas, economies and foreign languages. We 
got more money last year for those programs, and we're asking 
for a 4.1 percent increase, for a total of $102.5 million, to 
expand the opportunities for people to study, particularly the 
less commonly known foreign languages.
    While No Child Left Behind is really the start of improving 
education, vocational education, adult education, and higher 
education, all have an important role to play if this is going 
to work across the country. We believe that greater 
accountability is needed at the postsecondary level as well.
    Mr. Regula. So No Child Left Behind is the testing program 
and accountability is, are there similar criteria on the 
student, all these various post-high school programs?
    Ms. Stroup. We don't have testing programs in the 
postsecondary world. To get student aid, obviously you must be 
admitted into college in the first place to be eligible.
    Mr. Regula. Right.
    Ms. Stroup. And to continue to get student aid once you're 
enrolled, you do have to meet certain academic progress 
standards and make sure you're actually progressing through the 
course you're enrolled in.
    Mr. Regula. That's an ongoing process?
    Ms. Stroup. That's an ongoing process, that's correct. So 
we don't have an entrance exam or an exit exam. But it is an 
ongoing enrollment process where you have to show that you're 
making academic progress, or you would lose your financial aid.
    Anyway, let me just close so we can go on to somebody else, 
and say, we're in the throes of looking at reauthorizing the 
Higher Education Act. It's going to be up next year. We have to 
make changes to meet the demands of the new economy. And we'll 
be doing that in the next year.
    [The prepared statement of Assistant Secretary Stroup 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. You all will be testifying in front of John 
Boehner's committee.
    Ms. Stroup. At some point in time, yes, we will.
    Mr. Regula. If they get around to it.
    Ms. Stroup. Yes.
    Mr. Regula. Okay.
    Bob, Mr. Pasternack.

           Opening Remarks of Assistant Secretary Pasternack

    Mr. Pasternack. Call me Bob, Mr. Chairman. It's your 
hearing room, it's fine. Thank you again for the opportunity to 
be here this morning.

                      SPECIAL EDUCATION PERSONNEL

    I want to talk to you at the outset about something that we 
talked a little bit about yesterday. And that is, no matter 
what we do in law, no matter what we do in regulation, no 
matter what we do in funding, if we don't have highly qualified 
teachers working with our kids, we're never going to get the 
kinds of improved results that the American people have a right 
to demand.
    In the area of transition, we're talking about taking 
students with disabilities from school to the world of work, or 
from school to postsecondary education. The fact that teachers 
have to collaborate with other outside agencies, the fact that 
teachers have to help kids with disabilities find employment, 
these are very difficult tasks to accomplish. One of the things 
that we didn't get a chance to talk enough about yesterday is 
the fact that it requires that the university help us in 
delivering the kinds of instruction to these people so that 
they can have the skills to be able to go out and do a better 
job of working with the kids that are in front of them on a 
daily basis.
    I'm not being critical of our teachers. I'm very proud of 
the work that goes on across America in special education 
classrooms every day. But, it's just such a complex set of 
requirements when we're talking about moving kids from school 
to postsecondary opportunities or from school to work. It's a 
critical area that we've got to do a better job in.

                         HIGH SCHOOL GRADUATION

    We've seen improvements in the graduation rate for students 
with disabilities. We're about to release to you and your 
colleagues the 23rd annual report to Congress on how we're 
doing with the Individuals with Disabilities Education Act. 
You're going to see that the graduation rate for students with 
disabilities has climbed to an all time high, but it's only 
57.8 percent. So while we can say that it's the best it's ever 
been, clearly if we're going to accomplish the President's 
mandate of leaving no child behind, we've got to do a better 
job of getting kids with disabilities to complete school.
    I know that you are particularly aware that if a child 
doesn't have a high school diploma, it really changes their 
life trajectory. It puts them at risk for getting into the 
mental health system, which I know your colleague Mr. Kennedy 
is particularly concerned about. It puts them at risk of 
getting into the juvenile justice system, and in alarming 
numbers we're seeing younger people going into the adult 
criminal justice system as well. These are things that we 
absolutely have to do a better job of as we move forward.

                        ADULTS WITH DISABILITIES

    One of the things that we're going to be trying to do is 
identifying better ways of teaching adolescents and adults the 
kinds of skills that they need to be able to complete school. 
With some of the money that we received to do some of the 
important research activities--and I know Russ will talk more 
about that in a minute--we've looked at a longitudinal study on 
adults with disabilities. Because while we've talked a lot 
about leave no child behind, we also have a responsibility to 
serve adults with disabilities.
    And as you know, sir, there are 54 million adults with 
disabilities across this great country of ours. In his first 
month in office, the President released a new freedom 
initiative. And the new freedom initiative documents the 
appalling fact that 70 percent of adults with disabilities are 
unemployed at a time of unprecedented economic prosperity.
    So not only have we left kids out and kids behind, but 
we've left a lot of adults out and a lot of adults behind. One 
of the things that we need to do a much better job of 
isencouraging the business community and the public sector to 
understand that disability is not inability, and that people with 
disabilities can accomplish great things, and can contribute to the 
work force if they're given meaningful work and opportunities to 
deliver that meaningful work.
    If we look back at one of the things we've learned from a 
longitudinal study of adults with disabilities in our voc-rehab 
system, which I also have responsibility for administering, we 
find out that the best predictor of subsequent employability is 
literacy skills--an area that my colleague Susan is passionate 
about.
    So one of the challenges for us is, if we know that we need 
to teach adults with disabilities how to read, how do we do 
that? Where are the effective models to be able to teach adults 
with disabilities how to read, when they've spent time in 
school and haven't learned how to read and they've gone into 
voc-rehab programs and haven't learned how to read? We've got 
to do a better job at helping people in the field learn from 
good, rigorous, methodologically sound research what strategies 
can they bring to work with these adults with disabilities who 
clearly need to learn how to read if we're going to enhance 
their ability to be employed.

                 SPECIAL EDUCATION NATIONAL ACTIVITIES

    That's one of the ties to our Part D program, which is a 
critically important part of what we do under the IDEA. It 
gives us our personnel preparation funding, but it also gives 
us some of our research money and allows us to put research 
into practice, which is something I know you're particularly 
interested in.
    In the interest of time, I just want to tell you that we 
need to do a better job of increasing the graduation rate for 
kids with disabilities. Because we know that if a kid doesn't 
have a diploma, their life trajectory is significantly 
different and it's something that we're very concerned about 
and look forward to working with you and your staff to help the 
field do a better job.
    [The prepared statement of Assistant Secretary Pasternack 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                         DROPOUTS IN BIG CITIES

    Mr. Regula. Do you have statistics on the non-graduates or 
the dropouts in the big cities? I know in Ohio it's about 50 
percent. Is that something similar to national average?
    Mr. Pasternack. When you look at adults, young people with 
disabilities, Mr. Chairman, it's about 40 percent. It varies, 
because people report dropout data differently. But clearly, 
too many young people with disabilities are not completing 
school. When you disaggregate those data, the data are worse 
for kids of color. So our African-American kids, our American 
Indian kids, our Hispanic kids, way too many of those kids are 
being left behind and are not graduating from high school.
    We've seen the number of kids, going on to postsecondary 
school with disabilities rise to an all-time high, so that 10 
percent of students enrolled in colleges and universities 
across the country are kids who report having a disability. 
It's about one and a half million, the last numbers that we've 
taken a look at.
    If young people with disabilities want to go on to colleges 
and universities, we ought to be encouraging them to do that, 
because as you know, kids can't rise to low expectations. We've 
got to have high expectations for our kids with disabilities.
    Mr. Regula. Very well.
    Thank you.

           OPENING REMARKS OF ASSISTANT SECRETARY WHITEHURST

    Mr. Whitehurst.
    Mr. Whitehurst. I'm very pleased to be back with you again. 
I'll take the same approach I took yesterday and just mention a 
few things about the budget and then try to illustrate that an 
investment in research and statistics produces good dividends 
for the Nation.

                        RESEARCH AND STATISTICS

    The President did ask for a robust increase in the research 
and statistics budget for 2003: A 44-percent increase for 
research and a 12-percent increase for statistics. I hasten to 
add that the absolute dollar figures are just rounding errors 
in the budgets of some of my colleagues here, but nevertheless, 
I'm very pleased that the President has indicated symbolically 
through these large percentage increases that we need to know 
what works and we need good statistics as benchmarks to measure 
our progress.

                        HIGH SCHOOL ACHIEVEMENT

    Let me turn to statistics first, as it relates to high 
school. We need to understand how we're doing compared to our 
international competitors, and how we're doing internally in 
this country over time in terms of improving performance among 
high school students. The TIMSS-R is our major international 
benchmark for math and science performance. What it shows is 
that first, we're in the middle of the pack compared to our 
international competitors.
    When you unpack that a little bit, it gets interesting. The 
correlation between socioeconomic status and performance is 
much higher in this country than it is among our international 
competitors. That means knowing that a child is poor in this 
country tells you much more about what he or she will learn in 
terms of math and science than it does in many other countries.
    When you further unpack the international data, you find 
the very best off our students are competitive with the very 
best students in any country in terms of their scores. But we 
have a wide range of performance. We've found again from 
looking at TIMSS-R that one of the things that accounts for 
these differences is that high schoolers in this country simply 
are exposed to less demanding content in their courses than 
many high school kids overseas.
    When we look at the National Assessment of Educational 
Progress, we find that only 17 percent of seniors in this 
country are proficient in math, and only 18 percent are 
proficient in science. These are really remarkably low figures 
in terms of----
    Mr. Regula. Out of the total class?
    Mr. Whitehurst. Out of everybody, the data are from a 
random sample--representative sample of seniors--across the 
country. Clearly, with the demands of the 21st century economy 
and technicaljobs, with 17 percent of our high school students 
graduating proficient in math, we have a significant problem.
    Mr. Regula. Have we figured out why?

                         HIGH SCHOOL COURSEWORK

    Mr. Whitehurst. Part of it certainly has to do with course 
taking. We've seen a fairly healthy increase in the number of 
children in high school who take rigorous courses in math and 
science. But it's still less than 50 percent of students who 
take those courses. So, absent coursework that would produce 
proficiency, it's not a mystery that we have large numbers of 
children that are not----
    Mr. Regula. Are we counseling these students?
    Mr. Whitehurst. Part of it is a matter of counseling. Part 
of it also is providing teachers who are trained and able to 
deliver rigorous coursework.
    Mr. Regula. Perhaps enthusiastic, too.
    Mr. Whitehurst. Enthusiasm is certainly a part of it. But, 
we find that in public secondary schools, only 30 percent of 
the teaching work force has majored in an academic area as an 
undergraduate in college; that is, has majored in math or 
majored in science. So again, one of the things we've found 
from TIMMS-R, as well as other work I'll describe to you 
briefly, is that many high school teachers, particularly in 
schools serving children from low income backgrounds, are 
simply not prepared themselves to offer rigorous coursework.
    So at most, many poor children get algebra one or geometry 
1 and that's the end of their education in math. If you don't 
have more than that, it's very difficult to be prepared for 
college. In fact, students take these courses and pass them, 
but they don't pass these courses or exit from them with high 
levels of skill. Math education in this country is largely 
predicated on a sort of selection model based on assumptions 
that large numbers of kids just won't get it and we should be 
satisfied with a small percentage of children who excel. We 
simply have to do better in math.

                      HIGH SCHOOL COMPLETION RATES

    The dropout rates that Carol referred to are computed 
various ways. But, if you simply look at timely completion--how 
many kids who were in 9th grade exit from 12th grade four years 
later--you'll find, particularly among minorities and low-
income populations, that it drops to 60 or 65 percent of the 
population that's actually completing high school on time. So 
we simply have serious problems there that have to be faced.

                     RESEARCH ON HIGH SCHOOL REFORM

    What are we doing in terms of research? We're two and a 
half years into a significant investment in the development of 
comprehensive school reform models that focus on middle school 
and high school. We've been developing seven of these models. 
We're not at a point yet to indicate whether or not they are 
successful or how successful they are compared to each other. 
But it is a significant investment in trying to put together a 
system that schools can adopt that will reform high schools and 
produce higher levels of student performance.
    Mr. Regula. These models are funded by grants from your----
    Mr. Whitehurst. Yes, they're funded by grants from the 
Office of Educational Research and Improvement.
    Mr. Regula. If they work, you disburse this information to 
the Nation?
    Mr. Whitehurst. That's right. I've spoken previously about 
our ``what works'' dissemination effort. We will certainly be 
including evidence on the degree to which these models work in 
impacting student performance. The model developers tell us 
uniformly, though, that they encounter a number of problems. 
One of those problems is that these are models that serve low 
performing, low-income schools, and very high numbers of kids 
enter high school without the preparation needed to participate 
in rigorous high school courses.
    So, each of the model developers has had to develop 
remedial strategies and doubling up strategies and catch-up 
strategies to try to get kids to the point where they could 
take algebra 1. They also have significant literacy problems. 
We have large numbers of children entering high school who 
simply have not been taught to read. That has to be addressed.
    And, as I mentioned before, the model developers find that 
significant numbers of teachers are simply not prepared to 
offer rigorous course work in these schools.

                    READING COMPREHENSION INITIATIVE

    I've mentioned previously one of our new initiatives that I 
think is very critical to progress in this area, and that's our 
new initiative in reading comprehension. If we are faced with 
large numbers of children entering high school or middle school 
unable to read and understand what they're reading, we need to 
understand why, we need to understand how to assess that, and 
we need to develop teaching models that can be successful for 
these kids. We've asked for $20 million this coming year to 
invest in that research program.
    We also are very interested in establishing a parallel 
research program in math education. This work will be 
particularly focused on algebra, and will examine what students 
need as prerequisites to be able to understand algebra, and 
what the teachers need to know to teach it well. We think a 
long term investment in understanding what's necessary to teach 
reading comprehension and teach math will pay off the way that 
our investment in early reading has paid off in new models for 
elementary school.
    Those are the highlights of what we're doing in research. 
I'm very pleased to be able to talk with you about them and 
welcome any questions you might have.
    [The prepared statement of Assistant Secretary Whitehurst 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Ms. Neuman.

             Opening Remarks of Assistant Secretary Neuman

    Ms. Neuman. Mr. Chairman, it's nice to see you again. And 
it's important to talk about this topic of high school today.
    I'll just make a few remarks. So many of my colleagues have 
talked about some of the key issues that I'll be addressing. As 
you know, high school students will be required to be more 
highly skilled than ever before. We know that less than a third 
of the jobs that high school students will eventually have, 
that people will eventually have, need more than just a high 
school diploma.
    Russ talked about the importance of not only an educated 
work force, but the fact that much of our data have not shown 
tremendous improvement of high school student' skills. The 
National Assessment of Educational Progress has shown little 
improvement over the years. If we begin to disaggregate among 
different groups, I think we're going to find that the scores 
and the improvement over the years are even poorer.
    What we know, and one of the things we haven't talked about 
today yet, is that those children who are behind have often 
started behind in the very early years, in the kindergarten 
years, where they haven't come to school prepared. That sets 
them up for failure very early on in their educational career.
    No Child Left Behind really begins to redefine the Federal 
role in K-12 education. We believe in highstandards, increased 
accountability, public reporting of graduation rates, and reduced 
bureaucracy and greater flexibility with increased options for parental 
choice. What we are arguing for is strengthened Title I regulations and 
State accountability, which will be based on challenging content 
standards and challenging assessments and instruction that is aligned 
with assessments.
    Our new accountability will be unitary instead of creating 
dual systems, and will be inclusive, so we can begin to look at 
the kinds of reforms that Bob has suggested for disabled 
students as well as LEP children.
    The Administration is requesting $11.4 billion, an increase 
of $1 billion, for Title I Grants to Local Educational 
Agencies. States will be able to reserve $80 million of their 
Title I allocations to carry out dropout prevention programs or 
other programs that prepare at-risk youth to complete high 
school or enter training or employment.
    Because No Child Left Behind lowered the poverty threshold 
for eligibility to operate a Title I schoolwide program from 50 
percent to 40 percent, almost 5,000 additional schools, 
including many high schools, will have additional flexibility 
in their use of Federal-State funds. But again, this increased 
flexibility must focus on results. So this Administration keys 
on flexibility for increased accountability.
    As we talked about yesterday, all of our children deserve 
high-quality teachers. And we know that good teaching should be 
an entitlement for all of our children. Yet 28 percent of our 
teachers are often teaching out of their field, some data even 
suggest that almost 40 percent in low-income schools are 
teaching out of their field. Therefore, our children are not 
receiving the high-quality teachers they richly deserve.
    So throughout this act, what we are seeing is increased 
flexibility, increased accountability. What we are promoting is 
the ability for districts to transfer as much as $1.8 billion 
of those funds so that they can be targeted to meet the needs 
of the local school districts.
    Mr. Chairman, this concludes my remarks. I'd be happy to 
answer any questions.
    [The prepared statement of Assistant Secretary Newman 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                     FLEXIBILITY AND ACCOUNTABILITY

    Mr. Regula. You mentioned targeted grants, the $1.8 
billion. Are you saying if we were to pass the bill as proposed 
by the Administration that school districts would have greater 
flexibility than they now have to use funds in the way they 
think will produce results?
    Ms. Neuman. Exactly. With this flexibility, there comes 
increased accountability. We have got to begin to look at 
results, where we use our money more effectively than we have 
done in the past.
    Mr. Regula. How do you do that? How do you measure results?
    Ms. Neuman. Well, you know, this is very interesting. As 
you may know, through our negotiated rulemaking process, one of 
the things that we recognize is we have not held high school 
students accountable for learning a body of knowledge. Very 
often what we've looked at is subject area competence. But also 
as you know, for those children who, through various means, 
have not been able to take trigonometry--some children take 
only algebra--what we have often done is have some of the 
children take very easy tests at the high school level, or 
algebra 1, and have other children take trigonometry tests to 
show subject area proficiency.
    One of the things that we did in our reg-neg process is we 
said that we must begin to hold all of our high school students 
to high standards, to a body of knowledge that we assume that 
all of them have to have in order to graduate high school.
    Mr. Regula. The question is how to. It's going to really 
depend a lot on the leadership in the individual schools as to 
what the superintendent, the principal, the teachers require of 
students.
    Ms. Neuman. I agree.
    Mr. Regula. I don't know that we can statutorily mandate 
that.
    Ms. Neuman. Well, one of the things we're beginning to do 
is use NAEP as a measure to look at whether those States are 
proficient in terms of national NAEP as well as proficiency in 
terms of other States. We'll begin to look at the gap between 
what we know is high-level proficiency and proficiency 
according to State standards. That will hopefully encourage 
States to review their standards to ensure high standards for 
all children.
    The other thing, of course, is that with highlyqualified 
teachers, the teachers will be able to deliver more high-
quality materials to our students. That's very much needed.
    Mr. Regula. One thing that concerns me greatly is the 
dropout rate. Because you're talking about the importance of 
having post-high school opportunities. But when you have a 
dropout rate as we do in Ohio for the major cities, the inner 
city type, of 50 percent, you're losing a lot of these kids 
that will never get to this stage.
    Ms. Neuman. Right. I believe that one of the key reasons we 
are losing many of our students is they are not getting a sense 
of progress in quality instruction. When our students stay in 
school and our teachers stay in schools in high-poverty areas, 
we feel we're making progress. And our accountability 
mechanisms will allow teachers to see their progress, will 
allow high school students to see their progress, and we'll 
begin to intervene more appropriately than we have in the past, 
so that we can ensure all children receive the highest-quality 
instruction.

                NEED FOR ``SEAMLESS'' EDUCATION SYSTEMS

    Mr. Regula. I was at an Aspen conference in Phoenix on 
education. The word that I heard repeatedly was ``seamless'', 
we should make our system seamless. Now it's sort of a 
benchmark to get through the eighth grade, that's a plateau. 
Then if you get through high school, it's another plateau--if. 
And I guess the thrust of what these people who were speaking 
to us were saying, we have to say to the first grader, you 
should think in terms of going through college.
    Ms. Neuman. Exactly.
    Mr. Regula. That it's a progressive, seamless pattern 
rather than a series of plateaus.
    Ms. Neuman. That's right.
    Mr. Regula. I've heard that term used, ``seamless,'' this 
morning. Or at least I think I did. Are you working in 
thatdirection? Because this is part of all the things you're talking 
about.
    Ms. D'Amico. Mr. Chairman, that's a big effort on our part, 
since we have responsibility for high schools, community 
colleges and to try to ease that transition between high 
schools and college.
    Mr. Regula. Right.
    Ms. D'Amico. We're talking to community college people 
about how do you articulate, what academic expectations do you 
need in our colleges to be successful, to communicate that to 
high schools and try to get a seamless system of expectations 
and assessments. So it's one of the priorities we have as we 
look toward the reauthorization of our programs.
    Mr. Pasternack. One of the problems we face in the world of 
serving students with disabilities, regarding the word you 
used, ``seamless,'' is the fact that we have an entitlement to 
free and appropriate public education under the IDEA. But that 
changes to an eligibility system under the voc-rehab world.
    So parents have difficulty navigating the differences 
between those two systems. So through the funding that you 
provide to us through Part D, where we fund parent training and 
information centers, we're trying to help educate parents about 
the differences. Because it really is two very different sets 
of criteria determining how to get services, what services are 
available, parents oftentimes have difficulty navigating the 
differences between those two systems.
    That's where having teachers who really understand labor, 
and understand the one stops and the ticket to work and all 
these other wonderful Federal programs which are available to 
help people with disabilities, becomes critically important in 
our efforts to have this seamless service system.

                           RELEVANT EDUCATION

    And real quickly, Mr. Chairman, you asked about effective 
models. I see one of my friends from Miami here. In going to 
Miami, what we saw there is an example, another word that 
you're going to hear a lot about is ``relevance.'' A lot of 
kids are dropping out of school because they don't feel that 
the education that they're receiving is relevant. You mentioned 
kids in inner cities particularly.
    Models where you can provide entrepreneurship activities, 
where kids, through starting student based businesses, as an 
example, see that they have to learn how to read, they have to 
learn how to write, they have to learn how to speak, work 
together, and solve problems--all of those skills that are 
required in order to be able to start a business--that's 
something that's meaningful and relevant and that kids can 
relate to.
    In Miami, kids with disabilities were actually placed at a 
hospital where they were doing the transition of students, 
basically saying, these are skills that you need in order to 
work in the health care business, and the health care 
profession needs people. Then, by showing them the relevance of 
those skills, by actually placing them on the job in a hospital 
setting, they really understood concretely why it's important 
for them to stay in school and learn the kinds of skills that 
the teachers are working so hard to be able to teach them. 
We're trying to spread the word about the effectiveness of that 
model to other programs around the country to get it 
replicated.

            FUNDS FOR HIGH SCHOOLS AND TECHNICAL INSTITUTES

    Mr. Regula. Well, I have a number of other questions, just 
one more. I understand that in the vocational education State 
grants program, the decision of how to distribute Federal funds 
is left to the State. Most States send the majority of funding 
to high schools rather than technical institutes. I know that's 
true in Ohio. And I've urged the State superintendent to take a 
second look at that. And maybe we ought to break this down, 
because you've been talking about community colleges at length 
and technical schools.
    Yet our programs seemingly don't reach those to any great 
extent. Because most State departments of education are geared 
to the 12 year program. So the natural inclination of that 
State board of education, and I served on a State board, and we 
thought in terms of vocational programs in the high school. So 
the technical institutes are somewhat a new phenomena in our 
structure for education. But they're not getting much of this 
money.
    What's your response to that, and do you have suggestions 
as to how we might equalize this? Because I hear you all saying 
that post-high school is extremely important.
    Ms. D'Amico. It is true that under the vocational 
legislation, the eligible agency technically decides where the 
money goes. About sixty percent of the money across the country 
goes to secondary high school programs and about 40 percent 
goes to postsecondary, mostly community colleges.
    Mr. Regula. Sixty-forty.
    Ms. D'Amico. Sixty-forty. In 13 States including Guam, 50 
percent or more of the money goes to postsecondary.
    It's tradition, it's grown up that way. During 
reauthorization, I would suppose it's a fair question to ask 
whether that's the appropriate mix, given the nature of our 
economy, the demands of the work force. But we are looking for 
ways within the current law to connect the secondary and the 
postsecondary programs more closely than they've been connected 
in the past in many places. So even within the current law, we 
are trying to encourage models that connect high schools and 
postsecondary, so that we break down these silos of programs.
    Mr. Regula. Do you think we should earmark?
    Ms. D'Amico. I think we should talk during the 
reauthorization about the appropriate balance between the two. 
[Laughter.]
    Mr. Regula. I think that's punting and passing it off.
    Ms. D'Amico. I've been in Washington for seven months, so 
I'm trying----
    [Laughter.]
    Mr. Regula. Our technical institute runs a sort of a co-op 
program with the vocational schools, where these students can 
get some credit in their vocational toward their technical 
program, to hopefully attract them to think in terms of going 
on to the technical school and regarding the vocational 
programs as a foundation or base for the post-high school 
program. But the way it's structured now, it's obvious that the 
tilt is in favor of the vocational school in the distribution 
of funds. It's an historic pattern.
    Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman.

                       ACCOUNTABILITY CHALLENGES

    It seems to me if we're going to be pushing all this 
accountability on the schools and trying to measure the 
progress of kids, so that we can identify which ones needhelp 
and we can have that ``seamless'' system, that we could have a 
universal identifier for kids in our schools, so that we can do the 
disaggregation that's necessary to find out whether this Title I 
program is working or whether we can track minority kids and so forth.
    But right now, we don't have that, and it's going to be 
hard to hold, a lot of the folks in the education system in my 
State are saying that they're happy to be held accountable, but 
they want to be held accountable for what they're responsible 
for. They don't want to be held accountable for something 
they're not responsible for.
    And if you've got this high risk population that's kind of 
transient and moving from school to school to town to town 
because their parents are looking for affordable housing, and 
they're being kicked out of these homes, you can't track these 
kids. You can't track what's going on for them after school, if 
they've got social services attached with them, if their family 
is in distress. No one is talking to anyone else in their 
system. If you're going to have a seamless approach, you've got 
to have more transparency. It doesn't seem as if there's enough 
transparency so that we can measure the information that we're 
getting in different populations of kids as they're going 
through the school system.
    So maybe you could all take a crack at what we're going to 
do to help our States put together the software, hardware, 
whatever it's going to take, for us to measure these kids so 
that we're not measuring these kids on things that schools 
shouldn't be held accountable for. If you're going to penalize 
these schools for these kids not rising to the level, that's 
tough stuff, if you're not measuring where they've come from 
and where they're going. Maybe you could comment on that.

                            DATA MANAGEMENT

    Ms. Neuman. I'll just start, and maybe you would like to 
add about the full service.
    But one of the initiatives in the Education Department is 
the data management system. I think you raise a very important 
point, because as this becomes more visible, and the States are 
required not only to report the numbers of schools that are in 
school improvement, but also the names of the schools in school 
improvement, we really need to make sure that the data 
management is accurate.
    Mr. Kennedy. Right.
    Ms. Neuman. There are many States that are ready for that. 
There are others that are lagging behind. One of the 
initiatives that we have in the Education Department starting 
this year is a better data management system, which will 
release burden from many of our States, because it will create 
a system in which they can input their data and it's visible to 
all.
    Mr. Kennedy. Good.

                     ASSESSMENT AND ACCOUNTABILITY

    Ms. Neuman. The other thing I would just like to add is, 
one of the key things that we recognized when we first came 
into office is the issue of alignment. We cannot demand that 
our children know something if in fact the assessment and the 
content standards are not aligned.
    The assessments in our schools have to measure the content 
that is being taught by our teachers. We have a very rigorous 
set of alignment studies that States are required to pass 
before their assessment systems are approved. So I think we're 
moving in the right direction.

             ACCOUNTABILITY FOR CHILDREN WITH DISABILITIES

    Mr. Pasternack. I'll quickly just add that for too long, as 
you know, Mr. Kennedy, too many kids with disabilities have not 
been included in accountability systems, and have not been 
included in assessment systems. One of the things that we've 
been doing with States is help build their capacity to 
understand the kinds of accommodations that should be offered 
to students with disabilities in order to include them in State 
and district mandated tests.
    We also, as you know, have a requirement for alternate 
assessment for that small percentage of students with 
significant disabilities who can't participate in State and 
district mandated tests, even with appropriate accommodations. 
These are the very significantly disabled kids, kids with 
autism in some instances, kids with significant cognitive 
disabilities who really require a different approach to 
assessment.
    One of the things that we're really encouraged by and that 
is so critical to H.R. 1 is this notion of adequate yearly 
progress. For too long, we haven't expected that kids with 
disabilities should make adequate yearly progress. We've got to 
demand that all kids make progress, particularly kids with 
disabilities.
    We're working with States through our Research to Practice 
division, through the Part D investments that we make. The 
National Center on Education Outcomes at the University of 
Minnesota does an outstanding job of helping us disaggregate 
the data, analyze how States are doing, so that we can then 
work with States to improve their performance and thereby 
improve the performance of kids with disabilities.
    But you and I both know that what gets measured gets done. 
If we're not measuring these things, then we're not going to 
really be able to observe and define and track how well these 
kids do as a result of receiving the high quality services that 
they have a right to expect to receive.

                       TRACKING STUDENT PROGRESS

    Mr. Kennedy. If I could follow up on that, how do we 
actually track a student, particular student A, John Doe in 
Woonsocket, if his family is moving from Woonsocket to 
Pawtucket and then to Providence and back up to Woonsocket? How 
do you, where is our data management that allows us to know 
that he needs special services or if he's doing well on this, 
so that we can measure how we're progressing with that student. 
Not disabled populations in general, and Title I in general or 
IDEA in general, but specifically that student. That's what I'm 
looking for.
    Mr. Whitehurst. If I could, we have a significant 
investment, in the Office of Educational Research and 
Improvement, in developing systems that can provide the sort of 
information on student progress that schools and State systems 
need. We had a conference here in the Department probably in 
November, focused on value added assessment and what sort of 
assessment systems each State would need to be able to track a 
child as a child moves from grade to grade and from school to 
school. Many children do move around. Some States have the 
ability to track them. They assign an identifier to the child.
    Mr. Kennedy. That's what I'm talking about. That's exactly 
what I'm talking about. I think we need an identifier so that 
we can track individual students through the system. Because 
we're going to be disaggregating amongst a lot of different 
groups, disaggregating on different scores, different kids and 
tracking what works and what doesn't. If you don't have the 
information, you're nevergoing to be able to track it. To think 
that we're not helping our States to implement that tracking system 
with the universal identifier for kids, not only in our education 
system, but since a lot of these kids come from distressed backgrounds, 
their families are often in Federal programs and correctional programs 
and substance abuse and mental health programs.
    What are we doing to make sure that we track those kids, in 
the context of what their family is going through?
    Mr. Whitehurst. Just understand that is a State issue. We 
don't do that at the national level. But, we are doing 
everything we can to provide States who want to do this--and 
many who are not currently are certainly are going to want to 
do it--with the knowledge and the technology and the design 
that would let them put such a system in place.
    Mr. Kennedy. And the money? [Laughter.]
    Mr. Whitehurst. Well, again, we do have a significant 
investment in all this.
    Mr. Kennedy. My State is interested in doing this. I'd like 
to know from you all where they go to help get not only 
technical support, because we need to ensure privacy for these 
kids, but the financial support, so we can set up the 
infrastructure and so that Rhode Island can be accountable for 
H.R. 1.
    Ms. Neuman. Right. We have about six States that currently 
have individual identifiers. We're also working on a project 
for our migrant children, which is one population which is 
particularly an issue. Because we have to track these 
individual students. So that is underway.
    But as Russ clearly said, it's a State responsibility. We 
are working with States, and as you know, we have competitive 
grants for additional monies in assessment to ensure, and that 
can be one of the things that the State will choose to do. But 
again, the State must make the decision. We may set the goal. 
How the State achieves that goal is up to the State. So it 
might be something that you choose to do.
    Mr. Pasternack. I know time is of the essence, but just 
very quickly, in special education, as you know, there is an 
individualized education program developed for the kid.
    Mr. Kennedy. Right.
    Mr. Pasternack. Part of the challenge, getting back to what 
we talked about yesterday, is that we've got to have the 
personnel trained to be able to monitor the progress that these 
kids are making. Because one of the things that you all hear 
and one of the things that I've heard from too many parents 
across the country is that they're frustrated by the fact that 
their children with disabilities are not making the kind of 
progress that they would like to see their children making.
    Part of the reason that's not happening is we don't have 
teachers trained on how to do progress monitoring, to basically 
go in every day and measure the impact of instruction, so that 
you can graph and plot. This requires just paper and pencil, 
this is not high technology. But it's a matter of having the 
highly qualified people with the right kinds of skills to be 
able to deliver those scientifically based instructional 
strategies, so we can get at the individual progress that kids 
are making.
    Mr. Kennedy. Well, that was my real interest. I'd be 
interested if all of you can give me more information in that 
regard. In my State, Peter McWalters is very interested in 
that. I would just submit some questions for the record, Mr. 
Chairman, on Even Start and family literacy.
    Mr. Kennedy. I know my friend and colleague, Mr. Peterson, 
is going to delve into vocational education. And I support that 
effort that he is making, and I am working on that. But I'd 
like to just have you comment on the adult literacy being a 
stepchild of voc ed. Voc ed is not high enough, but adult 
literacy certainly isn't even meeting----
    Mr. Regula. Let's reserve that one for the second round.
    Mr. Kennedy. Okay.
    Mr. Regula. Mr. Peterson.

                        EDUCATION AND EMPLOYMENT

    Mr. Peterson. Good morning. I guess I'd like to ask the 
group first, does the Department of Education evaluate what 
jobs are not being filled in this country, what jobs are 
begging? There's a long list of jobs they cannot fill. I meet 
with employers, and I'm in a devastated economy. But in a good 
economy in parts of this country, there are long list of people 
they cannot hire. Do we look at that as a department and do we 
change our focus?
    Ms. D'Amico. Well, certainly in our Office of Vocational 
and Adult Education, we must be mindful of what the economy 
looks like, because our role is to prepare young adults and 
adults for the economy. The Department of Labor has excellent 
resources as does its Bureau of Labor Statistics, regarding the 
jobs of the future. Of course, we monitor that quite closely. 
The resources of the Department of Labor and Bureau of Labor 
Statistics are excellent. I've used them in my past life as a 
researcher and as a dean of a community college, and I count on 
them now.
    Mr. Peterson. Every list I look at, the word technology is 
there. Those are the jobs that we cannot fill. We're not short 
of masters degrees. We're not short of doctors degrees in this 
country. We're not short of bachelors degrees. But we're 
focused on more of them. And I don't understand that. Sure, 
theoretically, I used to have these arguments with Mr. Riley 
when he was Secretary, he said everybody should get an academic 
four year education and then build their life.
    Theoretically, I agree with that. But that doesn't work. 
Poor kids who come from families who don't value education 
don't even think about an academic education. The ladder for 
them to climb is not there.
    And so we're going to continue to build prisons in this 
country for poor kids who don't have an education and who don't 
have skills to fill jobs that are begging. I guess that's the 
frustration I have year after year. And I'm not blaming you. My 
anger isn't at you. But year after year, we have flat funded 
technical education. Two percent of the Federal budget is 
allocated to technical education. And that's where all the 
millions of unfilled jobs are.
    How do we rationalize that? How do we, at the end of the 
table, those that need special help, the technical system 
iswhere they're dependent. But how does a billion dollars, a billion 
three, spread not just in high schools, I mean, that's inadequate for 
high schools, but that's spread between community colleges and high 
school. That's like spitting in the wind, in my view.
    I mean, I think there's a disconnect. There are States that 
have figured it out. And I have visited some of those. There 
are States that have figured it out. And they're growing, and 
they're adding Congressmen. And the States that haven't are 
losing Congressmen, like my State, who are all academically 
oriented.
    Now, I'm not against academics. I represent some very fine 
institutions, Penn State, Bucknell, they're in my district and 
a lot of other colleges. I shouldn't have named any, because I 
didn't name them all. But I guess what frightens me is--I'm 
going to tell you the story of Johnny, who dropped out of 
school in ninth grade. He has literacy problems. But Johnny 
worked in a sawmill for a number of years, stacking lumber, one 
of the few labor jobs left.
    He's a good worker, so they now have him running a little 
calculator, inventorying lumber. I got him in a literacy 
program, and I said, Johnny, when you get out of that literacy 
program and you're ready to get your GED, let me know. Do you 
know what he said to me about my own area? He said, I've got to 
get some education so I can get out of here. Nobody's going 
anywhere here. That's where I live. He lives down the street 
from me. Nobody's going anywhere here.

                      NEED FOR TECHNICAL EDUCATION

    We don't have technical classrooms in this country. The 
number one concern of the health care industry, over and above 
Medicare and Medicaid reimbursement, which is huge, is being 
able to employ people. We don't have schools to fill those 
jobs. Those are pretty simple. All the technicians in a 
hospital. As a country, we've got to be about providing people, 
because if we don't, we're going to fill some jobs with 
increased immigration, and we're going to continue to export 
all manufacturing and processing to foreign lands. That's where 
we're headed.
    And I just plain see us not getting off the dime. I guess 
I'm hoping to inspire this Administration, in their No Child 
Left Behind, build a ladder that any child can get on. And I 
want to tell you, it's not more academic money. Every high 
school student should be able to, Microsoft, or what's the 
other program, Microsoft or Cisco, how many high schools have 
that? A few. That's where it's at. Eighty some percent of the 
jobs I read are going to be IT related. Are we ready for that? 
No, we're not ready for that. We're not even beginning to be 
ready for that, in my book.
    So I've said enough, I guess I'd like to hear from some of 
you.
    Ms. D'Amico. Well, I'd like to respond, because I think we 
are in agreement about the importance of filling those jobs. In 
my testimony, I talked about the Bureau of Labor Statistics, 
which I happen to rely on, that says that 70 percent of the top 
30 fastest growing jobs are in IT and health professions. They 
will require some kind of post-high school training and 
education, but not necessarily a bachelor's degree. In fact, 
only about 20 percent of the jobs in the new economy will 
require the traditional bachelor's degree.

                       SKILLS FOR THE NEW ECONOMY

    So we do have to prepare young people for some kind of 
training beyond high school to participate in this new economy. 
But, that doesn't mean the traditional bachelor's degree. 
What's happening now, Mr. Peterson, unfortunately, is that too 
many of those young people are coming out of school unprepared 
not only for their postsecondary education but also unprepared 
to participate in any kind of training after high school.
    When I talk to technicians, to health care professionals, 
to the Farm Bureau, to the construction industry I ask what do 
people need to succeed in your area? I hear very common 
expectations. They need to know how to read, they need a level 
of math that they never had before, and they need to be 
technologically literate. But unfortunately, many of our high 
school programs are not providing that high level of literacy 
so that they can participate in this new economy.
    We have to increase the rigor of these programs, so that 
students are prepared for the jobs out there in the new 
economy.

                 CHOICE FOR CHILDREN WITH DISABILITIES

    Mr. Pasternack. When it comes to students with 
disabilities, Mr. Peterson, one of the things that we're very 
concerned about is that they be able to make choices. And that 
they need to choose from an array of options which are made 
available to them by implementing the transition requirements 
that are currently in the IDEA.
    One of the things I'd like to point out to you and your 
colleagues is that the Secretary has two senior advisor 
positions that he can appoint out of the 5,000 employees in the 
U.S. Department of Education. One of those, Judge Eric Andell, 
is advising the Secretary of the Department of Education on 
juvenile justice, mental health and safe and drug free schools. 
This Secretary understands the issue that you raised earlier, 
that if we don't educate kids and they don't get a high school 
diploma, there's an increased likelihood that they're going to 
wind up in our juvenile justice system or in our mental health 
system.
    And that's the system failing the kid, that's not the kid 
failing. So we've absolutely got to do a better job of meeting 
the needs of all those kids. That's one of the things we're 
trying to do. But, one of the challenges that we face is making 
sure that the teachers have the skills to be able to teach the 
diversity of kids that they find in their classrooms across 
this country. This shows up in no more problematic area than in 
the area of kids with disabilities who receive special 
education.

                      TRAINING FOR HIGH-SKILL JOBS

    Mr. Peterson. Let's assume that half the schools get it. 
But do they understand where the jobs are? Do guidance 
counselors know where the jobs are? You have that information. 
But isn't that information that ought to be down to every 
guidance counselor and every superintendent of where the jobs 
are in this country? I find out they have no idea where the 
jobs are. They're on the same track that the schools have been 
on for the last three decades, and it's technology, and they 
don't understand that.
    So they're not telling kids to get into IT. How long has IT 
been here? This is not new stuff. But we're not training people 
for it. Every company I talk to can't hire top technicians. 
They can't hire them. If they have them, people steal them. 
Departments here can't hire them. They get a good one, somebody 
hears about it, one of the big companies steals them. When are 
we going to realize? And2 percent of our investment going into 
technical education? That's nothing.
    What I find in schools, they tell me they don't build 
technical classrooms, because it costs more than books. So 
they're going to teach books as long as they don't have money 
to build a technical center. Shouldn't we as a Federal focus be 
helping them develop the classrooms that are necessary for 
today for the health care workers, for the IT workers and for 
the manufacturing? If we continue to neglect manufacturing, 
we're not going to have any.
    Manufacturing can compete if they're using the latest 
technology. I tour manufacturing plants every month in my 
district. Those that are prospering are using very high skilled 
technical operations. Low labor, but they're selling in a 
global marketplace and they hire lots of people. But it's all 
through IT and robots and a very sophisticated manufacturing 
process.
    But those that aren't doing that and don't understand that, 
those jobs are going offshore. I want to tell you, I don't 
think this country gets it. We're going to continue to export 
our best jobs, we're going to continue to maximize immigration 
to fill the high tech jobs, because the other countries are 
teaching high tech better than we are.

                  SKILLS NECESSARY FOR TECHNICAL JOBS

    Mr. Whitehurst. Mr. Peterson, I'm responsible for the 
research office in the Department. My testimony highlighted our 
concern with the low levels of math and science performance 
among our high school students, particularly among students 
from low income backgrounds who simply are not prepared for the 
sorts of jobs that you're talking about.
    So, part of our budget request for next year would fund a 
significant investment in research on reading comprehension and 
math education, focused on providing students the sort of 
foundation skills that are necessary for the type of technical 
training that you're talking about.
    Kids who cannot do algebra, kids who can't do basic math, 
children 13, and 14 years old who cannot read and understand 
what they have read, simply cannot go to one of the classrooms 
that you're talking about and pick up the skills they need to 
get a good job. We think it's tremendously important to 
understand what we need to do to provide kids entering high 
school with the foundation skills they need to participate in a 
technical economy. And, then, certainly the issues you raise 
about the technical education itself are terribly important, as 
well.
    Mr. Peterson. I'd like to make one point. I think some 
basic technical education in every school helps lower the 
dropout rate. Because kids do something they become good at, 
they do something with their hands. Then they begin to learn 
that they need to read and they need some math if they're going 
to get the next job. So I think sometimes we don't look at 
technical education as to hold kids in school.
    We have about 25 percent of the population, because of how 
they're being raised, they're actually growing up almost on the 
streets. They have a home to sleep in, but they're growing up 
on the streets and they don't have much guidance. Nobody has 
taught them the value of education. We think the family is 
responsible. But there is not a true family in about that many 
cases.
    Now, you give those people something they can do with their 
hands and they become good at it, and it's like, I suddenly 
have succeeded at something. Then it turns on the academic 
side, I think. I think sometimes we put the technical out at 
the end. It should be at the beginning to give these kids 
something to do that makes sense, they can relate to. Later on, 
they'll want an academic education, when they become good at 
something, when they do something for the first time in their 
life that they're good at, they're able to compete, they're 
competitive.
    I guess I'm just deeply concerned. If we don't put money 
there, we aren't going there. We can talk, we can talk and we 
can talk. Until we put money there into technical education, 
we're not doing it, we're not going to drive it.

                      EARLY EMPHASIS ON ACADEMICS

    Ms. Neuman. However, I think we're putting money in exactly 
where we need to put the money, and that's the emphasis on 
reading first. There's a popular hypothesis that many academics 
talk about, it's called the rich get richer and the poor get 
poorer, or the Matthew effect. The Matthew effect assumes a 
basic, very basic hypothesis, which is, a child who begins 
behind and stays behind is a first child who's going to drop 
out, who's a child who cannot read, who is a child who fears 
failure and so many of these negative consequences come about.
    But that child who comes into school that has a strong 
academic program, who learns how to read, who learns math, 
begins to feel efficacious and in feeling efficacious enjoys 
what he or she is doing and therefore wants to learn and wants 
to learn more, stays in school, gets good jobs, etc.
    So I think one of the things that we're saying with the 
President's budget, and the $1 billion devoted to Reading 
First, suggests that we know that when children understand 
these basics, then the world opens up to them. It's not just 
one job. For example, in the IT world, we're seeing a decrease 
in some of the jobs. But those children who can read can then 
go from job to job in different markets.
    So I think one of our purposes is to ensure that children 
have a strong foundation, so that by the time they get to high 
school they're very powerful in terms of their learning.
    Mr. Peterson. And I agree with you, nothing's more 
important than reading, nothing. But if they get reading skills 
and there's no technology programs available for them, they 
cannot prepare themselves to fill the jobs that are out there. 
I mean, I don't care how well they read. If they don't have the 
technical skills, it's more than reading, you have to then have 
the technical skills. And what I'm saying is, every billion we 
invest in reading, we ought to invest another billion in 
technical classrooms. Then we're preparing them for the 
opportunities that are out there, to fill the jobs that are 
begging.

                   ALIGNING EDUCATION AND EMPLOYMENT

    Ms. D'Amico. Mr. Peterson, I share your concern that we 
prepare young people for the jobs that are in demand. I think 
during the reauthorization, I would very much like to work with 
you to see how we can construct the law so that we are focusing 
our resources on jobs that are in demand, jobs of sufficient 
rigor, jobs that aren't dead end, and that we are actually 
providing young adults and adults with a real future. I think 
we've got an opportunity to do that.
    Mr. Regula. There's the real challenge.
    Mr. Peterson. Yes. Would you furnish me a document that's 
simple and readable, easily readable, of where the jobs are? 
Would you give me a document that we can share with our 
schools? I don't think they get it. I have a few 
superintendents who get it. Most of them don't get it.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Pasternack. There's also technology available, Mr. 
Peterson, things like the guidance information system, where 
through an online model, guidance counselors can help kidsfind 
a job. It's got all the jobs in the dictionary of occupational titles, 
it talks about where training is available, talks about the 
characteristics of those jobs, so you can do an aptitude and an 
interest survey with the kid who tells you they don't know what they 
want to do and help them through this technology that's available to 
find jobs and training to be able to get those jobs.
    I very quickly also want to point out to you that one of 
the things we've learned that's very interesting is that money 
is necessary but not sufficient to some of the things that 
we're talking about here today. One of the reasons why people 
lose jobs is because they don't have the social skills to be 
able to keep the jobs once they find the jobs. They don't know 
how to work as a team, they don't know how to communicate 
effectively, they don't know how to solve problems, they don't 
know how to ask for help when they need it, they don't know how 
to express a complaint.
    Those are things that can be taught that don't require 
large investments of new dollars. They require that teachers 
understand that those are critically important skills for kids 
to have. And those things can be delivered in classrooms that 
are not filled with technology and filled with equipment. It's 
just a matter of approaching it differently, understanding the 
importance of teaching kids those skills.
    Mr. Peterson. I think normally we depended on the family 
for that. But we have to realize that 25 percent of the kids 
have families that aren't teaching them that. Somebody is going 
to have to teach them that. Those are basically skills my 
parents taught me.
    Mr. Regula. We're going to have a vote soon. I want to give 
Mr. Jackson an opportunity before we have to go to vote.
    Mr. Jackson. Thank you, Mr. Chairman.

                     TECHNICAL AMENDMENT FOR GEARUP

    I want to start by thanking all of the assistant 
secretaries from the Department of Education for being here 
today and for their testimony. I have two questions of 
Secretary Stroup and one of Secretary Whitehurst.
    Secretary Stroup, in the last Congress, the House approved 
a package of technical amendments to the Higher Education Act 
that would have extended from five years to six years GEAR-UP 
grants to both States and partnerships. This technical 
correction would ensure that GEAR-UP grants are of sufficient 
duration to provide college awareness and early intervention 
services to an entire cohort of low income students from the 
7th grade through roughly the 12th grade.
    I'm wondering, first, do you support this change, and do 
you think it will be necessary to make this technical 
correction prior to the next reauthorization of the Higher 
Education Act? I hope you will discuss with us relevant time 
considerations and any potential program funding implications.
    Ms. Stroup. Congressman Jackson, I don't know that I can 
answer that in detail, but I can certainly get back to you on 
it.
    I think, we actually don't even need to do it, because I 
think we've made some adjustments already to make sure that 
we're covering the cohorts of students that are coming through. 
But I will have to go back and verify that and make sure that 
it's working the way I think it is. I know the technical 
amendment you're speaking of. I think it is a moot issue at 
this time. The House bill included it. But I have to go back 
and find out for you.
    Mr. Jackson. I wish you'd get back to me on that.
    [The information follows:]

            Technical Amendments to the Higher Education Act

    The Department has not submitted a package of technical 
amendments to the Higher Education Act since the current 
Administration took office. We are providing drafting 
assistance to the authorizing committee on a package of 
technical amendments based on Congressman McKeon's Fed Up 
initiative. As part of that initiative, the House Education and 
the Workforce Committee solicited comments on the Higher 
Education Act and its implementing regulations. The committee 
did not receive any comments on the issue you raised. From the 
Department's prospective, we felt that this change could wait 
until the Higher Education Act is reauthorized next year. We 
will, however, take a look at this issue again to determine if 
this issue should be addressed sooner.

              FY 2003 BUDGET FOR HIGHER EDUCATION PROGRAMS

    Mr. Jackson. Also, Assistant Secretary, in a recent poll, 
88 percent of the American public agreed that Federal spending 
on higher education must be increased, so that students from 
low income communities may have equal access to the 
opportunities that education provides. It is my belief that 
that includes providing additional resources for TRIO. Yet, the 
Department has chosen to level fund this program, the Pell 
Grant maximum award, and most other higher education programs.
    I'm wondering how you plan to help low income high school 
students prepare for and complete a postsecondary education so 
that they may have equal access to the opportunities that 
education provides when you've level funded programs like TRIO, 
SEOG and the maximum Pell Grant award.
    Ms. Stroup. Let me start with Pell Grants. You're right, 
the budget proposal keeps the Pell Grant maximum at $4,000, but 
at the same time about 55,000 more kids are actually going to 
get a Pell Grant come next year. So we're expanding the pool of 
students while keeping the maximum award at the $4,000.
    If somebody finds extra money, to cover the shortfall 
problem we have we can have a different conversation. Somewhere 
along the way, we have to find enough money to fund the $4,000. 
That is my first concern, because the $1.3 billion shortfall 
needs to be covered, or we're going to run out of money at some 
point in time in making the Pell Grant awards.

                            TRIO AND GEARUP

    On TRIO and GEARUP, you're right, we've level funded both 
of those. The Administration strongly supports those programs. 
I think the issue we have right now is, those two programs have 
been in a competitive mode. We've heard some people say 
negative things about both programs. We're hoping that people 
get away from that. We support both programs. What we're trying 
to do now, though, is do a real evaluation of both programs. 
GEARUP is too new. We don't have any real data yet. We have 
baseline, but not what's happening data.
    We had a report come out on one of the TRIO programs that 
said it was, in fact, ineffective. Part of it maybe was 
ineffective, but another part of it was effective. It's a 
matter of figuring out which of these parts really work and 
target the money to those things. Because what we don't want to 
do is waste the money. So that's really the first priority we 
started with.
    So we want to look at those evaluations that are going to 
come out soon and figure out what we need to do to actually 
target the money where it should go, to serve the most students 
we can, and make those proposals part of the higher education 
reauthorization which is coming up. Once we have done that, we 
can look at which programs should get more money. Because 
again, right now, they're in a competitive mode, and that 
causes us problems, I think, on the funding side.
    Mr. Jackson. I appreciate your answer. I have one other 
question of Secretary Whitehurst. I don't know what your 
experience is with the TRIO program before becoming Assistant 
Secretary or the SEOG or the Pell Grant program. Would you like 
to share with the Committee what your personal experiences were 
with these programs before becoming Assistant Secretary?
    Ms. Stroup. My personal experience is that I helped write 
most of the amendments to the Higher Education Act of 1998. So 
I'm really familiar with the programs. I haven't actually 
gotten any of those benefits. I only had student loans in my 
background. I had to borrow student loans to go to school. I 
didn't qualify for a Pell Grant.
    But I'm familiar with those programs, I've seen them in 
operation. I've been to the schools, and colleges that operate 
the programs. So personally, I'm a huge fan of the Pell Grant.
    Mr. Jackson. Thank you, Madam Secretary.

                              HBCU FUNDING

    Secretary Whitehurst, the Department's Office of 
Educational Research and Improvement supports research, data 
collection, and analysis activities in the assessment of 
student progress. With so much focus on improving the 
achievement of disadvantaged and minority students, one would 
logically seek to collaborate with those educators and 
researchers with proven track records in the education that 
this population of students concerns.
    I can think of no better partner for the Federal Government 
to work with in this area, than our Nation's historically black 
colleges and universities. Can you tell me how much of your 
agency's funding goes to HBCUs for research, data collection 
and analysis activities and the assessment of student progress?
    Mr. Whitehurst. I can't give you that precise figure. I'd 
be glad to get back to you on that. One of our principal 
centers, CRESPAR, is colocated at Johns Hopkins and at Howard 
University here in Washington, D.C. I'm not sure what 
proportion of our other grant money goes to historically black 
colleges, but I can certainly check and let you know.
    [The information follows:]

                         HBCU Research Funding

    In fiscal year 2001, Howard University, a partner with 
Johns Hopkins University in the Center of Research on Students 
Placed at Risk (CRESPAR) grant, received $2.31 million for its 
research activities. No other research, data collection and 
analysis, or assessment funding under the Office of Educational 
Research and Improvement went to historically Black Colleges 
and Universities (HBCUs).

    Mr. Jackson. Other than the center you mentioned at Howard 
in partnership with Johns Hopkins, are you aware of any other 
centers that exist on the campuses of any other HBCUs?
    Mr. Whitehurst. No, we have no other center on the campus 
of an historically black college or university.
    Mr. Jackson. Mr. Chairman, I have a number of questions 
that I want to submit for the record, in light of our vote. I 
would really appreciate it if the questions that I do submit 
for the record, promptly receive written responses. Thank you, 
Mr. Chairman.
    Mr. Regula. Can you respond to questions in two weeks? And 
we'll see that you get a copy as soon as they get back.
    Mr. Jackson. I appreciate that, Mr. Chairman.
    Mr. Regula. We've got a couple of minutes, if there's 
anything else you really want to get at.
    Mr. Jackson. No, nothing that I could cover in a couple of 
minutes, sir.
    Mr. Regula. Well, we'll get your questions submitted.
    We have a vote on. I have some more questions, if the 
panel, can you wait? Are any of you on a tight time schedule?
    Okay. We have probably two votes. Do you have anything you 
want to still get in?

                     WORKFORCE SUPPLY VERSUS DEMAND

    Mr. Peterson. I think I caused enough damage. I am 
passionate about the issue. I'd love to sit down with any one 
of you that are interested. I think we have to crank it up. I 
don't think the country realizes what's happening. That's my 
view. I interview employers every month that can't hire the 
people, in an area with high unemployment, cannot hire the 
people they need, they're not there.
    I don't know of anybody's son that says they want to be a 
mechanic or a plumber or an electrician. They're begging for 
them. They're good jobs. This country is in a disconnect. I 
don't know where we're going, but I want to tell you, we're not 
going to have anybody to fix anything, build anything. I'm 
told, on the sea coast, we're already using mostly immigrants 
to construct. That's outrageous, that our kids go without jobs, 
sit in prisons because they have no usable skills. We're 
bringing in immigrants to do the work that's good paying jobs. 
Everybody can't run the company.
    Ms. D'Amico. I find your passion encouraging. I will look 
forward to working with you on the reauthorization of 
vocational education so that we can make sure these programs 
are directed toward building the economy and the work force.
    Mr. Peterson. I'd be glad to go to Mitch Daniels with you 
and get some money in the pot, too, if you'll join me there. 
[Laughter.]
    Mr. Peterson. But we won't do it without money.
    Mr. Regula. Take a minute on your Georgia experience, Mr. 
Peterson.

                   STATE TECHNICAL EDUCATION SYSTEMS

    Mr. Peterson. I just went down to Georgia and looked at 
their technical program. I came home sick in comparing it to my 
State. They're growing, it's why some of these States are 
growing. They have 34 technical colleges. They have 17 branches 
and 4 other schools that have technical divisions. Then they 
have a program called Quick Start that builds on that, and any 
company that will grow or expand in Georgia gets their people 
trained through these schools free. The cost of this technical 
education is $30 a credit. My State could never do that.
    And they think it's cheaper than it should be. But you lose 
your job in Georgia and in North Carolina and some other 
States, you go to technical school almost free, get some skills 
and prepare yourself for the work force. Those States are going 
to eat our lunch, the rest of the country. But we need the 
whole country doing that, because if we don't, we're going to 
export the jobs, we're going to bring in immigrants to fill the 
technical jobs as we are in IT. This is what's happening in 
this country. I don't think people realize what's really 
happening.
    I talk to employers every month. In the areas where there's 
economic growth, the shortage is even greater. It's in my area 
where we have high unemployment. We've got to change our focus, 
in my view. But States like, Georgia is number one at skill. 
They're rated number one by the relocation magazine. North 
Carolina was second, and I was surprised, Michigan was third. 
But of the top 15 States, it's basically, I could give them all 
to you, but it was the Carolinas, Alabama, Georgia, Kentucky, 
Tennessee, Missouri, Kansas, Oklahoma, Texas, Wisconsin, 
Michigan, South Dakota and Illinois. Nobody in the northeast, 
nobody in the west.
    But most of those States are growing.
    Mr. Regula. Point's well made. We'll recess for 10 minutes 
or 15 until we get the vote.
    [Recess.]
    Mr. Regula. Well, I'm sorry to hold you up. But we had 
three votes, and that's the way it goes.

                          TECHNICAL EDUCATION

    It's interesting, this week's Newsweek, you probably have 
seen it, there is an article about companies of the future, 
using technology to get ahead in business. The office of 
tomorrow, and I didn't get a chance to read the story. But 
glitzy tech firms in Silicon Valley tend to get all the 
attention. But away from that spotlight, all sorts of 
companies, from a winery in Oregon to a car seat maker in 
Detroit, to a startup airline in New York, are using technology 
to push ahead in business, transform industries and change 
their lives.
    How appropriate to what we've been talking about today. And 
I think it's so true, we just had a company announce yesterday 
in my district that makes car seats that they're closing. So we 
have 450 people who will be looking for jobs and probably a lot 
of them will end up at the technical institute, since it's an 
avenue for them to break out from the situation they're in. I 
don't think we've probably focused enough at the national level 
on technical education.
    You heard Mr. Peterson talk about Georgia, which has 34 
technical institutes. Ohio doesn't begin to have that many. We 
have a good one in my district, but it's one of a few. What I'm 
impressed with is the numbers of enrollment. It started about 
25 years ago, it's up to 5,000, the placement rate is 
phenomenal. Because it's where the jobs are. And the beauty of 
it is that companies come to them and say, we need these kinds 
of employees, so they put in a technology to respond to the 
community needs.
    We have a lot of volunteer fire companies and they want to 
train their volunteers, as well as those that are paid, so they 
put in a tower and they train firemen. I could give you a whole 
host of examples. I think it's part of the future, and we need 
to take a better look at it at the Federal level. Because our 
role is to stimulate, our role is not to run these schools nor 
to be the foundation of the schools. Our role is to be seed 
corn, in some instances, to be incentivizers--I don't know if 
that's a word or not--but to encourage schools to be 
responsive. I think this is an area where we need to do work.
    I was interested, Mr. Pasternack, in your comments that 
more and more of the disabled are finding that they can go on 
in education and find a niche. That's terrific. We all want to 
be useful. We all want to feel that we have a role to play in 
society. If we can help in the education system, to help to 
give people that opportunity, we've done what we should be 
doing, to give people a chance, give them hope, give them an 
opportunity to be useful.
    I think the adult education, vocational-technical, does 
offer this kind of an opportunity. I'll be interested in 
reading your article, but I think probably the thrust of it is, 
probably that we're entering an age of technical development. 
We would be interested in suggestions from your departments on 
what we can do using the funds. I sort of think that policy 
follows money. I know you were on the authorizing committee and 
you can authorize but----
    Ms. Stroup. You've got to fund it.

                              FULL FUNDING

    Mr. Regula. You've got to fund it. In fact, H.R. 1 creates 
a little bit of a challenge for us, because the authorizing 
levels are somewhat higher than the amount of money that we 
have. It creates a bit of a disconnect. People say, why aren't 
you full funding? That's the magic word, full funding. We get 
into that with IDEA. Probably reaching 40 percent in one year 
is unrealistic. But on the other hand, we should be doing more, 
and we are, the president has requested a billion dollars more 
in IDEA this year.
    But people don't fully understand that these are two 
different functions, one to authorize and one to appropriate. 
And policy does ultimately follow the money.
    But I'd be interested, and I know you're on the team and 
therefore you support the Administration's budget as is. But we 
don't have to do that. And if you want to send me a couple of 
suggestions over the transom, I'll be interested. I just want 
to make the thing work. I just want to make the money we spend, 
and there's lots of it, serve the people out there in the best 
possible way. We can submit most of our questions for the 
record.

                                DROPOUTS

    One of the things that really concerns me is dropout rate. 
I might have mentioned this before, but the Gates Foundation 
and Ford and Knowledge Works are going to spend $35 million in 
Ohio. It will be, I think, the second State in which they do 
this, they announced it in my district. It will go to the State 
department and they in turn can fund applications for grants 
from the high schools that have the problems, to try to find 
ways to address the dropout rate. I went to a high school, a 
vocational school, and talked to these kids. I was dismayed by 
the sense of despair. These are a lot of minority kids, they 
said, well, we don't have a chance, I said, have you thought 
about going to the technical school, well, what's that. You 
talk about seamless, they should know about that.
    I've said to the technical president, you should be putting 
some courses in that school so that they get a taste of what 
you can do. Maybe we can develop some Federal incentives to do 
things like that. We've got to grab these kids before it's too 
late.
    I guess so much for my little sermon this morning. There 
are opportunities out there. I see Ms. Neuman is gone. Do any 
of you have any suggestions on how we can deal with the dropout 
rates? It's a terrible waste of human capital, 50 percent in 
Ohio.
    Ms. D'Amico. I think Susan was right about one thing, 
unfortunately some of these young people are making very 
rational decisions when they drop out, because they are so 
hopelessly behind in reading and math. I sincerely believe that 
once No Child Left Behind kicks in, that will help a lot. 
Because these kids won't be continuously passed through, get to 
the 10th grade and realize they cannot do the work, and the 
chances of their doing the work are pretty slim.
    If you've got a 9th grader who cannot read to the 9th grade 
level, it might take three or four years to bring that 9th 
grader up to that level. We just have to stop that. That's why 
the focus on reading, I believe, is so important.
    Mr. Regula. I agree with you completely. It's got to be 
frustrating to young people, somebody like myself sitting in a 
class that's being conducted in Spanish. You'd sit and lose 
interest. I used to tell groups of teachers, I spent seven 
years in public education, and when I'd speak to them, I'd say 
the lower the grade, the more they should get paid. Because 
that's where the kids are influenced. They have to learn their 
reading, their attitudes toward education are shaped by those 
early experiences with the teacher. You're right, we're often 
too late.
    Now, will these programs that we're putting in place get us 
over those barriers? I don't know. I hope so.
    Ms. D'Amico. They've got to.
    Mr. Regula. The military used to take these kids. I 
remember when I was practicing law, the juvenile judge would 
say, well, okay, if you'll go to the Army, we'll suspend your 
sentence or whatever it might be. Well, the Army won't take 
them now. So suddenly, who's going to deal with this problem? 
Not the military any more. Therefore, we have an additional 
responsibility in public education to somehow----
    Mr. Pasternack. And as you know, Mr. Chairman, if you don't 
have a high school diploma, you can't get in. That is something 
that we are very concerned about. I think one of the things 
that we are asking for is continued support for our research 
agenda. Because we've got to help people identify, in a very 
rigorous way, what works.
    The hearings that you've held, these are issues that start 
in early childhood and persist. It's about having highly 
qualified people with the right kinds of skills to be able to 
accommodate the diversity of kids that are in these classrooms. 
We know that these issues disproportionately affect kids of 
color. And we're very concerned about that.

                    TEACHER SHORTAGE IN INNER CITIES

    What you see in a lot of these schools that are in inner 
cities, as you were talking about in your district, for 
example, oftentimes you have the least qualified teachers, the 
youngest teachers, the least skilled teachers, teaching in 
those kinds of settings. As we told you during one of the 
earlier hearings, when we talked about personnel preparation, 
we had 12,000 openings. So we have a critical shortage of 
finding the right kinds of people to get into these classrooms.
    Mr. Regula. Some of our cities are going overseas to 
recruit. Because they have a very difficult time finding people 
that are willing to teach in the inner city. The teacher in 
this class that I mentioned, at a vocational school, she came 
here, was recruited to teach in the classroom she was in, in 
that school. Vocational rehabilitation, do you deal with that?
    Mr. Pasternack. Yes, sir, I do.

                    UNDER EMPLOYMENT OF THE DISABLED

    Mr. Regula. Is there pressure to close cases and sometimes 
get individuals in the low skilled jobs, just sort of like the 
judge, send to them to the military?
    Mr. Pasternack. Mr. Chairman, you ask an excellent 
question. There is a perception that there may be pressure to 
close cases. I think what you hear in terms of this order of 
selection, where we're asking States to serve those individuals 
with the most significant disabilities first, is that these are 
people who don't need short term services. These are people who 
need long term services and intensive services.
    One of the reasons why we're proud to support the 
Administration's request for additional funding, the $2.6 
billion that we're asking for under Title I of the VR program, 
is that in recognition of the fact that we've got to do a 
better job in terms of focusing more on results and better 
outcomes. I spoke earlier about the President's new freedom 
initiative, where he reported in his first month in office a 70 
percent unemployment rate for adults with disabilities. What's 
worse is that there's a 90 percent under-employment rate.
    So even in instances where we find jobs for individuals 
with disabilities, in many instances they're not working at 
jobs they're really capable of holding. The point you made 
earlier, if a plant in your community closes and you have 450 
people who don't have disabilities who are looking for work, it 
makes it that much harder to find people who are willing to 
provide meaningful work for adults with disabilities.
    We have a performance goals and indicators project that 
we're working on with the voc rehab system where we really are 
trying to establish at each State a data driven management so 
that we can see how they're doing with the case closures and 
get a better handle on the important question that you raise. 
Some of these adults really need a significant set of resources 
and supports in order to be able to find habilitation and 
training.
    The rehab model is interesting, because rehabilitation 
assumes that somebody had skills and then lost those skills. In 
many instances with the younger people that we've been talking 
about, they never had the skills in the first place. So for 
them, it's not about rehabilitation, it's about habilitation. 
It's an interesting semantic change but it really does talk 
about the difference in emphasis in those two groups of 
individuals.
    We're also seeing issues in traumatic brain injury with an 
increase in the numbers of adults who wind up needing voc rehab 
services because of having a traumatic brain injury. We saw a 
significant increase in demand, for example, in New York after 
the tragedy of 9/11, and worked with their State system to 
provide some additional resources to help them.
    These are people who in many instances, especially those 
with significant disabilities, need technology. It's not about 
needing a job in the technology sector, it's about needing 
assistive technology in order to be able to communicate, in 
order to be able to live independently. We've got significant 
problems with them having access to transportation. We've got 
significant problems with them having access to home ownership. 
Less than 10 percent of adults with disabilities in this 
country own their own homes.
    If they can't get jobs and they can't establish a credit 
rating, how do we go to banks and work with banks and say, why 
don't you lend these people money so that they can live in 
their own homes, for those individuals who want to live on 
their own. As you said, we ought to be encouraging people to 
participate fully in the American dream, and we ought to be 
able to set high standards for those people and help them meet 
those standards and have high expectations.
    Again, just to drive home the message in my mind and I know 
in yours, disability does not mean inability. We've got to just 
keep working with the public sector and the private sector to 
increase the employment rates for adults with disabilities.
    Mr. Regula. I have visited some of these facilities. Self-
respect, a feeling of self-worth, whatever your situation, is 
extremely important. I think probably our challenge is to try 
to give every individual a situation where they can feel a 
certain sense of self-worth. We're all people.

                       CHAIRMAN'S CLOSING REMARKS

    Well, I'm sorry to hold you up today. You're important 
people. There's a lot of folks all across this country 
depending on you for a lot of reasons we've discussed this 
morning. We want to use our resources here in the best possible 
way. I'd be happy to meet with you one on one, if we have an 
opportunity, just to see how we can best do this.I know the 
President wants to accomplish these same goals. He really feels that we 
should Leave No Child Behind. That's an enormous, enormous challenge. 
You've all been in education, so you know, to meet that kind of a 
challenge is a huge task. Nevertheless, we should do the best we can to 
meet it.
    Well, thanks again for coming. The subcommittee is 
adjourned.
    [The following questions were submitted to be answered for 
the record:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                           W I T N E S S E S

                              ----------                              
                                                                   Page
Carroll, T.G.....................................................   435
D'Amico, Carol...................................................   463
Ferrier, M. H....................................................   323
Finch, Lew.......................................................   435
Hansen, William..................................................     1
Hickok, E. W.....................................................   123
Horn, W. F.......................................................   203
Johnson, L. J....................................................   435
Neuman, S. B.........................................123, 203, 323, 463
Paige, Rod.......................................................     1
Pasternack, R. H..........................................203, 323, 463
Reeder, Aubrilyn.................................................   435
Skelly, T. P................................................1, 323, 463
Stroup, Sally..................................................323, 463
Whitehurst, G. J..........................................203, 323, 463


                               I N D E X

                              ----------                              

                         Secretary of Education

                                                                   Page
2003 Budget (also see individual programs)
2003 Budget..........2-9, 14, 24, 40, 45, 51, 58-59, 66, 70, 73, 80-81,
 85-86, 96-98, 105-110, 112
21st Century Community Learning Centers.....................7, 112, 115
A Nation At Risk Report..........................................    38
Academic Achievement (see Student Achievement)
Accountability............19, 57, 64, 66, 68, 69, 101, 103-05, 114, 120
Administration for Children and Families (ACF)...................    95
Adult Education...........................................47, 49-51, 65
Advanced Placement Program.......................................    87
America's Schools Conferences....................................    89
Annual Performance Plan..........................................    67
Bilingual Education.................................25, 69, 75, 76, 114
Block Grant Programs.............................................   101
Budget and Test Development Costs......................24, 83, 115, 126
Budget Response to Events of September 11, 2001.................40, 116
California's New Teach Project...................................    55
Career Academies.................................................    90
Census Data......................................................    17
Center for the Study of Learning, George Washington University...    97
Centers For International Business Education (CIBE)..............    85
Chairman Regula Opening Remarks..................................     1
Charter Schools.....................................26, 29, 98-100, 103
Civics Education....................................45, 81, 82, 83, 111
Class Size Reduction Program (see also School Size)..............78-80,
 87-89, 98, 99, 111, 117, 119
Collective Bargaining Agreement..................................70, 71
College Graduation Rates................................59, 74, 78, 121
Colleges of Education.........................................44, 56-58
Continuous Improvement Monitoring Process........................63, 64
Corporation for National and Community Service...................   117
Cost of Meeting New Teacher Qualification Requirements...........77, 81
Cost to Implement No Child Left Behind Act...................15, 16, 45
Curriculum..................................56, 81, 82, 85, 93, 95, 121
Curriculum (see also Reading, Math, Science, Foreign Language/
  Area Studies, Testing)
Department Financial Audit..................................67, 68, 106
Departmental Management.........9, 26, 27, 32, 59, 67, 68, 71, 84, 100,
 104-06, 114
Discretionary Funds............................28, 73, 107-09, 113, 115
Dissemination (see also Research).....61, 84, 85, 97, 99, 100, 114, 120
Dropout Prevention and Rates................72, 87, 88, 91, 93, 94, 111
Early Childhood Education/Development................35-37, 69, 95, 103
Early Reading First (see also Reading Initiatives)...........64, 98, 99
EDCAPS Financial Management System...............................   105
Education Statistics.....................................65, 75, 94, 97
Educational Technology State Grants....79-81, 87, 88, 98, 99, 110, 111,
 119
Eisenhower Professional Development Program.............77, 78, 87, 112
Elementary & Secondary Education Act (see also Title I).........58, 72,
 76, 113-117, 120, 121
Emergency Response Plans.......................................114, 124
Emotional and Social Development of Children.....................    37
English Language Acquisition Program....................69, 98, 99, 113
Enrollment in Postsecondary Education...................58, 59, 72, 116
ESEA (see Elementary and Secondary Education Act)
Evaluation...................57, 62, 65, 66, 75, 82, 85, 90-95, 97-102,
 113, 115, 118, 121
Even Start......................................37, 49-51, 98, 100, 110
Family Literacy..................................................50, 95
Federal Expenditures........2-9, 11-16, 28, 36, 41, 59, 62, 63, 69, 72,
 76, 84, 94, 95, 116, 117
Federal Role versus Local Responsibility..........................2, 42
Financial Management Systems................................67, 68, 105
Flexibility..........7, 53, 56, 69, 76-79, 81, 87, 88, 114, 117-19, 122
Foreign Language and Area Studies (FLAS) (see International 
  Education Programs)
Fulbright-Hays Centers and Programs..............................    85
Full Service Schools--Judy Centers...............................    39
Fund for the Improvement of Education (FIE)........81, 96, 98, 102, 110
Gaining Early Awareness & Readiness For Undergraduate Programs 
  (Gear Up)......................................................   121
Graduate Assistance in Areas of National Need (GAANN)........85, 86, 92
Head Start Program--Departmental Administration..................30, 31
High School Initiatives.....................................86, 93, 101
High School Size: Effects on Budgets and Performance in New York 
  City..........................................................97, 100
Higher Education Act (HEA) Reauthorization.......................    78
Highly Qualified Teachers (see also Teacher Quality/Training)....53-56,
 75-78, 81, 117
Highly Qualified Teachers (see also Title I, ESEA, Section 1119)
Historically Black Colleges and Universities (HBCUs).............34, 35
Historically Black Graduate Institutions (HBGIs).................34, 35
IDEA, Part B State Grants (see also Individ. w/Disabilities 
  Education Act)...........................................76, 117, 119
Improving Colleges and Education..................................56-58
Improving Teacher Quality State Grants (see Teacher Quality State 
  Grants)
Individuals with Disabilities Education Act (IDEA).......5, 63, 64, 76,
 96, 116, 117, 119, 120
Innovative Education State Grants...........................98, 99, 101
Inspector General..........................................67, 105, 106
Intergovernmental and Interagency Affairs......................106, 107
International Comparisons of Achievement.........................18, 29
International Education Programs.........................46, 83-86, 111
Jackson State University Cooperative Agreement..................49, 104
Language Resource Centers (LRCs).................................84, 85
Limited English Proficient (LEP) Students..................69, 113, 114
Loan Forgiveness Program................................29, 53, 54, 118
Mandatory Spending.......................................28, 63, 79, 96
Math..6, 11, 12, 54, 61, 62, 72, 75-7, 82, 83, 92-94, 97, 112, 117, 121
Maximum Funds Allowable for National Activities, for certain 
  Program Statutes...............................................    99
Model Teacher Mentoring Programs..............................53-55, 57
Monitoring.......................................54, 58, 59, 63, 64, 73
National Activities Funding..................................90, 98, 99
National Assessment Governing Board (NAGB).......................82, 83
National Assessment of Educational Progress (NAEP).......12, 13, 82, 83
National Board for Professional Teaching Standards...............    39
National Center for Education Statistics.........................75, 94
National Center on Educational Outcomes, University of Minnesota.   120
National Clearinghouse on Comprehensive School Reform............89, 97
National Institute of Child Health and Human Development (NICHD).    95
National Institute of Mental Health..............................    95
National Resource Centers (NRC)..................................84, 85
National Science Foundation (NSF)...............62, 72, 75, 85, 86, 117
No Child Left Behind Act.....1-2, 4-9, 14-16, 66-69, 71, 77-83, 87, 96,
 101, 105-7, 116-18
Office of Educational Research and Improvement (OERI).....60-62, 94-95,
 118
Office of Intergovernmental and Interagency Affairs..............106-07
Oracle Federal Financials System (see also Department Financial 
  Audit)..........................................................67-68
Paraprofessional Teachers...................................48, 77, 101
Parental Involvement...............................6, 71, 111, 114, 115
Pell Grant Program...........................30, 33, 58, 59, 72-74, 121
Performance-Based Data Management Initiative....................67, 105
Physical Education and Obesity Rate for Children.................31, 32
Postsecondary Education...............................8, 59, 72-74, 121
President's Commission on Excellence in Special Education........38, 96
President's Management Agenda...................................84, 105
Professional Development........41, 43, 58, 64, 68, 69, 76, 78-81, 103,
 117, 120
Program Administration (see also Departmental Management).......105-07,
 115, 116
Reading Initiatives.............61-65, 71, 76, 83, 93, 94, 98-100, 103,
 104, 113, 121
Reductions and Terminations Proposed in the FY 2003 Budget......109-112
Rehabilitative Services.........................................65, 110
Requirement Waivers and Compliance Agreements...................87, 122
Research...............53-56, 60-66, 75, 76, 79-81, 84, 87, 88, 90-101,
 112, 113, 115, 118, 120
Safe and Drug-Free Schools.....23, 79-81, 87, 88, 98-102, 110, 114, 119
Salaries and Benefits (see Program Administration)
School Choice....................................................   100
School Construction..............................................    47
School Leadership..................................41, 80, 85, 118, 129
School Reform................................81, 87, 89, 93, 94, 96-98
School Size..........................................87-93, 98, 99, 111
Science.....11, 12, 54, 56-58, 61, 72, 75, 76, 77, 82, 94, 97, 112, 117
Secretary Roderick R. Paige: Statement and Biographical Sketch..1, 4-10
Senior Executive Service (SES) Positions.........................   107
Smaller Learning Communities Program.............88-90, 93, 98, 99, 111
Special Education Teachers..................................54, 75, 120
Special Education.........33, 37, 38, 42, 54, 63-65, 74-76, 93, 95, 96,
 116, 119, 120
State and Local Transferability Authority................79, 80, 87, 88
State Grants for Innovative Programs............53, 80, 81, 87, 88, 119
State Standards and Assessments.......................46, 114, 115, 120
States Expenditures..............................................14, 63
Strategic Plan............................ 60, 74, 83, 84, 94, 101, 102
Student Achievement.............. 53, 55, 66-72, 76, 79, 81, 86, 90-95,
 100, 102-05, 112, 114, 116-18
Student Financial Aid (see also Pell Grant Program)... 65, 67, 74, 105,
 106
Studies on School Size (see also Class Size Reduction Program)...90-93,
 98, 99, 100
Targeted Grants.............................................. 3, 68, 87
Tax Credits......................................................    21
Teach for America.............................................. 53, 117
Teacher and Professional Development.............. 53-58, 76-82, 84, 86
Teacher Pay.................................................. 42-44, 79
Teacher Quality Enhancement Program........................ 53, 57, 188
Teacher Quality State Grants........ 40, 53, 56, 58, 69, 70, 76, 77-81,
 87, 98, 99, 117-19
Teacher Quality/Training........ 20, 21, 39-41, 43, 44, 45, 48, 53, 57,
 76-78, 101, 102, 116-18
Teacher Shortages/Recruitment (see also Colleges of Education)..... 54,
 74, 75, 117, 118
Teachers for Non-English Speakers.................................   43
Technology (see Ed. Tech. St. Grants........... 23, 24, 69, 71, 75, 80,
 101, 102, 105, 110-12, 119
Tennessee Project Star...........................................    79
Testing...... 15, 19, 20, 24, 54, 71, 82-84, 87, 89, 92, 103, 104, 115,
 120-22
Title I, ESEA Section 1119 Requirements (see also ``Highly 
  Qualified'' Teachers)......................................... 77, 78
Title I, ESEA.......17, 18, 22, 23, 33, 34, 65-69, 71-72, 76-78, 87-88,
 96, 99-101, 116, 117, 121
Transition to Teaching...................................... 53-56, 118
Travel Budget............................................. 89, 105, 106
TRIO Programs...................................... 34, 35, 99-101, 121
Troops-To-Teachers......................................... 53, 54, 118
Union Activities................................................ 70, 71
Unsolicited Grants Funded in FY 2001............................ 102-04
Upward Bound.................................................... 99-101
Vocational Education.............................................    65
Vocational Rehabilitation........................................ 7, 65
Waivers and Compliance Agreements (see also Title I, ESEA).......   122
We the People Curriculum (see also Civics Education).............    82
What Works Clearinghouse........................... 56, 60, 61, 97, 118
White House Summit on Early Childhood Cognitive Development......    95

                 Implementation of No Child Left Behind

2003 Budget Request...................................... 149, 150, 153
21st Century Community Learning Centers:
    21st Century Community Learning Centers Accountability.......   193
    21st Century Community Learning Centers......................   189
    Continuation of Centers......................................   191
    Evaluation of 21st Century Community Learning Centers........   190
    Guidance on 21st Century Program.............................   191
Accountability...................................................   144
Adequate Yearly Progress
    Adequate Yearly Progress.................................. 176, 184
    Comparison of AYP in 1994 and 2002 Laws......................   180
    Guidance on Adequate Yearly Progress.........................   181
    States and Adequate Yearly Progress (AYP)....................   180
Assessment:
    Alignment Assessments........................................   154
    Assessment of At-Risk and Highly Mobile Students.............   172
    Assessment of Limited English Proficient Students............   173
    Assessment Requirements......................................   164
    Cost of New Assessment Requirements..........................   165
    Different Assessment Systems.................................   154
    ``Dumbing Down'' Assessments.................................   171
    Flexibility for State Assessments............................   171
    Further Waivers of 1994 Assessment Requirements..............   170
    State Compliance with Assessment Requirements................   167
    Status of State Compliance with 1994 ESEA Assessment 
      Requirements...............................................   169
Biographical Sketch of Under Secretary Hickok....................   131
Budget Request and Professional Development......................   152
Challenges in Education....................................... 143, 157
Charter Schools:
    Charter Schools..............................................   144
    Research on Charter Schools..................................   199
Colleges of Education............................................   145
Coordinator Program..............................................   195
Costs:
    Costs of Disaggregating Data.................................   170
    Costs of Full Compliance with 1994 ESEA......................   170
    Costs of Improving Failing Schools...........................   181
Dropout Rates and Test Scores....................................   172
Education Inputs Vs. Outcomes....................................   155
Faith-Based Organizations and Community Learning Centers.........   192
Federal Investment in Education..................................   139
Funding for Choice and Supplemental Services.....................   184
Funds for New Teacher Requirements...............................   201
Growth in Number of LEP Students.................................   173
Implementation:
    Implementation Challenges....................................   163
    Implementation Process.......................................   161
Introduction of Witnesses........................................   123
Investment:
    Investment in Education................................... 134, 149
    Investment in No Child Left Behind........................ 135, 148
    Investment in Teacher Quality................................   137
Kentucky's Testing System........................................   134
Mathematics and Science Partnerships.............................   197
Mentoring Programs...............................................   197
No Child Left Behind:
    Final Regulations............................................   161
    No Child Left Behind Act.....................................   132
    No Child Left Behind Implementation..........................   158
    Program Evaluation...........................................   166
    Request to the Secretary for No Child Left Behind Programs...   153
    Results of NCLB Act Reforms..................................   167
Non-Discrimination Requirements............................... 182, 193
Opening Statement................................................   124
Professional Certification of Teachers...........................   157
Reading:
    Reading Debate...............................................   142
    Reading First............................................. 141, 142
    Research-Based Reading Programs..............................   163
Safe and Drug-Free Schools:
    Emergency Response Plans.....................................   196
    Project SERV Funding.........................................   196
    Safe and Drug-Free Schools...................................   195
Safe School/Healthy Students Initiative..........................   194
School Counselors Program........................................   199
School Improvement Fund..........................................   179
School Leadership................................................   145
School Renovation................................................   193
School Safety....................................................   200
Spending Vs. Results.............................................   156
State Accountability:
    State Accountability.........................................   132
    State and Local Accountability...............................   151
State and Local Investment in Teachers...........................   138
State and Local Report Cards.....................................   187
State Participation in NAEP......................................   175
Supplemental Services Providers............................... 182, 183
Teacher:
    Teacher Preparation Programs.............................. 146, 147
    Teacher Salaries.............................................   136
    Teacher Satisfaction.........................................   138
Title I:
    Request for Title I Targeted Grants..........................   186
    Data for Title I Allocation Formulas.........................   185
    Data on Schools and Students Participating in Title I........   187
    Districts Receiving Small Title I Allocations................   179
    Effect of Increases in Title I Funds.........................   178
    Guidance on Title II Requirements............................   181
    Guidance on Title I Supplemental Education Services..........   165
    Title I Funding..............................................   147
    Title I Funds for High-Poverty Schools.......................   179
    Title I Funds to Schools.....................................   177
    Title I Negotiated Rulemaking................................   175
    Title I Per-Child Allocation.................................   178
    Title I School Improvement and Corrective Action.............   184
    Title I Supplemental Services................................   183
    Transportation and Title I Funds.............................   184
Witnesses........................................................   123

                        Foundations for Learning

Adults Served by Even Start and Head Start.......................   278
Applying the Lessons of Research in the Classroom................   223
Biographical Sketches:
    Grover J. (Russ) Whitehurst..................................   226
    Robert H. Pasternack.........................................   216
    Susan B. Neuman..............................................   209
California's Title I And IDEA Problems...........................   245
Child Care and Development Fund (CCDF)...........................   297
Comparisons of Head Start, Even Start and Other Preschool 
  Programs.......................................................   304
Coordinating Mental Health Services..............................   267
Coordination of Early Childhood Programs and Services......... 262, 282
Cost of Early Education Programs.................................   276
Department of Education Management Reforms.......................   246
Early Childhood:
    Longitudinal Study (ECLS-K).................................27, 231
    Education Experts............................................   291
    Education Research Initiative............................. 291, 319
    Educator Academies...........................................   290
    Initiatives..................................................   227
    Special Education Funding....................................   292
Early Head Start.............................................. 231, 254
Early Identification of Children with Disabilities....... 210, 262, 272
Early Intervention for Children with Disabilities............. 210, 265
Early Learning Fund (ELOA).......................................   305
Early Reading First...................................... 206, 275, 289
Educational Needs of Young Children..............................   263
Emotional, Social and Behavior Development Issues............. 249, 264
English Language Acquisition...................................218, 223
Ensuring that all Children Learn to Read Well....................   205
Evaluations:
    Even Start................................................ 271, 280
    Reading First................................................   289
    Early Childhood Programs.....................................   277
Even Start:
    Evaluations And Program Improvement....................... 271, 281
    Program......................................... 261, 279, 295, 311
Family and Child Experience Survey (FACES)..... 227, 231, 252, 306, 318
Good Start, Grow Smart Initiative.............. 239, 251, 303, 312, 321
Grants for Early Intervention Related to Mental Health...........   214
Head Start:
    New Accountability Efforts...................................   237
    Program................................ 227, 242, 251, 291, 297-322
    Staffing.....................................................   307
Helping Today's Young Children Learn.............................   273
IDEA Funding.....................................................   250
Improving Child Care and Head Start Services.....................   234
Information for Parents Regarding Positive Learning Environments.   270
Initiatives to Help Preschool Children with Disabilities.........   294
Introduction of Witnesses........................................   203
Longitudinal Study of Title I-Funded Preschool Services..........   285
Opening Statements:
    Grover J. (Russ) Whitehurst..................................   217
    Robert H. Pasternack.........................................   210
Sussan B. Neuman.................................................   203
Wade F. Horn.....................................................   227
Outcomes of Federal Early Childhood Programs.....................   274
Prepared Statements:
    Grover J. (Russ) Whitehurst..................................   220
    Robert H. Pasternack.........................................   212
    Susan B. Neuman..............................................   205
    Wade F. Horn.................................................   229
Preparing Children to Learn......................................   221
Preparing New Teachers...........................................   269
Preschool Curriculum Evaluation Research.........................   217
Program Approaches to Building Pre-Reading Skills................   276
Programs that Address Early Childhood Issues Within OSERS........   214
Programs that Provide Foundations for Learning...................   207
Project STEP.................................................. 227, 235
Reading Comprehension Research Initiative........................   218
Reading First....................................... 287, 288, 289, 311
Reading Programs and Textbook Publishers.........................   243
Reading To Learn.................................................   222
Red Schoolhouses.................................................   292
Research:
    Early Intervention...........................................   212
    Even Start...................................................   278
    Foundations of Learning......................................   224
Role of Parents..................................................   269
Shared Book Reading..............................................   277
Social, Emotional, and Cognitive Development of Children...... 247, 248
Special Education................................................   293
State Flexibility and Reading First Requirements.................   287
Summary of Family Literacy Evaluation Studies....................   283
Supporting Parents with Low Literacy Skills......................   271
Sustaining Early Learning........................................   274
Teacher Education and Early Childhood Programs...................   244
Testimony of Edward Zigler, Ph.D. on Reading and Head Start......   253
Title I Preschool Services................................285, 286, 295
Transforming Educational Practice................................   224
What Works:
    Clearinghouse and Guides.................................. 218, 244
    In Preschool.................................................   221

           Teacher Recruitment, Preparation, and Development

Accountability for Teacher Preparation Programs..... 326, 331, 399, 418
Accreditation of Teacher Colleges................................   413
Administrative Burdens on Teachers.............................361, 393
Administrator Certification Models and Standards.................   363
Attrition in the Teacher Pipeline................................   412
Biographical Sketches:
    Maria Hernandez Ferrier......................................   360
    Susan B. Neuman..............................................   339
    Robert H. Pasternack.........................................   356
    Sally L. Stroup..............................................   332
    Grover J. Whitehurst.........................................   348
Budget for ESL Professional Development....................... 359, 407
Budget for Teacher-Related Programs........... 325, 328, 333, 336, 343,
 357, 375, 401, 422
Chairman's Concluding Remarks....................................   379
Challenges............................................... 324, 327, 336
Characteristics of Effective Teachers............... 340, 344, 365, 382
Cincinnati Teach Compensation Project......................... 345, 367
Class Size Reduction Funding.................................. 430, 432
Education School Curriculum and Reputation.......................   364
Encouraging the Best and Brightest to Enter Teaching.............   410
Federal Student Aid and Loan Forgiveness, Role of............. 325, 330
Flexibility to Hire High-Quality Teachers........................   398
Focus on Outcomes of Teaching....................................   395
Fund for the Improvement of Education (FIE) Teacher Quality 
  Initiatives....................................................   419
Helping Teachers and Colleges of Education Use Research..........   387
Historically Black Colleges and Universities.....................   430
Improving Teacher Quality State Grant Program...... 333, 336, 401, 410,
 412, 422, 431
Insufficient Funds for Education.............................. 370, 373
Introduction of Witnesses........................................   323
Limited English Proficient Students..............................   358
Loan Forgiveness:
    Expanding Loan Forgiveness...................................   404
    Number of Loan Forgiveness Awards............................   405
    Role of Federal Student Aid and Loan Forgiveness.......... 325, 330
Math and Science Partnership Program..................... 334, 337, 407
Math and Science Teachers........................................   408
Measuring Teacher Effectiveness..................................   367
Measuring the Effectiveness of Teacher Training Programs.........   393
Models of Successful Programs....................................   371
National Board for Professional Teacher Standards (NBPTS) (see 
  also Teacher Certification):
    NBPTS Certification as a Measure of Teacher Ability..........   368
    NBPTS Certification Process..................................   390
    Results of NBPTS Certification...............................   391
Need for Qualified Teachers.........................323, 333, 335, 341,
 345, 351, 357, 372, 381, 387
NICHD Pilot Study of Reading Instruction In D.C. Schools.........   385
Opening Remarks:
    Maria Hernandez Ferrier......................................   357
    Susan B. Neuman..............................................   333
    Robert H. Pasternack.........................................   349
    Sally L. Stroup..............................................   324
    Grover J. Whitehurst.........................................   340
Pathways to Teacher Program......................................   384
PRAXIS Exam....................................................365, 396
Prepared Statements:
    Maria Hernandez Ferrier......................................   358
    Susan B. Neuman..............................................   335
    Robert H. Pasternack.........................................   351
    Sally L. Stroup..............................................   327
    Grover J. Whitehurst.........................................   343
Profession of Teaching:..........................................   366
Recent Immigrant Students........................................   406
Regular Education Teachers Working with Children with 
  Disabilities...................................................   405
Research Related to Teaching:
    Budget Request for OERI......................................   343
    Helping Teachers and Colleges of Education Use Research......   387
    New Research Initiatives...................................341, 346
    Translating Research into Practice....................346, 386, 394
Retaining New Teachers...........................................   412
School Leadership Program Funding.........................390, 420, 424
Schools of Education Adopting Public Schools.....................   368
Shortages of Bilingual and ESL Teachers........................357, 406
Shortages of Special Education Personnel..................349, 351, 387
Special Education:
    Funding to Help States Meet Personnel Needs................354, 389
    High Turnover in Special Education Personnel..........350, 352, 387
    Regular Education Teachers Working with Disabilities.........   405
    Shortages of Special Education Personnel..............349, 351, 387
    Special Education Personnel...........................352, 387, 426
    Special Education Professional Preparation Program....352, 402, 427
    Training Teachers of Children with Disabilities............349, 392
State Policies on Tenure, Compensation, and Certification........   361
Targeted Professional Development................................   363
Teacher Certification (see also NBPTS):
    Alternative Certification Routes...........................378, 398
    Models and Standards.........................................   362
    Pathways to Teaching Program.................................   384
    State Policies on Tenure, Compensation, and Certification....   361
    Teachers Not Certified or Teaching Out of Field..............   399
    Transition to Teaching Program........................333, 337, 411
    Troops-To-Teachers and Teach For America..............333, 337, 383
Teacher Preparation and Support..................................   327
Teacher Qualification Requirements in the No Child Left Behind 
  Act of 2001:
    Budget for Teacher Qualification Requirements................   429
    Cost of New Teacher Qualification Requirements........377, 400, 429
    Meeting the New Teacher Qualification Requirements...........   377
    New Teacher Qualification Requirements................333, 335, 402
    Requirements for Vocational Education Teachers...............   430
    Teacher and Paraprofessional Qualifications..................   428
    Training Highly Qualified Teachers...........................   415
Teacher Quality Enhancement (TQE) Program:
    Applicants and Recipients of TQE State Grants................   416
    Distribution of TQE Program Funds............................   414
    Funding for the TQE Program......................324, 327, 413, 425
    Override of Statutory Restriction on TQE Grants..............   418
Teacher Recruitment and Retention.........................330, 412, 423
Teacher Recruitment and Retention Hearing--Public Witnesses......   435
    Thomas G. Carroll, Executive Director, National Commission on 
      Teaching and Learning......................................   446
    Lew Finch, Superintendent, Cedar Rapids Community School 
      District, Iowa.............................................   449
    Lawrence J. Johnson, Dean of the University of Cincinnati 
      College of Education.......................................   435
    Aubrilin Reeder, Teacher, East Los Angeles School District, 
      California.................................................   440
Teacher Salaries...............................................389, 425
Teachers and Student Achievement.................................   382
Teachers of Limited English Proficient Students................357, 359
Teaching as a Specialized Enterprise.............................   341
Teaching Diverse Populations.....................................   391
Transition of Teaching Program............................333, 337, 411
Translating Research into Practice........................346, 386, 393
Troops-To-Teachers and Teach For America..................333, 337, 383

             High Schools and Transition into the Workforce

Accountability:
    Accountability and Impact of Vocational and Adult Education..   571
    Accountability Challenges....................................   513
    Accountability for Children with Disabilities................   514
    Assessment and Accountability................................   514
    Flexibility and Accountability...............................   510
    Promoting Accountability.....................................   471
Adult Education and Family Literacy..................470, 551, 598, 599
Adult Educational Needs..........................................   500
Adults with Disabilities.........................................   485
Aligning Education and Employment................................   521
Alternative to Traditional 4-Year Schools........................   573
Assistive Technology Act of 1998.................................   577
Beyond High School...............................................   500
Biographical Sketchs:
    Assistant Secretary Carol D'Amico............................   473
    Assistant Secretary Susan Neuman.............................   509
    Assistant Secretary Robert Pasternack........................   492
    Assistant Secretary Sally Stroup.............................   483
    Assistant Secretary Grover (Russ) Whitehurst.................   502
Chairman's Opening and Closing Remarks.........................463, 533
Choice for Children with Disabilities............................   519
College Access.................................................474, 479
College Costs....................................................   602
College Enrollment Rates and Completion Gaps...................474, 597
College Preparation..............................................   478
Community Colleges and Continuing Education......................   575
Comparisons with Other Countries.................................   498
Data Management..................................................   514
Dropouts.......................................................531, 582
    Connecting Dropouts with Jobs................................   574
    Decreasing Postsecondary Dropout Rate........................   541
    Dropouts in Big Cities.......................................   493
    High School Dropout Rates....................................   588
    Johns Hopkins Study of High School Dropouts..................   583
Dual Enrollment Pilot Programs...................................   537
Early Emphasis on Academics......................................   521
Education and Employment.........................................   517
Education Reform and Technical Education.........................   539
Educational Attainment...........................................   601
Emerging Role of Postsecondary Education Institutions............   468
Full Funding.....................................................   530
GEAR UP Technical Amendments.....................................   525
GED Recipients and Postsecondary Schooling.......................   539
HBCU Funding...................................................527, 528
Higher Education Act Technical Amendments........................   526
Higher Education Programs, FY 2003 Budget........................   526
High Growth Occupations..........................................   552
High School:
    Achievement..................................................   493
    Completion Rates.............................................   495
    Coursework...................................................   494
    Excellence.................................................464, 468
    Funds for High Schools and Technical Institutions............   512
    Graduation.................................................484, 594
    Research on High School Reform...............................   495
    Smaller High Schools.......................................543, 544
    State High School Exit Exams.................................   586
    Student Achievement in High School...........................   497
    Summit on High School Reform.................................   584
    Transforming High School into Instruments of Achievement.....   499
Identifying Workforce Needs......................................   552
Improving the Academic Achievement of Disadvantaged Students.....   506
Improving the Quality of Instruction.............................   507
Increased Flexibility............................................   508
International Education........................................476, 603
Math and Science Education in Middle and High School.............   499
Model College Readiness and Career Development Programs..........   547
Need for ``Seamless'' Education Systems..........................   511
New Skills Education Credential..................................   575
Office of Disability Employment Policy...........................   570
Opening Remarks:
    Assistant Secretary Carol D'Amico............................   463
    Assistant Secretary Susan Neuman.............................   503
    Assistant Secretary Robert Pasternack........................   484
    Assistant Secretary Sally Stroup.............................   474
    Assistant Secretary Grover (Russ) Whitehurst.................   493
Pell Grants..........................................475, 599, 600, 605
Percentage of High School Graduates Entering College.............   579
Prepared Statements:
    Assistant Secretary Carol D'Amico............................   467
    Assistant Secretary Susan Neuman.............................   505
    Assistant Secretary Robert Pasternack........................   487
    Assistant Secretary Sally Stroup.............................   478
    Assistant Secretary Grover (Russ) Whitehurst.................   497
Percentage of Students Attending Large High Schools..............   579
Projects with Industry..........................562, 564, 565, 567, 568
Reading Comprehension Initiative.................................   495
Relevant Education...............................................   511
Research and Statistics..........................................   493
Role of Community Colleges.......................................   464
Safe and Drug-Free Learning Environments.........................   507
School-to-Work...................................................   590
Skills for the New Economy.......................................   518
Skills Necessary for Technical Jobs..............................   520
Smaller Learning Communities..............................580, 581, 604
Special Education:
    National Activities........................................485, 489
    Personnel....................................................   484
    Results for Students with Disabilities.......................   487
Special Education and Demand for VR Services.....................   562
Special Education and Voc. Rehab. State Grant Programs...........   488
Study on Promoting School Connectedness..........................   579
Supporting Institutions that Serve Disadvantaged Students........   480
Teacher Shortage in Inner Cities.................................   532
Technical Education..............................................   529
    Need for Technical Education.................................   518
    State Technical Education Systems............................   529
    Technical Schools and Community Colleges.....................   535
    Tech-Prep Program............................................   542
    Training for High-Skill Jobs.................................   519
Ticket to Work Program...........................................   569
Top 25 Fastest Growing Occupations, 2002-2010 National 
  Projections....................................................   523
Top 25 Fastest Growing Occupations, 2002-2010 Pennsylvania 
  Projections....................................................   524
Tracking Student Progress........................................   515
Transition from High School to Higher Education..................   538
Transition to the Workforce.....................465, 545, 546, 574, 589
TRIO and GEAR UP...............................................474, 526
TRIO Programs Evaluation.........................................   576
Under Employment of the Disabled.................................   532
Unmet Financial Need...........................................600, 602
Vocational and Adult Education Evaluations.......................   572
Vocational and Adult Education Incentive Grants................590, 592
Vocational Education......................................469, 536, 593
Vocational Rehabilitation:
    Consolidation of Vocational Rehabilitation Funds.............   559
    Cost of Living Increase......................................   561
    Individuals Served in the VR System..........................   556
    Program Order of Selection...................................   568
    Research on the Effectiveness of the Vocational 
      Rehabilitation System......................................   548
    State Vocational Rehabilitation Agencies.....................   553
Witnesses........................................................   463
Workforce Supply Versus Demand...................................   528

          Department of Education Congressional Justifications

Education for the Disadvantaged..................................   610
Impact Aid.......................................................   685
School Improvement Programs......................................   720
Indian Education.................................................   863
English Language Acquisition.....................................   881
Special Education................................................   900
Rehabilitation Services and Disability Research..................   979
American Printing House for the Blind............................  1086
National Technical Institute for the Deaf........................  1098
Gallaudet University.............................................  1115
Vocational and Adult Education...................................  1131
Student Financial Assistance.....................................  1188
Student Loans Overview...........................................  1236
Federal Family Education Loan Program Account....................  1255
Higher Education.................................................  1263
Howard University................................................  1360
College Housing and Academic Facilities Loans Program Account....  1372
Historically Black College and University Capital Financing 
  Program Account................................................  1383
Education Research, Statistics, and Assessment...................  1394
Salaries and Expenses Overview...................................  1444
Program Administration...........................................  1470
Office for Civil Rights..........................................  1491
Office of the Inspector General..................................  1515
Student Aid Administration.......................................  1534

                                <greek-d>


</pre></body></html>
